<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                                                      ?

        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
                    SUBCOMMITTEE ON HOMELAND SECURITY
                 DAVID E. PRICE, North Carolina Chairman
 JOSE E. SERRANO, New York          HAROLD ROGERS, Kentucky
 CIRO RODRIGUEZ, Texas              JOHN R. CARTER, Texas
 C.A. ``DUTCH'' RUPPERSBERGER,      JOHN ABNEY CULBERSON, Texas
Maryland                            MARK STEVEN KIRK, Illinois
 ALAN B. MOLLOHAN, West Virginia    KEN CALVERT, California    
 NITA M. LOWEY, New York            
 LUCILLE ROYBAL-ALLARD, California  
 SAM FARR, California               
 STEVEN R. ROTHMAN, New Jersey      
                                    
 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             Stephanie Gupta, Jeff Ashford, Shalanda Young,
                Jim Holm, Will Painter, and Adam Wilson,
                            Staff Assistants
                                ________
                                 PART 4
                     DEPARTMENT OF HOMELAND SECURITY
                                                                   Page
  Disaster Response: Is FEMA up to the Challenge?.................    1
 Interoperable Communications.....................................  277
 Secret Service Protective Missions and Inaugural Security........  431
 Cargo and Container Security Keeping a lid on Threats............  595
 U.S. Coast Guard: Measuring Mission Needs........................  769

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
    PART 4--DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2010
                                                                      ?

        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION
                                ________
                    SUBCOMMITTEE ON HOMELAND SECURITY
                 DAVID E. PRICE, North Carolina Chairman
 JOSE E. SERRANO, New York          HAROLD ROGERS, Kentucky
 CIRO RODRIGUEZ, Texas              JOHN R. CARTER, Texas
 C.A. ``DUTCH'' RUPPERSBERGER,      JOHN ABNEY CULBERSON, Texas
Maryland                            MARK STEVEN KIRK, Illinois
 ALAN B. MOLLOHAN, West Virginia    KEN CALVERT, California     
 NITA M. LOWEY, New York            
 LUCILLE ROYBAL-ALLARD, California  
 SAM FARR, California               
 STEVEN R. ROTHMAN, New Jersey      

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             Stephanie Gupta, Jeff Ashford, Shalanda Young,
                Jim Holm, Will Painter, and Adam Wilson,
                            Staff Assistants
                                ________
                                 PART 4
                     DEPARTMENT OF HOMELAND SECURITY
                                                                   Page
  Disaster Response: Is FEMA up to the Challenge?.................    1
 Interoperable Communications.....................................  277
 Secret Service Protective Missions and Inaugural Security........  431
 Cargo and Container Security Keeping a lid on Threats............  595
 U.S. Coast Guard: Measuring Mission Needs........................  769

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 52-213                     WASHINGTON : 2009

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania       JERRY LEWIS, California
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia    HAROLD ROGERS, Kentucky
 MARCY KAPTUR, Ohio                 FRANK R. WOLF, Virginia
 PETER J. VISCLOSKY, Indiana        JACK KINGSTON, Georgia
 NITA M. LOWEY, New York            RODNEY P. FRELINGHUYSEN, New   
 JOSE E. SERRANO, New York          Jersey
 ROSA L. DeLAURO, Connecticut       TODD TIAHRT, Kansas
 JAMES P. MORAN, Virginia           ZACH WAMP, Tennessee
 JOHN W. OLVER, Massachusetts       TOM LATHAM, Iowa
 ED PASTOR, Arizona                 ROBERT B. ADERHOLT, Alabama
 DAVID E. PRICE, North Carolina     JO ANN EMERSON, Missouri
 CHET EDWARDS, Texas                KAY GRANGER, Texas
 PATRICK J. KENNEDY, Rhode Island   MICHAEL K. SIMPSON, Idaho
 MAURICE D. HINCHEY, New York       JOHN ABNEY CULBERSON, Texas
 LUCILLE ROYBAL-ALLARD, California  MARK STEVEN KIRK, Illinois
 SAM FARR, California               ANDER CRENSHAW, Florida
 JESSE L. JACKSON, Jr., Illinois    DENNIS R. REHBERG, Montana
 CAROLYN C. KILPATRICK, Michigan    JOHN R. CARTER, Texas
 ALLEN BOYD, Florida                RODNEY ALEXANDER, Louisiana
 CHAKA FATTAH, Pennsylvania         KEN CALVERT, California
 STEVEN R. ROTHMAN, New Jersey      JO BONNER, Alabama
 SANFORD D. BISHOP, Jr., Georgia    STEVEN C. LaTOURETTE, Ohio
 MARION BERRY, Arkansas             TOM COLE, Oklahoma              
 BARBARA LEE, California            
 ADAM SCHIFF, California            
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              
 LINCOLN DAVIS, Tennessee           
 JOHN T. SALAZAR, Colorado          

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)

 
        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2010

                              ----------                              

                                       Thursday, February 26, 2009.

            DISASTER RESPONSE: IS FEMA UP TO THE CHALLENGE?

                               WITNESSES

DAVID GARRATT, ACTING DEPUTY ADMINISTRATOR, FEMA
EDWARD TONINI, ADJUTANT GENERAL, COMMONWEALTH OF KENTUCKY
    Mr. Price. The Subcommittee will come to order. Good 
morning. Welcome to the first hearing of the Subcommittee on 
Homeland Security, House Committee on Appropriations for the 
111th Congress. Our topic today is Disaster Response: Is FEMA 
Up to the Challenge? Today's hearing will probe FEMA's current 
level of preparedness for disaster response, assess its 
performance in recent disasters, and hopefully arrive at some 
of the ways that we can work to make FEMA even stronger as we 
go forward.
    I want to welcome all of our Subcommittee members, new and 
old, and especially welcome back Congressman Hal Rogers as our 
Ranking Member. Hal, as everyone knows, was the founding 
Chairman of this Subcommittee, and led it with distinction for 
4 years. And fortunately, he has earned his caucus's approval--
I think that is the way to put it--to remain with us as Ranking 
Member.
    Today our witnesses are Dave Garratt, FEMA's Acting Deputy 
Administrator, and Adjutant General Edward Tonini from the 
Commonwealth of Kentucky. I appreciate your participation in 
this hearing. I especially want to thank General Tonini for 
coming, given that Kentucky was recently hit by devastating ice 
storms. We asked several other States who had experienced a 
variety of disasters to participate in this hearing to give us 
a broad perspective on how FEMA is doing, but in a couple of 
key cases budget constraints at the local level prevented their 
attendance.
    Is FEMA up to the challenge? It is unfortunate that we have 
to ask that question, given that FEMA was once an agency 
heralded by State and local emergency managers as a model of 
agility and responsiveness. In the 1990s, when disaster victims 
laid eyes on those blue jackets with ``FEMA'' on the back, that 
meant the cavalry had arrived. But Hurricane Katrina and the 
confusion created by multiple reorganizations, beginning when 
DHS was formed, left us with an agency whose pieces had to be 
put back together, and our purpose here this morning, to put it 
briefly, is to assess the progress that we are making as we 
bring FEMA back to full strength.
    How are we to know when we succeeded in bringing the Agency 
to full strength? Last year I stressed over and over to the 
previous Administrator that FEMA was going to have to evaluate 
and measure its progress. We cannot wait until the next 
disaster to determine FEMA's capabilities. So, Mr. Garratt, I 
look forward to your highlighting what progress FEMA has made 
since Hurricane Katrina and how you are evaluating the Agency's 
ability to respond to current and future disasters. We are 
interested in the benchmarks, the kind of progress that you 
have made, and your honest opinion about where more progress 
needs to be made.
    The Federal Government should be held to the same standard 
as our States. Through our various State and local programs, we 
ask them to justify and evaluate how Federal investments have 
made them more prepared to respond. So we expect FEMA should do 
the same when it comes to its congressional appropriations.
    FEMA has been the recipient of healthy increases during the 
past 2 years. For example, FEMA's management budget has 
increased by 79 percent, from $526 million in fiscal 2007 to 
$943 million in fiscal 2009. And as I said last year, with that 
funding comes expectations. We expect a FEMA that can provide 
commodities and generators quickly after a disaster. We expect 
a FEMA that respects the States' lead role in disaster 
response, but that can step in when States are overwhelmed. We 
expect a FEMA that has established relationships with State 
officials prior to a disaster, and thereby can coordinate in 
the most seamless way possible when people's lives and property 
are on the line.
    I want to stress that last point. Disaster response is a 
business that is driven by customer service and good, 
productive relationships. FEMA must know its partners prior to 
the disaster. We cannot afford to have the team meet on the 
field on game day. The Agency has to know the strengths and 
weaknesses of each State and anticipate where Federal 
assistance will be needed. So FEMA has to do what it can to 
rebuild those State and local relationships and empower its 
regional offices to make critical decisions.
    In 2008, FEMA declared 75 major disasters, 17 emergencies, 
and 51 fire emergencies. Those disasters occurred in 39 States 
and 2 territories, with many having multiple declarations. 
There seems to be no signs of slowing down. The recent ice 
storms have resulted in major disaster declarations for the 
States of Kentucky, Arkansas, Missouri, Oklahoma, and 
Tennessee.
    When responding to the recent disasters, FEMA not only had 
to ensure that generators were in place, but they also had to 
ensure that contaminated peanut butter was not in the food 
given to victims. That is one example of the unknowns the 
Agency must be nimble enough to react to.
    So today we are looking to our witnesses to help us measure 
where FEMA is and to answer the essential question: Is the 
Agency up to the challenge of its mission? Also we are looking 
to our witnesses this morning to clear up any misconceptions 
that might be out there regarding FEMA's role, and to elaborate 
on the States' roles and responsibilities in disaster response. 
So we look forward to an interesting and healthy exchange.
    In a moment we will begin with Mr. Garratt, followed by 
General Tonini. We ask that you summarize your written 
testimony, and it will be entered in full into the record. And 
that will limit your oral statements to 5 or 6 minutes.
    But before we turn to you, I want to turn to our Ranking 
Member Mr. Rogers for any statement he wishes to make.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2213A.001
    
    [GRAPHIC] [TIFF OMITTED] T2213A.002
    
    [GRAPHIC] [TIFF OMITTED] T2213A.003
    
    Mr. Rogers. Thank you, Mr. Chairman. And thank you for the 
nice words of ``welcome back'' onto the Subcommittee. I am 
thrilled about that. As you know, our caucus has a 6-year term 
limit on serving as Chairman or Ranking Member, but I was 
fortunate enough that they saw fit to give me a waiver so that 
I could continue to work on this Subcommittee. I could have 
chosen any number of other Ranking slots on the Committee, but 
this is the one I like, and it has sort of got into my pores. 
And as you have said, we started off this Subcommittee, and I 
have a longtime investment in its success.
    And, I enjoy working with you, Mr. Chairman. You are 
carrying on the tradition, I think, that is necessary in 
homeland security, and that is to be nonpartisan, bipartisan, 
and see things through a clear eye. And I appreciate your 
cooperation with me.
    I want to welcome our distinguished guests. It was a little 
over 3 years ago that FEMA was literally on life support. In 
the wake of Hurricane Katrina, words like broken, 
dysfunctional, mismanaged all were used to describe what is 
supposed to be our Nation's preeminent preparedness and 
emergency management agency. But now FEMA is undergoing a major 
recapitalization. Congress has directed improvement through the 
Post-Katrina Emergency Reform Act. It also has given the Agency 
significant means by a way of an influx of robust 
appropriations. Now it is up to the men and women of FEMA, as 
well as the Agency's new, yet presently unnamed, management to 
make resurrection a reality.
    We are seeing hints of progress, even in the face of 
disasters as destructive as Hurricane Ike and as challenging as 
the recent winter storms that devastated parts of Arkansas, 
Missouri, Tennessee, and Kentucky; positive signs for sure, but 
also sobering reminders that our Nation is constantly under the 
threat of natural disasters as well as terrorism. And so that 
brings us to this hearing, which poses the question of whether 
FEMA is up to the challenge. A fair question perhaps, but one 
that may overlook what I have come to believe is the most 
important and fundamental problem confronting FEMA: a 
persistent lack of understanding of the roles and 
responsibilities of the Federal, State, and local officials 
when it comes to disaster response.
    The country does not yet understand what the division of 
labor is between Federal, State, local, I do not believe. At a 
FEMA hearing last year, the former Administrator of FEMA, Chief 
Paulison, responded to a series of questions that I asked on 
this very subject by making the following three assertions, and 
I am quoting him: All response is local. It is the local 
responsibility to handle a disaster. And it all boils down to 
the local community managing a disaster, end of quote.
    So as we discuss whether FEMA is up to the challenge, I 
think it is paramount that we also discuss whether States and 
localities have the essential minimum capabilities to carry out 
their preparedness responsibilities. The division of labor for 
disaster response is not new, and I am sure we are all aware of 
the Federal Government's role in truly catastrophic disasters. 
But the post-Katrina delineation of roles and responsibilities 
for response were modernized 1 year ago in FEMA's National 
Response Framework. This doctrine makes clear that while 
effective emergency management is a shared responsibility 
across all levels of government, the function of actually 
responding to incidents, both natural and manmade, begins at 
the local level. And so today what we need to understand is how 
FEMA is meeting its share of the disaster response workload, as 
well as working with the States and localities to help them 
address the gaps in their response capabilities.
    To help us answer these questions, we have before us an 
experienced, battle-hardened State emergency manager who is in 
the midst of recovery operations from this month's fierce 
winter ice storms in Kentucky in General Tonini, the Adjutant 
General of our Commonwealth. And I am especially thankful for 
the general giving us some of his valuable time and wisdom to 
answer these questions. And fortunately, the State had enough 
gasoline to fly him here. Most States refused because they did 
not have travel expenses. That is an amazing, amazing situation 
to be in. Nevertheless, we are here.
    So, General, we sincerely appreciate your being here today. 
We look forward to hearing your candid comments on your work 
with FEMA, and especially in your last exposure to the disaster 
in Kentucky, which frankly is still ongoing.
    And to Mr. Garratt, I can assure you, sir, that no one 
wants to see FEMA succeed more than the members of this 
Subcommittee. We are your partners in the efforts to support a 
more capable, more effective FEMA. We invest in your work, and 
therefore we want it to succeed. And we thank you for being 
here today. We look forward to your testimony.
    Thank you, Mr. Chairman.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2213A.004
    
    [GRAPHIC] [TIFF OMITTED] T2213A.005
    
    [GRAPHIC] [TIFF OMITTED] T2213A.006
    
    [GRAPHIC] [TIFF OMITTED] T2213A.007
    
    Mr. Price. Thank you.
    Mr. Garratt, please proceed.
    Mr. Garratt. Chairman Price, Ranking Member Rogers, 
distinguished members of this Subcommittee, in the interests of 
allowing as much time as possible for discussion and questions, 
I am satisfied to enter my statement into the record and defer 
to my colleague, General Tonini.
    Mr. Rogers. Mr. Chairman, that is the most brilliant 
opening statement I have ever heard.
    Mr. Price. All right. We will simply anticipate your 
elaborating your thoughts in response to questions.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2213A.008
    
    [GRAPHIC] [TIFF OMITTED] T2213A.009
    
    [GRAPHIC] [TIFF OMITTED] T2213A.010
    
    [GRAPHIC] [TIFF OMITTED] T2213A.011
    
    [GRAPHIC] [TIFF OMITTED] T2213A.012
    
    [GRAPHIC] [TIFF OMITTED] T2213A.013
    
    [GRAPHIC] [TIFF OMITTED] T2213A.014
    
    [GRAPHIC] [TIFF OMITTED] T2213A.015
    
    [GRAPHIC] [TIFF OMITTED] T2213A.016
    
    Mr. Price. General Tonini.
    General Tonini. Chairman Price, Ranking Members Rogers, 
members of the Subcommittee, on behalf of Governor Steve 
Beshear, I appreciate the opportunity to appear before you 
today to address disaster response and the recent ice storms in 
Kentucky.
    As the Adjutant General of Kentucky, I lead more than 8,500 
Army and Air National Guard members who serve the Commonwealth 
of Kentucky and this Nation. I also have the responsibility for 
management and oversight of the Kentucky Division of Emergency 
Management.
    As you know, during the Kentucky ice storms, Governor 
Beshear made extensive use of the Kentucky National Guard to 
provide a spearhead for life-saving missions and to assist in 
the cleanup and relief efforts after an incredibly destructive 
ice storm. I am here to give you a brief overview of those 
operations, make some recommendations for the future, and to 
answer your questions. I have submitted in writing a more 
detailed summary for your review.
    The winter storm that moved across the Commonwealth of 
Kentucky produced the most catastrophic natural disaster since 
the New Madrid earthquake that occurred in December 1811 to 
February 1812. The January storm persisted for more than 24 
hours, first freezing rain, followed by snow, then more 
freezing rain and more snow. The unique blend of ice, snow, and 
strong winds produced scenes that were stunningly beautiful and 
massively destructive. Vehicles, homes, trees and power lines, 
everything exposed to the outdoors were thickly coated with 
more than an inch of ice, and in some cases as many as 3 
inches.
    The effect was immediate. The entire western half of 
Kentucky was effectively paralyzed. The weight of the ice on 
power lines collapsed steel utility towers carrying major 
transmission lines, and caused miles of wooden utility poles to 
snap like toothpicks under heavy pressure. Virtually every tree 
of any significant size lost multiple branches, and hundreds of 
thousands of them toppled onto trees and residential utility 
lines, blocking most roads. More than 769,000 Kentucky 
households were without power. That number represents 36 
percent of all the electrical customers in the Commonwealth.
    In much of the State we lost the means to communicate. In 
the hardest-hit areas of western Kentucky, all landlines, 
microwave, cellular, and emergency communications were out of 
service. In many cases the total extent of our emergency eyes 
and ears were a couple of satellite radios and a few ham 
operators operating on batteries. Without power, municipal 
water plants could no longer provide water to more than a 
quarter of a million customers. That included water for fire 
protection as well.
    Primary and secondary roads were impassable; 102 of 
Kentucky's 120 counties and 87 cities declared states of 
emergency. That represents a land mass that stretches east to 
west 387 miles and more than 100 miles north to south. And 
because of the storm, at least 36 Kentuckians lost their lives, 
most from fighting the extreme cold weather, and through 
hypothermia, carbon monoxide asphyxiation from improper 
ventilation of makeshift home heating.
    In contrast to hurricanes striking the coastal United 
States, this was a no-notice event, affecting a wide geographic 
area, and requiring massively parallel response. Fortunately 
for us, just last March we rehearsed our plans in dealing with 
a catastrophic earthquake along the New Madrid fault in western 
Kentucky. It essentially, in military operational terms, served 
as a rehearsal of a battle on the ground we would fight on 
during the ice storm of 2009.
    In keeping with our New Madrid Response Plan, Kentucky 
State Emergency Operations Center was immediately brought to 
full strength, with representatives of all State agencies. 
Simultaneously, 1,600 members of the Kentucky National Guard, 
the soldiers of our Rapid Response Force, were dispatched to 
the hardest-hit areas to begin assessing local authorities with 
rescue operations. This all was within the context of very, 
very limited communications from the field.
    We knew it was bad. As it turns out, we had no idea how 
bad. In retrospect, our initial reaction was typical of any 
emergency response force, measured and somewhat tempered. 
Kentucky's Division of Emergency Management began an immediate 
dialogue with FEMA for delivery of food, water, and generators 
to Fort Campbell for distribution to two National Guard 
logistics support areas and regional points of distribution. 
Governor Beshear and I, along with other Cabinet secretaries 
and FEMA's FCO, flew to the area for a firsthand look at the 
magnitude of the problem and to meet with local officials from 
the region to assess their immediate needs.
    Recognizing the situation required immediate action, on 
January 27th Governor Beshear declared a state of emergency, 
followed by the unprecedented activation of all available 
Kentucky National Guard units, along with selected portions of 
the Air National Guard. Within hours of initially notifying the 
White House, President Obama issued an emergency declaration, 
and contact with FEMA and Homeland Security occurred 
immediately, in the early morning hours just after the storm 
exited eastern Kentucky.
    In a statement to the media, Governor Beshear set forth the 
guiding philosophy for everything that followed, that, quote, 
``the primary responsibility of government is the protection of 
its citizens. We are going to do whatever is necessary to 
fulfill that solemn obligation, regardless of the cost.''
    The Governor's orders placed an additional 3,000 National 
Guard soldiers and airmen into the effort to address the needs 
of the people of the Commonwealth. In all, 4,600 National Guard 
men and women were mobilized. This was the largest State call-
up of Kentucky National Guard forces in the history of the 
Commonwealth. It represented the strongest possible effort to 
relieve human suffering and to ensure the safety and well-being 
of our citizens. It was absolutely the right thing to do.
    After the rapid response force moved into the most affected 
areas and could provide situational awareness, in concert with 
emergency management officials, the Kentucky Joint Force 
Headquarters organized itself for life-saving and life-
sustaining operations. Our most significant enemy was the cold. 
The temperature was hovering between zero and 20 degrees, with 
wind chill making the situation very dangerous. Without 
communications and without electricity, a huge portion of the 
Kentucky population was placed in imminent danger.
    National Guard troops cleared routes for emergency response 
vehicles as well as to help utility crews gain access to 
damaged power transmission lines. They established shelters and 
points of distribution for supplies provided by FEMA, and used 
helicopters to conduct overflights to determine which roads 
were impassable and identify damaged power transmission lines 
for our utility companies.
    Through emergency management assistance, through EMAC, 
National Guard personnel and equipment from Florida, Indiana, 
Tennessee, Ohio, Wisconsin, and Virginia flowed into Kentucky, 
bringing vehicles, engineer equipment, and satellite 
communications capability to assist us with this emergency. And 
in an expanded mission for the Kentucky National Guard, troops 
teamed with emergency management agencies, fire departments, 
rescue squads, and law enforcement to conduct wellness checks 
for all households in the affected counties, literally knocking 
on hundreds of thousands of homes.
    In a parallel operation, Kentucky's Division of Emergency 
Management immediately set up regional EOCs with power and 
satellite communications, established or reestablished 
emergency communications, and provided direct support to AT&T, 
the primary cell phone service in the area, to get power back 
up to the cell towers. We created a Wal-Mart-style hub-and-
spoke distribution in 72 hours to expedite the flow of 
emergency resources where they were needed most. During the 
disaster, more than 1.3 million meals and more than 2.1 million 
bottles of bottled water were distributed to those in need. And 
once communications were back up, Kentucky Emergency Management 
established a statewide situational awareness, with all 120 
counties reporting twice a day every day for the duration of 
the emergency.
    An immediate priority was placed on the restoration of 
electric power to water plants, communications facilities, 
shelters, and nursing homes. To meet this priority, a first 
ever Joint Power Operations Center was established. In 4 days' 
time, representatives of FEMA, the U.S. Corps of Engineers 
worked alongside Kentucky Emergency Management and the National 
Guard to prioritize and emplace more than 150 generators in 
order to energize critical infrastructures such as shelters, 
nursing homes, hospitals, and water plants. By using a dynamic 
combination of multiple Corps of Engineers teams, Corps 
contractor teams, and Kentucky-contracted electrical 
engineering teams, we were able to far exceed any emergency 
power generation effort in recent history.
    We believe the Joint Power Operations Center concept will 
be used as an operational template in future disasters to 
greatly accelerate the vital restoration of life-saving 
emergency power. We also made EMAC requests for additional 
critical emergency management support from Tennessee, Indiana, 
North Carolina, Alabama, and Mississippi to our hardest-hit 
areas.
    Lessons learned. When we look at any operations such as 
this, a heartland no-notice response, there are several key 
takeaways. While the full list is detailed in my written 
submission, please allow me to go over four with you.
    Emergency life saving is absolutely the first priority. It 
is a situation where life sustaining is equal to life savings 
in terms of power, heat, cooling, water, and food. Supporting 
that effort is a well established shelter management program. 
In Kentucky we did not have one.
    We believe we must have an emergency response plan and an 
annual disaster exercise that is FEMA-funded. Our Kentucky 
National Guard-led New Madrid exercise was a Guard-initiated 
and Guard-executed concept. These types of exercises must be 
part of our Homeland Security federally funded program, and 
should not have to compete with or degrade the military 
resources intended to fund training for our units for military 
combat readiness.
    We require much more realistic emergency response timelines 
on the part of FEMA and the Corps of Engineers geared to meet 
the needs at the local level. The prioritization and timing of 
the delivery of State and Federal resources must be streamlined 
and focused on life saving in these events where hours, not 
days, are the objective to save lives.
    There needs to be created a mechanism to provide a more 
consistent, ready, and predictable source of Federal funding 
for the National Guard to respond under State command to 
federally declared disasters. Funding for these emergency 
response missions should not come from or degrade already 
limited resources of the National Guard to get ready for 
military combat. Something like a Defense Emergency Response 
Fund, perhaps administrated by the National Guard Bureau, might 
provide a model for such funding.
    Presidential declarations of an emergency life-saving and/
or major disaster declaration need to be fully resourced by the 
Federal Government. And the National Guard response should be 
under State command, with Federal funding provided under 
section 502(f) of Title 32. This is superior for several 
reasons. First, it provides our most valuable resource, our 
soldiers and airmen, with the same protection that they would 
have when mobilized overseas for overseas missions. They 
deserve the same protection when deployed stateside in a 
homeland security mission. Second, it preserves National Guard 
speed of response under State control as well as the National 
Guard's law enforcement capability when needed.
    We reviewed the complete disaster operations with our FEMA 
and Corps of Engineer team members and jointly produced these 
recommendations. There is a need to shift from a recovery mind-
set typical in most disasters to an emergency response that is 
dynamic, flexible, resourced, coordinated, and focused on life-
saving measures. Administrative issues must be set aside or 
tertiary to the immediate process. Our FEMA partners were 
central to our overall success, but we can improve the system 
by streamlining the request and response process.
    As far as Corps of Engineers, life-saving support must be 
focused on delivery and effectiveness, not on efficiency. A 
well-honed process that is not critically time-sensitive has 
little value in life-and-death situations. As far as FEMA and 
the Corps of Engineers, local and State resources can be 
quickly contracted, such as generators and electrical engineers 
to install them. The contracting effort needs to be a critical 
part of the life-saving effort from the very beginning of the 
emergency operations. There is no way to predict the exact 
location or magnitude of the next no-notice event, but we must 
anticipate that there will be one.
    Now I would like to leave you with just a couple of final 
thoughts. In Kentucky, the National Guard and the Division of 
Emergency Management fall under the Department of Military 
Affairs and the Adjutant General. This arrangement provided an 
ideal unity of command, and resulted in what I believe was a 
classic example of unity of effort.
    Finally, if you will recall, I spoke of the wellness checks 
that were conducted by the Army and Air Guard personnel. Our 
soldiers and airmen walked mile after mile across the entire 
State, knocking on door after door to check on their fellow 
Kentuckians. It never has been done before, and it sounds like 
a major undertaking, and it was. This is one aspect of the 
operation that received quite a bit of attention from local, 
national and international media, and rightfully so.
    It was during this process that Army and Air National Guard 
members were credited with saving at least eight lives. This 
included identifying and rendering aid to elderly couples 
overcome by carbon monoxide, as well as two other elderly 
couples who were relying on oxygen to survive and were about to 
run out.
    In another act of unbridled service, two guardsmen and a 
local firefighter waded into chest-deep water of an icy stream 
to rescue four teenagers whose car had run off a slick road and 
submerged in the creek. It was 10 degrees, with a wind chill of 
minus 4. When found, the four teens were already coated with 
ice and suffering from hypothermia. They were wrapped in 
blankets and transported by ambulance to a hospital. The 
guardsmen, I am told, changed their clothes and immediately 
went back to work. That typifies the spirit of the National 
Guard and the people of Kentucky in this emergency. We consider 
it a significant victory, and I am very confident the people we 
serve would concur.
    I am so grateful for the opportunity to appear before the 
Subcommittee today, and I certainly welcome your questions.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2213A.017
    
    [GRAPHIC] [TIFF OMITTED] T2213A.018
    
    [GRAPHIC] [TIFF OMITTED] T2213A.019
    
    [GRAPHIC] [TIFF OMITTED] T2213A.020
    
    [GRAPHIC] [TIFF OMITTED] T2213A.021
    
    [GRAPHIC] [TIFF OMITTED] T2213A.022
    
    [GRAPHIC] [TIFF OMITTED] T2213A.023
    
    [GRAPHIC] [TIFF OMITTED] T2213A.024
    
    [GRAPHIC] [TIFF OMITTED] T2213A.025
    
    [GRAPHIC] [TIFF OMITTED] T2213A.026
    
    [GRAPHIC] [TIFF OMITTED] T2213A.027
    
    [GRAPHIC] [TIFF OMITTED] T2213A.028
    
    [GRAPHIC] [TIFF OMITTED] T2213A.029
    
    Mr. Price. Thank you, General. Thank you for that 
comprehensive account, and also showing us some of the human 
side of this disaster and the work that you did. We commend you 
for that work, you and your colleagues.
    General Tonini. Thank you, sir.

                         EMERGENCY DECLARATIONS

    Mr. Price. It seems to me that a couple of themes run 
through your testimony and also Mr. Garratt's written 
testimony. One you referred to quite explicitly, and that was 
the need for realistic timelines in terms of emergency 
declarations, disaster declarations, and getting the kind of 
support out into the community that needs to be there. Then you 
referred several times to the particular challenges of a no-
notice event.
    We have put a lot of emphasis in this Subcommittee, and, of 
course, FEMA has put a lot of emphasis, on preparing for 
predictable events, especially in hurricane areas, for example, 
the kind of improvements that we have strived for in 
preparedness and prestaging and so forth. This, of course, is a 
different kind of event with no warning whatsoever, pretty much 
unprecedented event, as I understand it, in its severity.
    So I would like to ask both of you, maybe starting with 
you, Mr. Garratt, to comment on those two aspects. First of 
all, maybe you could very quickly remind us of how these 
emergency declarations work; which do have some limitations in 
terms of the kind of assistance rendered, or at least the 
dollar amounts, and then the major disaster declarations, which 
follow some days later. Is that system for declaring 
emergencies and major disasters working as smoothly and in as 
timely a fashion as it should? And, of course, General, we 
would be interested in your observations on that as well since 
what you say about realistic timelines suggests you might have 
some thoughts about that.
    Mr. Garratt. I am happy to address that, Chairman. The 
President has, under the Stafford Act, the ability to make 
either an emergency declaration or major disaster declaration. 
An emergency declaration is different from a major disaster 
declaration in that it can be declared pre-event as well as 
postevent. And it also has limitations on the types of support 
that can be provided under an emergency declaration. What can 
be provided under an emergency is direct Federal assistance, 
certain types of assistance under public assistance, emergency 
protective measures, debris removal, reimbursement, as well as 
we can provide temporary housing under an emergency 
declaration. It is designed to bring emergency services types 
of support to a State, jurisdictions that have been affected by 
an incident, or again are preparing for a potential incident.
    The major disaster allows the full range of potential forms 
of support to be provided. Generally when we have a disaster, 
we do what we call preliminary damage assessments in advance of 
that. These are joint assessments that we do with 
representatives of the State. We will visit each jurisdiction, 
we will assess, catalogue the types and extent of damage, and 
then that information will inform what decisions or 
recommendations on what types of assistance should be 
authorized for a State.
    When a State that faces a no-notice event comes in and 
requests a major disaster declaration before we have had a 
chance to do preliminary damage assessments, we--recognizing 
that in the past we have not moved fast enough or have been 
able to move fast enough to make a declaration--try to allow 
ourselves time to go out and validate through those preliminary 
damage assessments the amount of damage and inform our 
recommendation. We developed a policy a couple of years ago 
that now allows us, whenever a major disaster declaration comes 
in which includes a request for direct Federal assistance, and 
that is we need the Federal Government to provide actual 
material resources and assets that we are not able to provide 
ourselves to help us respond to this emergency, we will pull 
out that direct Federal assistance request portion of that 
major disaster, and we will forward that on by itself. The 
procedure allows us to make a recommendation for an emergency 
declaration that allows the provision of direct Federal 
assistance, and that can happen and does happen very quickly. 
That gives the Federal Government the opportunity to begin 
applying those material resources that are needed by a State, 
and that includes commodities, that includes generators, that 
includes teams; provide those material resources to a State to 
help them deal with that emergency phase of this while we 
continue to conduct our PDAs over time to inform whether the 
recommendation will be made on the reimbursable forms of 
assistance.
    In a nutshell, that is how the two systems are set up and 
how we have made a policy adjustment to allow us to expedite 
the delivery of direct Federal assistance at the front end of 
this and do that more quickly.
    Mr. Price. General.
    General Tonini. My reference is to the immediacy of the 
needs in a no-notice situation like this. Let me start out by 
saying that I went to the hurricane conference earlier last 
week, and I was very much impressed with FEMA's stance in terms 
of looking down the road, seeing something coming, 
prepositioning resources, prepositioning people, and being 
ready to respond on an immediate basis when you can see it 
coming. And when you cannot see it coming, I am not sure that 
the process works as well as it should.
    And I think that we can easily hone into. Mr. Garratt and I 
both are aware of the fact that some of the processes were 
cumbersome, some of the processes were arduously slow, not so 
much in terms of a recovery operation, but in terms of a life-
saving operation, specifically in the area of power generation. 
There was a serious lack of communication. There were processes 
that we needed to basically throw out the window and just get 
it done. And actually Secretary Napolitano got directly 
involved in some of the process, and eventually the marching 
order was just get it done, and that represented the key 
element that was that we cut through some of the red tape, if 
you will, that is typically in place in these kinds of 
disasters.
    Our biggest, most valuable resource was ourselves, and that 
was being able to contract some of these services that we 
needed to get done locally and just get it done. If we would 
have done that from the very beginning, we would have been a 
lot better off. But in a life-saving situation, you basically 
need to throw out the book and just get it done. And frankly, 
Secretary Napolitano really went a long way in just basically 
saying get it done.
    Mr. Price. Mr. Rogers.

                               GENERATORS

    Mr. Rogers. Well, thank you for the testimony. And, General 
and Mr. Garratt, thank you for responding to this almost 
unprecedented emergency in my State. FEMA and the State 
response and local response have generally gotten glowing 
tributes. It seemed to work well. And I had met with the 
Governor at some length during the tail end of the crisis, and 
he was complimenting you, General, and, of course, FEMA for the 
response.
    This was really a perfect storm. It immediately shut down 
electrical power. And the big transmission lines were even 
taken down. But it also took out the communications capability 
of communities. No one knew what was going on. The Governor 
told me that there was no communication with many of the 
counties throughout the State. No one knew whether a hospital 
was without power or a nursing home was without power, or who 
was isolated or suffering one way or the other except, as you 
say, General, for a few HAM operators here and there who really 
saved the day.
    But one interesting aspect I wanted to ask you about. One 
of the immediate problems that you encountered were hospitals, 
nursing homes without power and no generators, which was an 
immediate catastrophic capability. How did you come by the 
generators? That might give us a good example of how 
mechanically FEMA and States and locals worked together.
    General Tonini. Sir, there was a package, a prepositioned 
package, of generators that FEMA has that flowed from Maryland, 
was it?
    Mr. Garratt. Cumberland.
    General Tonini. Cumberland, Maryland, that contained 
generators of all sizes. There was some lacking of clarity, 
fidelity, if you will, of information as to what sizes of 
generators and trying to figure out our needs and getting the 
two together, and we decided to stage those at Fort Campbell. 
And we did that. And the problem was that from the very 
beginning, the fidelity on the transportation of the 
generators.
    And then we thought that the generators could immediately 
flow to the affected areas, but what we found out is that they 
first had to be staged. And the word ``staged,'' I am not sure 
exactly what that meant. It took time, whatever it was. And 
then the process, the formalized process that we have required 
teams to go out to assess the needs without the generators 
flowing. And then they would call back and flow the generators 
from the staging area at Fort Campbell----
    Mr. Rogers. Generally it does not take any brilliant mind 
to know whether or not a hospital needs a generator.
    General Tonini. Absolutely, sir. Now, we would all like to 
think that all hospitals and all nursing homes have emergency 
power. The fact is we learned that they do not. We would also 
like to think that all water companies would have some sort of 
emergency power. They do not.
    Mr. Rogers. How long did it take you to get the generators 
to these places where they were needed?
    General Tonini. Sir, in some cases it was as many as 3 and 
4 days, which, again, we considered life saving. And we 
considered it much too long.
    Mr. Rogers. Did we lose any lives in that period of time 
because of lack of power?
    General Tonini. I think that unquestionably we did. I am 
not so sure we did in nursing homes or in hospitals, but the 
folks that passed away from hypothermia probably can be 
directly attributed to the fact that we did not have power. But 
that could be in homes. I am not sure that we can attribute 
that to the lack of generators being in place. In many cases we 
had people that refused to leave their homes because of pets or 
a multitude of reasons. So they were making do in their own 
homes and in some cases were using heating sources that were 
not properly ventilated, and then they died from carbon 
monoxide.
    Mr. Rogers. What else did you need from FEMA or anyone that 
you did not have at your own disposal in the State?
    General Tonini. Generators. The big generators were the 
bottom line.
    Mr. Rogers. Besides that.
    General Tonini. When the enemy is the cold, the generation 
of a source of heat is really the bottom line in terms of 
needs. Obviously, we had needs for food, and we began that 
flowing immediately. That was an immediate need as well. And we 
were able, once again, to go in some cases to do local 
resourcing in order to expedite the flow. And then, of course, 
the peanut butter scare came, and that caused another 
disconnect, interruption in the FEMA flow of food that we were 
able to accommodate ourselves.
    But the real speed, the Federal Government is famous, and 
the military is also famous, for doing things based on a 
process. My whole point is that you got to throw that process 
out the window when people's lives are at stake. You just got 
to get it done.
    And I will tell you, the FEMA people that were in place, 
the Corps of Engineers people who were in place, they all 
basically came to that conclusion collectively together, and we 
did get it done. And, sir, I think that it was a success story. 
And I have little but praise for the team that we put together 
that actually got the job done. And thank God the weather broke 
after 7 or 8 days, and we had unseasonably warm weather, and 
that was a huge force multiplier. But the reality was that we 
just did not have the same sense of urgency because of process, 
and that is really my story as far as FEMA and the Corps are 
concerned.

                     STATE AND LOCAL RESPONSIBILITY

    Mr. Rogers. My time has expired, but let me just say that 
the national press, I think, mainly has the idea that FEMA's 
role is dominant; that when there is a disaster, FEMA moves in 
with everything and gets it done. The truth is that a disaster 
is a local matter. It is the State and locals who have the 
responsibility to run the show and call on FEMA for things like 
generators, and perhaps food supplies or emergency material, 
but it is the State and the locals that are in charge of the 
operation. Is that your understanding, both of you, of the way 
this thing operates?
    General Tonini. That is absolutely right, sir. And the lack 
of specific resources, and the biggest single element was big 
generators. And the 50-pack of generators--and Mr. Garratt can 
tell you that that 50-pack of generators goes across the 
spectrum, from very large ones to very small ones. Well, we 
needed a lot of very large ones, so we had to adjust. On the 
fly we had to adjust and get a lot more heavy generators in to 
be able to address some of the power generation to the 
hospitals, the nursing homes.
    Mr. Rogers. Mr. Garratt.
    Mr. Garratt. Absolutely concur, sir. FEMA's role is to 
support the State. They are the customer. And the jurisdictions 
within that State are the State's customers. So our job is to 
come in, and, operating within the National Incident Management 
System incident command structure, is to funnel support 
resources in to support their needs. And we should be operating 
as, again, as if they are our customer and supporting what 
their requirements are.
    Mr. Rogers. Well, Katrina sort of shook up everybody's 
understanding of whose role was what. The truth is in Katrina 
the State was inept and made a complete bungle of that normal 
operation of a State being in charge of a local disaster and 
the locals supporting the State, then calling on FEMA for 
necessary supplies and materiel. But in the Katrina case, the 
State of Louisiana was vacant, the government was inept and did 
not do its chore. And therefore, I think we have got a bad 
understanding as a result of what the proper roles of each of 
the divisions of labor are.
    Mr. Price. Thank you.
    Mr. Rodriguez.

                    EMERGENCY DECLARATION THRESHOLDS

    Mr. Rodriguez. Thank you, Mr. Chairman.
    First of all, Major General, let me thank you very much for 
your ``get it done'' approach. And I think that that is the 
approach that ought to be taken when we have a major disaster. 
And so I want to personally thank you for your leadership in 
that area.
    Mr. Garratt, I also want to thank you. When you do get 
there, your people are great. They are very conscientious and 
get to the point and get the work done. So I do want to thank 
you for the hard work that they do on a daily basis throughout 
this country in terms of the disasters.
    I do want to share some real serious concerns that I have 
as it deals with specific incidents that I have encountered 
with and that I have had extreme difficulty with. One was a 
major tornado in Eagle Pass, Texas, killed 7 people, took the 
administration 17 days to declare it. And I had visited the 
site a few days after it occurred; went across to the Mexican 
side, and mainly I went over there because they also--it hit 
them harder. They lost three lives also, we lost seven, and the 
State of Coahuila had sent in a good number of troops during 
Katrina. They were stopped in San Antonio, but when they got 
there, they helped feed some 20,000 Katrina victims that 
arrived in San Antonio from Mexico.
    So on the other side, I would have to tell you that after 
17 days the Mexican Government called the county judge down 
there and said, you know, you need any help? Can we help you? I 
told the judge, accept the help. And because they cut to the 
chase, and on our side we had all kinds of difficulties on that 
particular tornado that lost seven lives.
    The other incident I want to share with you is the one that 
I just had in Presidio. Five hundred people got displaced. A 
major flood that occurred was never declared by the previous 
administration. And so I would like to see what kind of 
documentation, you know, and what kind of thresholds we have to 
go through.
    I am being told now that not only--you know, if the levees 
had broken--you know, you said an emergency, the possibility of 
even a greater disaster was there. I should not say this, but 
thank God the levees on the Mexican side broke, and that really 
released a lot of water. And ours broke a little further down 
and then came back and flooded part of the city, one of the 
poorest communities in this country, probably the most isolated 
sites in this country in Presidio. The State went out there and 
did what they could. And I wanted to know, and not necessarily 
now, but what went on with the--I guess, FEMA would have to 
have submitted a report that indicated that it did not reach 
that threshold, I gather. But I also wanted to see if that also 
included what now I am being asked from communities down the 
road such as Redford and others that their irrigation, you 
know, sites are completely destroyed now in terms of the 
resources that are needed to pass that.
    And so the others that I have had, one was 96,000 acres 
that burned down. The only report that I was told that FEMA in 
terms of cost was fence posts. You know, that has been 
devastating for hundreds of people in the farming area and 
raising--and ranching area when you have 96,000, you know, and 
the possibility of also a lot of lives could have been lost.
    And so in terms of responding. And we still had difficulty. 
We declared it, I think my understanding is the Governor 
declared it, yet we could not get it, you know. So, you know, 
what--you know, I want to see if you might respond, you know, 
on that. And then but later I do want to get some feedback as 
to I am having to deal right now with Redford down, and of 
course there with that situation still at Presidio. And we are 
going to have some additional fires in the future in terms of 
how do we best respond to those things.
    Mr. Garratt. I am familiar with a couple of the incidents 
to which you refer, Congressman. I am not familiar, at least 
based on what you said, with the 96,000-acre fire incident, but 
certainly willing to follow up on that.
    Regarding Presidio, I am aware that region 6 did end up 
surging Federal assets to Presidio to assist in the emergency 
efforts at the beginning of that. There was helicopter support, 
other support that they provided under their authority. 
Ultimately there was not a disaster declaration made. There are 
specific criteria that we use when we develop recommendations 
for that criteria or for the President. That criteria is 
spelled out in regulation. That criteria is partly objective, 
and it is partly subjective.
    Mr. Rodriguez. Can I ask you just to follow up on that, not 
now, but later, to see if also downstream was taken into 
consideration? Not just Presidio, but also downstream, because 
it also destroyed a lot of, you know, homes as it went down, 
all the way down. In fact, even after the Army started to let 
go of water, also there were some additional ones.
    Mr. Garratt. Sir, we would be happy to come to your office 
and provide you a detailed briefing not only on the declaration 
process, but on what transpired regarding these incidents.
    Mr. Rodriguez. And, you know, as far as I am concerned, 
some serious, you know, items went wrong there, because I have 
a few homes on the Dominion, the richest parts probably in this 
country also, where one home of those might be equivalent to 
the entire value of the Presidio when we put value on economic 
without considering possible lives.
    Mr. Price. Mr. Garratt will get back with answers to these 
questions for the record.
    [The information follows:]

    FEMA is working to schedule a meeting with Rep. Rodriquez 
and going over in detail the disaster declaration process as 
well as reviewing the specific Presidio, Texas, flooding 
incident.

    Mr. Price. Mr. Carter.

                             COMMUNICATIONS

    Mr. Carter. Thank you, Mr. Chairman.
    First off, General, great story. I like the ``get it done'' 
attitude. I think that is the way it ought to be.
    Mr. Garratt, thanks for what you do. We appreciate the hard 
work and the fact that you got to have a thick skin to be in 
FEMA, no doubt about that.
    Start off with the communications effort. You know, we 
heard in the hurricanes in the Gulf Coast, we have heard now on 
the ice storm in the Kentucky area communication seems to be 
the thing that we always say we really were short on 
communications to start off with. Now, surely there is some 
form of communication with satellite phones and so forth that 
would allow us to have a communications system up. Do you have 
a suggestion on that? Because I know that I heard a story about 
a Congressman from back when they had the problems in 
Mississippi, a Congressman from Nevada brought a load of water 
to Mississippi and found out the satellite phone that he had 
was the only form of communication in a 10-county area, so he 
gave them the satellite phone. And we ought to have fixed that 
by now. Is there a phone that works? And is the satellite phone 
the solution, or what is the solution?
    General Tonini. Sir, absolutely the satellite phone is the 
only reliable resource that you can use in the circumstances 
that we faced. We actually within Kentucky at the Bluegrass 
station have a storage of National Guard satellite phones that 
we got and deployed almost as quickly as we could. Once again, 
that is just east of Lexington, and the hardest-hit area where 
the communications was out was in far western Kentucky, so that 
is several hundred miles. And with the travel issues it took us 
some time to get the stuff there and then to distribute it. 
Ideally, obviously, the answer is to have enough satellite 
phones distributed so that you can have eyes and ears in this 
kind of a circumstance.
    Mr. Carter. Is that something, Mr. Garratt, you think we 
ought to start planning to at least give a State plan or 
something? I happen to agree with Hal that I view disasters as 
local issues, but if we are not getting the planning, and 
communications is the start of any response, we ought to figure 
out some kind of national plan for satellite phones. Is there 
something that we ought to be looking at on that?
    Mr. Garratt. I think that is entirely reasonable. And I do 
not think the issue here was not necessarily that we have not 
made progress in that area. In fact, the Federal Government has 
made progress and the States have made considerable progress in 
terms of not only interoperabilizing, but increasing their 
capabilities, satellite phone, other types of phone systems.
    In the situation we faced in Kentucky, as the General 
indicated, they had a number of satellite phones, and they 
began distributing them to the folks who needed them. But they 
had an all-hands-on-deck effort in Kentucky. In other words, 
they had far more need for phones than they had the capability 
to supply or that we initially had when we began mobilizing and 
deploying our assets in there. We did deploy MERS units in 
there, and mobile support units in there, and they did have 
assets. They began erecting cell towers and distributing these. 
But the sheer size of the need outweighed what was at least 
initially available.
    What we could do is a better job, as a joint effort, of 
prioritizing who gets these units that are available at the 
front end.
    We had a compelling need, as we discovered, to have 
communications in the hands of the Corps of Engineers, the 
FEMA, the other individuals who are involved in generator 
assessments. They did not have what they needed to effectively 
be able to communicate. A lot of the response elements did have 
what they needed to be able to effectively communicate, but we 
didn't have it in the hands of them.
    So we either need more units or we need to do a better job 
of prioritizing who gets them at the front end of a disaster, 
or both. The bottom line is, we can make some improvements in 
that regard.

                               GENERATORS

    Mr. Carter. I will ask one more question about the 
generators. We have stories on Hurricane Rita that people went 
down to Wal-Mart and bought local generators to try to keep 
things going, a ``get it done'' attitude, and they had real 
issues with getting reimbursed for buying generators to keep 
people alive. And not personally, keep themselves alive, but 
keep communities alive. Has that issue been solved?
    When the people of the community realized there are people 
dying, they rushed down and invested in every generator that 
was available in town to start creating electricity to keep 
some people alive. And then they have issues with either the 
State or the Federal Government.
    Shouldn't we streamline something to make that available 
for them?
    Mr. Garratt. There are restrictions on the conditions under 
which we will reimburse generator purchases in disasters. We 
will reimburse when they are needed for lifesaving 
requirements. We do not reimburse when they are needed for 
other than lifesaving requirements.
    But for lifesaving requirements, there are procedures for 
them to be reimbursed, yes, sir.
    Mr. Price. Ms. Roybal-Allard.

                         CATASTROPHIC PLANNING

    Ms. Roybal-Allard. Thank you, Mr. Chairman, and thank you, 
Mr. Garratt and Major General, for being here today. I have two 
questions.
    My Los Angeles district, as you know, faces the everyday 
threat of a major earthquake. A seismic event on the scale of 
the 1994 Northridge quake in downtown Los Angeles, which is 
part of my district, could claim countless lives and, according 
to projections, inflict more than $500 billion in damages.
    Unfortunately, the city appears to be woefully unprepared 
for such a disaster. Were a 7.2-magnitude earthquake to strike 
Los Angeles, the Red Cross predicts that 564,000 people would 
be in need of shelter, while an additional 2.5 million would 
require food and water. However, the metro area has only 341 
shelter facilities with 84,000 beds.
    Other major U.S. cities are equally vulnerable to 
catastrophic disasters, and the GAO office has reported similar 
statistics for cities like New York, Washington, D.C., and 
Miami.
    Could you highlight a little bit what steps FEMA is taking 
now to prepare for the gap between existing resources and the 
likely needs of the populace in the event of a major earthquake 
in a city like Los Angeles?
    Mr. Garratt. I would be happy to quickly cover some of the 
key things that we are doing in terms of catastrophic planning. 
We are doing catastrophic planning in a number of areas. We 
have identified them, the New Madrid area, for example. We have 
been doing catastrophic planning in California as well.
    We have hired operational planners, and we are putting 
operational planners in our regions; and those planners are--
the top of their priority list is to engage with and address 
issues facing catastrophic planning. We have developed a 
catastrophic incident supplement to the catastrophic incident 
annex in the national response framework, and that supplement 
has an execution schedule that allows us to begin instantly 
providing resources in support in response to a no-notice 
catastrophic event.
    We have developed the national shelter system over the last 
couple of years. This is a shelter system that lists all of the 
shelters that belong to the Red Cross, and we are also 
populating it with shelters that exist outside the Red Cross 
shelter system. That is over 40,000 strong. And we have also 
been working with States on a State-by-State basis to identify 
what their shelter capabilities are and how many shelterees 
they are willing to take from an affected State should that 
affected State need to begin relocating individuals outside 
their State because they don't have the capacity in there.
    So we have been identifying, at least from a sheltering 
management perspective, additional assets that are outside of 
what may be a catastrophically affected State, to be able to 
take on that particular requirement.
    Now, obviously it is going to depend on exactly what the 
scope of any event is and the exact characteristics of that 
event, whether what we have identified right now will at the 
end of the day meet what those immediate requirements are. We 
have made a lot of progress, and we have identified literally 
hundreds of thousands of shelters out there that can be 
available nationally to support what may be a very large 
catastrophe someplace.

                    CATASTROPHIC PLANNING CONTINUED

    But identifying those assets and then trying to move what 
may be hundreds of thousands of people on very short notice 
would be an immense logistical challenge for us, for the State. 
So we recognize that. We have contracts in place to help us, 
help States support the evacuation--bus contracts, rail 
contracts, aircraft contracts--but it will nevertheless be an 
immense challenge to pull that off and to pull that off in a 
seamless and nonproblematic way.
    We recognize that we are going to be challenged in a 
catastrophic event, but we think we have laid the groundwork to 
help us and help States at least begin dealing with that at the 
front end of a catastrophe.

                    PUBLIC ASSISTANCE GRANT PROGRAM

    Ms. Roybal-Allard. In December, the Government Accounting 
Office issued a report that was highly critical of FEMA's 
management of the Public Assistance Grant Program.
    According to GAO, the flow of funds to State and municipal 
governments has slowed because of problems related to project 
development, information sharing, and the Agency's approach to 
decision-making because, for example, FEMA grants are geared 
towards reimbursement after construction, so therefore cash-
strapped local governments have struggled to initiate 
rebuilding projects.
    In addition, it found that inadequate coordination between 
officials at all levels of government has made the torturous 
grant obligation process even more difficult to navigate; and 
in some cases the report found that FEMA managers have approved 
projects only to change their minds and strip municipalities of 
the promised funds after construction had already begun.
    What steps is FEMA taking to improve the management of the 
Public Assistance Grant Program in light of GAO's findings?
    Mr. Price. A very quick response, if you please.
    Mr. Garratt. A couple of things we have done to improve 
public assistance: Over the last couple of years we have stood 
up what we called EMMIE. It is a brand-new automated system. We 
began employing that last year, and that essentially allows 
project worksheets to be automated from the very beginning. 
They no longer have to be done on paper. They no longer have to 
be submitted; they can be input at the local jurisdictional 
level. And it now allows a jurisdiction or an applicant to 
follow that project worksheet from the very moment it is 
entered in there and to know exactly what the status of that 
project worksheet is.
    Now, the Public Assistance Program is, by nature, designed 
to ensure accountability. It is not a block grant program, it 
is a project-by-project program; and so it requires that the 
scope of work be drawn up, it requires that the eligibility of 
the funding be determined in advance, and it requires that it 
go through, each project worksheet, a number of steps to 
include environmental reviews, historical reviews, et cetera.
    So it is not an instant process, it is not a process 
designed to just put a chunk of money in somebody's hands to go 
and rebuild something. It is a process designed to validate 
that, to make sure that accountability gauntlets have been met. 
And it is a reimbursable program.
    Now, recognizing, as we did in Katrina and other disasters, 
that applicants may be cashed strapped, we have got some 
regulatory changes in the pipeline right now. Among them is an 
ability for us to advance-fund some portion of a grant to the 
applicant, and then they can continue to draw against that on 
an advance basis as they expend funding.
    So we believe that will be helpful in the future for 
applicants who, in fact, are cash strapped and need an advance 
to begin moving out on a project.
    Ms. Roybal-Allard. So you are moving to correct some of the 
problems?
    Mr. Garratt. Absolutely.
    Mr. Price. Thank you.
    Mr. Farr.

                    EMERGENCY DELIBERATION CRITERIA

    Mr. Farr. Thank you very much, Mr. Chairman. Just one 
observation on the sheltering.
    My only experience with that is--and I think totally 
underutilized, you might look at--almost every county in the 
United States has a fairgrounds. And what we found is that they 
are totally inadequate as infrastructure for sewer and water, 
but they could be readily adjusted to house a lot of people, 
and they are readily available. And most disaster plans haven't 
even thought about them.
    Let me ask a couple of questions. One is, I am sharing a 
lot of the concerns that people on this panel have had that 
there is a major distinction between an emergency declaration 
and a major declaration. And the distinction is, frankly, the 
emergency declaration helps the public sector. It helps the 
government get reimbursed on a 75 percent basis, but it does 
nothing for the civilian population that is injured.
    And that criteria is a narrow call, and it seems to me--I 
really appreciate the response on the ice storms, but we had 
fire, just the opposite, heat this summer in California. At one 
time, 1,000 fires started by lightning. It required a response 
of the national effort; and Forest Service said that three-
quarters of the total wildland firefighting capacity of the 
United States was sent to California.
    In my district, 250,000 acres burned. It was the largest 
and longest burning fire in California, and yet it never met 
the major disaster threshold. And so, therefore, the people 
never had the ability to get reimbursed for costs incurred--
rental, and dislocations and repairs.
    I really question why that didn't become a major disaster, 
and perhaps you can come to my office and we can talk more 
about it. But I think we are going to have to think about that. 
You had a lot--it was $150 million that you spent just putting 
out the fire in my one county, but no help to the civilians.

              NAVAL POSTGRADUATE FEDERAL TRAINING FACILITY

    My question is about--and I want to praise you for it and 
get a response for it--is that in the post-Katrina act we made 
FEMA the sponsor of the Nation's premier education, graduate 
education institution for homeland security at the Naval 
Postgraduate Federal Facility. That is in my district. And you 
have done an incredible job of educating State, local, and 
Federal leaders for preparing and for disaster preparedness. 
Dozens of governors and mayors have used the center. They have 
produced a curriculum now which is being used all over the 
United States, and it has been very successful.
    My question to you is, will you ensure that this program 
remains the centerpiece for education of emerging homeland 
security leaders and--that can grow to meet the challenges of 
FEMA and the Nation that we are confronting not only here but 
abroad? And obviously the answer is ``yes.''
    Mr. Garratt. Sir, we are very proud of that program as 
well.
    Mr. Farr. And you are going to continue to fund it?
    Mr. Garratt. As far as I know, we have every intention of 
continuing that program.

    HOMELAND SECURITY PRESIDENTIAL DIRECTIVE NUMBERS 5 AND 8 CHANGES

    Mr. Farr. Thank you. The other question I have, which is 
related to a big question here, is that in the Post-Katrina 
Emergency Management Reform Act, we specified that the FEMA 
administrator would lead the Nation's efforts to prepare for, 
protect against, respond to, recover from, and mitigate against 
the risks of natural disasters, acts of terrorism, and other 
manmade disasters. That change was vital to fix the disaster 
response problems from Hurricane Katrina. Yet, for some reason, 
the Bush administration never responded to the statutory reform 
by revising two Presidential directives that guide disaster 
response; that is, the Homeland Security Presidential Directive 
No. 5, and Homeland Security Presidential Directive No. 8.
    As the Obama administration reviews the legacy of the 
HSPDs, isn't it time to change those two directives to reflect 
one of the most critical features of the post-Katrina reform?
    Mr. Garratt. Sir, I cannot speak for the White House on 
this, but I do know that the White House is relooking--the 
Homeland Security Council--they are relooking at the structure 
of the Homeland Security Council vis-a-vis the National 
Security Council; and I would expect that as part of this 
elongated process, they will be revisiting all of the HSPDs 
that have been published to see what revisions, if any, are 
appropriate.
    I am not aware that HSPD 5 or HSPD 8 is necessarily in the 
queue for a revision, but I would be very surprised if they are 
not revisited under the new administration.
    Mr. Farr. If they are not in the queue, how do they get 
there? It is of keen interest to this committee.
    Mr. Garratt. I am not aware that they are not in the queue, 
Congressman Farr. Again, it is something that the Homeland 
Security Council and the White House would have the stick on.
    I am not personally aware of what the status is of either 
one of those documents as part of the engagement that they are 
making to relook at, again, the National Security Council, the 
Homeland Security Council, and how they are going to manage 
that moving into the future.
    My expectation would be, though, or I would--that as part 
of that extended effort, that they would be looking at and 
revisiting HSPDs as just a normal part of doing business. We 
look at and revisit our policies and regulations on a regular 
basis, and I would expect that the same would be done for those 
documents.
    Mr. Farr. And both of these are needed to be relooked at. 
Don't you agree?
    Mr. Garratt. I think every policy and every regulation 
ought to be looked at on a regular basis, sir.
    Mr. Price. Thank you.
    Mr. Calvert.

              COMMUNICATIONS WITH CALIFORNIA ON WILDFIRES

    Mr. Calvert. Thank you, Mr. Chairman.
    This is your third Californian in a row, so we have it 
all--earthquakes, wildfires, floods, droughts, pestilence. But 
I want to talk about the State of California's continuing 
drought along the Santa Ana area. The Santa Ana winds provide a 
lethal combination.
    As a result, as Mr. Farr mentioned, California had 
experience with fires last year; and we have a very strong, 
effective fire management system in California, as you know, 
because we are very experienced with fire. For the most part, 
the State manages wildfire incidents on our own, and we do a 
good job, but obviously sometimes we get overburdened.
    As an example, in 2007, the fires hit nearly every county 
in southern California. And because of this ongoing drought 
that we are having in California, we expect, probably, future 
incidents in the future.
    So my questions, primarily: Does FEMA maintain a 
communication with State authorities and CAL FIRE in advance of 
a wildfire season to ensure prompt action, when needed?
    Mr. Garratt. The answer is absolutely yes, sir. Region 9, 
which is located in Oakland, California--Nancy Ward is 
currently the acting administrator of FEMA; she is, in her 
regular day job, the regional administrator for Region 9. She 
and her organization are in regular communication with the 
State of California, and I think that they have an 
exceptionally good working relationship.

             GETTING FIREFIGHTING AIRCRAFT INTO CALIFORNIA

    Mr. Calvert. One of the issues that we had last time--
again, it seems to be a continuing problem--is coordination of 
aircraft, getting aircraft into California from various areas; 
and with the military, also issues of command and control. Do 
you get involved in those issues?
    Mr. Garratt. We generally get involved in identifying 
requirements. We have, on an episodic basis, run into 
occasional competition for air resources. There are often some 
issues when we are transitioning from a nondisaster to a 
disaster fire management situation where management of air 
resources is being done by the National Interagency Fire 
Center. Once there is a disaster and we have got a Federal 
management of that out of FEMA, what we may find is, there is a 
transitional period while we are working out management of 
certain assets or if we are bringing in additional assets. The 
bottom line is, we occasionally run into problems in that 
regard.
    We measure our success, though, by how quickly we fix and 
resolve those problems. We have never run into any systemic 
problems that haven't been fixed quickly.
    Mr. Calvert. I will just predict, we are going to need 
additional aircraft quickly probably this summer, and that--
hopefully, that is staged properly.
    One of the problems we did have is an issue with spotters 
on helicopters and different kinds of aircraft and 
intercommunication with the military.
    And I don't know, General, if you are aware of that problem 
we had in California. You might want to comment on that, if you 
can.

                     STATE ACTIVE DUTY COMPENSATION

    General Tonini. Sir, I spent the last 4 days speaking with 
my fellow adjutant generals. And so, while all disasters are 
local, I dealt with the local aspects of each one of your 
adjutant generals; and I can tell you that there is one element 
that is absolutely ``broke,'' and that is this whole idea of 
State active duty and how an adjutant general addresses that.
    We applied--we requested title 32, 502(f), and that request 
was denied. But it causes a myriad of issues and a myriad of 
problems to an adjutant general.
    The reality of it is that if a soldier is hurt when we 
called him to duty, his injury is not addressed in the same way 
it would be if he was on title 32 status. He becomes a 
workmen's comp issue. And we put these soldiers in harm's way; 
without doubt, a soldier with a chainsaw and three inches of 
bites is in harm's way. There are no bullets flying at him, but 
he is in harm's way.
    We have at least 17 instances of M-day soldiers, part-time 
soldiers, who will lose time from their civilian occupations, 
and they will then be reimbursed only through workmen's 
compensation a very small fraction of what they would otherwise 
get.
    They also lose all the benefits from their civilian 
employers; and we have a situation--one situation where a 
firefighter who was injured and had to have surgery on his leg 
not only will be getting less during the 6 months while he 
rehabilitates himself--he will be getting half the amount of 
money that he normally would get, and loses his insurance 
coverage for his entire family. And that particular soldier has 
two daughters that were scheduled for surgery, and he now is 
without insurance.
    On top of that, you have situations where soldiers are on 
duty, they are on duty based on the type of orders that they 
are on. And because of cross-purposes on orders, we have to 
take key people out of the fight. We had OH-58 helicopter 
pilots that were running the lines and determining where roads 
needed to be cleared; and after 72 hours we had to take them 
off of duty because they were cross-purposed--because their 
duty was counterdrug, and they weren't doing counterdrug, they 
were doing emergency management.
    I believe that the system, sir, is broken. And as I talk to 
all of my adjutant generals, everyone agrees that we are better 
than this. As a nation, we are better than this. It is our 
responsibility as adjutant generals to make sure that we take 
care of our soldiers and airmen, and in fact, in this 
particular instance, we are not.
    And I know that the system is--Mr. Garratt and I didn't 
particularly talk, but I talk to many, many people within FEMA 
and Homeland Security, and the process is not allowing this to 
happen, but the system systemically is broken, and we owe it to 
our people to try to fix it, I believe.
    Mr. Price. Thank you, General.
    We have had a vote called on the floor. We have Members 
waiting to ask their questions. If I could ask people to be as 
brief as possible, we will try to get the maximum exchange in. 
We will not be able to come back after the vote.
    Mr. Serrano.

                             RESPONSE TIME

    Mr. Serrano. Thank you. I will be brief. One of my 
questions is already out, but I would like to make a prefacing 
comment.
    Every so often we hear about the role of the National 
Guard. The fact of life is that during the last 5 years the 
National Guard has been taxed to go somewhere else overseas. 
And in many cases, those units have not been around. And that 
is a fact.
    Recent articles on the Kentucky ice storm, for the most 
part, praise the administration for its disaster response while 
also highlighting the fact that some areas had to wait a week 
or longer for assistance that reached other parts of the State 
much sooner.
    It is understandable that some areas will naturally be more 
difficult to serve in times of emergency, but can you provide a 
framework for what is considered to be a realistic emergency 
response timeline? What steps is FEMA taking to streamline a 
request and response process? And how can FEMA and State and 
local emergency management agencies better partner the request 
and response process?
    [The information follows:]

    Answer. Initial disaster response resides with the local/state 
government; states determine requirements that if determined to be 
beyond its capability are passed to the Regional and Federal level for 
assistance. Given these parameters of request, validate, source and 
deliver, a realistic emergency response timeline is not more than 72 
hours*, but may be much less, depending on how much advance notice FEMA 
has, and FEMA's ability to preposition assets (people, equipment, 
supplies) near the threatened area. The Mission Assignment is the 
vehicle used by FEMA in a Stafford Act major disaster or emergency 
declaration to order immediate, short-term disaster response assistance 
from Departments and Agencies to help State, local, and tribal 
governments that are overwhelmed by the event and unable to perform the 
necessary work. To further streamline and facilitate rapid disaster 
response, FEMA has also approved a number 236 Pre-Scripted Mission 
Assignments (PSMAs) with 29 Federal Departments and Agencies.
    FEMA can pre-stage assets into an area to provide the strategic 
resource capability in the form of initial response resources based on 
anticipated requirements of a pending disaster and before a disaster 
declaration through a network of National Logistics Staging Areas 
(NLSAs). NLSAs are an extension of the national distribution system 
which includes Distribution Centers as well as positioning sites 
enabling an agile, flexible and adaptable resource management and 
provisioning capability. This is vital to ensure that resources are in 
or near the area of disaster impact for immediate distribution upon 
direction of the appropriate state and federal officials. This concept 
allows FEMA to position in advance for a quick response, but actual 
assistance cannot be provided until the Governor requests and a 
Presidential declaration is made.
    Disaster response support is also coordinated and provided through 
one or more of the NRF's 15 Emergency Support Functions (ESFs). The 
ESFs serve as the primary operational-level mechanism supporting FEMA 
in providing State and local disaster assistance in functional areas 
such as transportation, communications, public works and engineering, 
firefighting, mass care, housing human services, public health and 
medical services, search and rescue, agriculture, and energy.
    FEMA also manages a network of FEMA operations centers to 
coordinate and sustain response operations, maintain situational 
awareness, and provide a common operating picture for DHS and FEMA 
leadership. This network provides a critical coordination and 
information sharing mechanism used to accelerate the provision of 
assistance to State and local governments in need. These centers not 
only facilitate information sharing between FEMA, non-FEMA entities, 
and the State and local governments, but help ensure a consolidated, 
consistent, and accurate status of on-going incidents, responses, or 
potential events. The operations centers are also used to facilitate 
information exchange and coordination for impending events, such as an 
approaching hurricane. Also, through future planning capabilities that 
have been developed, FEMA often begins monitoring and preparing for 
evolving disaster situations that may end up in an emergency or 
disaster declaration. As well, FEMA along with State/Local emergency 
management agencies should identify local resource capability to better 
serve their own state. For example, monies could be granted to 
facilities to purchase generators to keep businesses running during 
power outages. A valid gap analysis should be done to identify 
shortfalls within the state and develop an agreed upon action plan on 
how to support the shortfall.
    *Note: FEMA Logistics was able to respond to Kentucky's emergency 
with generators, meals and water within 36 hours from the original 
request. Blankets and cots were delivered within 24 hours once the 
request was submitted to HQ Logistics. All commodities that were 
requested by the state were turned over to the State National Guard who 
distributed to the local communities.

    Mr. Price. Let me suggest, Mr. Serrano, that we allow the 
other Members to register their questions as well; and then we 
will take as much time as we can for an oral response, starting 
with yours, and then ask responses for the record in other 
cases.

                    INTEROPERABILITY COMMUNICATIONS

    But, please, Ms. Lowey.
    Mrs. Lowey. Great. Thank you. I will try and talk very 
quickly. I want to make one point and then get to the question.
    Several people talked about emergency communications, and 
as the Chairman knows, I am very grateful for his focus on it. 
I have been talking about it since I came to Congress, 
especially after the last disaster. The program has authorized 
$400 million after hearing another story of communication 
breakdowns. I think it is absolutely essential, Mr. Chairman, 
that we continue to adequately provide funding for--Mr. 
Chairman, all I said of my comment was, thank you. Before I get 
to the question, thank you for your appropriation on emergency 
communications. This has been an issue--interoperability, I 
have been talking about--and I think we all have to work 
together to continue to increase it. Your story and others are 
just disasters, in addition to the disaster that took place.
    [The information follows:]

                            Interoperability

    In her Senate confirmation hearing, Secretary Napolitano stated 
that Arizona's key obstacle to first responder interoperable 
communications was funding.
    <bullet> Mr. Garratt, as FEMA works with OMB on the budget request, 
could you preview a possible range for the budget request for 
interoperable communications grants?
    Answer. Thank you for the question. However, DHS and FEMA are still 
working with OMB on the budget request for FY 2010. Until those 
negotiations have been finalized, we are unable to comment on this 
request but will be happy to brief you on this at a later date.
    <bullet> Mr. Garratt, please describe how FEMA coordinates with OEC 
to strengthen first responder communication networks.
    Answer. FEMA is working to improve disaster emergency 
communications capabilities and to strengthen the Federal response to 
incidents in coordination with the Office of Emergency Communications 
(OEC).
    <bullet> FEMA is working closely with OEC to identify critical 
milestones needed to implement the goals in the National Emergency 
Communications Plan (NECP). The NECP requires the demonstration of 
response-level emergency communications capabilities by all 
jurisdictions. FEMA continues to coordinate milestone actions with OEC.
    <bullet> FEMA is coordinating the development of State Disaster 
Emergency Communications DEC Operational Plans through the Regional 
Emergency Communications Coordination Working Groups (RECCWG), 
established as a focal point for coordinating disaster emergency 
communications activities in the FEMA Regions. The State DEC 
Operational Plans provide an integrated Federal, State, local, and 
tribal approach to ensuring effective emergency communications 
coordination prior to and immediately following an incident. In 
developing these plans, FEMA uses OEC's Statewide Communication 
Interoperability Plans (SCIP) and its Tactical Interoperable 
Communications Plan (TICP) to identify State and local emergency 
communications requirements and strategies to improve response 
capabilities.
    <bullet> OEC participates in FEMA's RECCWG meetings.
    <bullet> FEMA is an active participant in the OEC-led Emergency 
Communications Preparedness Center (ECPC) working group meetings which 
provide an opportunity to strengthen interoperability among Federal 
responders.
    <bullet> FEMA has invited OEC to participate in the FEMA Regional 
DEC Coordinator Summit scheduled for March 11-12, 2009.
    FEMA's Disaster Emergency Communications (DEC) is responsible for 
providing the means and method of transmitting and receiving voice, 
date, and video messages, information, and images critical to the 
successful management of disaster incident where communications 
infrastructure has been negatively impacted or lost. DEC must be 
integrated at all levels of government to effectively serve as the 
backbone of emergency response operations.
    More specifically, DEC is responsible for:
    <bullet> Ensuring operable and interoperable communications are 
available in a disaster.
    <bullet> Providing voice, video, and data communications for 
responders and Federal partners.
    <bullet> Supporting emergency management across the entire disaster 
management lifecycle--preparedness, protection, response, recovery, and 
mitigation.

    I want to make one other point. While in New York last 
week, Secretary Napolitano stated with regard to grants: We 
need to be giving money based on really very vigorous risk and 
thinking about what targets are. The Secretary is absolutely 
correct.

            URBAN AREA SECURITY INITIATIVE GRANT RECIPIENTS

    Unfortunately, FEMA hasn't received that message, Mr. 
Garratt. In December, GAO reported that in the final days of 
the Bush administration, the Department of Homeland Security 
made a policy decision to expand the number of UASI recipients 
from 60 to 62 areas, nearly nine times the number of original 
UAC cities.
    Every area of the country, we know, has different needs. 
That is why we have programs such as the State Homeland 
Security Grant Program, the Emergency Management Performance 
Grant Program. However, it is imperative that resources for 
high-risk urban area programs are only going to high-risk from 
urban areas.
    I know that some decisions had to be made prior to 
installment of the Obama administration so that funds are 
issued in a timely manner, but the Department's previous grant 
allocation has been quite controversial, and I would think 
there would be a way to facilitate the expedient release of 
grants and work with the new administration.
    So the questions are: Mr. Garratt, since increasing the 
number of urban area recipients contradicts the Secretary's 
statement last week, is it likely that FEMA will not award 
funding to all 62 areas that are eligible to apply?
    [The information follows:]

    Answer. Final funding decisions for the Urban Areas Security 
Initiative (UASI) have not been finalized yet, so the Department cannot 
speak to the likelihood or certainty of specific awards. The UASI 
program is a risk-based initiative that was established to dedicate 
resources to high-threat, high-density metropolitan areas to prevent, 
protect against, respond to, and recover from terrorism. In order to 
determine eligibility for this program, and be consistent with section 
101 of the Implementing Recommendations of the 9/11 Commission Act of 
2007 (P. L. 110-053), the Department analyzes the relative risk of the 
top 100 Metropolitan areas based on population. Given the unpredictable 
nature of terrorist threat, all areas analyzed have some level of risk. 
In determining the final list of eligible entities for the UASI 
program, the Department must balance the level of risk and the 
implementation of activities that will have a meaningful impact on risk 
reduction and the enhancement of preparedness capabilities. As such, it 
is likely all Urban Areas that were announced as eligible for the FY 
2009 UASI program will receive at least some level of funding.
    It is important to note the Department has taken other steps to 
ensure that Urban Areas with the highest risk receive the highest 
allocations. More than half the funding (55%) available has been 
designated for the top seven (Tier 1) Urban Areas, based on the results 
for the risk assessment. All remaining eligible Urban Areas (Tier 2) 
compete for the remaining 45%. As a result, the addition of the two 
additional Urban Areas in the program for FY 2009 does not have a 
detrimental impact on the highest risk Urban Areas, as 55% of the 
funding has already been designated for them. In FY 2008, 53 Urban 
Areas competed for the remaining 45% of funds; in FY 2009, 55 Urban 
Areas will compete for the remaining funds. Consistent with prior 
years, the highest risk Urban Areas will receive the majority of the 
funds.

    I would like to remind you that Congress does not set a 
floor for the number of UASI recipients. In previous years, I 
have been told that the Department's political leadership has 
determined the number of UASI recipients. Who decided to 
increase the number of fiscal year 2009 UASI recipients from 60 
to 62?
    Mr. Price. That is a very good question, and we will await 
the answer, probably for the record. Thank you.
    [The information follows:]

    Answer. The final determinations for eligible entities for the UASI 
program were made by the Secretary based on the results of the risk 
analysis provided by FEMA/GPD, in conjunction with other DHS partners, 
to include the Office of Intelligence and Analysis (I&A) and the Office 
of Infrastructure Protection (IP).

    Mr. Price. Mr. Ruppersberger.

                 LOCAL TRAINING, PLANNING AND EXERCISES

    Mr. Ruppersberger. We all have issues. I happen to have the 
Chesapeake Bay, had to deal with Isabel. We have California. We 
have New York.
    I was in local government for a long time, and I think one 
of the issues we needed to learn from Katrina is that the 
locals and State were not coordinated and didn't prepare. If 
you prepare and educate and have a plan before an event occurs, 
it happens a lot better. And I feel that is FEMA's role, to 
help the coordination.
    And the only other thing: I think you have gotten a lot 
better. I think management starts at the top, I am glad you 
have been there for over 10 years, and that makes a difference 
to have professionals in that position.
    The one area that I still think needs work on is, after the 
event occurs and people then are out of their homes or 
whatever, it seems that there is still a bureaucratic maze. And 
that is when it gets more difficult; we have to make sure that 
we plan ahead for that, too.
    Now, I know the new law's direct line to the President, and 
that makes things help; but we have to cut through the 
bureaucracy once the storm or catastrophe hits.
    And those are my only issues. But coordination of State and 
local training, planning, having exercises.
    I happen to be in Maryland and Maryland has one of the best 
trauma systems in the world. They have exercises every year 
where they will go to the Ravens stadium and have an exercise, 
as if there was an attack, and they train. And I would hope 
that FEMA would focus on that, because if you have your 
supplies, you have the people ready, it makes a big difference.
    Thanks for being here.
    Mr. Price. Thank you, Mr. Ruppersberger, and we welcome you 
to the Subcommittee, by the way. We are glad to have you join 
us.
    Well, let me ask you to take under advisement particularly 
the questions raised by the last three Members, as well as 
questions that all of us will submit in addition to the ones 
submitted orally, and ask you to respond for the record.
    I apologize for the rush, but that is life in this 
institution, and we must go vote. We do appreciate your being 
here. We appreciate your good work, first of all, but also your 
willingness to come in here and help us assess not only the 
response to these major disasters in Kentucky and nearby 
States, but also to take some stock of the way FEMA is 
preparing for disasters and the kind of efforts to improve 
capacity that are ongoing there.
    So thank you. It is very helpful. And we will look forward 
to working with you as we put next year's budget together.
    Mr. Rogers, do you have any closing thoughts?
    Mr. Rogers. Very briefly, to thank the gentlemen for 
appearing with us and answering the questions, being helpful to 
us. And I want to end quickly by congratulating the General for 
him and his staff and all the Guardsmen in Kentucky. Everyone 
was called up, and they made us all proud, and they saved a lot 
of lives. And we are indebted to you, sir.
    Mr. Price. Thank you. The Subcommittee is adjourned.

    [GRAPHIC] [TIFF OMITTED] T2213A.030
    
    [GRAPHIC] [TIFF OMITTED] T2213A.031
    
    [GRAPHIC] [TIFF OMITTED] T2213A.032
    
    [GRAPHIC] [TIFF OMITTED] T2213A.033
    
    [GRAPHIC] [TIFF OMITTED] T2213A.034
    
    [GRAPHIC] [TIFF OMITTED] T2213A.035
    
    [GRAPHIC] [TIFF OMITTED] T2213A.036
    
    [GRAPHIC] [TIFF OMITTED] T2213A.037
    
    [GRAPHIC] [TIFF OMITTED] T2213A.038
    
    [GRAPHIC] [TIFF OMITTED] T2213A.039
    
    [GRAPHIC] [TIFF OMITTED] T2213A.040
    
    [GRAPHIC] [TIFF OMITTED] T2213A.041
    
    [GRAPHIC] [TIFF OMITTED] T2213A.042
    
    [GRAPHIC] [TIFF OMITTED] T2213A.043
    
    [GRAPHIC] [TIFF OMITTED] T2213A.044
    
    [GRAPHIC] [TIFF OMITTED] T2213A.045
    
    [GRAPHIC] [TIFF OMITTED] T2213A.046
    
    [GRAPHIC] [TIFF OMITTED] T2213A.047
    
    [GRAPHIC] [TIFF OMITTED] T2213A.048
    
    [GRAPHIC] [TIFF OMITTED] T2213A.049
    
    [GRAPHIC] [TIFF OMITTED] T2213A.050
    
    [GRAPHIC] [TIFF OMITTED] T2213A.051
    
    [GRAPHIC] [TIFF OMITTED] T2213A.052
    
    [GRAPHIC] [TIFF OMITTED] T2213A.053
    
    [GRAPHIC] [TIFF OMITTED] T2213A.054
    
    [GRAPHIC] [TIFF OMITTED] T2213A.055
    
    [GRAPHIC] [TIFF OMITTED] T2213A.056
    
    [GRAPHIC] [TIFF OMITTED] T2213A.057
    
    [GRAPHIC] [TIFF OMITTED] T2213A.058
    
    [GRAPHIC] [TIFF OMITTED] T2213A.059
    
    [GRAPHIC] [TIFF OMITTED] T2213A.060
    
    [GRAPHIC] [TIFF OMITTED] T2213A.061
    
    [GRAPHIC] [TIFF OMITTED] T2213A.062
    
    [GRAPHIC] [TIFF OMITTED] T2213A.063
    
    [GRAPHIC] [TIFF OMITTED] T2213A.064
    
    [GRAPHIC] [TIFF OMITTED] T2213A.065
    
    [GRAPHIC] [TIFF OMITTED] T2213A.066
    
    [GRAPHIC] [TIFF OMITTED] T2213A.067
    
    [GRAPHIC] [TIFF OMITTED] T2213A.068
    
    [GRAPHIC] [TIFF OMITTED] T2213A.069
    
    [GRAPHIC] [TIFF OMITTED] T2213A.070
    
    [GRAPHIC] [TIFF OMITTED] T2213A.071
    
    [GRAPHIC] [TIFF OMITTED] T2213A.072
    
    [GRAPHIC] [TIFF OMITTED] T2213A.073
    
    [GRAPHIC] [TIFF OMITTED] T2213A.074
    
    [GRAPHIC] [TIFF OMITTED] T2213A.075
    
    [GRAPHIC] [TIFF OMITTED] T2213A.076
    
    [GRAPHIC] [TIFF OMITTED] T2213A.077
    
    [GRAPHIC] [TIFF OMITTED] T2213A.078
    
    [GRAPHIC] [TIFF OMITTED] T2213A.079
    
    [GRAPHIC] [TIFF OMITTED] T2213A.080
    
    [GRAPHIC] [TIFF OMITTED] T2213A.081
    
    [GRAPHIC] [TIFF OMITTED] T2213A.082
    
    [GRAPHIC] [TIFF OMITTED] T2213A.083
    
    [GRAPHIC] [TIFF OMITTED] T2213A.084
    
    [GRAPHIC] [TIFF OMITTED] T2213A.085
    
    [GRAPHIC] [TIFF OMITTED] T2213A.086
    
    [GRAPHIC] [TIFF OMITTED] T2213A.087
    
    [GRAPHIC] [TIFF OMITTED] T2213A.088
    
    [GRAPHIC] [TIFF OMITTED] T2213A.089
    
    [GRAPHIC] [TIFF OMITTED] T2213A.090
    
    [GRAPHIC] [TIFF OMITTED] T2213A.091
    
    [GRAPHIC] [TIFF OMITTED] T2213A.092
    
    [GRAPHIC] [TIFF OMITTED] T2213A.093
    
    [GRAPHIC] [TIFF OMITTED] T2213A.094
    
    [GRAPHIC] [TIFF OMITTED] T2213A.095
    
    [GRAPHIC] [TIFF OMITTED] T2213A.096
    
    [GRAPHIC] [TIFF OMITTED] T2213A.097
    
    [GRAPHIC] [TIFF OMITTED] T2213A.098
    
    [GRAPHIC] [TIFF OMITTED] T2213A.099
    
    [GRAPHIC] [TIFF OMITTED] T2213A.100
    
    [GRAPHIC] [TIFF OMITTED] T2213A.101
    
    [GRAPHIC] [TIFF OMITTED] T2213A.102
    
    [GRAPHIC] [TIFF OMITTED] T2213A.103
    
    [GRAPHIC] [TIFF OMITTED] T2213A.104
    
    [GRAPHIC] [TIFF OMITTED] T2213A.105
    
    [GRAPHIC] [TIFF OMITTED] T2213A.106
    
    [GRAPHIC] [TIFF OMITTED] T2213A.107
    
    [GRAPHIC] [TIFF OMITTED] T2213A.108
    
    [GRAPHIC] [TIFF OMITTED] T2213A.109
    
    [GRAPHIC] [TIFF OMITTED] T2213A.110
    
    [GRAPHIC] [TIFF OMITTED] T2213A.111
    
    [GRAPHIC] [TIFF OMITTED] T2213A.112
    
    [GRAPHIC] [TIFF OMITTED] T2213A.113
    
    [GRAPHIC] [TIFF OMITTED] T2213A.114
    
    [GRAPHIC] [TIFF OMITTED] T2213A.115
    
    [GRAPHIC] [TIFF OMITTED] T2213A.116
    
    [GRAPHIC] [TIFF OMITTED] T2213A.117
    
    [GRAPHIC] [TIFF OMITTED] T2213A.118
    
    [GRAPHIC] [TIFF OMITTED] T2213A.119
    
    [GRAPHIC] [TIFF OMITTED] T2213A.120
    
    [GRAPHIC] [TIFF OMITTED] T2213A.121
    
    [GRAPHIC] [TIFF OMITTED] T2213A.122
    
    [GRAPHIC] [TIFF OMITTED] T2213A.123
    
    [GRAPHIC] [TIFF OMITTED] T2213A.124
    
    [GRAPHIC] [TIFF OMITTED] T2213A.125
    
    [GRAPHIC] [TIFF OMITTED] T2213A.126
    
    [GRAPHIC] [TIFF OMITTED] T2213A.127
    
    [GRAPHIC] [TIFF OMITTED] T2213A.128
    
    [GRAPHIC] [TIFF OMITTED] T2213A.129
    
    [GRAPHIC] [TIFF OMITTED] T2213A.130
    
    [GRAPHIC] [TIFF OMITTED] T2213A.131
    
    [GRAPHIC] [TIFF OMITTED] T2213A.132
    
    [GRAPHIC] [TIFF OMITTED] T2213A.133
    
    [GRAPHIC] [TIFF OMITTED] T2213A.134
    
    [GRAPHIC] [TIFF OMITTED] T2213A.135
    
    [GRAPHIC] [TIFF OMITTED] T2213A.136
    
    [GRAPHIC] [TIFF OMITTED] T2213A.137
    
    [GRAPHIC] [TIFF OMITTED] T2213A.138
    
    [GRAPHIC] [TIFF OMITTED] T2213A.139
    
    [GRAPHIC] [TIFF OMITTED] T2213A.140
    
    [GRAPHIC] [TIFF OMITTED] T2213A.141
    
    [GRAPHIC] [TIFF OMITTED] T2213A.142
    
    [GRAPHIC] [TIFF OMITTED] T2213A.143
    
    [GRAPHIC] [TIFF OMITTED] T2213A.144
    
    [GRAPHIC] [TIFF OMITTED] T2213A.145
    
    [GRAPHIC] [TIFF OMITTED] T2213A.146
    
    [GRAPHIC] [TIFF OMITTED] T2213A.147
    
    [GRAPHIC] [TIFF OMITTED] T2213A.148
    
    [GRAPHIC] [TIFF OMITTED] T2213A.149
    
    [GRAPHIC] [TIFF OMITTED] T2213A.150
    
    [GRAPHIC] [TIFF OMITTED] T2213A.151
    
    [GRAPHIC] [TIFF OMITTED] T2213A.152
    
    [GRAPHIC] [TIFF OMITTED] T2213A.153
    
    [GRAPHIC] [TIFF OMITTED] T2213A.154
    
    [GRAPHIC] [TIFF OMITTED] T2213A.155
    
    [GRAPHIC] [TIFF OMITTED] T2213A.156
    
    [GRAPHIC] [TIFF OMITTED] T2213A.157
    
    [GRAPHIC] [TIFF OMITTED] T2213A.158
    
    [GRAPHIC] [TIFF OMITTED] T2213A.159
    
    [GRAPHIC] [TIFF OMITTED] T2213A.160
    
    [GRAPHIC] [TIFF OMITTED] T2213A.161
    
    [GRAPHIC] [TIFF OMITTED] T2213A.162
    
    [GRAPHIC] [TIFF OMITTED] T2213A.163
    
    [GRAPHIC] [TIFF OMITTED] T2213A.164
    
    [GRAPHIC] [TIFF OMITTED] T2213A.165
    
    [GRAPHIC] [TIFF OMITTED] T2213A.166
    
    [GRAPHIC] [TIFF OMITTED] T2213A.167
    
    [GRAPHIC] [TIFF OMITTED] T2213A.168
    
    [GRAPHIC] [TIFF OMITTED] T2213A.169
    
    [GRAPHIC] [TIFF OMITTED] T2213A.170
    
    [GRAPHIC] [TIFF OMITTED] T2213A.171
    
    [GRAPHIC] [TIFF OMITTED] T2213A.172
    
    [GRAPHIC] [TIFF OMITTED] T2213A.173
    
    [GRAPHIC] [TIFF OMITTED] T2213A.174
    
    [GRAPHIC] [TIFF OMITTED] T2213A.175
    
    [GRAPHIC] [TIFF OMITTED] T2213A.176
    
    [GRAPHIC] [TIFF OMITTED] T2213A.177
    
    [GRAPHIC] [TIFF OMITTED] T2213A.178
    
    [GRAPHIC] [TIFF OMITTED] T2213A.179
    
    [GRAPHIC] [TIFF OMITTED] T2213A.180
    
    [GRAPHIC] [TIFF OMITTED] T2213A.181
    
    [GRAPHIC] [TIFF OMITTED] T2213A.182
    
    [GRAPHIC] [TIFF OMITTED] T2213A.183
    
    [GRAPHIC] [TIFF OMITTED] T2213A.184
    
    [GRAPHIC] [TIFF OMITTED] T2213A.185
    
    [GRAPHIC] [TIFF OMITTED] T2213A.186
    
    [GRAPHIC] [TIFF OMITTED] T2213A.187
    
    [GRAPHIC] [TIFF OMITTED] T2213A.188
    
    [GRAPHIC] [TIFF OMITTED] T2213A.189
    
    [GRAPHIC] [TIFF OMITTED] T2213A.190
    
    [GRAPHIC] [TIFF OMITTED] T2213A.191
    
    [GRAPHIC] [TIFF OMITTED] T2213A.192
    
    [GRAPHIC] [TIFF OMITTED] T2213A.193
    
    [GRAPHIC] [TIFF OMITTED] T2213A.194
    
    [GRAPHIC] [TIFF OMITTED] T2213A.195
    
    [GRAPHIC] [TIFF OMITTED] T2213A.196
    
    [GRAPHIC] [TIFF OMITTED] T2213A.197
    
    [GRAPHIC] [TIFF OMITTED] T2213A.198
    
    [GRAPHIC] [TIFF OMITTED] T2213A.199
    
    [GRAPHIC] [TIFF OMITTED] T2213A.200
    
    [GRAPHIC] [TIFF OMITTED] T2213A.201
    
    [GRAPHIC] [TIFF OMITTED] T2213A.202
    
    [GRAPHIC] [TIFF OMITTED] T2213A.203
    
    [GRAPHIC] [TIFF OMITTED] T2213A.204
    
    [GRAPHIC] [TIFF OMITTED] T2213A.205
    
    [GRAPHIC] [TIFF OMITTED] T2213A.206
    
    [GRAPHIC] [TIFF OMITTED] T2213A.207
    
    [GRAPHIC] [TIFF OMITTED] T2213A.208
    
    [GRAPHIC] [TIFF OMITTED] T2213A.209
    
    [GRAPHIC] [TIFF OMITTED] T2213A.210
    
    [GRAPHIC] [TIFF OMITTED] T2213A.211
    
    [GRAPHIC] [TIFF OMITTED] T2213A.212
    
    [GRAPHIC] [TIFF OMITTED] T2213A.213
    
    [GRAPHIC] [TIFF OMITTED] T2213A.214
    
    [GRAPHIC] [TIFF OMITTED] T2213A.215
    
    [GRAPHIC] [TIFF OMITTED] T2213A.216
    
    [GRAPHIC] [TIFF OMITTED] T2213A.217
    
    [GRAPHIC] [TIFF OMITTED] T2213A.218
    
    [GRAPHIC] [TIFF OMITTED] T2213A.219
    
    [GRAPHIC] [TIFF OMITTED] T2213A.220
    
    [GRAPHIC] [TIFF OMITTED] T2213A.221
    
    [GRAPHIC] [TIFF OMITTED] T2213A.222
    
    [GRAPHIC] [TIFF OMITTED] T2213A.223
    
    [GRAPHIC] [TIFF OMITTED] T2213A.224
    
    [GRAPHIC] [TIFF OMITTED] T2213A.225
    
    [GRAPHIC] [TIFF OMITTED] T2213A.226
    
    [GRAPHIC] [TIFF OMITTED] T2213A.227
    
    [GRAPHIC] [TIFF OMITTED] T2213A.228
    
    [GRAPHIC] [TIFF OMITTED] T2213A.229
    
    [GRAPHIC] [TIFF OMITTED] T2213A.230
    
    [GRAPHIC] [TIFF OMITTED] T2213A.231
    
    [GRAPHIC] [TIFF OMITTED] T2213A.232
    
    [GRAPHIC] [TIFF OMITTED] T2213A.233
    
    [GRAPHIC] [TIFF OMITTED] T2213A.234
    
    [GRAPHIC] [TIFF OMITTED] T2213A.235
    
    [GRAPHIC] [TIFF OMITTED] T2213A.236
    
    [GRAPHIC] [TIFF OMITTED] T2213A.237
    
    [GRAPHIC] [TIFF OMITTED] T2213A.238
    
    [GRAPHIC] [TIFF OMITTED] T2213A.239
    
    [GRAPHIC] [TIFF OMITTED] T2213A.240
    
    [GRAPHIC] [TIFF OMITTED] T2213A.241
    
    [GRAPHIC] [TIFF OMITTED] T2213A.242
    
    [GRAPHIC] [TIFF OMITTED] T2213A.243
    
    [GRAPHIC] [TIFF OMITTED] T2213A.244
    
    [GRAPHIC] [TIFF OMITTED] T2213A.245
    
                                           Tuesday, March 17, 2009.

                      INTEROPERABLE COMMUNICATIONS

                               WITNESSES

DAVID BOYD, DIRECTOR, OFFICE OF INTEROPERABILITY AND COMPATIBILITY
CHRIS ESSID, DIRECTOR, OFFICE OF EMERGENCY COMMUNICATIONS
ROSS ASHLEY, ASSISTANT ADMINISTRATOR, FEMA GRANTS PROGRAM DIRECTORATE

                  Opening Statement of Chairman Price

    Mr. Price. The subcommittee will come to order. Good 
morning.
    In the 7\1/2\ years since the 9/11 attacks, there has been 
heightened concern about the ability or inability of our 
Nation's emergency responders to communicate with one another 
during crises. The need for firefighters, emergency medical 
personnel and law enforcement to talk to one another and for 
Federal emergency workers to be able to communicate with each 
is all too clear when disasters strike and our citizens require 
a coordinated government response. While progress has been made 
promoting interoperability, we in Congress hear almost daily 
about shortcomings preventing effective emergency 
communications.
    The Department of Homeland Security has a threefold 
approach to solving the interoperability puzzle, and we have 
witnesses from each organization within the Department here 
today.
    Dr. David Boyd is Director of the Office of 
Interoperability and Compatibility, or OIC as it is commonly 
known. That office conducts interoperability-related research, 
promulgates technical standards and works to develop new 
communications tools.
    Mr. Chris Essid is Director of the Office of Emergency 
Communications, or OEC. This office is responsible for 
coordinating national interoperable communications policy, 
guiding State planning efforts, and providing technical and 
training assistance to the emergency responder community.
    And Mr. Ross Ashley, back with us, welcome, Assistant 
Administrator of the FEMA Grants Program Directorate, which is 
responsible for reviewing and awarding State interoperable 
communications grants. The FEMA Grants Directorate also works 
with the Department of Commerce, National Telecommunications 
and Information Administration to distribute funds from the 
Public Safety Interoperability Communications Grant Program.
    The fundamental question all of us have is this: Why aren't 
we making faster progress toward effective interoperability? 
The Federal Government has a structure at DHS that appears to 
cover the full continuum of interoperability from research and 
development to policy, to acquisition and training. In 2007, 56 
Statewide Interoperability Communications Plans were submitted 
to DHS, which then reviewed and approved them in 2008. Congress 
has also provided multiple sources of funding to allow States 
and localities to invest in network upgrades and to acquire new 
equipment. However, one must look only as far as the severe 
communications problems during the response to Hurricane 
Katrina or more recent difficulties during last summer's 
wildfires, such as those in Big Sur, California, to see that 
the interoperability problem is far from being solved.
    This committee directly controls the funding that helps 
States and localities improve their communications and to 
purchase equipment meeting interoperability standards. In 2009, 
we appropriated $50 million for interoperable communications 
grants, the same as in 2008. Furthermore $1 billion in grant 
funding was provided by Congress for the Public Safety 
Interoperable Communications Grant program in 2007. Mr. Ashley, 
we are going to need an update on the award of these funds, and 
whether you think the money is being successfully invested to 
meet State and local needs.
    The research, policy and training programs at OIC and OEC 
help the emergency responder community make effective 
interoperability decisions. I am pleased that all the States 
and territories now have federally approved interoperable 
communications plans, and I see that as a major accomplishment 
of which DHS can be proud. However, we need to be vigilant that 
these plans are implemented rapidly and do not gather dust on a 
shelf.
    Mr. Essid and Dr. Boyd, we need to know how you will make 
sure these plans are turned into reality. You gentlemen know 
better than anyone else that simply purchasing the right 
equipment does not solve our interoperable communications 
challenges. There need to be workable plans in place to manage 
the conversion to new technology and procedures along with 
robust training for the actual operators of the system. I will 
be interested to hear about your efforts to ensure that the 
award of Federal grants for equipment is accompanied by serious 
efforts to train and prepare the State and local users. That 
way we can arrive at successful results and not waste money in 
the process.
    More broadly speaking, we also have to discuss Federal 
management of the public airwaves. While this committee does 
not the have jurisdiction over the Federal Communications 
Commission, which administers the radio spectrum, decisions 
that agency makes do directly affect DHS's interoperable 
communications programs. In early 2008, the FCC attempted to 
auction the D block of the 700 megahertz band and have the 
public sector build a national broadband network for emergency 
responders. However, that auction failed, and the FCC Office of 
the Inspector General reported bidders were scared off by the 
risk that costs for a robust emergency network could exceed 
revenues from broadband subscriptions.
    Since then many have questioned whether a nationwide 
emergency network managed by the private sector is necessary 
for interoperable communications, or even a good idea. An 
alternative approach would simply allocate spectrum licenses to 
regional entities that could then construct and manage publicly 
owned networks. I would like to hear from all of our witnesses 
about the advantages and disadvantages of such an approach, 
including how rapidly such networks could be deployed, what 
costs could or should be shouldered by the Federal Government, 
and whether such a technological solution is even feasible.
    So clearly we have a full agenda with many interesting and 
important topics. We thank all of you for appearing before the 
committee today. We look forward to your testimony.
    As is our usual practice, we will put your written 
statements in the hearing record, the complete statements, and 
ask you to summarize in 5-minute presentations. We will start 
with Dr. Boyd, followed by Mr. Essid, and then Mr. Ashley.
    Before that, however, I want to turn to John Carter, 
sitting in for now for our Ranking Member Hal Rogers, and ask 
Mr. Carter for any comments he has.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2213A.246
    
    [GRAPHIC] [TIFF OMITTED] T2213A.247
    
    [GRAPHIC] [TIFF OMITTED] T2213A.248
    
    [GRAPHIC] [TIFF OMITTED] T2213A.249
    
                    Opening Statement by Mr. Carter

    Mr. Carter. Thank you, Mr. Chairman. And I want to welcome 
the distinguished guests here today.
    One of the Nation's foremost preparedness goals since 9/11 
has been improved interoperable communications for emergency 
response communities at all levels of government. But despite 
being defined by law, the very term ``interoperability'' is 
perhaps one of the most abused terms in the field of homeland 
security. If I asked 10 people how to define interoperability, 
I would probably get 10 different responses.
    Simply put, interoperability is the right people being able 
to communicate at the right time. Whether it is the Border 
Patrol trying to talk to a local sheriff along the border, or 
the Coast Guard trying to radio a nearby hospital, or even a 
New York City firefighter trying to yell at a nearby cop, 
interoperability is an essential goal for our Nation's 
preparedness. Unfortunately, it is also a goal that has eluded 
the emergency response community for a long time.
    To address this issue, Congress created the Office of 
Emergency Communications, or OEC, and required a National 
Emergency Communication Plan. This plan, which was put into 
effect last August, provides a strategy for addressing our 
Nation's emergency communication shortfalls, and it does so by 
laying out discrete milestones over the next 4 years. My 
question to you is whether we are on track to meet those 
targets. But considering that more than $1 billion provided for 
interoperability grants and public safety interoperability 
communication grants over the last 3 fiscal years is still 
unspent, and given the delays in critical programs like the 
integrated wireless network, it is fairly obvious the 
Department's interoperability goals face some serious 
obstacles, obstacles that have to be and must be overcome.
    Today, with the help of our panel of witnesses, I hope we 
can learn more about the Department's progress towards ensuring 
our emergency responders can communicate as needed on demand at 
all levels of government. With such a vital need at stake, 
failure is certainly not an option. Mr. Chairman, I look 
forward to this discussion.
    Mr. Price. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2213A.250
    
    [GRAPHIC] [TIFF OMITTED] T2213A.251
    
    [GRAPHIC] [TIFF OMITTED] T2213A.252
    
    Mr. Price. Dr. Boyd, please begin.

                     Opening Statement of Dr. Boyd

    Mr. Boyd. Good morning, Chairman Price, Mr. Carter, members 
of the subcommittee.
    As the members of this committee are well aware, 
communications is essential to the success of any emergency 
response operation. Emergency responders need to share vital 
data and voice information across disciplines and jurisdictions 
to successfully respond to day-to-day incidents as well as to 
large-scale emergencies, which means we have to strengthen both 
operability, a prerequisite, as well as interoperability by 
developing tools, technologies and methodologies that agencies 
can use both day to day and in emergencies.
    But achieving interoperable communications requires a focus 
on genuine user needs, so we rely on both practitioners and 
policymakers across disciplines, jurisdictions and levels of 
government to ensure that our work is aligned with actual 
responders' needs. We do this by piloting new technologies; 
developing and disseminating best practices, lessons learned, 
case studies and other tools; testing and evaluating current 
technologies; and creating methodologies for use by responders.
    Most of the tools in common use across the United States 
today were developed in the Office for Interoperability and 
Compatibility, the communications component of my division. 
These include the Interoperability Continuum, about which you 
will probably hear a great deal; the Public Safety Statement of 
Requirements for Interoperability, the first such document; the 
Statewide Communications Interoperability Planning Guide 
methodology, the first baseline study of interoperability ever 
conducted in the United States; and the Communications Unit 
Leader Syllabus, which is now used for training of 
communications leaders and many others. Both Canada and the 
United Kingdom have adopted many of these tools. They call it 
borrowing with pride.
    Working with practitioners, we developed the core strategy 
for improving interoperability for the Nation's emergency 
responders, which is focused on promoting a system of systems 
approach, which uses standards-based communications equipment. 
This approach gives emergency response agencies the flexibility 
to select equipment that best meets their unique technical 
requirements and budget constraints. It also allows 
communications among systems owned and operated by different 
responder agencies that may have been developed by different 
manufacturers.
    Experience shows that the first requirement in introducing 
any new technology or concept is to first establish its 
credibility by proving it really works in an operational 
environment. We do this by initiating a pilot. But a single 
pilot demonstration in a single locality or region rarely 
generates sufficient information to answer the questions about 
whether it works, whether it works properly and whether it 
works adequately. So we have to do this in a number of places 
before we can expect to develop a replicable model for the 
Nation, because every jurisdiction, community and geographic 
area in the United States is different and has different needs 
and problems. We conduct these pilots and demonstrations in as 
many places as possible. These pilot demonstrations affect not 
just the communities in which they are conducted, but also 
influence their neighbors, ultimately speeding adoption of 
technologies and lessons learned across the Nation.
    While governance and other human dimensions of 
interoperability are critical to any solution, technology 
remains at the center of the issue, making research, 
development, testing, evaluation standards and piloting of new 
interoperable technologies vital to the creation of a 
comprehensive solution.
    We are also developing key technologies to strengthen 
communications and information sharing, many of which are 
currently being successfully piloted throughout the Nation. The 
critical infrastructure inspection management system, which I 
can demonstrate later if anyone is interested, costs less than 
$3,000 per installation, well below initial estimates of at 
least $100,000 per installation, and has been deployed in the 
State of Maryland, where it has been credited with substantial 
cost savings for the State, and in Los Angeles, and is being 
implemented in other communities.
    The multiband radio, an affordable, single handheld unit 
capable of interoperating with State, Federal and military 
radios regardless of frequency or mode, is currently being 
piloted in several communities and even in a cross-border 
application with Canada.
    Virtual USA is a strategic initiative that builds on our 
partnership with the State of Alabama. The State asked us to 
help further develop this innovative project to provide 
critical information in whatever form emergency responders 
need, while also providing day-to-day value to local 
jurisdictions. While this initiative is far more than a 
geographical information system, it does allow critical data, 
such as real-time weather information, the location of fire 
hydrants, pipelines, and even tax and property data and other 
information critical to any State in any emergency, to be 
displayed on real-time maps and imagery or as standard reports 
in any format. The only limit to what can be shared and 
displayed is the imagination of those who use the system.
    Obviously this is a concept with enormous potential. So in 
the coming year we will be working with several other States, 
Louisiana, Mississippi, Florida, Texas, Virginia, Georgia, 
Tennessee and others, to broaden this concept and create a set 
of tools to allow disparate State systems to interoperate and 
exchange data with any system and with any device, wired or 
wireless. Our goal is to create technologies and methodologies 
which are both application- and platform-agnostic, and which 
can enable the exchange of information in whatever form 
emergency responders need, delivered to whatever communications 
device they have without wasting legacy investments.
    Details regarding additional initiatives we are undertaking 
to improve communications and interoperability across the 
Nation can be found in the submission for the record. I would 
be happy to answer any questions the committee may have.
    Mr. Price. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2213A.253
    
    [GRAPHIC] [TIFF OMITTED] T2213A.254
    
    [GRAPHIC] [TIFF OMITTED] T2213A.255
    
    [GRAPHIC] [TIFF OMITTED] T2213A.256
    
    [GRAPHIC] [TIFF OMITTED] T2213A.257
    
    [GRAPHIC] [TIFF OMITTED] T2213A.258
    
    [GRAPHIC] [TIFF OMITTED] T2213A.259
    
    [GRAPHIC] [TIFF OMITTED] T2213A.260
    
    [GRAPHIC] [TIFF OMITTED] T2213A.261
    
    [GRAPHIC] [TIFF OMITTED] T2213A.262
    
    [GRAPHIC] [TIFF OMITTED] T2213A.263
    
    [GRAPHIC] [TIFF OMITTED] T2213A.264
    
    [GRAPHIC] [TIFF OMITTED] T2213A.265
    
    [GRAPHIC] [TIFF OMITTED] T2213A.266
    
    [GRAPHIC] [TIFF OMITTED] T2213A.267
    
    [GRAPHIC] [TIFF OMITTED] T2213A.268
    
    [GRAPHIC] [TIFF OMITTED] T2213A.269
    
    Mr. Price. Mr. Essid.

                    Opening Statement of Chris Essid

    Mr. Essid. Thank you, Chairman Price, Ranking Member Rogers 
and members of the subcommittee. I am pleased to join my 
colleagues here today to discuss our collective efforts to 
improve the Nation's interoperable emergency communications.
    The Office of Emergency Communications was created to 
assist responders with developing the necessary capabilities to 
communicate with other jurisdictions, disciplines, and levels 
of government so they can manage incidents and restore 
essential services.
    OEC became operational less than 2 years ago, on April 1, 
2007. We have worked hard to stand up an effective organization 
while at the same time executing our mission. The office had 
just four Federal employees when I came on board in December 
2007; in fact, I was the fourth. Today I am proud to report 
that we have 27 Federal employees on board, and we are making 
great progress toward reaching our full staffing level of 47 
Federal employees, which will include regional coordinators in 
each of the FEMA regions.
    One of OEC's major accomplishments is our National 
Emergency Communications Plan, which we developed in 
partnership with over 150 stakeholders from all levels of 
government and the private sector. This national plan is just 
one example of how we use a stakeholder-driven approach to 
shape our programs, policies and projects.
    The Federal Government cannot accomplish this alone, and 
that is why OEC has worked to develop and maintain strong 
partnerships with organizations that represent an estimated 2.8 
million public safety first responders from all levels of 
government throughout the Nation, to coordinate planning and 
implement effective solutions for interoperable emergency 
communications. This plan incorporates everything that Dr. Boyd 
talked about and a whole lot more. We did not start from 
scratch. It builds upon years of work.
    OEC coordinates with these State, local, tribal 
governments, as well as Federal agencies directly and through 
partnerships that include the SAFECOM Executive Committee, the 
SAFECOM Emergency Response Council, the Emergency 
Communications Preparedness Center and the Federal Partnership 
for Interoperable Communications, to name a few. We have worked 
closely with these groups and many others to develop the 
national plan and get it to Congress last July. It is the first 
nationwide strategic plan of its kind and serves as the guiding 
force behind many of our other activities.
    Implementation is off to a great start, and OEC and its 
Federal, State and local partners have already met many of the 
milestones within the plan's time frames. We feel we are on 
schedule.
    We recognize that this is a challenging period for all 
government levels due to the economic climate. The national 
plan sets out to eliminate duplicate efforts, to foster 
partnerships, and streamline these limited resources to improve 
interoperable emergency communications. We appreciate the 
committee's continued support for the implementation of this 
national plan.
    OEC has directly worked to help States and territories 
update their Statewide Interoperable Communications Plans, 
otherwise known as the SCIPs, and implement the initiatives in 
the plans or otherwise turn them into reality by conducting 
day-long workshops in 52 of the 56 States and territories. We 
are on track to complete these workshops by June of this year.
    OEC continues to work closely with FEMA Grants Program 
Directorate to manage the Interoperable Emergency 
Communications Grant Program. Our goal is to ensure the grant 
guidance from this program is aligned to the priorities and 
initiatives of the national plan and targets the most effective 
ways to support the States in implementing their statewide 
plans. The fiscal year 2009 grant applications are currently 
under review, and we expect the funds to be awarded within the 
next 2 months.
    Another important element of OEC's mission is providing 
direct technical assistance to State, local, territorial and 
tribal governments. In fact, OEC has supported more than 270 
specific requests for technical assistance since our creation, 
and we are providing a more targeted technical assistance 
offering that aligns with the gaps and initiatives identified 
in the statewide and the national plans.
    OEC works with our international partners in Mexico and 
Canada to support improved interoperable communications at the 
border. We have developed a plan to ensure effective 
interoperability during the 2010 Olympic Games in Vancouver. We 
are also partnering with Public Safety Canada to conduct the 
inaugural U.S.-Canada cross-border interoperable communications 
workshop which will be held in May 2009 in Niagara Falls, New 
York.
    Mr. Chairman and members of the committee, thank you for 
your support for such a vital part of Homeland Security's 
mission. In OEC's short 2-year existence, we have developed and 
delivered the national plan to Congress, we have assisted the 
56 States and territories in developing their statewide plans 
and conducted workshops to make those plans a reality with 
their implementation activities, we have prioritized our 
technical assistance offerings to address the gaps in those 
statewide plans, and we have worked with FEMA Grants Program 
Directorate to target grant funds at those gaps the States 
themselves have identified.
    While we have accomplished a lot in a short amount of time, 
we still have a lot more to do. OEC looks forward to working 
with Congress, our colleagues sitting beside me at this table 
and our partners throughout the Nation at all levels of 
government, to continue our progress.
    Mr. Price. Thank you.
    [The information follows:] 

    [GRAPHIC] [TIFF OMITTED] T2213A.270
    
    [GRAPHIC] [TIFF OMITTED] T2213A.271
    
    [GRAPHIC] [TIFF OMITTED] T2213A.272
    
    [GRAPHIC] [TIFF OMITTED] T2213A.273
    
    [GRAPHIC] [TIFF OMITTED] T2213A.274
    
    [GRAPHIC] [TIFF OMITTED] T2213A.275
    
    [GRAPHIC] [TIFF OMITTED] T2213A.276
    
    [GRAPHIC] [TIFF OMITTED] T2213A.277
    
    Mr. Price. Mr. Ashley.

                  Opening Statement of W. Ross Ashley

    Mr. Ashley. Good morning, Chairman Price, Congressman 
Carter, members of the committee. Good to see you all again 
this week. And happy St. Patrick's Day. It is fun to see all 
the green there.
    I am Ross Ashley. I serve as the Assistant Administrator of 
the Grant Programs Directorate at FEMA. Thank you for the 
opportunity to appear before you today to discuss our efforts 
to improve interoperability communications across the Nation.
    As you know, FEMA is the Department of Homeland Security's 
lead agency that assists States, local, tribal jurisdictions 
and regional authorities to prepare, respond to and recover 
from natural disasters, terrorist acts and other catastrophic 
incidents. As part of this mission, the Grants Program 
Directorate in partnership with the Office of Emergency 
Communications, the Science and Technology Directorate at DHS, 
as well as the National Telecommunications and Information 
Administration at the Department of Commerce provides funding 
to grantees for a variety of initiatives related to 
interoperable communications.
    These initiatives are a shared priority among the 
leadership at DHS and Commerce, as well as our State and local 
stakeholders. As such, we collaborate to increase the 
capabilities of State and local jurisdictions to communicate 
during natural and man-made disasters. The greatest percentage 
of funds across all grant programs is for activities related to 
interoperable communications. This is the highest priority for 
our stakeholders and the highest priority item on the 37 target 
capabilities list.
    These grant programs are yielding positive, real-world 
results today. I would like to share a few examples of how 
these grant dollars have significantly impacted States and 
helped improve their ability to communicate.
    North Carolina has planned an expansion of the State's 
Voice Interoperability Project for Emergency Responders. This 
$25 million investment enables many of North Carolina's 101 
jurisdictions to connect to and use a single, uniform 
communications system.
    Other examples include New York City's expansion of its 
communication capabilities within its subway and subterranean 
environments. This $32 million system provides law enforcement, 
fire service and Federal and State incident response personnel 
with a shared UHF communications system, facilitating 
communications in the City's vast underground infrastructure.
    Illinois is using nearly $43 million in public safety 
interoperability communications funding to link VHF, UHF 800-
megahertz legacy systems to a statewide platform called STARCOM 
21. Illinois's investment supports 12 regional projects in 
areas of high risk of natural disaster or terrorism. 
Collectively, these projects executed at the local level 
provide statewide interoperability to over 100 public safety 
agencies protecting more than 11 million Illinois residents.
    Mr. Chairman, members of the committee, this concludes my 
oral statement. Thank you for your continued support of FEMA's 
Grant Program Directorate and the Department of Homeland 
Security. I am happy to answer any questions you may have.
    Mr. Price. Thanks.
    [The information follows:] 

    [GRAPHIC] [TIFF OMITTED] T2213A.278
    
    [GRAPHIC] [TIFF OMITTED] T2213A.279
    
    [GRAPHIC] [TIFF OMITTED] T2213A.280
    
    [GRAPHIC] [TIFF OMITTED] T2213A.281
    
    [GRAPHIC] [TIFF OMITTED] T2213A.282
    
    [GRAPHIC] [TIFF OMITTED] T2213A.283
    
    [GRAPHIC] [TIFF OMITTED] T2213A.284
    
    [GRAPHIC] [TIFF OMITTED] T2213A.285
    
                    TRANSITION TO 700-MEGAHERTZ BAND

    Mr. Price. Thanks to all of you.
    Let me start with you, Mr. Essid, and ask you a very basic 
question about the systems that you are working with now, and 
what their future is, and the kind of system you envision us 
moving to.
    Congress has made investments in State and local 
communications systems for years, both through Homeland 
Security and through the Department of Justice. Just in DHS we 
estimate that we have invested $3.7 billion since 2003 on 
equipment that can operate in the currently available spectrum. 
Now the Federal Government plans to make the 700-megahertz 
spectrum available for public safety agencies, and, of course, 
use of this spectrum will depend on the build-out of adequate 
infrastructure and the obtaining by individual agencies of 
equipment that operates on that spectrum.
    Can you explain what will become of the systems currently 
being built and used by localities if we transition to a 700-
megahertz solution for emergency responders? That is my very 
basic question. Do we run the risk that existing investments 
become obsolete once the 700-megahertz band is available? And 
realistically speaking, how long is it going to take for this 
700-megahertz option to be available to the emergency responder 
community?
    Mr. Essid. Yes, sir. I will give it a try.
    One of the misnomers or misperceptions is that once new 
spectrum or new technology is rolled out it will replace a lot 
of the existing investments. However, as Dr. Boyd mentioned, in 
the United States we have a system of systems. There is not 
enough capacity in any one frequency band for all of public 
safety to move all their communications there, nor is there 
enough money, so we have to operate a system of systems.
    Many localities throughout the Nation--and localities are 
where most of the investments have been made in communications 
systems, whether it be through grants or through their general 
funds--are all over the place. They are in VHF, UHF, 800 
megahertz, 700 megahertz. So a lot of these first responders, 
as we have interacted with them first around the Nation, have 
identified that they have just bought a VHF system, a statewide 
system, in the Commonwealth of Virginia, for example. They paid 
$350 million for this statewide system, using no grant funds. 
That investment will not be obsolete, until that system runs 
through its whole life cycle. And one of the things the first 
responders told us to put in this national plan is an objective 
that focuses on system life cycle planning to provide better 
long-term support and planning for the technology investments, 
not just one type, as newer technology comes on board.
    And that is where interoperability has been challenging, 
because you have different frequency bands. You have different 
technologies, and if you spend a certain amount of money on a 
system, it has to run its life cycle. People aren't going to 
say, hey, we bought a new radio system 5 years ago; now that 
there is some frequency available, we are going to scrap what 
we were doing and move to this newer system. We have to make 
them all work together.
    So we are trying to help localities and their elected 
officials with life-cycle planning and tools to understand when 
they are making these types of decisions on these expensive 
systems, that a life cycle for a system typically runs 10 to 15 
to 20 years. They are not going to start over right away. There 
will be a migration. Some areas are ready to go and migrate.
    So we are going to see some of this take place. First in 
urban areas where they go through the technologies a little 
more rapidly. But not everyone is just going to switch to 700 
megahertz, nor could that happen. It will be a gradual 
migration. And some of these older legacy systems will run 
their life cycles.
    Does that answer your question?
    Mr. Price. Yes. Well, let me just move to the obvious 
question, and you and Mr. Boyd both can respond here, the 
obvious question about how we are doing on that transition and 
the failure of this auction. The upcoming digital television 
transition, of course, is supposed to free up spectrum for 
public safety agencies. And the FCC has envisioned that, the 
private sector buying the D block of the 700-megahertz band, 
which would then build out the system and make certain 
frequencies available for first responders.
    That public-private model doesn't seem to be too convincing 
to private companies, at least for now. At the auction in early 
2008, there was only one bid for the D block, which failed to 
meet the FCC's reserve price. So this possibly puts us years 
away from achieving national broadband interoperability for 
first responders, or does it? That is really what we are asking 
here.
    Both of you have stressed that we are not going to lose 
these earlier investments. We are incorporating the legacy 
systems. But obviously there are a lot of questions about this 
transition and what it would require and how fast it can take 
place. Even with private investment, the FCC allowed up to 15 
years to construct a nationwide first responder broadband 
network.
    So I guess the most basic question is how essential is 
this? Do all of our first responders need to be on the same 
spectrum channel to ensure interoperability, or is that at 
least the eventual goal? And, Dr. Boyd, without a part of the 
radio spectrum dedicated to first responders, can we ever 
achieve true interoperability? And, of course, there have been 
other proposals by some of the first responder groups that the 
FCC should simply grant 700 megahertz licenses to regional 
nonprofit entities so that local municipalities can build their 
own networks on these channels. Is that a possible model?
    So basically, that is what I am looking for here is some 
kind of assessment of where we are in this transition and 
really how critical the transition is to the overall goal we 
are trying to achieve.
    Mr. Boyd. Well, let me explain first that there are two 
components to the 700-megahertz spectrum issue. One component 
is the D block, which is that piece that was intended by the 
Public Safety Spectrum Trust to support broadband applications 
only. The other half of it is for more ordinary trunked radio, 
or other digital radio communications, the same kind of 
communications you currently have on 800 megahertz, for 
example.
    Unfortunately, the delay of the release of the television 
spectrum has also delayed these more visual applications, and 
applications that do not need to wait for the auction. This 12 
megahertz, in fact, could be applied immediately to system 
requirements in the field. This still falls short of what 
public safety said they needed for additional spectrum. I guess 
going on 8 or 9 years ago now, the National Task Force in 
Interoperability identified about 97-megahertz of additional 
spectrum that public safety still required.
    The D block is intended to provide a ubiquitous broadband 
capability to public safety. It would be disingenuous of me to 
suggest that broadband is not available simply because the D 
block hasn't been released because, in fact, broadband is 
available in a variety of ways using existing commercial 
systems. Those existing commercial systems are not dedicated to 
public safety, which is the fundamental difference. So public 
safety is concerned that in an emergency they might not have 
access to the commercial structures which can currently provide 
broadband access--and, of course, there is a cost associated 
with commercial service as well.
    We demonstrated a project we called ROW-B, which is short 
for Radio Over Wireless Broadband, and we demonstrated it here 
in this building, in fact, I would guess about 2 or 3 months 
ago. We are now transitioning that same capability to NORTHCOM 
to use when they go into places where it would be useful. It is 
capable of tying together all the systems--it doesn't matter 
whether it is an Internet-based system, or it is an over-the-
air system, or it is a regular telephone or a commercial cell 
phone; it doesn't make any difference--so that you can create 
talk groups of all the kinds you do in normal emergency 
communication systems, whether it is a desktop, or a landline 
telephone, or a handheld or other kind of device. So that 
capability is available now.
    The problem that public safety has is that the commercial 
wireless piece--and this is part of the reason I think people 
haven't bid for that 700 megahertz--only provides coverage 
where they have enough subscribers to be able to carry the 
freight. It is expensive to maintain. They are not going to 
build out more towers than they can get a return on. They are 
not going to provide more coverage than they can get a return 
on. They are not even going to provide more capacity than they 
can get a return on, which is why sometimes during rush hour 
around here you will get ``service unavailable'' because it is 
blocked up with too many callers.
    Right now we provide pretty good coverage to about 85 
percent of the population, but that other 15 percent, which 
represents a huge piece of the land mass of the United States, 
is going to be very expensive to cover, whether it is in a D 
block public safety application or we simply work with 
commercial providers to support it.
    Mr. Price. Well, it is difficult to predict whether one of 
these major companies is going to step forward in the future. 
If there is not a private partner to pay for this build-out 
that you are describing, who is left to do it? I mean, what are 
our options going to be?
    Mr. Boyd. Well, at a technical level, I think the options 
are these: The first option if you are going to build out a 
system like that and there is no private partner, then somebody 
is going to have to subsidize it--either public safety, who I 
don't think can afford it, or the Federal Government--but it is 
very, very expensive. I think it would take $15 billion to 
provide even the kind of coverage we are talking about now, 
which is actually reduced to what is the current commercial 
coverage. It is pretty expensive.
    An other option is to tie together existing systems. You 
don't have to have two neighbors on the same band. You can have 
one on 700-megahertz, one on 800, another one on 140, and 
another one on 400. In fact, as the New York City firefighters 
will tell you, 400 megahertz offers some primary advantages to 
them in penetration in high-rises.

                          BRIDGING TECHNOLOGY

    Mr. Price. Let me interrupt you and ask you, yes, that is 
obviously what we are going to have, at least in the near term. 
Is there anything wrong with that or deficient about that for 
the long term, or realistically is that what we are looking at 
in the foreseeable future, what Mr. Essid called a system of 
systems that requires bridging technology as opposed to a 
uniform system?
    Mr. Boyd. I don't believe, frankly, that that is a bad 
solution. In fact, I believe that in many respects it is 
probably the only viable solution that is going to make a 
difference in less than one or two decades, because right now 
it comes down to trying to tie folks together.
    Let's look at some of the good news out there that the 
public safety community doesn't get enough credit for. When we 
did the baseline survey back in 2006, we found that, two-thirds 
of all the responding agencies--and we went out to 22,000 
different agencies--were capable of establishing 
interoperability for major events.
    Interoperability does not mean every officer needs to talk 
to every officer. I find it hard to imagine a case where a 
patrol officer in Beverly Hills needs to talk to a fireman in 
Miami. I just can't see that happening. What you need are 
points of connection where people are able to talk to each 
other. Public safety guys are pretty good at identifying these 
points, and they have used a variety of approaches--sometimes 
sharing radios, and sometimes using patch solutions so they can 
operate across these different bands.
    Having multiple bands offers a number of different 
advantages. One is that it is incredibly expensive to change 
current systems out. Our best, conservative estimate based on 
assessments of new systems and what the systems cost going in, 
is that the current investment in the installed infrastructure 
exceeds $100 billion. We are not going to throw that away. It 
is just too expensive. And the vast majority of that money came 
from localities, not from the Federal Government. So they are 
going to be reluctant, as Mr. Essid pointed out, to throw away 
a $350 million investment that still works.
    The second advantage to having multiple systems is that 
because they are spread out across spectrum in a variety of 
places, some of the spectrum has different propagation 
characteristics. If I am in a high-rise area like New York 
City, for example, 400 megahertz may be the right kind of 
approach to me because, as an accidental consequence of the 
building codes, it penetrates buildings better than 700 or 800 
megahertz does. If I am in a place like Pima County, Arizona, 
and I have wide open spaces, then the 150-megahertz spectrum is 
probably better because it gives me greater range with fewer 
towers. In a place where I have less population, the last thing 
I want to build is a lot of towers, because towers tend to be 
the single most expensive piece of the structure.
    The second thing is that even if we were to change to a 
single band and put everybody on it, it is not as simple as 
retuning the radios. There is a tendency a lot of times for 
vendors to say, well, gee, you already have a tower structure 
up. Well, a tower structure that works on 150 megahertz may not 
work on 700 or 800 megahertz because, for one thing, range is 
dramatically reduced. They are affected much more by terrain. I 
can tell you that 700 and 800 megahertz will tend to require 
lots of towers in Mr. Rogers' district, for example, because 
eastern Kentucky is very rugged terrain, and has lots of 
shadowing. There are other places in the United States that are 
much like that. So in his State, quite often 150 megahertz will 
offer some advantage because of the way it propagates, but 
there is not much of that spectrum available. So I think we 
need these multiple systems to be in place.
    Then there is a third and really important consideration 
and that is that you eliminate single points of failure when 
you have multiple systems and multiple networks; that is, 
taking one network out doesn't take them all out, so that you 
don't have the kind of thing you have where somebody launches 
an Internet attack on Microsoft servers and takes out all of 
the Microsoft servers in the country. When you have disparate 
systems, that is much more difficult to do.
    Mr. Price. Thank you.
    Mr. Rogers, welcome to our hearing. We will turn to you 
next.
    Mr. Rogers. Well, thank you, Mr. Chairman. I apologize for 
being late, but I had to introduce a constituent of mine, a 
blinded Iraqi veteran, before the Veterans' Committee. He was 
testifying, and I deemed that took precedence. But thank you 
for recognizing me.
    And welcome, gentlemen, to the committee.
    I very much appreciate our panel appearing today to discuss 
this particular issue, particularly a University of Kentucky 
Wildcat Mr. Essid.
    And, Mr. Ashley, we meet again.
    Mr. Ashley. Yes, sir.

                      BACKLOG OF UNEXPENDED FUNDS

    Mr. Rogers. It is deja vu all over again, because just last 
week at our rail and transit security hearing, we were talking 
about an enormous amount of grant money languishing in the 
coffer and not fulfilling the security needs of our Nation. And 
as I look at the funding history data of both the Interoperable 
Emergency Communications Grant Program and the Public Safety 
Interoperable Communications Program, only a pathetic 6.4 
percent of the more than $1 billion provided for these 
programs--over the last 3 fiscal years, only 6.4 percent has 
been spent. That means there is more than $997 million that 
could be out on the streets helping our first responders meet 
their interoperability needs. Instead, it is the same old song 
we heard last week, and that, frankly, is just not going to 
fly.
    So without further ado, and bearing in mind there has been 
some discussion of this issue before I arrived, I am going to 
turn immediately to Mr. Ashley and ask why has this enormous 
amount of money not been spent? And what are you doing to fix 
the logjam?
    Mr. Ashley. Thank you, Congressman.
    To say that the money is languishing in the Federal 
coffers, the money is available to the States and has been. 
When we talk about the PSIC grants, for over a year now all 
$968 million minus the management and administration is 
available for the States to draw down. So it is not unavailable 
to them.
    Just because the money is sitting in the Federal Treasury 
doesn't mean it is not being used. Projects are out there in 
every State of every Member's jurisdiction that are up there on 
the panel that are being executed today. It does take the 
States time to draw down funding. Some States don't even draw 
down except for once a year do they actually reconcile their 
books and then draw the money down from the Federal Government. 
So even if we were in sync with every State budget that was out 
there, you could see the case where about--if you miss the 
cycle, you could be off by as much as 23 months in actual funds 
being drawn down from the Federal Treasury.
    So I think it is a misnomer to be able to--you know, to 
cite the funds that are in the Treasury not being actually 
utilized for projects in the field. We had reporting back from 
every one of these reporting projects saying what is being 
accomplished from each State jurisdiction on specifically the 
Public Safety Interoperable Communications Program.
    Dr. Boyd, I can give a great explanation when we talk about 
the technology involved with why it takes a long time for 
States to draw these down. This isn't a statement saying that 
we are putting off our responsibilities to have funding drawn 
down and blaming it on the local governments. Rather, it takes 
time to implement these projects. Some of these 
interoperability projects can take up to 3 to 5 years to 
implement, which then causes the States to draw down.
    One other example of the timing it takes to draw funds 
down. We make the funds available once--or excuse me, funds are 
available to draw down once a State actually encumbers the 
funds. They don't have to spend the funds. They could have a $1 
million project divided into four $250,000 tasks. Once they 
have encumbered that first task, that funding is available to 
draw down. We can't, therefore, go and tell them to draw it 
down; they draw it down on their own schedules.
    Mr. Rogers. Well, you know, it has been what, 8 years now 
since 9/11, and here we are still trying to decide how to spend 
the grant moneys that we have approved for years and years and 
years. For the life of me, I cannot understand why we don't get 
with it.
    Kentucky, for example, just a month ago or so had that 
terrible ice storm from coast to coast. It covered the entire 
State, huge amounts of ice that devastated the State, the worst 
disaster the Governor says that State has ever suffered. But 
the main initial impact was there was no communications. The 
Governor of the State didn't know whether or not anyone in any 
part of the State was injured. There was just no 
communications. The towers came down. Wires were broke by the 
falling leaves. The electric power was cut off. There was no 
communications to most of the State, which is unbelievable in 
this modern day and age. And yet this money has been laying 
here, waiting for the State to pick it up, and I don't 
understand why, for example, Kentucky hasn't perfected the 
grant application to the point that you can dish the money out.
    Mr. Ashley. I can tell you for Kentucky, they were awarded 
$15 million under the PSIC program. They have approximately 
drawn down I want to say--you know, within the first three 
quarters, they didn't draw anything down of it. And then I 
think they have drawn down a total of about $1.6 million of 
those dollars over the last year that they have actually drawn 
down.
    Now, that is not to say that Kentucky--they have three main 
projects that are going on out there. They are out there 
executing on those projects, procuring equipment. There is 
three, one in the Louisville area, one in the Kentucky 
Strategic Mutual Aid System, as well as a strategic technology 
reserve. They are out there procuring those things and putting 
them in there. Just because they haven't gone into our 
financial system and electronically transferred the funds into 
theirs doesn't mean that it is not getting accomplished.
    Mr. Rogers. Mr. Essid, your office works with States, does 
it not, to help them perfect their plans, their statewide 
plans?
    Mr. Essid. Yes, sir.
    Mr. Rogers. Tell us what is going on.
    Mr. Essid. Well, I was going to pipe in to try to help Mr. 
Ashley explain this. A lot of the investments that the larger 
grants have supported are technology investments, buying 
systems and stuff. It takes so much planning, and so much 
coordination to get the right stuff. So it takes a while for 
States to draw down those dollars.
    We have worked with States on their Statewide 
Communications Interoperability Plans, and we are happy to 
report to you although only eight States had statewide plans in 
March of 2007; now all of the States and territories have a 
plan based on common criteria. So we work with the States to 
help them better coordinate all types of their activities, 
including large purchases of systems. I am of the belief, 
because the first responders are of the belief, that the 
interoperability problem is 90 percent coordination, 10 percent 
technology. The technologies are out there to solve this 
problem, and we have spent a lot of the grant funds on the 
technologies. What is lacking is training and exercises, 
standard operating procedure development, development of MOUs, 
development of governance, everything I call coordination. So 
the States and locals have told us, we need to invest in these 
coordination activities.
    That is what we do to help the States when we go in. For 
example, we are doing one on March 19, we are going to be in 
Kentucky doing a SCIP workshop, statewide plan workshop. And 
they want a better understanding--a shared understanding--of 
funding strategies to implement a lot of the priority 
initiatives in their statewide plan. They also would like 
awareness of all of our goals and how this is working together. 
So we customize every workshop by what the State needs since 
statewide plans are a little different as far as gaps.
    So I think that these governance structures that we have in 
every State now, where we have State folks working with local 
folks in the State and all the different disciplines, under the 
statewide plans, we are going to see improved coordination. 
These technology purchases are going to speed up because they 
are going to have their act together at the start, versus----
    Mr. Rogers. Well, I will tell you what. Three years ago we 
created your office because States weren't applying for the 
grants and getting the money out there. And the Congress says, 
well, I will tell you what. Out of frustration and desperation, 
we said, let's create a one-stop shop where they can come in 
and tell us what the problem is, and they are not searching 
around, trying to find the right bureaucracy to work with. And 
out of that grew this office. And here we are now 3 years 
later, and nothing has happened. What else can we do, please?
    Mr. Essid. Well, sir, I think we have had a lot of success. 
As far as drawing down the money faster, we have been working 
to increase coordination and identify needed governance 
structures. Before we were created, a lot of these States 
didn't have full-time interoperability coordinators. They 
didn't have governance structures where the States were working 
with the localities. And then those folks weren't really 
working with the State Administrative Agency, the SAA, which 
really coordinates with FEMA on spending the money.
    We have built these partnerships throughout the Nation. In 
essence, we are building a kind of highway so that they can 
coordinate their grant expenditures and draw down faster. We 
are working as fast as we can on the State plans and those 
governance structures, which are essential to the road forward 
and the national plan.
    Mr. Rogers. Well, I have a slogan that I use frequently and 
that is, plan your work and work your plan.
    Mr. Essid. Yes, sir.
    Mr. Rogers. You are planning your work, but I don't see 
nobody working the plan.
    Mr. Essid. Well, a lot of these initiatives are in the 
national plan, sir. Again, we have coordinated the development 
of this document with those same stakeholders from the States 
and localities. We really are working this plan, the national 
plan. We have met 11 of our first milestones, and we are 
coordinating with FEMA's Grants Program Directorate to do 
everything we can to inform folks of what grants are out there, 
to give feedback on what could be improved in the grant process 
so the money could be drawn down faster.
    But, again, as Mr. Ashley said, and as Dr. Boyd could also 
explain, some of the projects they are applying for are very 
technical in nature, like procuring a statewide system. For 
example, I mentioned earlier the system Virginia purchased. 
Although they didn't spend any grant funds on it. It took them 
6 years to move from the initial idea to actually purchase 
equipment. These things are very technical in nature, and there 
are so many factors. Also every State's procurement rules are 
even different, so it takes a while. I am not making excuses, 
sir, I am just explaining how technical it can be. And a lot of 
the larger grant funds out there, billions of dollars, have 
been spent on stuff. Those are the types of projects those 
funds are supporting.
    One of the things we heard from the stakeholders around the 
Nation was, we need help with coordination. And now we have the 
Interoperable Emergency Communications Grant Program, $50 
million in fiscal year 2008, $50 million in fiscal year 2009. 
That goes for things like training and exercises, SOPs, 
governance. Those are the focus areas, not a lot of equipment. 
They have been drawing down very well on that, and we have 
gotten excellent feedback from States and locals that it is 
helping them with the essential activities that will help them 
make faster and more coordinated equipment purchases.

               INTEROPERABLE COMMUNICATIONS GRANT PROGRAM

    Mr. Rogers. My records show that 99.9 percent of those 
funds are still there.
    Mr. Essid. Sir, they have been made available as soon as 
their statewide plans were approved. I don't know if Mr. Ashley 
has an answer for that, but they have been able to draw down on 
the fiscal year 2008 funds since their statewide plans were 
developed.
    Mr. Rogers. Well, I will close. My time is up. But in 
Kentucky during the ice storm--and by the way, some people are 
still without electricity, and that has been almost 6 weeks 
ago--28 people died, some of them because of lack of 
communications, because they did not have interoperable 
communications. So Kentuckians died during that emergency. And 
other States are similarly afflicted. So this is not a matter 
of debating.
    Mr. Essid. Yes, sir.
    Mr. Rogers. This is a matter of getting that money out 
there and getting interoperable communications in business. And 
don't tell me it is too complicated. Look at how we built up 
before World War II. We went from nowhere in 4 years to 
becoming the world's greatest power. They built 296,000 
aircraft, for example, and they didn't have one to begin with. 
And you are telling me you can't build in the States the 
capability of police and first responders to talk to each 
other. For God's sake, get with it.
    Mr. Price. Thank you.
    And we will be picking up on this in various ways. It does 
seem to me we are getting somewhat mixed messages here about 
this complexity. I mean, on the one hand you are saying we have 
technologies that help us overcome complexity; that we have 
made a lot of advances, and not having to make everything 
uniform, but in being able to talk among systems. And then at 
the same time it appears that complexity is a barrier to 
getting the money out the door. I think we need to understand 
that better.
    Mr. Serrano.

              EMERGENCY RESPONDERS ABILITY TO COMMUNICATE

    Mr. Serrano. Thank you, Mr. Chairman.
    Gentlemen, I will try to be brief in my opening comments so 
that you can answer what I think will be a few questions 
involved in that.
    I was not in Washington with my colleagues on September 11. 
I was in New York. It was a primary day, election day in New 
York. No one writes about the fact that maybe one of the 
targets was to disrupt an election and the electoral process.
    That is where I was that day, and I recall in addition to 
the people in the street and the screaming and the pain and the 
anguish of what was going on, I recall that everything went 
down. Radio stations for the most part went down, TV stations 
went down, and you couldn't make a phone call from a cell 
phone.
    Put that aside for a second. I travel on Amtrak every week 
to New York, and when I get into one of the tunnels, if I am on 
a phone call, that phone call dies. Put that aside for a second 
also.
    Thirdly, I am Chairman of the committee that oversees the 
FCC, and one of the issues with the FCC is getting satellite 
radio to service the territories, Sirius and XM, now it is one. 
And they tell me that the satellite doesn't point in that 
direction. I profoundly or jokingly told them to go borrow a 
satellite from the CIA, but they say they can't reach the 
territories. Remind you that we got into World War II after a 
territory named Hawaii was attacked.
    So my question to you is, number one, heaven forbid New 
York City was attacked again, will people be able to 
communicate with each other as you understand it now? Will 
those TV stations continue to give out the information 
necessary? Will the radio stations be able to function?
    Secondly, will firemen and police officers in tunnels 
throughout that city be able to communicate?
    And lastly, heaven forbid they attack us on one of our 
territories, Guam, Samoa. Can we communicate with them, or are 
we going to be hearing from them that somehow the satellites 
didn't reach them in time?
    I know that is really three questions, but I think it 
speaks to the issue at hand.

                        SATELLITE COMMUNICATIONS

    Mr. Boyd. First, I think you are exactly right that a 
satellite ought to be one of the arrows in an emergency 
manager's quiver, and that is particularly crucial in places 
like the Hawaiian Islands. I was working 3 or 4 months ago in 
Honolulu with the emergency managers, talking about how they 
would maintain communications among their four counties, each 
of which, as you know, is a separate island. And in fact, for 
them, while they can use towers in some circumstances, 
satellite communications are really important.
    We have to understand where satellites can pay off. And 
satellites pay off hugely in places like communicating to some 
of our island territories. They are also very good at 
communicating among operation centers. They are not terribly 
good for first responders who are actually down doing the basic 
work simply because they don't penetrate well through 
structures and places where you are executing the rescue. They 
don't work at all in tunnels. So part of the design, I think, 
of communication systems has to take into account what you have 
to do to put communications into all of the elements of your 
community.
    New York is a special case because they have got so much 
underground subway structure. They have been doing some work 
trying to put some special cabling in to allow communication in 
the subway. Unfortunately, they have had some contracting 
difficulties, contractor performance difficulties in putting 
some of that into place. But I think they have got the right 
idea in trying to wire the subway.
    Here in the District, some of the tunnel structure allows 
that, but, in fact, Congress itself has that problem because of 
the nature of these buildings. I was asked not too long ago to 
help the Capitol Police develop their new system which is in 
essence, in tunnels. Each of these buildings has thick, thick 
walls. You also have tunnel structures in basements 
underground. You have many of the same kinds of problems as in 
subways.
    We did not build, as a Nation, communication systems 
initially into our tunnels. We built telephone systems because 
most police, back when we were building these things, didn't 
use radios. So we are now, in a lot of respects, playing catch 
up, and that comes back to the point I made earlier.

                  OPERABILITY VERSUS INTEROPERABILITY

    The first priority, the absolute first prerequisite if we 
are going to make a difference is operability, not 
interoperability. Interoperability matters a great deal, but it 
is impossible and essentially irrelevant if you can't 
communicate to begin with. So the first thing we have to do it 
seems to me, is to think about how we are going to strengthen a 
number of these systems. Unfortunately, in many cases, what we 
have done is jump to interoperability without first saying we 
have got a lot of communications systems out there that are 
very old, very weak, very tired and that don't perform well in 
massive ice storms or in hurricanes or other disasters.
    And so we need to think about a two-tiered process which 
says, you have got to establish operability, and we need to 
apply guidance and standards so that they can design in 
interoperability as they are building operability. But we have 
to start with operability first. And that means addressing 
things like, how do we handle communications in tunnels?
    Mr. Essid. It is not uncommon for many folks out there in 
the public safety world to have redundant systems in case one 
fails. And when we go out and provide our technical assistance 
throughout the Nation, we see their public safety systems have 
to be more resilient, and they usually have redundant systems 
in case they fail.

           NIMS UMBRELLA COMMUNICATIONS UNIT LEADER TRAINING

    But I echo what Dr. Boyd just said about the operability. 
Some of what we have been doing, no matter what type of 
technology is deployed, if those communications can't be set up 
in a standardized way, you have a lot of chaos in mutual aid 
situations. And so we had some real success stories here. One 
of the things we have been doing is training folks on how to 
set up communications under the NIMS umbrella, the 
Communications Unit Leader Training that Dr. Boyd mentioned in 
his opening remarks.
    Two recent success stories arise from our training these 
first responders on how to set up communications in a 
standardized way just recently. In fall 2008, we did COML 
training in Houston, Texas. Shortly after, Hurricane Ike made 
landfall, and those first responders were able to use their 
skills and their training right away to respond to Hurricane 
Ike. They set up communications just as it would be done in 
different parts of the country in a standardized way.
    Then in January we did a COML course in Tennessee. As 
Congressman Rogers mentioned, the ice storm hit Kentucky and 
parts of Tennessee very hard. Those first responders were able 
to go out and use the training they just received to set up 
communications with different systems in a standardized way. So 
these are some of the things that deal with operability, before 
you move to interoperability.
    Mr. Price. Thank you.
    Mr. Carter.

                INTEROPERABLE COMMUNICATIONS TECHNOLOGY

    Mr. Carter. Thank you, Mr. Chairman.
    Well, this is a very complicated business here. But I 
served for many years as a district judge, and we had 
interoperability issues going back clear back to the 1980s. And 
I want to start with the frustrations that the local people 
have. Yes, they don't draw down because they have concerns, for 
whatever reason. I would be willing to bet that a lot of people 
don't draw down because they don't know where the future is.
    And one of the things, just in my county, we got caught in 
a trap. As we started to grow, it was 80,000 when I became a 
judge; when I left as a judge there, we had about 340,000. Now 
we have got about 370,000 people there. The problem was, we 
bought a phone system in 1986 that was supposed to be 
interoperable with the largest town next to us, Austin, and it 
was for 2 years, until Austin bought a new phone system, and 
then it was not interoperable any more, and their solution was 
for us to spend another $10 million to get operable, to get 
interoperable. And it just, that is just in one little bitty 
part of Texas. We bounced around with interoperability, and 
every time you would try to get even with somebody, some 
salesman would come in and sell somebody something else, and it 
would go away.
    To me, and I just think you have to think outside the box, 
and it may be technically impossible. But, I mean, you you have 
got a scanner that the bad guys can scan every police channel 
simultaneously, and as soon as they hear something about dope, 
they can push a button and hear what they are talking about. If 
you have got that, there ought to be some kind of system that 
can collect whatever communication is coming in and make it 
operate with the other one. Is anybody working on that kind of 
technology?
    Mr. Boyd. In fact, we have demonstrated that kind of 
technology. That is what we demonstrated here in the Rayburn 
Building. What we set up here in the District, was ROW-B, and 
we are now transitioning it to NORTHCOM and are also working in 
some communities in California to put it in place. ROW-B is 
essentially a combination of technologies controlled from a 
single screen. So, basically, you can think of it as a tower 
control operator who is managing communications. Let's say that 
you have a telephone at your desk. You can pick up your 
telephone, make a call through a commercial telephone system, 
make a connection then to the station so that you can talk to 
the officer on the beat, and you will both talk to each other 
on the technology you happen to have.
    You can also connect to a satellite link if there is a 
satellite link available. You could even connect to someone, if 
you had a device that exchanged data, you could do it through a 
computer desktop, or if you had a multi-use device, you could 
connect to it, or you could talk to a cell phone. You can 
connect all of these things together. That technology exists 
and, in fact, has been present for a while.
    What we have found over the years is that if you want to 
make this happen ultimately, and you want communities to make 
the kinds of decisions it takes to put these together, you have 
to pilot demonstrate these in the field; that is, you actually 
have to go out in the community, work directly with the 
community, put it in place, help them understand how to use it 
and have them apply it.
    We have had some remarkable success in, for example, a 
community in California that uses a system they call ICIS, I-C-
I-S. And I am going to be hard pressed to tell you what the 
acronym stands for, but it is an integrated communications 
interoperability suite or something like that. Basically, what 
they did was to take our materials on their own with their own 
money--without federal money and build a system which involved 
seven to nine jurisdictions where they can exchange dispatch 
data from dispatch consoles. They can communicate directly with 
each other, even though they are not all on exactly the same 
kind of system and probably won't be for a while, simply 
because of the cost.
    Here is another issue, and I once had an opportunity to 
spend some time with Ms. Lowey and explain part of this. If you 
think about how long it takes to build out a system, even if 
you are incredibly efficient and the money comes in, you have 
designed the system and you have put it to work, what public 
safety told us in a survey is that 50 percent expect to change 
their systems out over the next 5 years. The remaining 50 
percent expect to change them out by the end of 10 years. Even 
though we know that the average life expectancy of a system in 
the field is 20 or 30 years, let's take them at their word, and 
let's say it is 10 years. That means that no matter how we 
manage the technology, unless we decide we are going to prevent 
any further innovation, the system that goes in at the end of 
10 years is going to be 10 years newer than the system that 
went in at the beginning of that cycle. That is part of the 
challenge.
    Let me give you a little different perspective, as a 
retired Army officer, about how involved this can be and how 
much conscious attention to detail, working directly with 
locals, I think, takes to makes this work. The Department of 
Defense, I remember, proudly announced a few years before I was 
commissioned a second lieutenant in the Army that it was going 
to be fully interoperable. The Department of Defense will tell 
you now they are about 60 percent the way there. And I retired 
from a full military career 17 years ago.
    Instead of a single department and four services, we are 
looking at 60,000 jurisdictions in 50 States and six 
territories and districts. So what I would encourage everyone 
to consider here is that it is really frustrating; it is really 
tough. But at the end of the day, it is a human activity. We 
can achieve emergency level interoperability right now if all 
of the players are willing to come together and make that 
happen. In some places, it may be a bit primitive. In some 
places, it will be really state of the art, but we can make it 
happen if we can get everybody to cooperate across the board. 
And we have been very successful in doing just that.
    We have a project we called RapidCom, which is an exercise 
where a few years ago, we went into 10 of the Urban Area 
Security Initiative Cities, and we said, okay, we are here from 
the Federal Government. We are going to help. We are not 
bringing any money, but we just want to work with you with what 
you have got and see if you can create a regional 
interoperability system using only what you have now, do it in 
5 months without investing any more money. We were successful 
in doing that in all 10 cities. It is this experience that 
produced the lessons learned that eventually became the 
foundation of the statewide communications interoperability 
planning guide and the continuum, which you will note has only 
one lane that has to do with technology.
    It is frustrating to all of us that these things don't 
happen very, very quickly. But it takes time. Let's say that we 
were perfectly efficient, back in 2003 when the Department 
stood up. We were absolutely and perfectly efficient in S&T, 
and this at a time when we had a cardboard door on the 
Undersecretary's door, and there were only 16 of us. We had 
$300 million that Congress moved to the Department of Homeland 
Security to be used for grants, not all of which was for 
interoperability. Let's just talk about that $300 million. If 
we were perfectly efficient at the end of that first year, that 
money would be at the State. If they were perfectly efficient 
and the locality legislature didn't meet every other year and 
have to appropriate it, then at the end of year two, the money 
would be at the locality. And if they were perfectly efficient, 
they would have a contract out by the end of year three. And 
then if they didn't have any not-in-my-backyard or 
environmental-impact-statement problems and they found the 
space for the tower and they were able to put those in place, 
then in 2 to 5 years, they would have something turned on.
    The Department is only 6 years old.
    Mr. Carter. Thank you.
    Mr. Price. Thank you.
    Mr. Rodriguez.

               DEMONSTRATION PROJECTS ON SOUTHERN BORDER

    Mr. Rodriguez. Yet, at the same time, I was able to get 
earmarks directly from DOJ directed to my counties, and 
Homeland Security wasn't even there, and that is what we have 
been working with through DOJ. And let me, we passed in 9/11 
Act, we established an international border community 
interoperable communication demonstration projects. There were 
six projects. Can you tell me how many of them have been 
implemented on the southern border, and what exactly has taken 
place with those projects? This was, the bill that piloted 
these programs, was section 302 of title three, and in your 
testimony, you mentioned the Olympic projects on the northern 
border and mentioned some task force with Mexico. Can you tell 
me a little bit about those six demonstration projects that 
went into effect?
    And just let me express some concern, Dr. Boyd, that you 
mentioned, cross-border with Canada and some projects.
    Mr. Essid, you also mentioned Vancouver and Canada.
    I think Mr. Ashley, you mentioned projects in North 
Carolina; $25 million to a particular there; $32 million to New 
York; $43 million to Illinois. Can you tell me what has been 
happening on the southern border?
    Mr. Boyd. I will defer to Mr. Essid for those projects.
    Mr. Essid. Well, sir, I will start off with the Border 
Interoperability Demonstration Project. The money for these 
projects was given to CBP projects and so OCE has been working 
to transfer those funds from CBP--
    Mr. Rodriguez. Who is CBP?
    Mr. Essid. I am sorry. The Border Patrol.
    Mr. Rodriguez. So the funds are with the Border Patrol?
    Mr. Essid. Yes, sir. Customs and Border Protection. $30 
million was appropriated for the Border Interoperability 
Demonstration Project. A minimum of three projects are supposed 
to go on the northern border and three on the southern border. 
So we have been working to get those funds transferred to OEC, 
so we can----
    Mr. Rodriguez. So that means they haven't been transferred 
yet?
    Mr. Essid. No, sir, not at this time. We have been working 
that issue.
    In the meantime, my office has been working with the 
responders to develop the criteria for the grant process. We 
can't start the grant process until the funding is transferred. 
But we are ready to go as far as the proposed selection 
criteria.
    Mr. Rodriguez. Why am I able to get money from other 
agencies to do some of that stuff and you guys not moving quick 
enough?
    Mr. Essid. Sir, my office is trying to get the funds 
transferred so we can move forward with this. We have drafted a 
report----
    Mr. Rodriguez. Okay. That is one on the southern border. 
Any other on the southern border?
    Mr. Ashley. Yes, sir.
    In the PSIC program, there is a $9.11 million program that 
is currently being executed. It is called the Regional Texas 
Mexico Border Interoperable Communications Program. It is a 
$9.1 million out of the $65 million that Texas received. That 
money is available, and they are currently executing on that 
project.
    Mr. Rodriguez. Do you know what the project is supposed to 
do or demonstrate, or how they are going to work with Mexico?
    Mr. Ashley. I don't have the specifics on the project, but 
I can definitely get those to you.
    Mr. Rodriguez. Any other projects?
    Mr. Essid. Yes, sir. We have been working with CBP, Customs 
and Border Patrol, on several projects. In addition to the 
Border Interoperability Demonstration Projects I talked about, 
we are also working with them on a High Level Consultative 
Commission on Telecommunications, the HLCC, between U.S. and 
Mexico and we also work with the Southwest Border 
Communications Working Group. Basically to strengthen 
interoperable communications.
    [The information follows:]

    IFR #1. Provide specifics on the $9.11 million being spent on the 
southern border through the Regional Texas Mexico Border Interoperable 
Communications Program (from page 58 of the transcript):
Regional--Texas/Mexico Border Interoperable Communications (T/MBIC)
    Federal Amount: $9,117,464.
    Non-Federal Match Amount: $1,813,493.
    Total Project Cost: $10,930,957.
    99% * Acquisition & Deployment.
    <1% Training & Exercise.
    <1% Planning & Coordination.
    * Percentages include both Federal and non-Federal Match funds.
    The Texas/Mexico Border Interoperable Communications (T/MBIC) 
Investment addresses communications gaps along the International Border 
with Mexico, such as aging infrastructure, disparate radio systems 
spanning numerous frequency bands, limited roaming capability, and 
radio interference from both sides of the border. The goal for this 
Invesment is to build out the regional systems with dual-mode VHF and/
or 800 MHz sites (concentrating on areas with limited or no radio 
coverage first), linking those systems using a P25 overlay, and 
transitioning public safety communications to this digital network of 
regional systems. This Investment will provide continuous roaming 
capability, interoperability and improved coverage in the 14 border 
counties.

    We are going to be outfitting some CBP sites on the U.S. 
side with microwave shots to increase communications with the 
localities. On the Mexico side, they are doing the same thing, 
so we are trying to create interoperability.
    Mr. Rodriguez. We are really having a problem. Even our 
phones right on the Mexican border don't work. And now that we 
are going to this broadband thing, we are going to cut off 
Mexico completely. So they have always been able to view our 
televisions. They are not going to be able to even do that now. 
So we have got a real serious problem, and I would have assumed 
that this would have also prioritized some of the counties 
there and some of the local first responders there in some form 
or fashion. And I would ask that you kind of look at that in 
coming up with a program both on the Canadian border as well as 
on the southern border in terms of prioritizing some of those 
communities and those counties.
    And San Antonio, have you all done anything with San 
Antonio?

                              PSIC PROGRAM

    Mr. Ashley. Yes, sir. As part of PSIC as well, there is the 
San Antonio urban area of P-25, 700 megahertz. This is one of 
those ones where they are investing in that new 700 megahertz 
technology, the new spectrum I should say. It is a $3 million 
project out of that $60 million.
    Mr. Rodriguez. You know, the city, local taxpayers came up 
with about close to $30 million on their own and built a center 
there. And where were you guys? I am serious. They got a system 
there; local taxpayers have had to come up with it and build a 
system there in San Antonio. And that has been all local 
effort. You know, we should be there in some form or fashion.
    El Paso, you know, are they doing anything there?
    Mr. Ashley. It didn't look like Texas--these are dollars 
that are allocated by the State of Texas, once they get to the 
State administrator, and it doesn't look like there is anything 
in the PSIC program that is dedicated to the El Paso area.
    Mr. Rodriguez. I know Mrs. Lowey is here. She is the 
chairman of the State and Foreign Operations Appropriations 
Subcommittee. We really need some better communications with 
Mexico. I got hit with a tornado that killed lives on the other 
side and on this side. We got hit in the flood, both on the 
Ojinaga side, on the Presidio side, on my side, and we really 
need better communications.
    Mr. Price. Thank you.
    Mr. Calvert.

                SATELLITE COMMUNICATIONS FOR RURAL AREAS

    Mr. Calvert. Thank you, Mr. Chairman.
    Someone mentioned that 90 percent of the problem is 
coordination; 10 percent of it is technology. And I am from 
California. I guess we may have come up with a lot of 
technology that everybody's talking about. Of course, that 
technology changes about every 3 years, and that may be one of 
the problems.
    Another part of the problem may be that I have talked to 
one of these folks that were looking for grants, and he told 
me, Ken, the juice isn't worth the squeeze from trying to get 
the money from the Feds and the complications that go into 
this.
    And so, sometimes, as the gentleman from Texas indicated, 
we get involved in the earmark process because it is, quite 
frankly, faster to give money to the locals than anything else.
    And I was listening to Mr. Rogers and the problems in 
Kentucky, and I remember there was a lack of satellite 
telephones. I think that that was an issue there, because no 
communications took place. The only people that could 
communicate were the people that had these phones. And so I am 
thinking, from the short term, because we have this, obviously, 
the more we get into this, the more complicated it becomes. And 
sometimes I wonder whether it needs to be that complicated.
    But just saying that it is for a second, is there anything 
we can do in the short term for areas like Kentucky and 
throughout the United States and the rural areas to disperse, 
for instance, satellite telephones to the counties, the 
localities for at least with satellite communication? It may 
not work in New York City or areas that are subterranean. But 
it certainly would help in a large part of this country. Has 
there been any talk about that? And get it out quickly?
    Mr. Ashley. Congressman, I am, from a grants perspective, 
not really prepared to speak to that. But we do have here with 
us from FEMA, from the Disaster Emergency Communications Part 
of the FEMA, that can speak to how FEMA does respond when 
communications, when we have an operability issue.
    Mr. Calvert. Well, the only reason, this happened a number 
of weeks ago in Kentucky, and you look at that as an example. 
If those folks at FEMA are going to do a study to determine how 
much of a problem it is, and 2 years from now, they decide they 
are going to put out satellite phones, in the meantime, the 
technology has changed completely. It seems to me that we are 
reacting slowly to the problem.
    Coordination, getting back to the coordination issue. I 
have been in Congress now, this is my ninth term. It seems like 
every time I go back to my localities, they talk about 
interoperability issues or operability issues. And we still 
haven't got there. And I live in an urban area. Of course L.A. 
is the champion urban area, but we are pretty urban out in 
Riverside County. We are spending hundreds of thousands of 
dollars on communication equipment, so I am going to ask, are 
you involved, as the Homeland Security people, involved when 
areas like Los Angeles or Riverside County or San Diego County 
in California put together these hugely expensive systems, do 
they invite you to the table?
    Mr. Essid. The answer is, sometimes they do. And when they 
do, we want to participate. That is one of the things we 
provide in our technical assistance offerings I talked about 
earlier. Sometimes when they are getting ready to build a 
system, they ask us to send some technical expertise to help 
them to better understand if they are buying a Cadillac when 
they only need a Chevy.

                      FEDERAL TECHNICAL ASSISTANCE

    Mr. Calvert. The reason I bring that up, I have received 
feedback from California's Emergency Management Agency, CAL 
EMA, that more technical assistance should be made available to 
the States for engineering and planning. CAL EMA's thought is 
that too often a little simple engineering job is needed that 
can be done much more quickly through the Federal level 
contracts without having to go through multiple months of 
bidding process at the State and local governments. Are there 
plans to focus more of your OEC's, more of their resources to 
address technical assistance and the need of the States and get 
involved early on in communicating with these folks? Because a 
lot of times they don't even know who to talk to, and these are 
urban areas.
    Mr. Essid. Well, yes, sir. One of the things we did when 
the Office of Emergency Communications was created, was we 
looked at how technical assistance was done previously. And it 
wasn't prioritized against statewide plans because there were 
no statewide plans to prioritize against. So now we have the 
States saying, these are our top five technical assistance 
requests. We have received technical assistance requests from 
53 of the 56 States and territories throughout the Nation. We 
received a total of 233 individual requests.

                   INTEROPERABILITY BETWEEN EQUIPMENT

    Mr. Calvert. But what I, I just want to make a point, that 
I am hearing out there that that is not taking place.
    And one last point. Equipment.
    Just one quick question, Mr. Chairman.
    There is a large contractor out there, I won't say who 
their name is, and other contractors. Do those contractors or 
can they work together to make sure that there is 
interoperability between equipment? Because I hear this problem 
with the police and fire back home that they have got to buy 
this particular brand of radio, for instance, or 
communications, or it is not going to work with somebody else.
    That is my last question, Mr. Chairman.
    Mr. Boyd. Let me answer that very quickly. There are a 
couple of things we are doing. One of the reasons for this, 
which was not developed by any of the well known companies, was 
that we are looking for a way to try to break two things. One 
is a proprietary lock on too much of this. And the second one 
was to make the point that there is no logical reason why this 
kind of radio couldn't be available now because in fact it has 
been technologically feasible for years. In fact, the amateur 
radio community has had radios that could do this for probably 
20 years now.
    But it has tended to be more profitable to sell four single 
band radios at $4,000 a piece than to sell one radio capable of 
doing all of those things for $4,000. And so part of our 
strategy in putting this together was to build more 
competitors, and in fact, we are told that, in Las Vegas, at 
the International Wireless Communications Expo, another company 
is going to be announcing their ability to do this as well. 
That is exactly what we would like to see happen.

                     COMPLIANCE ASSESSMENT PROGRAM

    The second thing that we have done is to create what we 
call the Compliance Assessment Program, because, unfortunately, 
lots of companies thought they were compliant as they read P-25 
and designed their own tests. We have now created a system and 
going through all the testing. We expect to start the first set 
of tests by the end of this year, and these tests are intended 
to see whether P-25 systems can really connect to P-25 systems. 
And one of the things we ended up having to do, and I will use 
a different model than just radio, was in disaster management. 
We had lots of disaster management platforms out there that 
couldn't exchange information with each other.
    Part of Virtual USA is intended to address some of that. 
But one of the things we did there was that I went to a meeting 
of all of the manufacturers, and said, here's the deal. If you 
guys will work together to develop a standard so that you can 
communicate, then I won't use my office to develop a 
competitive product that I will give to the communities free. 
That caused them immediately to figure out how to make things 
work. So, they can now exchange data. It is a little tougher 
with this radio, but I think that is exactly the same kind of 
pressure we are going to have to apply.
    Mr. Price. Mr. Farr.
    Mr. Farr. Thank you.
    Mr. Boyd, in your responsibility, you can look at the whole 
country and decide or know where the underserved areas are, 
usually in the rural areas.
    Mr. Boyd. As a rule----
    Mr. Farr. Yes or no.
    Mr. Boyd. I think that is entirely true.

                       BROADBAND FOR RURAL AREAS

    Mr. Farr. Okay, because the next question is that Congress 
has just appropriated $7.2 billion for broadband for rural 
areas. Are you coordinating with the U.S. Department of 
Agriculture and the national, Commerce's National 
Telecommunications, and have you been invited to any of those 
meetings?
    Mr. Boyd. Not that I am aware of. We are aware of this 
program----
    Mr. Farr. Is putting all that infrastructure going to help 
communications in the rural areas, underserved areas?
    Mr. Boyd. Well, it certainly should.

                        FEDERAL INTEROPERABILITY

    Mr. Farr. And it certainly should have a benefit to you and 
to getting more communications in the underserved areas, is it 
not?
    Mr. Chairman, it seems to me that our committee has got to 
figure out how to link this broadband expenditure of $7.2 
billion with DHS. There has got to be some involvement.
    Let me shift a minute.
    The chairman mentioned in his opening statement about the 
Big Sur fires. I live in that area, and I was, the first job I 
had was working for the Forest Service as a firefighter. The 
Big Sur has burned down in 1978, 1987, 1995, 1997, 2001 and 
2008. And it is, the big problem in every one of those fires, 
is communication. And yet, nothing has been done about it.
    And last summer's fire we spent, the Federal Government, 
$150 million on that fire, putting it out. And you had 
everybody there. You had BLM. You had different Indian Nations. 
You had the Forest Service, Reclamation District, FEMA, OES, 
State Cal Fire, State prisons, county fires, city fires, rural 
fires. We even had to have the National Marine Sanctuary show 
up with their boat because the only way you could communicate 
was to put a communication systems offshore. It has always 
happened that way.
    This is a Federal fire in a Federal forest. And at one time 
when we asked for help, they told us that three-quarters of all 
the Federal capability in the United States was placed in 
California. And still we couldn't talk to each other.
    What the hell are we doing about it?
    I heard all your statements when you all got up here about 
how great everything is, but even in our own Federal community, 
we are not even operable, not interoperable, not operable. Why 
aren't areas like that, with lessons learned, year after year, 
dealt with?
    Mr. Boyd. I wish I had a really good answer for that. The 
one answer I will make is this one: As difficult as it is to 
deal with all the agencies to achieve interoperability, the 
Federal level is far and away the most difficult.
    Mr. Farr. Right. The Federal level are the first 
responders. They have all these, even had the Navy show up. In 
fact, the Naval Postgraduate School had some intel capabilities 
they could use with satellites, and they wouldn't release, the 
military wouldn't release them to help in a civilian operation. 
It was ridiculous.

                  RESPONSIBILITY FOR UNDERSERVED AREAS

    But my question is, does that have to come from a State? 
This is an underserved area. There is no operability. There is 
only a phone line in part of it. The rest of it has no phone 
lines, no electricity lines, nothing. You can't communicate 
because there are no cell towers. There is no line of sight, 
because of the mountains and the ocean. And most of it is in 
Federal ownership. Is it the responsibility of the State to 
come up with a plan for that land? Or is that because it is 
Federal ownership, we can move in our own Federal family to 
just put in operations capabilities?
    Mr. Boyd. Yes. I would have to defer that to the Department 
of Interior and Agriculture, because I, frankly, don't know 
what the rules are.
    Mr. Farr. Well, I mean, isn't that what we are supposed to 
do? I mean, who is in charge? That is the question. Who has to 
initiate that? Your titles all say that this is what you do. 
Grant programs, administrator of grant programs, you are the 
director of Command and Control and Interoperable Division, 
Department of Homeland Security.
    Mr. Boyd. Okay. But I am not in charge of Command and 
Control. I am in charge of identifying and developing 
technologies to make things easier for those who run the 
Command and Control systems.
    Mr. Farr. But where there is an underserved area and there 
has been proven emergencies that no one can respond to, whose 
job is it to pick up the pieces and try to fix it? There is 
just a lot of finger pointing going on. And I think that is 
what you have heard from all panel members, whether it has been 
Kentucky or whether it has been the border or now out in Big 
Sur California.
    Mr. Essid. Sir, if I may. Mr. Chairman?
    Mr. Price. Please. That is a very good question.

              EMERGENCY COMMUNICATIONS PREPAREDNESS CENTER

    Mr. Essid. One of the things our office was formed to do 
was stand up something called the ECPC, the Emergency 
Communications Preparedness Center. Now the title is a little 
misleading.
    Mr. Farr. You guys love your acronyms. But who the hell is 
on the job?
    Mr. Essid. This preparedness center is not like a 
preparedness center where someone is monitoring 24/7. Instead 
it is supposed to increase the coordination among of all those 
Federal entities you just talked about. One of the things we 
heard from the States is they see the Federal Government----

          RESPONSIBILITY FOR ENSURING FEDERAL INTEROPERABILITY

    Mr. Farr. But you are not doing it. Here is what you did. 
You have gotten radios out there for the rural fire 
departments. They can't talk to each other. There are mountains 
in the way. You have got to park a boat offshore. You can't do. 
The satellites don't work. The canyons are too big. And this 
always happens. We have accidents on the highway all the time. 
We have people that get lost in the mountains. It is just, it 
is a difficult place, and everybody knows it.
    But the Feds are the, you know, the 800-pound gorilla in 
the room and nowhere to be found when it comes to helping with 
the solution. You can just point to problems; well, you know, 
maybe it is the Forest Service ought to do something about it.
    Mr. Boyd. The first time I testified before any committee 
in Congress on interoperability, I think 6 years ago, at the 
risk of sticking my neck out here, I took the Homeland Security 
Act, and I went through every other page and pointed out that 
the responsibility for interoperability users in a different 
agency, in a different organization, in a different department 
for interoperability. I don't believe that has really changed 
yet.
    Mr. Price. Well, the establishment of Mr. Essid's office, 
what was it 2 years ago?
    Mr. Essid. Yes, sir.
    Mr. Price. Was designed to get at this problem of 
coordination and control. I think Mr. Farr is posing a very 
good question. His time is up, however.
    Mr. Farr. Well, even in the UASI, Monterrey County has been 
applying for those grants and never gotten one.
    Mr. Price. Ms. Lowey.

                      STREAMLINING DHS COMPONENTS

    Mrs. Lowey. Well, before I get to my question, which is 
directly following up on Sam Farr's point, I want to make two 
comments. First, I want to thank our witnesses for their work. 
Much remains to be done, but DHS has made progress advancing 
communications in recent years.
    Second, I think it is important that this committee keep in 
mind the enormous expense of communications networks. New York, 
for example, recently cancelled a $2 billion contract to build 
a statewide network. The State will recoup its money, but I 
would like to reiterate that even with a $2 billion investment, 
the test system was inadequate. And in difficult economic 
times, many State and local governments simply can't afford to 
bear the cost on their own.
    So I want to thank the chairman and applaud Chairman 
Price's actions to fund the grant program the last 2 years when 
the previous administration didn't propose any funding. And now 
more than ever, the subcommittee should strongly consider 
increasing funding for the program.
    So, that out of the way, I want to reference and follow up 
with Sam Farr. Most of us would agree that advancing local 
emergency communications capabilities is one of DHS's core 
missions. However, Mr. Chairman, the Office of Emergency 
Communication doesn't even appear on this 25-page organization 
chart. I have the chart right here if anyone wants to see it. 
It is lumped with the Office of Cybersecurity and 
Communications, which is a component of the National 
Protections and Programs Directorate. So cybersecurity has 
become more prominent in the last year, and with it now being 
front page news, I am concerned that OEC's placement, if you 
can even find it, may not maximize its ability to assist first 
responders. That is why I plan to offer legislation to give OEC 
greater prominence.
    Mr. Essid, has the new administration discussed moving the 
Office of Emergency Communications out of the cybersecurity 
office? Because, as is evident from the testimony, there are a 
variety of DHS offices tackling interoperability. I think there 
is an argument that can be made for streamlining the 
Department's efforts. And for instance, why require local 
governments to work with OEC on strategic planning but then 
with FEMA Disaster Emergency Communications Office on tactical 
and operational efforts?
    Therefore, after reviewing this and trying to spend some 
time figuring it out, knowing the significant number of DHS 
components tackling interoperability, to be more efficient, 
would each of you support streamlining the various components 
into one prominent office?
    Mr. Essid. Well, thank you for the question, ma'am. In 
recent testimony, Secretary Napolitano did say that DHS is 
going to focus on the role of the Office of Emergency 
Communication, and that interoperability is a key issue in 
DHS's relationship with States and locals. And she said that we 
are going to take a fresh look at what is meant by 
interoperability. It was mentioned earlier that it is one of 
the most overused terms in existence today. Also she said to 
take a fresh look at what technologies we can use and whether 
we can functionally interoperate more quickly in the case of 
significant events.
    What OEC has done since we have been created is we have to 
try to partner with everybody. We know our mission is to be the 
central point for this issue, so we coordinate with Dr. Boyd's 
office. We coordinate with FEMA, including disaster emergency 
communications, and we have been working with the members of 
the Emergency Communications Preparedness Center. And with 
other Federal partners, to try to build relationships. So we 
are doing the best we can with what we have right now.
    Mrs. Lowey. But would you recommend to Janet Napolitano 
that you streamline the various components into one prominent 
office? In 25 pages, it is not even mentioned here.
    Mr. Essid. Well, ma'am, I think the Secretary is looking at 
that right now herself, based upon her remarks at anything that 
can be done to increase the coordination with our partners. In 
the end, I think, States and locals look at us, and they say, 
you either failed as a group or you succeeded as a group in 
helping us. They don't care what the acronyms of the office are 
so long as we increase our partnerships.
    Mrs. Lowey. Dr. Boyd.
    Mr. Boyd. I think anything, anything that is going to 
strengthen that kind of direction and that kind of coordination 
is a good thing. It is going to be up to the Department to 
decide where to go. It is generally the case that when you have 
a single point of responsibility, that you have greater 
transparency and greater accountability. But it is not my call 
how this is going to be structured by the Department.
    Mrs. Lowey. I am going to introduce legislation and 
hopefully with the chairman on this. But do you have anything 
to say about that, Mr. Ashley?
    Mr. Ashley. Yes, ma'am. I think all of us at the table 
would see that, as a recommendation in each of our roles, that 
would be something that we would advise the Secretary on in a 
positive way.
    But let me add something real quick, and I don't mean that 
from the standpoint to diminish the role that these two 
gentlemen at the table have done over the last 2 years. When I 
first showed up a little over a year ago, I think I hold the 
record for the amount of time of anybody serving in this 
position. There wasn't a consistent definition for 
interoperability across the 19 preparedness grant programs. In 
all of the different programs, somebody mentioned it earlier, 
that if you asked one person in DHS, they would say something 
different about interoperability. In every one of these 
programs, because of the work of these two gentlemen, in 
SAFECOM and OEC, has made our lives easier in the grants world 
and having a consistent definition and allowable use of funds 
and planning and statewide communications interoperability 
planning across all the programs which are available for 
interoperable communications. So we would support anything to 
strengthen that further.
    But I don't want to diminish from the work that these two 
gentlemen have done.
    Mrs. Lowey. I am not diminishing. I am applauding.
    In fact, Mr. Chairman, I know my time is up, but if I am 
not mistaken, Mr. Essid has made considerable progress staffing 
your office from four employees to 27, and there are nearly 50 
percent of the authorized positions remain vacant. So it might 
be interesting to follow up at some other points since my time 
is up. Do you have the help you need to reach out and get the 
job done?
    And I am hoping, Mr. Chairman, we can do something again 
with this chart. Thank you very much.
    Mr. Price. Thank you.
    Ms. Roybal-Allard.

              SEPARATE NETWORKS ON THE BROADBAND SPECTRUM

    Ms. Roybal-Allard. Mr. Essid, I would like to go back to 
the issue of the D Block section of the spectrum and FCC's 
inability to sell it. It has been brought to my attention that 
cities and States are lobbying Congress to break out portions 
of the broadband spectrum designated for emergency 
communications and allow them to build their own separate 
networks. And first responders in the Los Angeles area have 
expressed a great deal of concern that if that were allowed to 
happen, we would end up where we were several years ago, with 
disparate communications systems built by different vendors 
that could not be linked together.
    Could you tell me if you are considering these requests? Or 
will you continue to be committed to pursue the implementation 
of a single interoperable broadband system across the country?
    Mr. Essid. Well, we have been hearing from a lot of the 
same stakeholders as you about their concerns. It shouldn't 
surprise anyone on the subcommittee that the urban areas are 
ready to jump on this type of technology today, but a lot of 
rural areas aren't. The first responders have told us they 
don't really care if there is a national or a regional roll out 
of such technology, as long as the technology is compatible up 
front. The reason we have to do a lot of work today with 
coordination and trying to solve problems after the fact is 
because everybody went out and bought whatever they wanted. 
Years ago, they didn't coordinate with their neighbors, other 
States, other localities. We have to do a better job with this 
technology, or we will be forced to do the same things--trying 
to go back after the fact, saying oh you bought this system and 
it has this standard; you got this system and it has another 
standard. We will have to do a bunch of things to bridge them.
    That is one area our office is working on, and I know Dr. 
Boyd's office is working as well on those up front coordination 
aspects. We support that the first responder community needs, 
this say, wireless broadband capability. But it has to be in a 
standardized manner that is coordinated. It can't just be, 
everyone buy whatever you want, because then we end up in the 
same place as the land-mobile radio world, where Dr. Boyd and 
his shop have been working for years to develop that little 
gizmo to bridge these different frequency bands. If we 
coordinate up front, whether on a regional or a national 
picture, it is going to be much better than on the back end.
    Ms. Roybal-Allard. So that would be the only condition 
then, that you would consider cities and States being able to 
get this broadband?
    Mr. Boyd. I think it is important to understand that we 
don't control in DHS whether or not they can build these 
systems. If the Federal Communications Commission licenses 
them, then that is out of our hands. So the question there is 
whether the FCC is going to allow those things to happen. Right 
now, they won't on the D Block because the D Block is set aside 
for this purpose. And so what the urban areas really are 
arguing is not that we in DHS let them do it, because for the 
most part, they would be able to execute if they chose to do 
so. What they are arguing is that they want the FCC to allow 
them to do that.
    If the FCC allows them to do that, then, in fact, you may 
create some of the very complications that you talked about. If 
the FCC does not allow them to do that, then inevitably we will 
also slow some of the broadband implementation in each of those 
areas. So there is a bit of a conundrum here about how this 
gets applied. And at the end of the day, it is really going to 
have to be up to the FCC and whether or not they can sell the D 
Block and get a system built.

                GRANT ADMINISTRATION BY A SINGLE AGENCY

    Ms. Roybal-Allard. Mr. Ashley, you have heard the 
displeasure that this committee has with regards to the grant 
process. Last week it was the Transit Security Grants Program 
and today the interoperability grants. And there seems to be 
some common denominators here. First of all, the grants are 
administered by two agencies, FEMA and TSA, with the transit 
grants and the National Communications and Information 
Administration For Interoperability grants with FEMA.
    So one question is, would the administration of these 
grants be improved if a single agency was in charge of the 
entire application process, rather than two?
    And then, secondly, another common denominator is that you 
go through the States, and you mentioned last week that you 
took the States out on the transit grants.
    Mr. Ashley. The Congress did.
    Ms. Roybal-Allard. Okay. And it is working a lot better. 
And would you consider doing that with the Interoperable 
Emergency Communication Grants?
    Mr. Ashley. Thank you.
    I am glad you asked that question. On the two-agency thing, 
let's be clear that FEMA is responsible for issuing the grants. 
Okay? But FEMA is not a subject matter expert in all grants 
programs. For transit, we use TSA; for emergency 
communications, we have both our Disaster Emergency 
Communications Group within FEMA as well as Dr. Boyd and Chris 
Essid's shops.
    As far as the, would it speed things up if there were one 
agency, I think we always need to have subject matter expertise 
involved in the development of the grant program, both at the 
Federal level as well as at the stakeholder level. So I think 
that process is a valuable process. When we talk more, week 
after next, about transit grants, we will talk about the 
process that goes on there and how that could definitely be 
improved through potentially reworking how the program is 
administered.
    Okay. With the PSIC grants, we are constrained by law on 
the administration of that with NTIA. So NTIA does have to 
approve all of the investment justifications. The Department of 
Homeland Security does not have the ability to approve which 
ones can or cannot get funded.
    Now, that being said, that is ancient history now. They are 
all approved now. So that was a process that took 2 years to 
do. It is done. It is over. All the funding is now available. 
So PSIC is also not one of those recurring annual grant 
programs. We don't have that issue with the Interoperable 
Emergency Communication Grant Program. FEMA is the sole 
executing agent on that program. And you can see, from when 
funding has been made available, it happens very rapidly.
    Chris's shop and Disaster Emergency Communications provide 
the subject matter expertise, and then Dr. Boyd's shop from the 
standards, making sure that it is consistent. But they do not 
by any means hold up the process.

                     STATE DRAWDOWN OF GRANT FUNDS

    Ms. Roybal-Allard. Okay. What about the State issue?
    Mr. Ashley. Oh, the State issue? I will tell you and we 
will talk more about this week after next, any time you have 
subgrantees, there are delays in drawdowns in funds. Okay?
    If you look at the assistance to firefighter grant program 
that has been around since 2001 and you look at drawdown rates 
in that program, you do not see drawdown rate problems. Okay? 
Cash problems, if you will. But what you lose is coordination 
at the State level and regional coordination across multiple 
grants programs. There is a tradeoff to be made there, 
immediacy of funds, potentially not being used for the most 
optimal plans, or coordination across multiple programs with 
another layer, be it the State, that coordinates these 
programs, but then drawdown doesn't happen as fast. So there is 
a tradeoff to be made there.

                     EXPEDITING THE GRANTS PROCESS

    Mr. Price. We have limited time. But I want to have a quick 
final round of questions because I think there are a number of 
issues that have been raised here that we can profitably follow 
up on. And so, with your indulgence, we will ask our panelists 
to be very brief in their responses, and we will promise to be 
brief in our questions.
    I want to pick up on Ms. Roybal-Allard's line of 
questioning because we are concerned, of course, about the 
drawdown rate and the extent to which these moneys are being 
spent. Based on the latest estimates from the Department, 93 
percent of the fiscal year 2007 PSIC grants remain unspent, as 
has been said several times today. And the Special Emergency 
Communications Grant Program, which we established through our 
appropriations bill, 2008 and 2009, the 2008 funding is still, 
I think, only 1 percent drawdown. So we clearly do have some 
significant delays here in getting these funds applied on the 
ground. And we have had various discussions today about the 
reasons for that.
    Mr. Ashley, I gather you are suggesting that the work of 
your fellow panelists here this morning, the work of these 
offices in DHS, has expedited rather than held up this grant 
process. In other words, and that makes a lot of sense, of 
course that is one thing we have been aiming for is to have 
State plans, to have good technical assistance available, to 
have various mechanisms in place so that the applications that 
come in from various jurisdictions are ready for 
implementation, are plausible applications that can more 
readily be funded, and that is part of what these offices are 
doing is trying to shape up our process in that respect.
    So one would assume there is a whole lot less second 
guessing that you need to do and a whole lot less sending 
proposals back for review and for refinement because of the 
work of these offices. Is it working that way? I suppose that 
is one very important question. And is it your impression that 
the kind of technical assistance that the State and local 
agencies need, that they are getting, that these applications 
are coming to you in good form; in other words, not just good 
legal form, but are sound proposals in that they will do the 
job and also will be compatible then with the kind of direction 
in which we want to develop the system? So that is one 
question.
    The other is, your testimony's mention of environmental 
reviews as a major aspect in these delays. Now, I suppose that 
mainly involves questions like tower location, which are of 
course sensitive local issues sometimes. But there, too, one 
would think, when proposals come to you, a certain amount of 
local review and local clearance has taken place, so that these 
are, these locations have been decided upon with due diligence. 
So how big really is that problem? And do you have the kind of 
resources you need to do these environmental reviews in an 
expeditious fashion?

                         ENVIRONMENTAL REVIEWS

    Mr. Ashley. On the first one, for the environmental reviews 
for the PSIC stuff for the interoperable communications, one, 
it is not as big of an issue as it is in transit grants, but it 
is an issue. The towers are pretty straightforward. We are 
working with, actually the Department of Commerce is 
coordinating this, but putting together a blanket EHP 
statement. It is out, published on the Federal Register Notice 
right now, as we speak, which will allow projects to move 
rapidly through there that are contingent upon EHP review. But 
a large part of the PSIC grants is to buy stuff, and that 
stuff, if you will, radios and others, are out there for bid, 
or out there available to be drawn down.
    And again, I want to caution people on looking at cash in 
the United States Treasury as not indicative of what is being 
accomplished in the community. I think each and every one of 
you, if you would call your jurisdictions, your States, they 
would tell you that they are executing on grant funds. Yes. 
Will they tell you that it took a long time to get to where 
they are today? Yes, but they are executing on them as we 
speak. They have had the PSIC funds available now for over a 
year to draw down on. So it is not for lack of funding.

                              PSIC GRANTS

    Now, with the plans, what has happened, when we look at the 
2009 Interoperable Emergency Communication Grant Program, this 
funding will be made available at the earliest it has ever been 
before, largely due to an on-time appropriations bill as well 
as due to the efforts of these gentlemen.
    You are absolutely right, Chairman, when you say there are 
statewide plans now. When I look at a grant or when our peer 
reviewers look at grant applications for interoperable coms or 
for the State Homeland Security Grant Program, all they have to 
do is insure that it goes against the DHS approved plan, and 
that funding is deemed valid.
    Mr. Price. And that presumably would expedite your approval 
process.
    Mr. Ashley. And it has expedited it greatly, sir. For the 
last year, actually 2 years, we have executed the grants out on 
time per the statute that comes from this committee.
    Mr. Price. Actually, that is not evident from the figures 
we have. So I would appreciate your figuring out how to 
document that. Maybe by comparing turnaround times before and 
after or some way of putting a little more precision in that 
claim.
    Mr. Ashley. What we could do is compare the amount of time 
from the PSIC, from the original, the Public Safety 
Interoperability Communications Grant Program and the amount of 
time it has taken since that program, both with Chris's office 
being in place with the Interoperable Emergency Communications 
Grant Program, and how quickly those funds were made available 
to the States.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2213A.286
    
    [GRAPHIC] [TIFF OMITTED] T2213A.287
    
    [GRAPHIC] [TIFF OMITTED] T2213A.288
    
    [GRAPHIC] [TIFF OMITTED] T2213A.289
    
    [GRAPHIC] [TIFF OMITTED] T2213A.290
    
    [GRAPHIC] [TIFF OMITTED] T2213A.291
    
    [GRAPHIC] [TIFF OMITTED] T2213A.292
    
    [GRAPHIC] [TIFF OMITTED] T2213A.293
    
    [GRAPHIC] [TIFF OMITTED] T2213A.294
    
    [GRAPHIC] [TIFF OMITTED] T2213A.295
    
    [GRAPHIC] [TIFF OMITTED] T2213A.296
    
    [GRAPHIC] [TIFF OMITTED] T2213A.297
    
    [GRAPHIC] [TIFF OMITTED] T2213A.298
    
    [GRAPHIC] [TIFF OMITTED] T2213A.299
    
    [GRAPHIC] [TIFF OMITTED] T2213A.300
    
    [GRAPHIC] [TIFF OMITTED] T2213A.301
    
    Mr. Price. That would be helpful. And of course, that is 
the idea, not to just have quick turnaround but to have better 
plans that you are dealing with in the first place, which then, 
of course, can be more readily approved.
    Mr. Rogers.

                                 MITOC

    Mr. Rogers. Dr. Boyd, or any of the others, are you 
familiar with the term, MITOC?
    Mr. Boyd. Yes, sir.
    Mr. Rogers. Man-Portable Interoperable Tactical Operations 
Center.
    Mr. Boyd. Yes, sir.
    Mr. Rogers. Which is a Department research project that the 
University of Louisville and Western Kentucky University 
collaborated on to build an interoperable command center for a 
disaster; is that a fairly good description of it?
    Mr. Boyd. Yes, I think that is it. What they were trying to 
build in MITOC is something that didn't depend, in an 
emergency, on being able to have roads available; something, 
you might be able to fly in that someone could carry and put 
into place. You might think of it as a substitute for something 
that can fill some of the gaps. It may be a bit less capable, 
say, than a MERS, which goes in a vehicle, but it can go places 
that some of these other things can not go.
    Mr. Rogers. Well, they showed it to me some time back when 
it was first built. And by the way, that was money directed by 
Congress because there was a need and it didn't exist and the 
bureaucracy wasn't doing it, so Congress intervened and said, 
build it, and we did. And the MITOC van, chock full of 
electronic gear, drove during the ice storm into Western 
Kentucky and there established communications amongst the first 
responders and the State, and it worked. Why can't we do that 
more? I mean, this thing works. And it is all forms of 
communications. It is verbal. It is data. It is electronic and 
so on. Is that a good answer for at least emergency operations?
    Mr. Boyd. Yes. The point I was making before when I talked 
about things like ROW-B, and ROW-B is only one example, is that 
there are, in fact, a number of systems that, like MITOC, like 
the MERS, like ROW-B and others, can do these things. The 
question is whether localities can afford them and whether they 
are built into part of their planning. In fact, I believe every 
major community, in particular rural communities, ought to 
think about implementing some of these things and using some of 
the grant money to build and deploy them because the 
infrastructure in rural environments tends to be more fragile 
than it is in urban environments.
    Mr. Rogers. Would not the MITOC work in an urban 
environment as well?
    Mr. Boyd. Yes, it would. In fact, typically a major urban 
environment is going to have a capability very much like a 
MITOC. They are going to have a major van, probably their own. 
Some of them own several of these. New York City has several of 
these, some located in very, very large command and control 
complexes that they can drive into place.
    So while the MITOC is, I think, a superb solution and is 
the kind of thing that communities need, there are others that 
have similar capabilities.
    Mr. Rogers. Well, it shows me, it tells me that we are 
dealing with a soluble problem here, because it was solved. And 
at least in the MITOC's instance where it was set in after the 
fact, you know, it was an emergency operations center, but I 
don't know why we couldn't use whatever technology they have 
for that portable unit, why that can't be duplicated in large.
    Mr. Boyd. I don't think there is any reason why it can't 
be.
    Mr. Rogers. Why hasn't it been done?
    Mr. Boyd. We don't have the money.
    Unfortunately, I don't get to buy a lot of these. I get to 
prove one of these and I get to put them in place and pilot and 
demonstrate them. Grant funding then goes to the communities 
who have to decide that that is what they want to put the money 
into.
    Mr. Rogers. Mr. Ashley, what do you say about that?
    Mr. Ashley. It is an allowable expense. If they so choose 
to spend their dollars that they have been allocated on that 
technology----
    Mr. Rogers. Mr. Essid, why aren't you pushing this as a 
solution? He says he will make grants for it. Dr. Boyd says, 
sounds like a good idea. Why aren't you selling this to States 
and communities?
    Mr. Essid. In fact, we have been, sir; and, in fact, they 
are implementing this all over the Nation. Different types of 
technologies but the same principle. Something that can be 
brought into an area to establish communications when they are 
devastated.
    A lot of States have used part of the PSIC funds to 
establish what is called a strategic technology reserve. 
Basically, these are radio caches or this type of system.
    Some States have been experimenting with their National 
Guard, with the National Guard using helicopters to drop 
equipment into rural areas to establish communications. That 
way the National Guard gets their training hours in on their 
flights, too.
    There are all kinds of partnerships to be had. A lot of 
States are for these types of technologies and are developing 
the standard operating procedures on how you deploy that. When 
I was in Virginia, we did something very similar.
    Mr. Rogers. How many grants have you made for this type of 
thing, Mr. Ashley?
    Mr. Ashley. For mobile emergency communications systems?
    Mr. Rogers. Yes.
    Mr. Ashley. I don't have the number in front of me. We have 
run that number before, and I can definitely provide that to 
staff.
    [The information follows:]

    IFR #3. How many grants has FEMA GPD made for mobile emergency 
communications systems? (from page 91 of the transcript):
    The attached ``Motor Vehicle Data Call'' depicts the number of 
vehicles that States and Territories propose to acquire during the PSIC 
period of performance (October 1, 2007-September 30, 2010).

[GRAPHIC] [TIFF OMITTED] T2213A.302

[GRAPHIC] [TIFF OMITTED] T2213A.303

    Mr. Rogers. Is it few or many?
    Mr. Ashley. It is quite a few, sir. Quite a few.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Price. Mr. Rodriguez.

                COMMUNICATION WITH THE PUBLIC AND MEXICO

    Mr. Rodriguez. Thank you, Mr. Chairman.
    Let me go back to what Lucille had mentioned about the 
broadband spectrum. You know, I am really naive about this. But 
I know that we are going to have a problem with communications 
with Mexico when we go into it. But is there some legislation 
that we could look at doing to assure that we would be able to 
communicate with all Americans when it comes to disasters? I 
really feel that we need to make sure that that happens and not 
allow for the FCC to be able to determine those things and make 
sure we do that.
    Secondly, on the Mexican border, we really need to enhance 
that communication there also on the Mexican side as well, and 
I presume on the Canadian side, also. And I assume we have had 
some programs also on the Canadian side and see if we can kind 
of expand on those things.
    We have always had--a car, for example. It does something 
on the U.S. side and then cuts off, and then the policeman is 
unable to call the Customs people on the border and that car, 
southern bound, he just zooms through there. We are unable to 
catch him in some cases.
    So could you respond to those two cases?
    Mr. Boyd. Let me start first with communicating with the 
public.
    The WARN Act, which was passed, I think, 2 years ago, 
established a requirement which my office then picked up a few 
months ago to develop a way to provide alert and warning 
messages to every mobile device. It is called the Commercial 
Mobile Alerting System and is intended to allow alerts to go to 
PDAs and cell phones and the rest.
    It uses some of the spectrum auction money. The logic in 
that Act was that most people don't have their televisions or 
their radios turned on at night, but they do have their cell 
phone on. They do have a variety of other devices that can be 
used to launch alerts wherever they happen to be. And this has 
a number of components, and I won't go into lots of detail, but 
it is intended to be able to provide that kind of alert to the 
entire population.
    So that is part of what we are trying to do in that arena, 
plus the integrated public----
    Mr. Rodriguez. Have you prioritized the east coast, west 
coast, Canadian border, Mexican border in moving in that 
direction in that area or the whole country as a whole?
    Mr. Boyd. Because of the way this system works when it is 
turned on, it will be the country as a whole. It won't be a 
single region. It will be everything. We have had great support 
from the major providers who would be carrying these messages 
and want to do that. And this is a component of the integrated 
public alert warning system which is in FEMA, which is intended 
to provide alerts over all of the traditional systems. This 
allows all of the newer systems to be included as well.
    On the Canadian side, we are doing a great deal of work 
directly with the Canadian Association of the Chiefs of Police. 
In fact, both Chris and I were up in British Columbia a month 
ago talking about it. They believe we are way ahead of them, in 
interoperability and they want to be able to adopt these tools.
    In fact, the representative from the United Kingdom also 
told us that the UK is in the process of adopting our materials 
as well because they have a similar problem. So we have work 
within Canada, and we have a delegation coming down to work 
with us again in April so we can look at how best to set up 
some real technology demonstrations. This is one of the demos 
that is occurring cross border with them.
    And then Chris is working on the southern border.
    Mr. Rodriguez. Chris.
    Mr. Essid. As Dr. Boyd just said, Canada is really 
partnering with us, and they have been using a lot of things we 
have developed. When we go up and speak in Canada, they know 
that some disasters in the United States have exposed our 
communications gaps. And the Canadians haven't had those same 
types----
    Mr. Rodriguez. What do we need to go to get things going in 
the Mexican side? Do I need to ask questions regarding 
diversity in your staffing?
    Mr. Essid. No, sir. We are doing a lot on the southern 
border. Those statewide plans I talked about earlier: As you 
could probably predict, most of the states that border Mexico 
have initiatives in their statewide plans to address that 
cross-border interoperability. And we have been sending 
technical assistance out there to try to support them in their 
needs.
    And we also have been working with the State Department on 
that high-level consultative commission on telecommunications 
to coordinate between the two governments, including spectrum 
sharing agreements with the FCC, standard operating procedures, 
and the like. So while it is very complex, we are working with 
the State Department on behalf of DHS to better coordinate with 
the Mexican government across our borders.
    Mr. Price. Mr. Carter.

            INTEROPERABLE EQUIPMENT AND SYSTEM REQUIREMENTS

    Mr. Carter. Thank you, Mr. Chairman.
    It seems to me that the mission we have here is to create a 
system today that is interoperable for all jurisdictions, that 
incorporates all the technology, all the systems that are out 
there; and, if not, offers of those systems, a buying list of 
varying companies that they can supplement their equipment to 
get on the interoperable system and then offer them 
information, ongoing information that they can keep it up at 
every jurisdiction level. Then challenge the communications 
community whenever they come up with a new product, make sure 
it meets our interoperable needs.
    And then, finally, if the Star Wars Corporation 20 years 
from now comes with a whole new system, their challenge has got 
to be that it will attach to our system until such time as we 
can convert over to their Star Wars system. That seems to be 
the way we ought to do this. Now can we do that?
    Mr. Boyd. In fact, that is exactly the approach we are 
trying to use, where we are working with industry to try to 
make sure that these things are compatible. We are doing things 
like the compliance assessment program so that we can tell 
communities what really does work, what really does 
interoperate. We have got a variety of kinds of tools and 
materials that talk about how to build common governance, how 
to go about thinking about building systems and how to look at 
the same standards.
    We are also producing standards. In fact, we have 
dramatically accelerated the standards process. It typically 
takes 8 years for a standard. We have produced about four 
critical standards in this arena over just the last 3 years.
    We think you are exactly right. That is exactly the kind of 
model we have got to go to where we provide that kind of 
information to the field. We don't have the power to prevent a 
locality from buying something that we would recommend they 
not. What we want to do is to persuade them that it is not in 
their interest to do that. So we do a great deal of work to try 
to communicate with them regularly, involve them in the things 
we are doing and help them understand why it is in their 
interest to think about how they work with their neighboring 
communities to do exactly what you talked about.
    Mr. Carter. I think that they will cooperate. But from 
talking to them about their frustration level, their whole 
frustration level is, who do you ask to get the bottom line? 
Because we are ready to spend our money. We want to know what 
the bottom line is. And is this guy selling us the right 
product? Or is this guy selling us the right product?
    And that ought to be part of your task in my way of 
thinking, as we go all the way through this from now until we 
go into the future, when somebody comes up with the Buck 
Rodgers system or something. But, whatever it is, that ought to 
be the task of our governmental agencies, to make sure the 
system works.
    Mr. Boyd. We would love to be able to help them do that 
kind of engineering assessment. But there are 60,000 
communities and only 27 of us and 27 in Mr. Essid's shop.
    Mr. Carter. Well, it becomes their problem.
    Mr. Boyd. Yes.
    Mr. Carter. Thanks Mr. Chairman.
    Mr. Price. Mr. Farr, please, to close us out.

        FEDERAL INPUT TO STATE AND LOCAL EQUIPMENT PROCUREMENTS

    Mr. Farr. Thank you very much, Mr. Chairman.
    I think we have a little interoperability problem 
developing at the Federal level. I think you all represent 
about $5 billion of expenditure in the communications world; 
and yet Congress, through other departments, has just set up a 
$7.2 billion economic stimulus law for high-speed Internet. And 
last week Internet entrepreneurs, consumer groups, and State 
officials, probably some who were applying for grants in your 
office, showed up to find out how they can get access to this 
money.
    The Commerce National Telecommunications Information has 
$4.7 billion to allocate, and Department of Ag's Rural Utility 
Services has $2.7 billion, and the FCC is advising the other 
two agencies on procedure. According to this press release, top 
officials from the three agencies did make it clear that they 
are in a hurry. Agencies have until September 30, 2010, to 
complete what officials envision will be three rounds of 
awards, but the regulators will have to inject certainty into a 
long list of politically charged and technically inadvised gray 
areas.
    Look, that is going to be a snake pot of vendors, and all 
these local, vulnerable communities are going to go after that 
pot of money, and you are not even at the table. Wouldn't you 
have some recommendations that if we are going to go out and 
spend with your money and their money $12 billion on 
communication infrastructure in America that there ought to be 
some of your input and knowledge into that?
    Mr. Boyd. We are always open to provide----
    Mr. Farr. I think you have got to charge in the room. You 
are a big guy, a former Army tank guy. You ought to just go in 
there and say, we are here.
    Mr. Boyd. But there are 60,000 of them.
    Mr. Farr. But, look, my communities here or out there, they 
are already calling me and saying, how do we get to the 
broadband money? That is the same people who call me and say, 
oh, there is a grant for interoperability money. There must be 
something where the two meet. There are some things that you 
would advise people if you are going to spend all this money, 
hey, you can do it a little bit smarter from lessons learned.
    Mr. Essid. Yes, sir. There are.
    Mr. Farr. Mr. Chairman, I mean, our committee appropriates 
money in both instances. So can we get these agencies to 
include DHS in the discussion of broadband expansion in 
America?
    And lastly--I guess the answer is yes, or we will just have 
to stop funding people.

                  GETTING MONTEREY COUNTY OPERATIONAL

    Who do I talk to? I want to get Monterey County--we are 
talking about an area that is 70 miles long and 70 miles wide.
    Mr. Boyd. I used to live there.
    Mr. Farr. Well, you know it. I want to get South Monterey 
County and the Los Padres National Forest Big Sur region to be 
operational. I am not talking about interoperational, because I 
think operations will lead to interoperations. But of you 
three, who is the person I want to talk to on that? And do you 
have a cap in those grants you give out? Do you cap them?
    Mr. Ashley. We give the grants to the State.
    Mr. Farr. Just to the State, not to the local communities?
    Mr. Ashley. Just to the States.
    Mr. Farr. What about Federal agencies and Federal 
properties that need it?
    Mr. Ashley. I am prohibited by law to moving money to 
Federal agencies.
    Mr. Farr. So if we want to wire this area, and a lot of it 
is Federal, we have to go through State and local?
    Mr. Ashley. Either that or you would appropriate the 
dollars to the Federal agency who is the responsible agency for 
that land, I would believe.
    Mr. Farr. Who do I talk to about trying to make this thing 
work? Because, so far, all these years, nobody is doing 
anything.
    Mr. Essid. Sir, you can talk to me. One of the things that 
make folks a little uneasy is the title of my job. I am 
supposed to kind of stick my nose where it doesn't belong, 
knock down walls, and build bridges where they didn't exist. We 
have initiated shared infrastructure projects and ideas all 
over the country where, instead of building towers across the 
street from other towers, we are trying to get Federal groups 
to work with State groups and local groups to share 
infrastructure and reduce costs. And it makes common sense.
    Mr. Farr. I totally agree.
    Mr. Essid. We can also look at our technical assistance 
offerings there and opportunities for shared infrastructure.
    Mr. Farr. I will be calling you.
    Mr. Essid. Yes, sir.
    Mr. Farr. I am also a big supporter of Mr. Rogers' MITOC 
project. It was a smart thing to do.
    Mr. Price. Thank you very much.

                          STATE RESPONSIVENESS

    Mr. Rodriguez. One quick question. If we find that some 
States are not being responsive or are not addressing our needs 
in certain sectors of the State, at what point do we decide 
that we will take some other alternatives in order to meet some 
of those needs?
    Mr. Price. Mr. Ashley, briefly, if you will.
    Mr. Ashley. Sure. For the grant programs, you know, DHS 
does walk a fine line there with making sure that it is making 
the funds available to the State. But we don't want to be 
overly prescriptive to the States and say, you will do the 
following. You know, the number one input we get back on grants 
is make them flexible. The States know better than the Federal 
Government where the Federal funds ought to be applied.
    Mr. Rodriguez. Let me just share with you, the bureaucracy 
in the State can be just as bad as the bureaucracy at the 
Federal level.
    Mr. Ashley. Yes, sir.
    Mr. Rodriguez. At what point--I would hope maybe in the 
near future you start thinking about some assessments for our 
constituencies that are out there. If we find some of the local 
communities, just like first responders, you are at the mercy 
of the local responders there. You might have some great ones. 
You might not have as good ones or not well trained. So at what 
point, you know--so I would ask that you kind of consider that.
    Mr. Price. One of the functions of technical assistance of 
the sort that Mr. Essid has developed and given is to bring 
communities along that have less capacity to generate their own 
credible proposals. We assume that is part of the effort.
    Mr. Essid. Yes, sir, it is.
    Mr. Price. Thank you all for a very interesting and useful 
morning. We look forward to working with you as we put our bill 
together for next year.
    The subcommittee is adjourned. 

    [GRAPHIC] [TIFF OMITTED] T2213A.304
    
    [GRAPHIC] [TIFF OMITTED] T2213A.305
    
    [GRAPHIC] [TIFF OMITTED] T2213A.306
    
    [GRAPHIC] [TIFF OMITTED] T2213A.307
    
    [GRAPHIC] [TIFF OMITTED] T2213A.308
    
    [GRAPHIC] [TIFF OMITTED] T2213A.309
    
    [GRAPHIC] [TIFF OMITTED] T2213A.310
    
    [GRAPHIC] [TIFF OMITTED] T2213A.311
    
    [GRAPHIC] [TIFF OMITTED] T2213A.312
    
    [GRAPHIC] [TIFF OMITTED] T2213A.313
    
    [GRAPHIC] [TIFF OMITTED] T2213A.314
    
    [GRAPHIC] [TIFF OMITTED] T2213A.315
    
    [GRAPHIC] [TIFF OMITTED] T2213A.316
    
    [GRAPHIC] [TIFF OMITTED] T2213A.317
    
    [GRAPHIC] [TIFF OMITTED] T2213A.318
    
    [GRAPHIC] [TIFF OMITTED] T2213A.319
    
    [GRAPHIC] [TIFF OMITTED] T2213A.320
    
    [GRAPHIC] [TIFF OMITTED] T2213A.321
    
    [GRAPHIC] [TIFF OMITTED] T2213A.322
    
    [GRAPHIC] [TIFF OMITTED] T2213A.323
    
    [GRAPHIC] [TIFF OMITTED] T2213A.324
    
    [GRAPHIC] [TIFF OMITTED] T2213A.325
    
    [GRAPHIC] [TIFF OMITTED] T2213A.326
    
    [GRAPHIC] [TIFF OMITTED] T2213A.327
    
    [GRAPHIC] [TIFF OMITTED] T2213A.328
    
    [GRAPHIC] [TIFF OMITTED] T2213A.329
    
    [GRAPHIC] [TIFF OMITTED] T2213A.330
    
    [GRAPHIC] [TIFF OMITTED] T2213A.331
    
    [GRAPHIC] [TIFF OMITTED] T2213A.332
    
    [GRAPHIC] [TIFF OMITTED] T2213A.333
    
    [GRAPHIC] [TIFF OMITTED] T2213A.334
    
    [GRAPHIC] [TIFF OMITTED] T2213A.335
    
    [GRAPHIC] [TIFF OMITTED] T2213A.336
    
    [GRAPHIC] [TIFF OMITTED] T2213A.337
    
    [GRAPHIC] [TIFF OMITTED] T2213A.338
    
    [GRAPHIC] [TIFF OMITTED] T2213A.339
    
    [GRAPHIC] [TIFF OMITTED] T2213A.340
    
    [GRAPHIC] [TIFF OMITTED] T2213A.341
    
    [GRAPHIC] [TIFF OMITTED] T2213A.342
    
    [GRAPHIC] [TIFF OMITTED] T2213A.343
    
    [GRAPHIC] [TIFF OMITTED] T2213A.344
    
    [GRAPHIC] [TIFF OMITTED] T2213A.345
    
    [GRAPHIC] [TIFF OMITTED] T2213A.346
    
    [GRAPHIC] [TIFF OMITTED] T2213A.347
    
    [GRAPHIC] [TIFF OMITTED] T2213A.348
    
    [GRAPHIC] [TIFF OMITTED] T2213A.349
    
    [GRAPHIC] [TIFF OMITTED] T2213A.350
    
    [GRAPHIC] [TIFF OMITTED] T2213A.351
    
    [GRAPHIC] [TIFF OMITTED] T2213A.352
    
    [GRAPHIC] [TIFF OMITTED] T2213A.353
    
    [GRAPHIC] [TIFF OMITTED] T2213A.354
    


     JOINT HEARING WITH LEGISLATIVE BRANCH APPROPRIATIONS FOR 2010

                              ----------                              --
--------

                                         Wednesday, March 25, 2009.

       SECRET SERVICE PROTECTIVE MISSIONS AND INAUGURAL SECURITY

                               WITNESSES

MARK SULLIVAN, DIRECTOR, UNITED STATES SECRET SERVICE
PHILLIP D. MORSE, SR., CHIEF, UNITED STATES CAPITOL POLICE
    Mr. Price. The Subcommittees will come to order, this being 
a joint meeting of the Homeland Security and Legislative Branch 
Appropriations Subcommittees.

               Opening Statement of Chairman David Price

    Today we are happy to welcome Director Sullivan and Chief 
Morse to this joint hearing. We will mainly be discussing the 
roles that both the Secret Service and the Capitol Police 
played in planning and then maintaining security and public 
safety at the 56th Presidential Inauguration.
    First I want to recognize the Secret Service's recent work 
and provide some context for today's hearing. The 2008 campaign 
was the longest and most widely attended in Secret Service 
history. The agency started protection for then-candidate Obama 
much earlier than any previous candidate. Throughout the 
campaign, Senators Obama and McCain attracted record crowds. 
After the election, the President-elect continued to lead 
extraordinarily large rallies and meetings. It is a remarkable 
achievement and the result of the hard work and dedication of 
thousands of agents that the 2008 campaign and transition 
functioned smoothly and safely.
    By virtue of North Carolina being a battleground State, I 
had the opportunity to witness the Secret Service in action 
protecting candidate Obama among the throngs of people at his 
events. I was very impressed by the professionalism and 
dedication of the men and women under your command, Director 
Sullivan. Thank you for everything your agency did to protect 
our candidates and their families throughout a uniquely 
challenging election season.
    There was also much about the inaugural celebrations that 
went well. Nearly 2 million people witnessed President Obama's 
swearing in, and there was not a single security-related 
incident, arrest or serious injury at the inaugural 
festivities. Spectators watching the festivities on television 
saw a remarkable event. So therefore, I congratulate both of 
you for a day that required extraordinary preparation and 
coordination, and in most respects was successful; however, not 
in all respects.
    We are all aware that not everything went well on 
Inauguration Day. Thousands could not enjoy the festivities 
since they were stuck in large, amorphous crowds outside the 
Capitol Grounds. Others were trapped in the tunnel beneath the 
Capitol Reflecting Pool.
    As I am sure other colleagues will attest today, there were 
constituents from each of our districts who traveled, often at 
great expense and personal sacrifice, to witness this historic 
day. And we can apologize for what led to their disappointment, 
but I think we owe them more than that. I think we need to 
review what happened so we have an accurate account, and also 
so we can prevent similar mistakes in the future.
    The Secret Service, which led both security planning for 
the inaugural and the after-action review of the day's 
challenges, has made some recommendations for improvements in a 
report just released, and we look forward to discussing those 
proposals with you today.
    The viewing areas with the worst problems were the blue- 
and purple-ticketed sections, which were behind the seated 
section on the Capitol Grounds. You can see these areas on our 
monitors. The silver section west of the Capitol Reflecting 
Pool also had problems, which appear to have been exacerbated 
by reducing checkpoints to a single entry for the 100,000 
people holding silver tickets.
    From the postinaugural report, crowding problems were 
apparent as early as 5 a.m. when people started arriving at the 
Capitol entry gates. However, without clear direction or lane 
markers, orderly lines failed to develop and instead turned 
into large mobs waiting for the gates to open.
    As people continued arriving, additional problems 
developed. Security barricades, street closures, and dense 
crowds made for a confusing and frustrating trek. At some 
point, people waiting to enter the purple section went into the 
northbound tube of the Third Street Tunnel, even though this 
areas was supposed to be closed to pedestrians and reserved for 
emergency vehicles. Thousands of people got stuck in the tunnel 
for hours while no law enforcement agency did anything, as far 
as we can tell, to assist them or clear the congestion.
    The after-action report notes how a civil disturbance unit 
observed conditions in the tunnel, but did not do anything to 
clear the crowd since the people were peacefully waiting. I 
would like to know more about how this decision was made and 
why it was considered safe for people to stand literally feet 
away from speeding emergency vehicles.
    After the gates opened, it quickly became clear there was 
no effective system to validate visitors' tickets, and that 
entry gates were much narrower than the magnetometer screening 
banks, as illustrated by this photo on the monitor. Just look 
at that mass of people behind the prescreening gates. The 
postinaugural report claims that these entry points were 
adequate to process all attendees. You have to ask what 
reasoning lay behind the creation of such bottlenecks, however.
    As a final point, I would like everyone to look at the 
satellite image on the monitor. The photograph was taken about 
40 minutes before the actual swearing in. You can see, that the 
purple, blue and silver sections were not anywhere near 
capacity, and that massive crowds were still awaiting entry at 
the backed-up checkpoints.
    I want to be clear today that our intent is constructive, 
to determine what happened, to account for problems and to 
identify solutions. We have to make sure this doesn't happen 
again.
    I am going to ask each of you gentleman to summarize your 
comments in a 5-minute oral presentation. Of course, we will 
enter your full statements in the record. I will ask Director 
Sullivan to begin, followed by Chief Morse.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2213B.001
    
    [GRAPHIC] [TIFF OMITTED] T2213B.002
    
    [GRAPHIC] [TIFF OMITTED] T2213B.003
    
    [GRAPHIC] [TIFF OMITTED] T2213B.004
    
    Mr. Price. Before we start, I want to turn to our 
distinguished Ranking Member of the Homeland Security 
Subcommittee Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. Welcome to Director 
Sullivan and Chief Morse.

           Opening Statement of Ranking Member Harold Rogers

    As I read through the review of the inauguration, I am 
struck by four key facts, and some of these are repetitive to 
what the Chairman has said.
    One, the largest crowd to ever attend an event on the 
National Mall, some 2 million people. No arrests, no injuries, 
no security incidents of any kind. So from a safety and 
security point of view, the inauguration was unquestionably a 
remarkable success.
    Now, as many as 10,000 people appeared to have been 
inadvertently restricted from gaining access to the event, and 
that is indeed an unfortunate and regrettable occurrence. But 
from my read of the inauguration report, the problems with 
gaining access to the standing areas around the Capitol were a 
result of poor crowd control, poor signage, poor ticketing and 
poor planning.
    These are issues that can only be partially addressed by 
today's witnesses because responsibility for many of the 
decisions that led to these problems largely fell under the 
Joint Congressional Committee on Inaugural Ceremonies, chaired 
by Senator Feinstein, which is not even represented here today 
in this hearing. So I think we have a number of missing 
witnesses.
    Having said that, the report also highlights a number of 
areas for improvement, areas I hope to learn more about, and 
lessons learned that I fully expect to be applied to future 
security events. But from my vantage point on the Homeland 
Security Subcommittee, I am concerned as we review the 
inauguration, we might lose sight of the phenomenally intense 
year that the Secret Service has just endured, not to mention 
the Capitol Police; the Secret Service from protecting the 
largest number of protectees in the agency's history, to a 
protracted Presidential campaign with multiple candidates, 
record-sized crowds, to a present climate of heightened demands 
on both the protective and investigative missions. The Secret 
Service is in the midst of what is probably its most 
challenging period since its inception in 1856.
    Director Sullivan, as much as I want to better understand 
the facts surrounding the inauguration, I also want to hear how 
the Secret Service is adapting to this period of intensifying 
threats, threats to our Nation's leaders as well as threats to 
our financial system, at a time when our economy is perhaps as 
fragile as it has ever been.
    So I thank the witnesses for appearing with us today as we 
probe into the problems of the inauguration. Do not mistake our 
concern for a lack of appreciation for your agencies' efforts 
to protect the national leadership and keep visitors to the 
Capitol safe and secure.
    Thank you, Mr. Chairman.
    Mr. Price. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2213B.005
    
    [GRAPHIC] [TIFF OMITTED] T2213B.006
    
    [GRAPHIC] [TIFF OMITTED] T2213B.007
    
    Mr. Price. I now recognize Ms. Wasserman Schultz, the 
Chairwoman of the Legislative Branch Subcommittee.
    Ms. Wasserman Schultz. Thank you, Chairman Price. Let me 
associate myself with your opening remarks which summarize many 
of the basic questions and concerns that this hearing is 
intended to raise.

           Opening Statement of Chairwoman Wasserman-Schultz

    While it is important to establish some lessons learned, we 
must not forget the thousands of people who had tickets to the 
inauguration, but were left out of a once-in-a-lifetime 
opportunity to see the swearing in of our Nation's first 
African American President.
    While we must learn how to avoid the type of problems which 
occurred in the Third Street Tunnel and in the blue, purple and 
silver ticket-screening areas, it is also important to use this 
hearing as a forum to acknowledge the serious difficulties and 
disappointments experienced by many of our constituents.
    For thousands of people who came to Washington at great 
effort and expense to celebrate an historic day in American 
history, January 20th, 2009, is now a traumatic memory of 
missed opportunity and disappointment. For many who were stuck 
in the aptly named ``purple tunnel of doom'' and in similar 
areas in the general vicinity, this memory is not merely 
disappointment, but also one of real fear and panic.
    We have received statements for the record from some of our 
constituents who experienced the failures that occurred that 
day. They not only describe in very real terms what they saw, 
but they raise a number of key questions, which the review team 
report does not adequately answer. One of these statements 
which has been circulated to the committee was submitted by 
Marisa McNee and David Meyer, who are here with us this 
afternoon, and we appreciate your attendance.
    These two individuals organized a Facebook group of more 
than 6,000 individuals who shared their experiences about the 
events on Inauguration Day. Their statement is not an angry 
attack on the system which failed them, but rather a helpful 
summary of their observations and suggestions for questions 
that we will hope to address this afternoon.
    Mr. Chairman, I seek unanimous consent to read this full 
statement, which I will then insert into the record, and I ask 
that our witnesses provide a detailed response to the questions 
which are raised.
    Mr. Price. Without objection.

                   Statement From Inaugural Attendees

    Ms. Wasserman Schultz. We, Marisa McNee and David Meyer, 
have prepared a statement based on our personal experiences on 
Inauguration Day and as organizers of a group formed on 
Facebook to deal with the initial confusion, misinformation and 
misstatements from public officials. We have spent hundreds of 
hours reviewing thousands of stories, photographs and videos 
from purple, blue and silver ticket holders who were unable to 
get into the inaugural ceremony and/or were placed in a 
dangerous situation while attempting to get into the ceremony. 
It is from that perspective that we offer this statement to you 
today.
    The recommendations outlined in the executive summary of 
the multiagency report seem well considered. They correctly 
address three central problems that contributed to the 
inaugural difficulties: poor interagency coordination, both 
during the planning process and on Inauguration Day; poor 
communication with attendees; and questionable assumptions 
built into the planning process.
    Unfortunately, it is not possible to judge whether the 
recommendations are adequate to the task of preventing a 
recurrence in 2013. The executive summary does not sufficiently 
explain where the 2008-2009 processes broke down. Some of the 
difficulties can be reconstructed from the specific 
recommendations, but public participation in the planning 
process should not be contingent on speculative leaps.
    Specific recommendations were introduced with brief 
narrative overviews. Those narratives include the observations 
of many attendees. Some specific issues: The crowd management 
section highlights complications caused by unexpectedly large 
numbers of early attendees. The Mall officially opened at 4 
a.m., and Metrorail began running at the same time. ``Arrive 
early'' was a constant refrain in the press and on television, 
yet most of the major problems did not arise until after the 
Mall officially opened.
    Both the prescreening and the crowd-management sections 
blame overcrowded and uncontrolled lines on the commingling of 
unticketed and ticketed attendees. Very few attendees seemed to 
agree that this was a significant factor. The police frequently 
used bullhorns to inform people in the purple ticket queuing 
area that it was for purple ticket holders only. The crowd 
would typically respond by waving their tickets in the air. 
This seems to suggest the police continued to operate under the 
assumption they were communicating with unticketed attendees, 
despite rather obvious evidence to the contrary.
    The Third Street Tunnel section claims that attendees' use 
of the Third Street Tunnel was unexpected, yet uniformed 
officers were directing people into the tunnel as early as 
5:30, according to eyewitness accounts. Moreover, regardless of 
the spontaneity of crowd accumulation in the tunnel, there is 
no explanation for why crowds were allowed to remain there if 
they were not supposed to be there. The Third Street Tunnel 
section and the Multiagency Communications Center, MACC, 
section suggests that responsible officials didn't become fully 
aware of the magnitude of the tunnel problem until after the 
fact. The MACC section notes that calls from attendees were 
dismissed because of a lack of clarity by the caller, yet 
security officials regularly drove through the tunnel, and 
there were likely security cameras monitoring the situation.
    Attendees have been remarkably public-spirited about the 
inaugural difficulties. They remained in good spirits under 
trying circumstances on January 20th. They have remained 
engaged and committed over the last 2 months to ensure that we 
do not confront similar problems in 2013.
    Public participation in the investigation is an asset to 
those seeking to understand what went wrong. It is crucial that 
we are allowed to participate in the process. We need more 
basic factual information to be able to do so.
    We understand the legitimate concerns involved in 
publicizing security-planning information. At a minimum, 
though, an additional summary account of the findings of the 
review process should be produced. Better yet, a judiciously 
redacted version of the full report should be made available.
    Thank you for your time and attention to this issue.

       Opening Statement of Chairwoman Wasserman-Schultz, cont'd

    Mr. Chairman, I also want to take this opportunity to thank 
all of the security agencies for the extraordinary level of 
effort which they put into the planning for and execution of 
the inaugural event. The 1.8 million people who came to 
Washington to witness the swearing-in ceremonies here at the 
Capitol is by far the largest crowd ever to gather in 
Washington. While everyone here recognizes that it was far from 
perfect, the fact that there were no arrests or serious 
injuries is a remarkable accomplishment. This achievement 
during a period of very real terrorist threat is a testament to 
the hard work and skill of the security teams which were 
assembled.
    I also want to thank the inauguration review team for the 
report which they prepared. While no plan can provide for every 
eventuality, this review makes more than 40 specific 
recommendations, which I believe should and will be taken very 
seriously.
    Mr. Chairman, before closing, I believe that our review 
must also ask questions about the inauguration beyond those 
associated with the ticket-screening and tunnel problems. We 
must ask our witnesses, based on their experience with the 
inauguration of Barack Obama, the Capitol complex and the 
National Mall, how we can be prepared to handle crowds of 2 
million people or more during a period of elevated terrorist 
threats. How can our regional transportation systems be 
adequately modified to transport this size crowd? What needs to 
be done to prepare the National Mall to safely hold this volume 
of spectators? What support does the District of Columbia need 
at the local level to assist with an event of this size? And 
what can be done to accommodate individuals who are less 
mobile, who may not be capable of standing in a security line 
for hours.
    While it is not always productive to deal in hypotheticals, 
we must look at this from the standpoint of what could have 
happened. What if, God forbid, there had been some event or 
circumstance which would have required evacuation of the 
President, the Congress and the public? Could that have been 
done safely?
    After reading the report and talking to many of my own 
constituents, I am frankly amazed that there were not bigger 
problems. We are dealing with some fundamentals of democracy at 
our hearing today. We are a very large and open Nation. We 
believe in and want to foster a participatory democracy. The 
peaceful transfer of power from one President to the next may 
well be the finest single example of American democracy. 
Preserving the American people's ability to participate in this 
historic event as witnesses is extremely important.
    While we succeeded in protecting the President and 
preventing injury to the public, we failed as a country in 
providing access for thousands of Americans who should have had 
the ability to witness this historic inauguration. I believe 
that this hearing should provide us with an opportunity to step 
back and take a closer look at some of the issues that will 
affect future inaugural and highly attended events. Thank you 
very much.
    Mr. Price. Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman. I will be 
mercifully brief.

              Opening Statement of Congressman LaTourette

    I want to add my voice to commend the Secret Service and 
the Capitol Police for the job they did not only on January 
20th, but in all the months leading up to January 20th. I took 
a picture, not from the satellite, but from our perch on the 
West Front of the Capitol, of the humanity stretching from the 
Capitol to the Lincoln Memorial. And the fact that that many 
people were there and it went off without a hitch in terms of 
safety is indeed a reason that you gentleman and your agencies 
should be commended.
    I noticed in your opening remarks, Mr. Chairman, as you 
were applauding the Secret Service for the protection of 
Presidential candidates, you didn't indicate you were at any 
McCain rallies in North Carolina, just the Obama ones. I am 
sure the Secret Service did a nice job of protecting Senator 
McCain as well in North Carolina.
    I also have read the IRT report, and just sort of a heads 
up when it comes time to talk about questions, there is a 
question about the coordination with your agencies and the 
Joint Committee, as Mr. Rogers mentioned, and I would like to 
explore that. So if you would sort of be thinking about that.
    I appreciate it very much, and yield back my time.
    Mr. Price. We welcome our Full Committee Chairman Mr. Obey.
    Mr. Obey. Thank you, Mr. Chairman. Let me just make a few 
offhand remarks about some things that I saw and some things 
that I didn't see on that date.

                Opening Statement of Chairman David Obey

    I certainly respect every agency before us today, and I 
recognize that you have got difficult jobs and that you are 
fine public servants. But I was nonetheless extremely disturbed 
by a number of events that occurred on that day, which is why I 
asked these two subcommittees to hold this hearing today. In 
fact, we could just as easily have had other parties testifying 
here as well; the Park Service, for one, and the D.C. police 
for another. Let me simply recite what I saw that day and then 
refer to some things I didn't see, but about which I was told.
    We had originally been told by the Sergeant at Arms that 
for Members of Congress to get into the Capitol, if we were 
coming from Virginia, we should arrive at a certain checkpoint 
on the George Washington Parkway hopefully before 6:00 in the 
morning. I did that, and, as a practical matter, no one at that 
checkpoint had the foggiest idea they were supposed to let 
anybody in. Fortunately, a Park Service superior eventually 
showed up and cleared up the problem, but it was obvious from 
the first moment there was confusion and lack of adequate 
communication.
    Then we had been told to take the 14th Street exit onto 
Independence Avenue, which we did, arriving there very early in 
the morning. We got almost down to the Smithsonian Castle when 
traffic was blocked, and D.C. police officers began pounding on 
several cars, including mine, simply saying, ``Turn around. Go 
back, go back, go back.'' When we attempted to find out where 
we were supposed to go, we were told, ``Never mind, just move 
it. Just move it. Just move it.'' Again, people were pounding 
on the car.
    So we went down to the other end of the avenue and were 
again told to turn around and go back the other way. It took 
some 45 minutes just sitting there before we were able to 
finally, thanks to Bill Livingood, find an alternate route to 
the Capitol.
    I can understand a certain amount of confusion, but that 
was not confusion; that was madcap chaos that I saw on that 
street. I don't know whether the lack of coherence on the part 
of the people on the beat was a result of poor training or 
something else, but their actions certainly left something to 
be desired.
    That is what I saw. What I didn't see, but what I was told 
about afterwards, was what happened to numerous constituents of 
mine, some of whom were reduced to tears, because after taking 
the time to come, after spending their money to come, after 
bringing their kids, they didn't get anywhere near that 
inaugural. And I heard tale after tale of chaos from people who 
had the correct tickets, from people who were stuck in that 
tunnel. I guess all I could think is that if a Member of 
Congress like myself had been treated the way we were treated 
that morning, I hate to think how an average constituent of 
mine was treated.
    So while I certainly recognize all of the good service that 
your agencies and the other two that I mentioned have provided, 
it nonetheless was a scene of chaos that I certainly don't want 
to see repeated again.
    I would like to know exactly what measures are being taken 
to see to it that 4 years from now it does not happen again, 
because what was supposed to be a positive experience for my 
constituents turned into an embittering one, and there are 
scars. These people believed in the change that they thought 
they had voted for. They wanted to participate in a great 
event, and they were denied it because of chaos, lack of 
planning or just poor organization. I am not sure what the root 
causes were, but it has to be corrected, it has to change.
    I think we need in the last analysis to talk not just to 
your two organizations, but also to the D.C. Police, because 
what I saw on their part was not pretty, and, frankly, I did 
not appreciate the dismissive comments of the D.C. Police 
Chief, who seemed to downplay all of the problems as being just 
``minor incidents.'' They were far from minor to the people who 
experienced them. I would have appreciated a different attitude 
than the one I saw exhibited by her.
    Having said that, Mr. Chairman, I want to thank you for 
holding the hearing. I will not be able to stay for much of the 
questioning, but I appreciate the fact that you are having the 
hearing today.
    Mr. Price. Thank you very much.
    Mr. Price. Director Sullivan, please proceed.

                 Opening Statement of Director Sullivan

    Mr. Sullivan. Thank you. Good afternoon, Chairman Obey, 
Chairman Price, Chairwoman Wasserman Schultz, Ranking Member 
Rogers and distinguished members of the committee. Thank you 
for the opportunity to be here today.
    Mr. Chairman, with the committee's permission, I will offer 
brief remarks and ask that my full statement be made part of 
the record.
    When I appeared before the committee last year, the Secret 
Service was in the middle of an historic Presidential campaign. 
Some of the challenges we faced as an agency included the 
increased travel, staffing and equipment demands associated 
with the competitive primary contest and massive crowds at 
campaign rallies across the country. In addition, there were 
numerous international travel stops by all of our protectees.
    I would like to recognize the extraordinary personal 
sacrifice made by our special agents, Uniformed Division 
officers and administrative, professional and technical support 
staff over the past 2 years. Whether it was providing candidate 
protection for 18 months, or adjusting the security plan for 
the Democratic National Convention to accommodate the use of an 
85,000-seat outdoor stadium, or securing Presidential 
transition offices in two cities, the men and women of the U.S. 
Secret Service rose to meet the challenge.
    In fiscal year 2008, the Secret Service provided protection 
at over 5,000 travel stops for our protectees and over 2,000 
travel stops for visiting heads of state. Candidate nominee 
travel stops were up 70 percent over the 2004 Presidential 
campaign. Uniformed Division officers and Transportation 
Security Administration officers screened over 4.2 million 
people during this period, compared to 2.1 million people in 
2004.
    Although not designated national special security events, 
or NSSEs, the Secret Service led security planning for three 
Presidential debates, one Vice Presidential debate, the first 
visit to the United States by Pope Benedict XVI, the 63rd 
United Nations General Assembly, IMF/World Bank meetings, and 
the North American Leaders Summit. At the same time, we 
continued to perform our investigative mission in an exemplary 
fashion.
    In fiscal year 2008, our field offices closed over 7,000 
financial crimes and other criminal cases, which resulted in 
the arrest of over 8,000 people. This included disrupting the 
largest identity theft case in our country's history. In 
addition, our asset seizures were up 200 percent from 2 years 
ago and up 100 percent from 1 year ago. Field offices also 
conducted more than 10,000 protective surveys and closed over 
3,000 protective intelligence cases. Total arrests in fiscal 
year 2008 were up 22 percent over fiscal year 2007.
    Since January 2008, the Secret Service completed security 
plans for 10 national special security events, or NSSEs. The 
most recent NSSE was the Presidential address to a joint 
session of Congress on February 24, 2009. Other recent NSSEs 
include the 2008 State of the Union Address, the Democratic and 
Republican National Conventions, the G-20 Economic Summit, and 
the 56th Presidential Inauguration.
    The 56th Presidential Inauguration was an historic and 
proud moment for our country and one of the proudest moments in 
my career. I know this view is shared by all Secret Service 
employees and our law enforcement partners as well. Events went 
from January 17th through January 20th and included five 
separate NSSE designations: the preinaugural train trip with 
rallies in Philadelphia, Wilmington and Baltimore; the Lincoln 
Memorial concert; and the inauguration.
    At the inauguration alone, an estimated 2 million people 
gathered on the West Front of the U.S. Capitol, the National 
Mall and along Pennsylvania Avenue. While I am proud of the 
fact that there were no arrests or major injuries reported, I 
would like to offer my sincere regret and apologies to ticket 
holders who were unable to get to their designated areas for 
the swearing-in ceremony at the U.S. Capitol.
    At the request of the Joint Congressional Committee on 
Inaugural Ceremonies, the U.S. Secret Service, along with our 
law enforcement partners, completed a thorough review of this 
year's inauguration to identify specific problems and recommend 
changes to ensure that they do not occur again.
    Some of the problems we identified and have already begun 
to incorporate in our planning are the establishment of a crowd 
control subcommittee; better utilization of signage for 
ticketed and nonticketed guests; for better real-time 
situational awareness, monitor the Internet social networking 
sites, such as Twitter, YouTube and Facebook; the opening of 
screening gates earlier; and prescreening of ticketed guests 
much further away from the entry gate to assure nonticketed 
guests or guests with incorrect tickets do not unnecessarily 
interfere and delay the entry of properly ticketed guests. 
These are just a few of the recommendations that we have and 
will utilize at future events.
    The U.S. Secret Service owes a tremendous debt of gratitude 
to our Federal, State and local law enforcement partners and 
public safety officials throughout the country for their 
support during the 2008 campaign.
    Our collective goal when it comes to securing NSSEs and 
similar large events is to develop and implement an operational 
security plan that achieves two core objectives: Provide a safe 
and secure environment for Secret Service protectees and other 
dignatories, event participants and the general public; and 
safeguard people's lawful freedoms of speech, assembly and 
petition of government.
    Mr. Chairman, distinguished members of the committee, this 
concludes my opening statement. Thank you again for the 
opportunity to be here today. I will be happy to answer any 
questions at this time. Thank you.
    Mr. Price. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2213B.008
    
    [GRAPHIC] [TIFF OMITTED] T2213B.009
    
    [GRAPHIC] [TIFF OMITTED] T2213B.010
    
    [GRAPHIC] [TIFF OMITTED] T2213B.011
    
    [GRAPHIC] [TIFF OMITTED] T2213B.012
    
    [GRAPHIC] [TIFF OMITTED] T2213B.013
    
    [GRAPHIC] [TIFF OMITTED] T2213B.014
    
    [GRAPHIC] [TIFF OMITTED] T2213B.015
    
    [GRAPHIC] [TIFF OMITTED] T2213B.016
    
    [GRAPHIC] [TIFF OMITTED] T2213B.017
    
    Mr. Price. Chief Morse.
    Chief Morse. Good afternoon, Mr. Chairman and Madam 
Chairman, Mr. Rogers, Mr. Obey and distinguished members of the 
committee. I also would like to make an opening statement as 
well as ask you for your permission to submit a written 
statement for the record.
    Mr. Price. Thank you. We will submit your full statement in 
the record.

                 Opening Statement of USCP Chief Morse

    Chief Morse. The inauguration of President Barack Obama 
presented planners with unique challenges associated with an 
unprecedented 1.8 million people who gathered in Washington, 
D.C., that day to experience the excitement of the 
inauguration. The primary focus was ensuring safety and 
security of the assembled dignitaries and the public while 
protecting the event from disruption. The overall security plan 
had to balance between security and access.
    On Capitol Hill the number of ticketed guests was 
consistent with prior inaugurations; however, we expected a 
large percentage of ticket holders to attend this inauguration 
than in the past. For this reason overflow areas were 
identified to handle expected attendants.
    To help guide ticketed guests to the Capitol, police 
officers and civilian staff were posted at various Metro stops 
and intersections along the pedestrian routes leading to the 
gates. Additionally, elevated signs, banner bridges and 
variable message boards were used throughout the Capitol 
complex to guide and direct guests.
    The plan to ensure access of all ticketed guests onto the 
West Front was not realized. While we expected and planned for 
almost 2 million people to descend on the core area of the 
city, we had no benchmark or historical perspective to forecast 
the cascading effect this size crowd would have on inaugural 
events, particularly access to the swearing-in ceremony, the 
Mall and the parade route.
    On January 20th, people began arriving at gates on the Mall 
before 4 a.m. In fact, the Mall between Fourth and Seventh 
Streets filled to capacity by 6:30. This had never happened 
before in previous inaugurations.
    At the Capitol, all gates for ticketed guests opened 
between 7:35 and 8:10 a.m. As we screened the crowds, it became 
evident that both ticketed and nonticketed guests were mixed 
together in lines waiting to be screened. As people continued 
to enter the city and migrate toward the Capitol, crowd 
management issues compounded, particularly areas around the 
blue and purple gates where crowds with different destinations 
were merging.
    Due to the resulting congestion, attempts by law 
enforcement officers to relieve crowd pressure were ineffective 
or resulted in people being directed to staging areas never 
intended for pedestrian queuing. The northbound tube of the 
Third Street Tunnel is one example.
    Further, poor up-channeling or miscommunication of 
information from the field to the officials at the various law 
enforcement command centers hindered situational awareness and 
led to crowd management problems in those areas, and that did 
not allow us to properly address or correct them.
    We understand the disappointment and the frustrations of 
those who were eager to witness this historic event and were 
not able to access their ticketed locations. As deliberate and 
thoughtful as the planning process was, unanticipated 
challenges manifested themselves during the execution of the 
plan on the day of the event. The challenges we collectively 
confronted or later discovered include and control unified 
decisionmaking and positioning of resources to react and manage 
unpredictable actions of large masses of people.
    In the end, the impact of the arrival and movement of 
almost 2 million visitors served to strain even the best of 
plans. Everyone who visited Capitol Hill, the Mall, the parade 
route that day entered and left safely. We do regret that a 
number of people, ticketed guests, were not admitted and left 
disappointed.
    We will work even harder in the future for future events to 
ensure that everything humanly possible is done to enhance the 
experience for all who travel to witness historic events in 
this Nation's Capital.
    We have jointly conducted a thorough after-action review of 
the 56th Inauguration. The critical review resulted in 
recommendations to improve planning, communication, 
coordination, crowd management and security operations. We will 
take the lessons learned, and we will develop and apply new 
procedures to improve our planning and operations as we 
continue to balance the requirements of security and 
accessibility to major events.
    Again, I would like to thank you for the opportunity to 
testify before you today, and I will be happy to answer any 
questions that you have.
    Mr. Price. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2213B.018
    
    [GRAPHIC] [TIFF OMITTED] T2213B.019
    
    [GRAPHIC] [TIFF OMITTED] T2213B.020
    
    [GRAPHIC] [TIFF OMITTED] T2213B.021
    
    Mr. Price. As you have observed, votes have been called on 
the House floor, a series of three votes, we are told. We will 
go just as far as we can in the questions until we have to 
leave, and then we will resume this hearing after we return 
from the floor.

                  CROWD MANAGEMENT AROUND THE CAPITOL

    Chief, I would like to address my first question to you, 
and it has to do with the area where many, if not most, of the 
problems seem to have developed, and that is in the huge crowds 
as we saw on the monitor here a while ago, that developed 
between the Metro stops and the prescreening checkpoints around 
the Capitol Grounds.
    Your after-action report or the Secret Service's after-
action report is not entirely clear about how many officers 
were posted there; however, it appears that even under the most 
generous count, fewer than 400. That figure is less than 20 
percent of your force, and appears to have been expected to 
handle the quarter of a million people who showed up that day 
and who were entering in those areas.
    Let me read you one excerpt from a constituent of mine, and 
this is one of the lucky ones. He got in finally. Here is what 
he said: ``We got off at Capitol South and ran into chaos, huge 
crowds and no officials to direct anyone anywhere. It was no 
crowd control that gridlocked the crowd up against the random 
barricades and choked the crowd from entering the security 
checkpoint. At 11:55, we finally got to security and were told 
to run in, bypassing metal detectors and screening of any kind. 
As we entered the area running, officers asked us to hold up 
our tickets as we ran by.''
    Now, that raises obvious questions about how many people 
you had deployed, where they were, what their instructions 
were. We have even heard rumors that the Capitol Police turned 
down an offer from the D.C. National Guard to deploy a unit to 
help with crowd management.
    So I want to ask you how many officers were stationed 
outside the security perimeter of the Capitol grounds to manage 
the ticketed attendees at the swearing-in ceremony? How did you 
determine this was an appropriate staffing level? Was this 
reviewed by anyone, or was this solely your determination? And, 
Chief, did you or your agency decline any offers for assistance 
with crowd management, especially in these areas?
    Chief Morse. Thank you for your question, sir.
    With regard to personnel, I don't have the exact page here, 
but it was a little over 300, both sworn and civilian 
personnel, who were specifically assigned to the four Metro 
stops, the routes to the ticketed gates, and at key 
intersections en route to those gates. They were supported by 
15 variable message boards, billboard signs, as well as posted 
signs along the route. They were wearing visibility or yellow 
vests, and also they were supporting the fact that each ticket 
would have the directions to the specific gate that they were 
supposed to gain access to. So those 300 personnel were only 
and specifically assigned to the four routes to the gates 
themselves.
    There were other personnel who were outside the secure 
perimeter who had other duties and responsibilities related to 
security and access of vehicles and vehicle control. But the 
over 300 personnel were directly assigned to facilitate 
movement from the Metro stops that these folks were directed to 
go in order to access their gates.
    Mr. Price. That is 300 personnel for what you can estimate 
to be well over 200,000 people converging on these prescreening 
points. How did you arrive at that number, and did you turn 
down any offers of help from other agencies? Did anyone review 
this?
    Chief Morse. The way we arrived at that number was previous 
inaugurations and the use of these personnel and how effective 
it was. Some of the things that obviously we have talked about 
in the report that hindered that are numerous. There were 
crowds merging in those areas not just for the event itself. 
There were crowds that were merging there to utilize the Third 
Street Tunnel southbound, to either go from the north side of 
the Mall to the south side. There were parade gates in and 
around the purple gate area, the Second and C parade gate. 
There was another gate for a parade gate at Third and C. People 
who were walking from RFK Stadium traversed that, both the 
north and south sides. So those were the combinations of people 
who were merging at those locations.
    Also, I just need to say that Capitol Hill and the ceremony 
itself was where all the signage and direction was. In the 
report you will see that signage throughout the city and 
messaging throughout the city was not as robust as it was on 
the Hill; therefore, there was a lot of merging of crowds that 
were going to other areas other than the ceremony itself.

                ASSISTANCE OFFERED BY THE NATIONAL GUARD

    With regard to your question about the National Guard, yes, 
we did turn down that offer. That offer was not turned down 
because we didn't anticipate problems. We had requested other 
law enforcement agencies, Federal law enforcement agencies, to 
assist us, and we gained cooperation through the NSSE structure 
for Custom and Border Protection agents to assist us, as well 
as the Library of Congress Police, the GPO Police and the 
Supreme Court Police. So we felt through the NSSE structure, 
the number of people that we requested, and the assignments and 
deployment that we had that we had an adequate number of people 
to do the job.
    Mr. Price. Do you still feel that way? It doesn't seem to 
me that any one of those exacerbating factors that you have 
mentioned should have been a surprise.
    Chief Morse. I think that now after we have reviewed this, 
I think that we all have concluded that more signage throughout 
the city, more messaging throughout the city, more directions 
throughout the city, as well as more people to deconflict some 
of the situations as large crowds like this occur, that we can 
deconflict that as well as we can. So, yes, we feel that more 
people would be a positive thing to have, as well as the 
communication throughout the city, and not just on Capitol Hill 
and around the ceremony area.
    Mr. Price. Mr. Rogers.

                       RESPONSIBILITY FOR SIGNAGE

    Mr. Rogers. Who was responsible for the signage and 
directions and crowd instructions overall?
    Chief Morse. With respect to the inaugural ceremony, it 
would be the Joint Committee on Inaugural Ceremonies (JCIC) and 
the Capitol Hill Subcommittee, which is the NSSE committee.
    Mr. Rogers. And citywide, who was in charge of that, the 
same?
    Mr. Sullivan. No, that would have been the Metropolitan 
District Police Department, working with the Department of 
Transportation, and again working with----
    Mr. Rogers. Well, if I wanted to ask somebody about what 
went wrong with the signage and directions and instructions to 
the crowd about where to go and what to do, neither one of you 
can answer those questions, can you? It has to be the city 
police or the Joint Committee, does it not?
    Chief Morse. Well, with respect to Capitol Hill and the 
Capitol Subcommittee, I think the Subcommittee as well as JCIC 
are responsible for ensuring that the tickets display 
directions to the appropriate gates as well as the logistics of 
signage.
    Mr. Rogers. Mr. Chairman, we can't get to the bottom of 
this if we don't have the relevant parties here.
    Mr. Price. Well, I believe Mr. Sullivan and his agency are 
the overall coordinating agency. So while we don't have every 
agency here, clearly the signage is the responsibility of the 
Joint Committee. We have established that. We have the 
Metropolitan Police involved, the Park Police and others. But 
Mr. Sullivan, as the head of the agency under this Committee's 
jurisdiction, I believe can answer questions about the 
responsibility of the whole range of agencies, even though he 
is not personally responsible for those.
    Mr. Rogers. It was the responsibility, as I understand it, 
of the Joint Committee and the Metropolitan Police on the 
signage and directions, and that seems to be the proximate 
cause of the difficulties of that day. I don't know how we can 
get to the bottom of this if those agencies are not here to 
answer questions. These people weren't responsible for doing 
the signage and the directions to the crowd, so I don't know 
what we are doing here with the wrong parties.
    Mr. Sullivan. With regards to the Metropolitan Police, I 
would say we can discuss that. They and the Department of 
Transportation did everything but the Capitol. They were part 
of the Subcommittees. We were either the Chair or co-Chair of 
those Committees. I think between myself and Special Agent in 
Charge O'Connor, who is here, we could give you some answers to 
those questions.
    Mr. Rogers. But the Joint Committee is not here, and they 
are the overall responsible organization. I have got questions 
I would like to ask them, as well as the Metropolitan Police 
Department.
    I appreciate, Mr. Director, you valiantly stepping forward 
and saying that you had overall jurisdiction, which you 
probably did, but the actual doing of the instructions and 
directions was not in your hands.
    So, Mr. Chairman, I yield back.
    Mr. Price. Thank you.
    We will adjourn as briefly as possible and come back and 
resume after these votes.
    [Recess.]
    Mr. Price. The Subcommittee will come back to order, and we 
will turn to Chairman Wasserman Schultz for her questions.

                      INAUGURAL SECURITY PLANNING

    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Chief Morse, a concern was expressed about the lack of the 
full group that was involved and served on the subcommittee.
    You served on the planning committee as well, correct? And 
you were involved in the coordination and planning for leading 
up to the Inauguration for the Capitol area?
    Chief Morse. As the Chief of Police, yes, overall in charge 
of operations security for the Capitol.
    Ms. Wasserman Schultz. Thank you. And so you are able to 
answer questions related to that planning?
    Chief Morse. Yes. The planning, we had a director who was 
reporting to the Assistant Chief of Police, so I was routinely 
briefed on issues--you know, daily briefings on the planning 
process.
    Ms. Wasserman Schultz. And the Assistant Chief of Police is 
here with you, so in the event that a question arises----
    Chief Morse. Yes, he could answer those. He has more direct 
knowledge of that than I might at a very high level.

                MORE TICKETS ISSUED THAN SPACE AVAILABLE

    Ms. Wasserman Schultz. Great. One of the concerns that I 
have, and it is one that I have spoken about with the Chief and 
the House Sergeant at Arms before, is, when I was briefed on 
the security plans prior to the Inauguration, one of my 
concerns was that there were more tickets issued than space 
available in the ticketed areas. And when I asked why we would 
do that for an event that was--where unprecedented attendance 
was expected, the answer was unsettling.
    The answer was, ``Well, basically, this is the way we have 
always done it.'' The Sergeant's response, on behalf of all of 
you, was that ``we know that there are people that do not show 
up, so we issue more tickets than we have space available 
because we know that we will be able to accommodate them.''
    Given that this was an expected unprecedented turnout--and 
I know that concern was, from what I understand, expressed 
during your planning--why was that concern dropped and never 
dealt with?
    Chief Morse. The concern originally came because we did 
expect a higher attendance than previous Inaugurations because 
of the significance and historic event--so when we addressed 
the issue, we had to correct it by adding space within the 
security perimeter on the West Front to accommodate the total 
of 240,000 people. The way you do that is through square 
footage multiplied by the number of people, and you look for 
that area within the secure perimeter to establish that as a 
ticketed area.
    So in previous inaugurations, the square footage that was 
set aside for yellow, orange, purple, blue would not have been 
sufficient to hold 241,000 people, so we simply added expansion 
spaces, specifically, the kidneys, as we call them, on the West 
Front and the walkways on the northwest and southwest areas on 
First and Penn and First and Maryland Avenues Southwest. And 
that gave us the ability to facilitate that number of ticket 
holders within that area.
    Ms. Wasserman Schultz. So the reason that that concern was 
dropped is that you felt by adding the kidneys and the walkways 
that you were going to be able to accommodate the extra number 
of people that you expected to show up?
    Chief Morse. That is correct.
    Ms. Wasserman Schultz. Do you think that this planning 
proved helpful, or would you do it differently the next time? I 
cannot imagine that the next time we went through an 
unprecedented anticipated crowd that we would issue more 
tickets than we have space for.
    Chief Morse. I would say that, yes, you will probably need 
an expanded area. I know that a recommendation in the report is 
to change the recommended 3-square-foot-per-person space 
allotment to the FEMA 5-square-foot. When you do that, 
obviously the area will not be as large, and that could lead to 
less tickets being issued.

                       VOLUNTEER TICKET CHECKERS

    Ms. Wasserman Schultz. In reading the report, the people 
who checked tickets, they were Capitol Police for this 
inauguration, correct----
    Chief Morse. Yes. And previous.
    Ms. Wasserman Schultz. I know I saw that one of the 
recommendations was that for the 2013 Inauguration and, I 
guess, Inaugurations forward, that the host committee be asked 
to provide more volunteers, or volunteers to handle that 
particular service, and be able to really significantly 
increase the number of people that you have available so that 
you can focus on security and the magnetometers and the other 
things that police should be responsible for.
    Chief Morse. Yes. Let me just clarify that.
    Our police officers, who were screeners, prescreeners, were 
not just looking at validity of ticket, but they were also 
screening people for suspicious activity or any types of 
weapons or anything that would be adverse to the crowd. So one 
piece of that is examining a ticket, which is fairly quick; and 
if need be, the validity of that ticket can be checked or 
validated.
    The recommendation, obviously, is in order to free up one 
of the many things that the police officer is responsible for 
at the gate itself.

                         PROBLEMS WITH TUNNELS

    Ms. Wasserman Schultz. My other question relates to the 
tunnels. That was the most difficult problem for me to 
understand. Can you tell the Committee how that problem with 
the tunnels evolved and why corrective action was not taken 
earlier?
    Chief Morse. Yes, I will speak to this.
    As the report indicates, what happened that morning was, as 
we have testified, the cascading of events, the sheer multitude 
of people merging to get to different places. We had RFK 
Stadium, folks who were coming from the north and south, we had 
people from the north and south going to the parade route; we 
also had people traversing the tunnel to get from one side to 
the other, and there was a merge of people.
    With the closing of the Mall very early because of the 
crowds, people began to migrate toward the Capitol, looking for 
ways to get onto the Mall or into the event. One of the things 
that occurred because of that was people going down into areas 
that were not meant for people, simply as spillover, if you 
will.
    We saw this on Independence Avenue very early, and Mr. Obey 
had mentioned the number of people that were on Independence 
Avenue. That was simply because they could not get onto the 
Mall, and the officers were working on moving them west as 
quickly as they could to find openings and gates to get them 
onto the Mall. So people pushed down into the tunnel area.
    The southbound tunnel was a pedestrian tube and was 
supposed to be used to flow pedestrians from the north and 
south. The northbound tube was a vehicular access only; it was 
never intended for people.
    As the two ways that you could get from the north or the 
south were either to go east of the Capitol and cross over at 
Second Street and proceed to whatever location that you were 
intending to go, or you could traverse the southbound tube of 
the Third Street tunnel. So when officers were directing people 
to use the southbound tube of the tunnel, there were no 
physical barriers in the northbound tunnel to prevent people 
from going in it. Therefore, people who were headed down to the 
tunnel area to traverse ended up in the northbound tunnel.
    The report also indicates that there was a significant 
effort made by civil disturbance units who were sent to that 
area, responsible for tunnel and any emergencies or crowd 
control issues that may occur there. Those units in the report 
indicate that they found people in the northbound tube. It 
indicates that the crowd was orderly; and at that point they 
left that area to deal with a more critical situation along the 
D Street corridor, where people were merging. Therefore, there 
was no action to the chain of command, to Director Sullivan or 
myself or our level, that there was an issue or problem there 
that needed immediate attention or correcting.
    Probably about 11 o'clock, the Assistant Chief ordered 
purple ticket holders and blue ticket holders to begin being 
screened through the orange and yellow gates because those 
crowds had subsided. There was an opportunity to screen people 
through those gates. At that point, by doing so, inadvertently, 
the tunnel cleared because of the relief that was provided by 
screening the purple ticket holders through the yellow gate. So 
that is how people got into the tunnel. They were either 
directed and there was no barrier to prevent them from going 
into the tube, or they did not know where to go, so they went 
to the path of least resistance, and there was no barrier there 
to prevent them to go and they formed a queue or line to the 
purple ticket gate.
    Mr. Price. We may well want to return to this, but let's 
turn now to Mr. LaTourette.

   COMMUNICATIONS BETWEEN GOVERNING BODY AND NSSE STEERING COMMITTEE

    Mr. LaTourette. Thank you, Mr. Chairman. And thank you both 
for your testimony.
    And again during my opening remarks, I wanted to focus 
first on something that appears on page 32 of the IRT report. 
And in paragraph 3, it says during the planning process there 
were situations where JCCIC communicated to the various 
planners through the United States Capitol Police. The report 
recommends that there be direct--and they added some emphasis 
there, so I guess they really meant ``direct''--communication 
between the governing bodies and the executive steering 
committee. Director Sullivan, do you know the genesis of that 
recommendation and what it is referring to?
    Mr. Sullivan. I believe the recommendation on that is based 
on the fact that I think most of the interaction with the JCCIC 
was through the Capitol Police. The whole strength of an NSSE 
is the executive steering committee. This is where we have the 
main components of the planners, and in this particular event, 
we neglected to include them on that committee.
    We have seen now that it would be best to have them 
directly on the Committee for future events up here.
    Mr. LaTourette. Chief, do you agree with that 
recommendation?
    Chief Morse. Well, as I read that recommendation, I just 
want to be clear that with respect to interaction of Capitol 
Police with these other entities, that is specifically related 
to security. And as I know it, JCCIC does interact with these 
entities with things such as protocol, ceremonial issues, 
logistics and such. So I believe that that is the way we would 
like to see it: that we as the security experts make 
recommendations and are a part of the overall planning process; 
and that JCCIC continue to have their relationship with these 
other entities with regard to protocols and logistics and 
ceremonies and such.

                      INVITATIONS TO INAUGURATION

    Mr. LaTourette. Okay.
    Chairman Wasserman Schultz was talking a little bit about 
tickets and too many tickets for the space and so forth and so 
on.
    My mother-in-law called me and was all mad because her 
sister got invited to the Inaugural. And I said what are you 
talking about your sister got invited to the Inaugural? And she 
had not, in fact, been invited to the Inaugural; she did not 
have a ticket for the event. She got this gold embossed thing 
that said we invite you to the Inauguration of the 44th 
President of the United States.
    Who controls that stuff? I mean, I think that some people 
thought that they, ``Woo-hoo, maybe it came from the President 
himself. Woo-hoo, the President has invited me down to see him 
being sworn in.''
    So who initiates that stuff, aside from the tickets? And 
can we not sort of look to word it differently like, you know, 
``sample only'' or ``do not present this at the gate'' or 
something like that? Chief?
    Chief Morse. We had mentioned in our testimony about 
unticketed guests. Certainly there were people who had no 
ticket at all.
    Mr. LaTourette. Right.
    Chief Morse. But there were people who had a very nice 
commemorative invitation to the swearing in of the President of 
the United States. And they were certainly there to utilize 
that ticket.
    Mr. LaTourette. Right.
    Chief Morse. And we were tactfully expending a lot of 
manpower and effort deconflicting that as people came to the 
gates. So certainly that is something that has to be very 
cautiously approached, especially issuing those prior to the 
Inauguration or, at the very least, giving some sort of 
direction that that is not, in fact, the ticket that gets you 
into the event.

                      PUSHING BACK THE PERIMETERS

    Mr. LaTourette. I appreciate that. Maybe we will get it 
right the next time. And maybe, Chief, if you could call my 
mother-in-law you would save me a lot of heartache.
    I want to again commend the Capitol Hill Police and the 
Secret Service, but the Capitol Hill Police, my understanding 
is your officers worked a 16-hour day that day. And while I 
think it is appropriate to have oversight and figure out what 
went right and what went wrong, I do not want anybody on your 
force to misconstrue the message, at least, that I am trying to 
convey, and that is that that is a long day with a lot of 
people. And I think that you deserve to have our chance.
    My last question, if I may, Mr. Chairman, I do not have a 
lot of experience with crowd control. My only experience 
occurred one day the Ku Klux Klan wanted to come to my 
hometown, and I was the prosecutor at the time. And the crowd 
was not the KKK, because they were only six fat guys in sheets; 
it was all the people that wanted to come and do harm to them 
that we had to control. And the way that the sheriff's 
department handled it at that time was to push back the 
perimeters.
    As I look at these satellite photos and the gates and 
everything else, do you think that pushing back the perimeters 
to sort of get rid of the people like my mother-in-law's sister 
that, you know, has come with the phony invitation, or the 
people that just showed up and had not heard you needed a 
ticket, do you think that pushing back the perimeters would be 
in order, based upon this experience, or no?
    Chief Morse. First, we actually pushed the perimeters back 
from previous Inaugurations just for this reason. And while 
that does not really depict the area of the purple gate, but it 
is in that location. You can see that the areas we picked for 
screening are the most accessible and the largest open space 
that we could find within the Capitol complex to facilitate 
screening of this sort. Before, they were much closer in and 
limited that. So we did make an effort.
    The only thing I would caution--and I think we probably 
need to examine it more closely--is, as we push this out, we 
are simply pushing the choke point out. So we need to really 
examine what caused the choke points, which I think the 
recommendations identify, and really work on limiting the 
merging of crowds that are trying to get to a variety of 
different locations. The security simply bifurcates the city in 
a manner that is hard to get 1.8 million people to the areas 
that they need to be.
    Mr. Sullivan. Congressman, I would just like to offer a 
point on that, because I think we have to push out where we 
begin to identify people and where they should be coming from. 
I think what happened here is that a lot of people were allowed 
to come in too close, who did not have a ticket, who had a 
commemorative ticket, who were general public or, quite 
frankly, may have been lost.
    By using way-finders and, other nonlaw-enforcement people 
who would be out as far as, Union Station; I think you have to 
go out that far to begin to identify where attendees need to 
go. And that is where we have to be better with the signage and 
better with direction. Because I think when you look at the 
fence line and you look at all those people that could not get 
in, a lot of them are there, quite frankly, because they were 
intermingled with people that were not ticketed.
    So I do think when you look at the evolution of the 
Inauguration over the last three Inaugurations now, the 
perimeter has gone farther and farther out; and a lot of that 
is because of the terrorist threat. If we are anticipating the 
type of crowd that we got for this inauguration we have to do a 
better job of figuring out who the people are, who should be 
allowed to come in, and the other people that need to be 
directed to go to other checkpoints.
    Mr. LaTourette. Thank you.
    Thank you, Mr. Chairman.
    Mr. Price. Thank you.
    Mr. Rodriguez.

                ASSISTANCE OFFERED BY THE NATIONAL GUARD

    Mr. Rodriguez. Thank you very much. And once again, I want 
to thank you for the long hours of service performed by your 
officers on inauguration day. But I also need to let you know 
that I just travelled through my 20 counties in February, and 
there were some constituents that were very pleased, but there 
were some that went through those gates where there were 
procedural problems and it was a nightmare for--some of them 
who showed up at 5:00 in the morning, 4:00 in the morning and 
still could not get in.
    And, Chief, were you responsible for saying ``no'' to help 
offered by the National Guard?
    Chief Morse. Yes.

                         TIME FOR OPENING GATES

    Mr. Rodriguez. I just want you to acknowledge that. Knowing 
full well that this was an extraordinary event that was 
occurring, and I told my constituents if you do not have a 
room, if you have accommodations far away, or are actually 
staying overnight in the area; it would be critical to arrive 
at the entrance gates early.
    Knowing that also, Chief, were you also responsible for 
determining the hours when the gates were going to be open of 
who the time to open the gates?
    Chief Morse. Well, we actually opened the gates 2 hours, 
2\1/2\ hours earlier than they were expected to be open.
    Mr. Rodriguez. You actually opened them 2 hours earlier?
    Chief Morse. The ticket hours were 9:00 a.m., and we opened 
the gates as early as 7:30 and the latest at 8:10. So we opened 
the gates earlier. And, in fact, we also backed up our 
reporting times for our police officers. My police officers 
spent the night in cars and here in the building so that they 
could be here at 3:00 a.m. And they were on post no later than 
4:00 a.m.

                         GENERATOR MALFUNCTION

    Mr. Rodriguez. I want to acknowledge that. But knowing that 
full well, I want you to reconsider the fact that you said 
``no'' to the National Guard that could have been helpful.
    In addition, I know I looked at one of the areas out here 
as they were coming in, the gates were still closed and I was 
looking, because I know my daughter was waiting to come in one 
of the areas, you know, and thank God, she was able to get in; 
but there was a large number of others that were not. That 
could have been extremely helpful for someone to have taken 
care of that in advance.
    And let me ask you, one of the gates, we had some stories 
about the generator malfunctioning and there was no backup 
system; is that correct?
    Mr. Sullivan. Was that at the blue gate?
    Chief Morse. There was a generator that failed at the 
beginning of our screening at 8:00 a.m. And we corrected that 
by immediately working with the Secret Service, our partners, 
going to hand-wanding and purse-checking, baggage checks, et 
cetera.
    Mr. Rodriguez. You did not have a backup generator. Is that 
because of the lack of resources we were giving you or----
    Mr. Sullivan. No, sir, we were back up at 8:10 a.m. That 
went down at----

                       PROBLEMS IN THE BLUE GATE

    Mr. Rodriguez. So that went up.
    So then what--in your conclusion, what caused the problems 
in the blue gate, in the silver and purple area because some of 
the others did not have that problem.
    Chief Morse. Right. As we indicated in the report and our 
review, there were multiple cascading events, such as people 
trying to get through the southbound tube of the tunnel to get 
to the north and south sides of the Mall.
    The parade route closed at 10:00 a.m. to capacity.
    Mr. Rodriguez. Do we have a responsibility to distinguish 
the people that were coming to those gates, whether they had 
tickets or not? Or is that something, you know, because people 
are going to come, they are going to try to find out where they 
are going through. And is it the responsibility of USCP to 
communicate to the people that have a purple ticket to head 
them in the right direction.
    Chief Morse. We, in fact, did that with our way-finders and 
police officers.
    Mr. Rodriguez. Why did we have trouble on this side and not 
on some of the other sides? Was it the people in charge of 
those sections?
    Chief Morse. No, it is actually a great analogy, because, 
for instance, the orange and yellow gates, we did not have 
significant issues there, and the screening of those people had 
concluded--by about 11:20, the crowds were screened in. That is 
because there was not the converging of crowds trying to get 
onto the parade route, get onto the Mall, and people who were 
traversing from north to south.
    So if you take away the ticketed people, the 241,000 from 
1.8 million, you have got about 1.6 million people trying to 
get to the parade route or the Mall from various locations.

                          ISSUANCE OF TICKETS

    Mr. Rodriguez. On the tickets, I think you are the one that 
gave us instructions not to hand them out until almost the 
Friday before or the day before. So you knew that those who had 
the tickets were going to be here and showing up.
    Chief Morse. Absolutely. And as a matter of fact, our 
officers worked through the weekend and on the holiday in order 
to screen those people to get their tickets.

                    GUIDELINES FOR VEHICULAR ACCESS

    Mr. Rodriguez. Because we made it difficult for them also 
to access their tickets. And I understood that.
    Let me ask you another question. Who set the guidelines as 
to who could come in with cars and who could not?
    Did anybody give that any thought?
    Mr. Sullivan. Congressman, we did. We met twice with 
Governor O'Malley, Governor Kaine, and Mayor Fenty. One of the 
big issues, we were very concerned with was the traffic coming 
in from Virginia and Maryland and how we would be able to deal 
with it here in the District. We all concluded that if we did 
not have some type of a traffic plan that we would have more 
vehicles in the District than they would be able to handle.
    And can I just mention one other item, please?
    Mr. Price. Very quickly, please.

                     ACCESS TO FOOD AFTER THE EVENT

    Mr. Rodriguez. I wanted to attend the parade. There was no 
way we could attend the parade, because we either had to go 
from the Inaugural, walk all the way over there, and then 
basically find some way of walking because there was no way of 
transporting ourselves, so that was another issue. And that is 
why I think President Obama was seen in the stands by himself 
and no one else in the stands was there watching the parade at 
all. And part of that also was attributed to people trying to 
get food after the event.
    Mr. Sullivan. You know, Mr. Congressman, we tried to be 
very proactive. We had a press conference on what the traffic 
plan would be. I had not heard that regarding the food, because 
we had worked with HHS on that very topic to make sure that 
there was enough water and food for all those that needed it.
    Mr. Rodriguez. I am sure the officers--I apologize--I am 
sure the officers, but for the attendees.
    Mr. Sullivan. No, this was for the attendees, sir.
    They had way stations, as I understand it, for all the 
attendees. We had a subcommittee that dealt with public health 
issues. They worked hand in hand with our transportation 
subcommittee to ensure that those with any type of disability 
would not have to walk a long distance, and that they would be 
accommodated. That was something that the Executive Steering 
Committee and the subcommittees that oversaw those particular 
issues really paid a lot of attention to.

                   PLANNING FOR SILVER TICKETED AREA

    Mr. Price. Thank you. I would like to turn to a couple of 
examples from the silver gate. And I realize, in reading these 
accounts, that some of this is probably inevitable in the event 
of a crowd of this magnitude. So the challenge is to sort out 
what could have been prevented or facilitated, you know, 
acknowledging that people are going to have to wait in line for 
a long time probably under any circumstances.
    But let's just think about these accounts from my 
constituents. ``When we emerged from the Metro station, there 
were several red-capped volunteers to point us toward the 
silver ticket line. During the long wait in line, there was no 
one on the street, no volunteers, no security officers to tell 
us what was going on. No one checked our tickets or bags.''
    Another account: ``We were in a line that stretched for 
blocks near L'Enfant station when we heard that the ticket 
checking system had broken down. We then got out of line, that 
is, the line for the silver area, and went directly down 
Constitution and went right through security. A volunteer 
explained the tickets were not being checked.''
    Another one says: ``Once they finally got to the gate, no 
one asked to see the tickets.''
    A couple of questions, I think, arise from this. One has to 
do with the way the silver--what kind of planning was done for 
the silver ticketed area. Now, that was supposed to hold 
100,000 visitors. The original plan called for multiple entry 
gates, both on the north and the south sides of the Mall. But 
after the tickets were printed, the plan was changed, so the 
silver area would have only one entry gate on the south side. I 
just find that inexplicable; I cannot imagine what led to that 
decision.
    We have learned from the after-action report that the 
crowds of silver ticket holders awaiting entry spilled into 
crowds awaiting entry to other ticketed areas, creating a vast 
mob in which people did not know what line to get in and 
whether they were actually in line at all. So that does lead us 
to question some of this planning and why the number of entries 
to the largest section of the viewing areas was reduced in this 
way.
    Can either of you explain that decision? And what do you 
mean by your recommendation that this issue ``should be 
addressed by future planners''? What does that mean?
    And then the second question that I think arises from this 
has to do with the shortage of ticket checkers and line 
managers before the attendees reached the magnetometers. Now, I 
understand the Secret Service and the TSA managed the metal 
detectors, but the Capitol Police were the ones handling line 
management and ticket checking.
    Chief, how many officers were stationed at each checkpoint 
to validate tickets? How many officers were outside? We have 
already addressed this partially to manage the lines. You 
already said you thought the people performing that latter 
function were obviously not enough. Did the Secret Service ever 
compare its resource plan for staff at the checkpoints with the 
Capitol Police resource plan? And were those resource levels 
similar?
    So, two questions about the kinds of experiences we 
recounted here. One has to do with the reduction of the number 
of entry gates, the second having to do with the number of 
people assigned to the ticket-checking function. And in the 
end, I have many reports here that tickets were never checked. 
But, of course, people thought they were going to be checked, 
and so most of the morning they were waiting in line to have 
that done.
    Mr. Sullivan. Mr. Chairman, according to the information I 
have, we had 43 lanes to check those coming through. We had 
different levels of security. The further out you went, the 
levels of security were commensurate with what we felt to be 
the threat.
    At this particular checkpoint, as I understand it, we were 
not putting people through magnetometers. We were doing more of 
a pat-down and a waistband----
    Mr. Price. This is the silver area, which is the farthest 
ticketed area from the platform?
    Mr. Sullivan. Yes, this would be west of the Reflecting 
Pool.
    Mr. Price. So no magnetometer checking was taking place 
there at all?
    Mr. Sullivan. No, this was more of a pat-down and a 
waistband check. And we had 143 officers there to do that.
    Mr. Price. Okay, but one entry point? Is that true?
    Mr. Sullivan. It was one entry point; we reduced it. And 
again, that was based on a decision between the U.S. Capitol 
Police and the U.S. Secret Service.
    We felt that we did not want to have the ticketed and 
nonticketed guests sharing a common screening checkpoint. To 
avoid anticipated congestion at Third Street and Constitution 
Avenue, and commingling of the silver and purple ticket holders 
and nonticketed parade viewers, a decision was made to have all 
silver ticket holders and nonticketed guests going to the 
National Mall enter their viewing areas from the south.
    We wanted everyone going into the silver to come from the 
south and not get congested with those that were going into the 
purple. What we were looking for these people to do was to come 
through the south tunnel and then come up south of the Mall and 
enter from that location.
    We felt that having these other checkpoints open north of 
that location would have just added more congestion.
    Mr. Price. Added more congestion to what, to the----
    Mr. Sullivan. To the purple.
    Mr. Price. The purple points to the east?
    Mr. Sullivan. Purple, which would have been to the south; 
purple that would have been to the--I am sorry, would have been 
to the north.
    Mr. Price. I am sorry, to the north I mean.
    Mr. Sullivan. To the north, yes.
    As it turned out, I think that we were right on that 
decision, We wanted anybody who was north, to come through that 
south tunnel and come south of the Mall, in order to enter from 
that location. If we had tried to bring these people through, 
the Third Street crossover, which we had to shut down, it would 
have been an even bigger mess.
    So I believe it was the right decision to have the silver 
ticket holders enter from the south, using the tunnel. The 
tunnel worked fine. Anyone coming through the tunnel, had no 
trouble getting to the silver, as I understand it.
    Mr. Price. At the time the tickets were printed, though, 
these plans were--there were plans to have multiple entry 
points?
    Mr. Sullivan. Right. And that was another one of our 
recommendations why these tickets should not be printed so 
early. Four years ago that plan would have worked perfectly. 
This year, with the historic nature of the election and the 
number of people that were going to come here, that plan that 
was on the ticket, just did not work.
    I believe an addendum went out to clarify that for people, 
but I am just not sure everybody got the word on that.
    Mr. Price. I was just looking at the map here.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2213B.022
    
    [GRAPHIC] [TIFF OMITTED] T2213B.023
    
    [GRAPHIC] [TIFF OMITTED] T2213B.024
    
                     CLOSING SILVER AREA ENTRANCES

    Mr. Price. I cannot understand for the life of me why a 
concern about congestion in the purple area, which is on the 
north side of the standing area just in front of the reflecting 
pool, why that would have required closing all the entrances to 
the silver area, which is a number of yards farther toward the 
west.
    Mr. Sullivan. That is why we wanted everyone to come from 
the south. If everyone had come from the north to get to the 
silver, they would have run smack into that crowd.
    I think there was a photo that you showed earlier that 
showed a huge crowd; and those people would have walked right 
into that crowd of people if we had had them come in that way.
    Chief Morse. If I could, sir, I hope this is helpful, as 
well: On the north side of the Capitol you have the yellow and 
purple gates, which is a level of screening, it is the highest 
level of screening that takes place.
    Mr. Price. Yes, sir.
    Chief Morse. The same level of screening takes place at the 
parade route. Therefore, if you had silver ticket holders, not 
only would you have additional congestion using the D Street 
corridor, the southbound tube, there would be no way for them 
to cross over the parade route, and they would be screened at a 
higher level than necessary, which would have caused more 
delays for those who were getting onto the parade route and the 
purple and yellow seated areas.
    Mr. Price. Well, was your original plan to not have 
magnetometers for people in the silver area, but to check 
tickets? Or was the original plan to not even check tickets for 
that area? People would otherwise indiscriminately go into that 
area.
    Chief Morse. The level of screening was decided in advance 
and, certainly, ticket checks. Now, ground situations--could 
dictate that instead of causing an angry crowd, or perhaps 
holding the line up even longer than it should be, that people 
who were security screened, but did not have a ticket, got 
through.
    But that could be just a situational thing where an officer 
or our screeners do not want to cause any additional chaos or 
harm to anyone.

                 PERSONNEL ASSIGNED TO TICKET CHECKING

    Mr. Price. All right. What about the personnel assigned to 
ticket checking? What kind of assessment have you made of that, 
as to whether that was a problem or a factor in backing up 
these lines?
    Chief Morse. Well, I think that we collectively looked at 
how many lanes we had going in, and we placed a number of 
people there to check tickets to keep those lanes full so that 
the screeners would have people to check.
    There were also Capitol Police officers who maintained, 
obviously, the perimeter and security within the silver 
ticketed area. And that is well over 100 officers.
    Mr. Price. Well, from the data provided in the report, your 
planning indicated that even under ideal conditions it would 
have taken 3 hours and 45 minutes to process all blue and 
purple ticket holders, and about 3 hours and 10 minutes to 
process all silver ticket holders. I assume that is the 
combination of the prescreening and the magnetometers.
    The gates were open only for a total of 4 hours. That is 
cutting it pretty close, was it not, even under ideal 
conditions?
    Chief Morse. It does. We used a matrix, for instance, to 
decide the width of access points so that we could have the 
right flow to the screeners. And the screeners and the Secret 
Service, as well as the Capitol Police, who have a lot of 
experience in screening certainly, looked at this from a 
science.
    And opening the gates earlier than expected helped us 
alleviate any concern with pushing the time too close. So 
opening it up 2\1/2\ hours earlier gave us more time to operate 
within the time frame that we had originally set.
    Mr. Price. It still gave you 4 hours, though. And your own 
planning here says, under ideal conditions it is going to take 
3 hours and 45 minutes.
    Mr. Sullivan. Again, those tickets were printed before 
anyone understood the severity of the number of people we were 
going to have; and that is why we made an adjustment and had 
the magnetometers open at 7:30 a.m. So--they were up and 
running at 7:30 a.m. and started to take people in.
    But the fact is, Mr. Chairman, that the tickets were 
already printed prior to us coming up with that plan. That is 
again why we made that a recommendation, that there needed to 
be better coordination there.
    Mr. Price. Ms. Wasserman Schultz.

                             PURPLE TUNNEL

    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    I want to get back to the purple tunnel of doom: What you 
expressed earlier regarding police directing people into the 
tunnel, there is video of people doing that, of police 
directing people into that tunnel; the clarification that you 
made, where you said people belonged in the southbound tunnel 
but not in the northbound tunnel and as if everything was fine 
in terms of the separation, the separation is a painted line 
between the southbound and northbound.
    Chief Morse. The separation is very distinct. It is a wall.
    Ms. Wasserman Schultz. It is a full wall?
    Chief Morse. Yes, it is a full wall. It is a tunnel system 
as if you would go through, for instance, the Baltimore tunnel.
    Ms. Wasserman Schultz. Is it a median or a barrier? It is 
an enclosed wall?
    Chief Morse. It is a enclosed wall. It is a tube.
    Ms. Wasserman Schultz. When we say police were directing 
them into the northbound tunnel, which police? MPD?
    Chief Morse. I believe that the Metropolitan Police Civil 
Disturbance Unit went to that tunnel to help alleviate 
pedestrian flow in and around the area of D Street, Second and 
D, First and D, and found the people in the northbound tube; 
and as the report indicates, made some attempts at trying to 
alleviate that problem, but were not successful. And they----
    Ms. Wasserman Schultz. Well, Chief, what happened? I know 
barriers did not show up because a truck broke down. What steps 
were taken, when there were no barriers, to prevent people from 
filling the tunnel? What steps were taken to deal with that?
    MPD was responsible for both ends of the tunnel; is that 
right?
    Chief Morse. Yes, ma'am.
    Ms. Wasserman Schultz. All right. So since people did not 
belong in there and there were supposed to be barriers to 
prevent them from being in there, did MPD take any action? Once 
they filled the tunnel, that was it? It was not a controllable 
or fixable situation, and that was it?
    Chief Morse. Yes, ma'am, that is what the report would 
indicate.
    Ms. Wasserman Schultz. Okay. Well, do you know enough now 
about how and what happened with the filling of that tunnel so 
that we do not have ``son of purple tunnel of doom'' in 2013?
    Chief Morse. I think what we all have learned from that is 
that whenever we do--whenever there are areas that we do not 
want people, we must either put physical barriers or police 
officers there to prevent that from happening.
    Ms. Wasserman Schultz. But in the event of an unanticipated 
problem like this one was, where a truck broke down and 
barriers did not show up, why was there--who was responsible 
for just deciding that barriers were not going to be replaced?
    Mr. Sullivan. Madam Chairman, I think a couple of 
unfortunate things happened that really contributed to making 
this what it was:
    Trucks did not show up to put the barriers down. The 
general public began to go into the tunnel. They were very 
orderly, and they started an ad hoc line. I think that when the 
police found out that they were down there--there was very poor 
communication. I think that those officers who went down there 
went down there had every good intention of doing the right 
thing. They went down there to make sure there were no safety 
issues, but I just do not think they were aware of----
    Ms. Wasserman Schultz. I can appreciate that, Director 
Sullivan. But that is not a situation that was safe, as orderly 
as that crowd was. Because the crowd could just as easily have 
gotten extremely frustrated. They were trapped in a tunnel with 
no police around them to be able to get them out or move them 
along; no idea--I mean, I can only imagine being trapped in a 
tunnel that you were not supposed to be in.
    Mr. Sullivan. I agree.
    Ms. Wasserman Schultz. Have you taken steps? How would you 
address this problem and prevent it from happening again in the 
next Inauguration?
    Mr. Sullivan. Well, I think a couple of things.
    Number one, we would shut that tunnel down a lot earlier 
than we had originally anticipated shutting it down. People 
showed up there earlier, and I think at this point we would 
shut that down the night before and would have the blockades up 
the night before. I believe that we would make sure that 
everybody has situational awareness of what that tunnel is all 
about.
    I believe what happened, is that the police and the people 
that were queued in that line felt that the line was going to 
lead to the purple gate.
    Ms. Wasserman Schultz. Was it MPD's decision not to replace 
or do something about the barriers not showing up?
    Mr. Sullivan. I think what happened was their vehicle that 
was going to put the barriers up was vandalized. By the time it 
got there, people were already queued, and--they let it go. 
When people that were in the tunnel called back to the MACC to 
let them know that there were issues in the tunnel, the people 
in the MACC were under the impression they were talking about 
the south tunnel, because the people in the MACC had believed 
that the north tunnel was not going to be open.
    So when they heard ``tunnel,'' they called over to the 
people at the south tunnel and said, Can you check that tunnel? 
We heard there are issues there. And they saw there was a 
perfect flow of people.
    Believe it or not, nobody took a look at the north tunnel. 
And I--as I said before, I apologize for that.
    Ms. Wasserman Schultz. That is a big ball drop.
    Mr. Sullivan. That is a big mistake. That is a big mistake. 
And all of us take responsibility for that mistake. All of us 
regret it. And all of us apologize to those people.
    I think it is something that we could have adjusted to that 
day, and there is no defending it.

                     METROPOLITAN POLICE DEPARTMENT

    Ms. Wasserman Schultz. Mr. Chairman, before my time 
expires, I want to suggest that there are a lot of questions--I 
do not know how many rounds we are going to go, but there are a 
lot of questions that have been raised today, some that have 
been answered. I see Chairman Serrano is here, who is 
responsible for the District of Columbia; and I serve on that 
Committee as the vice chairman.
    Mr. Chairman, from the questions that have been raised 
today, I think we may want to consider having a hearing, at 
least where we have an opportunity to ask the Metro Police 
Chief some questions about the decision-making that they 
engaged in on that day and that caused so many people to miss 
the opportunity to see the Inauguration.
    I yield back.
    Mr. Price. Thank you.
    Mr. LaTourette.

                   COORDINATION WITH TICKET PRINTERS

    Mr. LaTourette. Thank you, Mr. Chairman. And I would echo 
Chairwoman Wasserman Schultz's observations. I think it might 
be helpful to have the folks from the JCCIC here as well.
    Because, Director Sullivan, something I wrote down when you 
were talking about the logistics and how long the gates were 
required to be open based upon your metrics and so forth and so 
on, I wrote down--you said, whoever printed the tickets did not 
check to make sure that the time printed on the tickets 
coordinated with what the metrics were showing. Is that what 
you meant to say?
    Mr. Sullivan. What I meant to say is, when those tickets 
were printed, I do not think any of us truly appreciated the 
magnitude of this event, for example the number of people that 
were going to come. We had to adjust to those numbers well 
after the tickets had been printed.
    Mr. LaTourette. So going back to my first round of 
questions about this recommendation on page 32, do you think 
that that sort of takes better coordination, that the ticket 
guys know you cannot put 9 o'clock on the ticket, you really 
need to put 7:45 on the ticket?
    Mr. Sullivan. I will give you an example.
    When we do the DNC and we do the RNC, we have members of 
the DNC and the RNC on our executive steering committee. Again, 
they do not really deal with security issues, but they deal 
with issues that do impact with the logistics of the event. And 
that is why we believe it would be worthwhile for the PIC, for 
the AFIC, and----
    Mr. LaTourette. JCCIC.
    Mr. Sullivan. Right, for the JCCIC all to be on that 
steering committee.
    Mr. LaTourette. Yes. Me, too.
    Mr. Sullivan. And again, those tickets were printed in July 
of 2008.

                      PUTTING BAR CODES ON TICKETS

    Mr. LaTourette. Yeah. And I have to agree with Mr. 
Rodriguez. This is my fourth Inauguration since I have been 
here, I have always gotten 198 tickets. I think I am going to 
die and I will still get 198 tickets. So it was really not a 
surprise how many tickets each Member is going to get. And I 
assume the Senate runs the same way, except they do not seem to 
have any rules, so maybe it does not apply.
    I do not know why we cannot figure it out, when the tickets 
are printed, that here we are going to go and move forward, and 
why it has to be top secret and you know, we cannot get the 
tickets until 3 days before the event. It would be a lot more 
orderly if I could have mailed them back to Ohio, people would 
have come in and picked them up, rather than trying to scramble 
into the Rayburn Building.
    But let me ask you, has anybody ever thought about the 
notion of coming into the 21st century and putting bar codes on 
the tickets? That is how I go to the Indians games. Could you 
put bar codes on the tickets? And it would not identify you as 
your seat, but it would say purple, purple, purple, blue, blue, 
blue. And maybe that would help with some of the screening, and 
then the police officers and the Secret Service and everybody 
else could sort of concentrate on looking at threats, which you 
are highly trained do.
    But I think we could get anybody to come and run a bar code 
through a scanner. So were bar codes ever thought about?
    Mr. Sullivan. I think that is a great idea, but again--no 
matter what you use with technology, I still think that what we 
have to do a better job with, is dealing with these large 
crowds of people that do not come ticketed, or that come with 
what they think is a ticket and is not. These people need to be 
separated further out. I think that is where we could have done 
a much better job.

                  USING THE EAST FRONT OF THE CAPITOL

    Mr. LaTourette. That is why I asked the perimeter question. 
But I think that you weed those people out further out if you 
move the perimeters back. And if you do bar codes, you know, 
again, my mother-in-law's sister ain't getting through with her 
gold thing because she does not have a bar code, and it is 
really not a ticket to the event.
    As I look at the map that the chairman has provided, the 
committee has provided, the East Front of the Capitol seems 
pretty underutilized. And I know there is a big deal about the 
new President and the old President walk out and they shake 
hands and say good-bye and hello. But is there a reason we do 
not use the East Front of the Capitol for egress and ingress?
    Mr. Sullivan. That is where we have the helicopter 
departure. It is an emergency evacuation area. You know, we 
have a lot of protectees. We have our new President, we have 
our departing President, we have other dignitaries in one 
location. That, is our perspective anyway, and I will defer to 
the Chief for his perspective----
    Mr. LaTourette. I appreciate that. And Chief, before you 
answer that question, maybe the whole notion of maybe using it 
on the way in, but not as a way out. Because my understanding 
is, when the parade ends the President comes there, and when 
they leave, they leave through the East Front.
    But if you had moved--if you would consider moving your 
orange and your yellow gates up to and creating kidneys up 
there for people just to walk around the sides of the Capitol 
to come in, but you do not let them back out that way, maybe 
you free up some space.
    Or you just do not think we should use the East Front at 
all, based on security?
    Chief Morse. Security, I think, rules in this respect. We 
do not have a fixed location that can protect our dignitaries 
there. It is open air. The ceremonies that take place on the 
East Front, reviewing of the troops and such, we have to make 
sure that not only on the ground, but at a distance we have 
that covered. And to put people, more people, in that area for 
law enforcement to be distracted with, or have to deal with, 
would place a higher level of risk on that.
    Mr. LaTourette. Okay. That is what I figured, but it is a 
big open space that was not used. So for my 2 cents is, push 
the perimeters back, put bar codes on it, and stop sending out 
fancy things that really are not tickets.
    Thank you, Mr. Chairman.
    Mr. Price. Thank you.
    Mr. Rodriguez.

                            TICKET CHECKING

    Mr. Rodriguez. Thank you.
    I do want to thank you for your service. And I know the 
long hours that your officers worked. But I want to emphasize 
we are fortunate that no serious incidents occurred.
    I am concerned that if something had happened, I hope we 
would have had some kind of emergency response, because we 
really did not have that emergency response to the problem that 
we encountered. I do not know whether there were additional 
staff ready to move if necessary. Otherwise, we would have had 
a real serious situation on our hands.
    As we look at one of your recommendations, tickets, ticket 
checking in the future should that be the function of the host 
committee? Are they volunteers or what? Who are they?
    Mr. Sullivan. The host Committee would be the JCCIC up here 
at the Capitol.
    Mr. Rodriguez. So were volunteers handling that or what? 
That is one of your recommendations, that ticket checking in 
the future should be the function of the host committee, not 
the function of law enforcement personnel? That is a 
recommendation, I gather, that you are making.
    Mr. Sullivan. Yes, to use an example of the RNC and the 
DNC: At those conventions tickets are not checked by law 
enforcement; they are checked by the RNC and the DNC, and law 
enforcement performs a law enforcement function.
    My opinion is, ticket checking is not a law enforcement 
function; that is something that should be done by others. And 
in this particular case, I believe that should be a function 
handled by the JCCIC or whoever they determine.
    Mr. Rodriguez. Which could mean volunteers, which could be 
another mess, you know, if we are not careful in terms of how 
that is handled, if they are people that are not on a salary, 
and motivated properly to execute specific duties.
    Mr. Sullivan. Historically, that has been the case at other 
events that we have done. People are given training, they are 
informed what is expected of them; and my experience has been 
that they perform this duty in a very capable manner.

             RECOMMENDATIONS FOR COORDINATING AND STAFFING

    Mr. Rodriguez. Okay.
    In terms of coordination, do you have recommendations in 
terms of coordinating? And any other recommendations in terms 
of maybe additional staffing and resources that we need to 
consider to help you make sure we get the job done and that we 
are ready to respond to some serious situations?
    Chief Morse. I think one of the reasons we are under the 
NSSE structure is so we can have the assets and resources that 
we need to perform this level of event. With the 
recommendations that we have, we have learned that our focus on 
security should be as high a focus on the logistics of people. 
And we need to figure out a way to rectify that situation. By 
some of the recommendations that we have made, we believe will 
do that.

                         ATTENDANCE PROJECTIONS

    Mr. Rodriguez. You could have figured out that if I--as a 
Member of Congress, I had close to 1,800 people wanting those 
180-something tickets. I used a very rigorous process. My staff 
knew how many people were going to show up. We knew that. Why 
did you not know that?
    And I am serious. Why did not you know that?
    Mr. Sullivan. Sir, we knew those people were going to show 
up. What we did not know was, for example, we had thousands of 
people who took a bus to RFK Stadium. And the plan was for them 
to take a shuttle. Many of those people decided that they were 
not going to take the shuttle and they were going to walk. And 
when they walked, they converged with the purple ticket 
holders.
    We had no way of knowing those people were going to do 
that. We were caught short, and again we are going to have to 
do better.
    Mr. Rodriguez. Because I knew also, and I was telling 
people, look, even if you are far away in Maryland, you are 
going to have a rough time coming in. And we had a feel that it 
was going to be something extraordinary in terms of the 
numbers.
    Mr. Sullivan. Again, a lot of people we dealt with, sir, 
were not people that were just coming to the Capitol. A lot of 
people that came into this flow of other people are people that 
went to the Mall, could not get into the Mall, and then 
migrated down here from----
    Mr. Rodriguez. But that was expected. That was expected. 
Because I am telling you, I had hundreds of others that were 
coming out here without a ticket, not to mention the ones with 
a ticket. And that is just one Member. So I gather the same 
applied to every single Member.
    So we had some kind of a feel. So my concern is that we all 
kind of knew that now--and you seem to talk as if we did not 
expect this crowd and that kind of thing and this thing to 
occur.
    If we expect a problem to arise, we have to have a team to 
respond to it. I am sure if we had a shooting you would have 
had team out there real quickly, right? I would hope so.
    Mr. Sullivan. We would have.
    I think we could have used more people, and I think we 
could have used more room. I think people were allowed to come 
in too close. By the time all these people came in, that were 
either ticketed or nonticketed, or people with a commemorative 
ticket, I believe it was very difficult to separate them. That 
is why one of the recommendations is that we do begin to 
separate people out further, that we have nonlaw-enforcement 
people dealing with the tickets. People should have better 
information as they approach, and better signage.
    Congressman, I agree with what you are saying. There are 
some things here that should have been done better in the 
planning, and there are some things that we should have done 
better the day of the event to react to what was not going 
well, either communication-wise or operationally. We know that 
there were some shortcomings.
    Mr. Rodriguez. Thank God, everything went okay. And I do 
want to thank you.
    But there were just some experiences where some people 
spent a lot of their money to come up here and did not have 
that opportunity to participate in the inaugural activities, 
and that was a shame. Thank you.
    Mr. Price. Mr. Serrano.

                    ERRORS IN PROJECTING ATTENDANCE

    Mr. Serrano. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service and thank you for 
being here today. I think that Mr. Rodriguez's last point has 
to be well understood. This can't become a discussion only of 
how to handle a large event.
    This was a historic event. I had people coming from my 
district in the Bronx who were over 90 years old. I honestly 
told them that it was going to be tough standing or sitting for 
a long time, that it was going to be cold. But this was a 
historic moment that we have all well understood and, they were 
not going to miss it.
    I think as we look forward to the next inauguration or the 
next time we have such a historic moment in our country, that 
we need to take that into consideration. It can't just be, how 
do we handle this, and what are the logistics of handling it? 
We also have to prepare for the fact that this was going to be 
huge, this was going to be emotional, this was going to be 
important.
    The people that did get in, I had a bunch of constituents, 
a large number that couldn't get in, but those that did get in, 
all I hear from them and read from them is ``I will never, 
ever, ever forget this.'' In fact, one of the older ones said, 
``I can now leave. I have seen it.'' That is the kind of 
emotion behind this, and that is why so many people are 
concerned that it didn't go well.
    The other point I would like to make is, and I don't know 
if this was answered while I was away, Washington, D.C. is 
known for large demonstrations, large gatherings. That is part 
of what we do in this town. Was it that this one was bigger 
than expected? Was it that this one was the largest ever? Or 
was it that this one didn't work as well as the others? I would 
think if half a million people were showing up to a rock 
concert and you prepared for it, that the same logistics, the 
same mechanics would apply in larger numbers if 1.5 million 
show up.
    So what was the problem? Was it that it was too big, or 
people didn't think that that many people would show up?
    Chief Morse. I think there were several different reasons 
between our normal events that occur here in the city. For 
instance, when we had the Million Man March, we had 600,000 or 
700,000 people here in the city. But it wasn't bifurcated by 
security. We didn't have different areas of security that were 
fenced off, where streets were closed. It was more of a wide 
open space. Therefore, all the transportation systems could be 
used. The streets were open to flow north and south. Traffic 
continued to flow on the freeways and the Third Street Tunnel 
or through the tunnels that we were speaking of earlier. That 
is the biggest difference, along with the fact that it was 
almost triple that size. All those factors came into play on 
the 20th, and those were the major differences there.

                    REPORT ON INAUGURAL DIFFICULTIES

    Mr. Serrano. Also I think that your statements speak to a 
summary, executive summary of the report coming out. When will 
the full report be available to the American people?
    Mr. Sullivan. That is why we put the executive summary 
together. We can take a look at the report that we have done, 
and if there is anything in there we believe should be 
classified, we will keep it classified. But we will be more 
than happy to work with the Chairman and the Committee to make 
that available.
    Mr. Serrano. In order to make the full report available, 
there has to be issues of security? Is that what you are 
saying?
    Mr. Sullivan. Yes, sir. Right now we have it classified as 
law enforcement sensitive. If you would allow me to take a few 
days to take a look at that and see if there is anything we 
believe should not be released publicly, we would be more than 
happy to release it.
    Mr. Serrano. All right.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2213B.025
    
    [GRAPHIC] [TIFF OMITTED] T2213B.026
    
    [GRAPHIC] [TIFF OMITTED] T2213B.027
    
    [GRAPHIC] [TIFF OMITTED] T2213B.028
    
    [GRAPHIC] [TIFF OMITTED] T2213B.029
    
    [GRAPHIC] [TIFF OMITTED] T2213B.030
    
    [GRAPHIC] [TIFF OMITTED] T2213B.031
    
    [GRAPHIC] [TIFF OMITTED] T2213B.032
    
    [GRAPHIC] [TIFF OMITTED] T2213B.033
    
    [GRAPHIC] [TIFF OMITTED] T2213B.034
    
    [GRAPHIC] [TIFF OMITTED] T2213B.035
    
    [GRAPHIC] [TIFF OMITTED] T2213B.036
    
    [GRAPHIC] [TIFF OMITTED] T2213B.037
    
    [GRAPHIC] [TIFF OMITTED] T2213B.038
    
    [GRAPHIC] [TIFF OMITTED] T2213B.039
    
    [GRAPHIC] [TIFF OMITTED] T2213B.040
    
    [GRAPHIC] [TIFF OMITTED] T2213B.041
    
    [GRAPHIC] [TIFF OMITTED] T2213B.042
    
    [GRAPHIC] [TIFF OMITTED] T2213B.043
    
    [GRAPHIC] [TIFF OMITTED] T2213B.044
    
    [GRAPHIC] [TIFF OMITTED] T2213B.045
    
    [GRAPHIC] [TIFF OMITTED] T2213B.046
    
    [GRAPHIC] [TIFF OMITTED] T2213B.047
    
    [GRAPHIC] [TIFF OMITTED] T2213B.048
    
    [GRAPHIC] [TIFF OMITTED] T2213B.049
    
    [GRAPHIC] [TIFF OMITTED] T2213B.050
    
    [GRAPHIC] [TIFF OMITTED] T2213B.051
    
    [GRAPHIC] [TIFF OMITTED] T2213B.052
    
    [GRAPHIC] [TIFF OMITTED] T2213B.053
    
    [GRAPHIC] [TIFF OMITTED] T2213B.054
    
    [GRAPHIC] [TIFF OMITTED] T2213B.055
    
    [GRAPHIC] [TIFF OMITTED] T2213B.056
    
    [GRAPHIC] [TIFF OMITTED] T2213B.057
    
    [GRAPHIC] [TIFF OMITTED] T2213B.058
    
    [GRAPHIC] [TIFF OMITTED] T2213B.059
    
                     METROPOLITAN POLICE DEPARTMENT

    Mr. Sullivan. I would like to say one thing, because the 
Metropolitan Police Department isn't here, and I know you have 
oversight for them. I would like to say they did an 
extraordinary job. We talked about the Third Street Tunnel. I 
want to make it clear what went well in this Inauguration was a 
collective effort, and what didn't go well was a collective 
effort as well.
    I want to make sure that what went wrong with the Third 
Street Tunnel wasn't only because of the Metropolitan Police 
Department. It was because of the action or the inaction that 
all of our agencies took. So Chief Lanier is not here, but I 
have the utmost regard for her and the department, and I do 
want to make sure that I said that to you.
    Mr. Serrano. Well, we are not here as adversaries. We are 
just trying to make sure this never happens again. What 
happened happened. We have to prepare for it. But when you have 
a Supreme Court Justice messing up the swearing-in, you know 
that a lot of things can go wrong.
    Chief Morse. If I could also echo Director Sullivan's 
remarks, Cathy Lanier was up many a night worrying about this 
Inauguration. The night before the Inauguration, I spent some 
time with her, and she was worried about not only the 
jurisdiction that she was responsible for but also the ones 
that myself and Director Sullivan were responsible for. We do 
all take responsibility for the shortcomings that happened 
here, and we regret that.
    The police officers with the Metropolitan Police responded 
up to the Hill that day to assist us with crowd control, 
especially in the silver ticketed area. They were very 
responsive to that. And I think that their actions in the Third 
Street Tunnel after finding people there at the officer and 
supervisory level, they did what they thought was right and all 
good intention. And once they saw that there wasn't any glaring 
safety issues or anyone that was in trouble, they attempted to 
make some direction there and then moved on to the E Street 
corridor to try to help alleviate that. And eventually, we were 
able to, obviously, unclog the tunnel around 11 o'clock.
    So, Chief Lanier is a good friend of ours and a good chief, 
and her people deserve a lot of credit for that day as well.
    Mr. Serrano. Thank you.

                        PLANS FOR AN EVALUATION

    Mr. Price. Thank you.
    We are nearing the closing hour here, but Chairman 
Wasserman Schultz and I think want to make certain that we 
pursue one very critical matter. Mr. Rodriguez has already 
broached the subject, and let me just take his question a 
couple of steps further. It has to do with what the plans were 
and what the capacity was had a truly disastrous event 
materialized. So, let me try to frame it this way.
    There are a number of things we have heard from your report 
and also from people we have communicated with about what they 
observed. The dearth of officers who couldn't be seen in the 
large crowds, megaphones not effectively communicating, too few 
directions, finding signs, all this created some confusion and 
chaos just with respect to the formation of lines and the entry 
to the event. But also all of these things also have serious 
implications for the capacity to handle a disastrous event, 
should it arise.
    What kind of thinking have you done about how you would 
have responded, how you could have responded to a catastrophic 
event like a bombing or a manmade or natural event, an 
explosion of some sort, whatever kind of catastrophic event 
might have really caused widespread panic and disruption?
    Director Sullivan, what was the plan for evacuating people 
out of the downtown area if there had been a security event. 
For example, given the problems getting individuals to the 
Mall, how could we conceive of getting them out of the area in 
a timely manner?
    You have spoken about the east portion of the Capitol as an 
evacuation area. You might want to expand on that a bit.
    Chief, what kind of responsive evacuation plan did you test 
or rehearse before the event? What kind of scenarios did you 
envision?
    I think we are all in awe of the numbers you were dealing 
with here and just the sheer scale and scope of this event. So 
routine crowd management proved to be sometimes beyond our 
capability. But what about this catastrophic scenario? That is 
really the question we have to ask, I think.
    Mr. Sullivan. As I mentioned before, we had an Executive 
Steering Committee, and 23 working groups or subcommittees. One 
of the working groups we had was a transportation subcommittee 
that had 15 agencies, including law enforcement agencies. As 
part of that, they looked at a mass exodus plan for this type 
of an event. We had 30 medical stations within these secure 
areas, as well as a mobile hospital.
    If there was some type of a catastrophic event, there was a 
walkout plan. We had, I think, 23 jumbotrons that would give 
direction to people, as well as verbal direction by law 
enforcement. Depending on where that particular event was, 
people would be instructed to walk in a direction that would be 
going away from the threat or from that particular event.
    This was one of the big reasons why we did meet with the 
Governors from Virginia and with Maryland, as well as with 
Mayor Fenty, to make sure we didn't have so much vehicular 
traffic. So if we did have to evacuate the city, we wouldn't 
have all these vehicles trying to leave at the same time. Now, 
you can well imagine with 1.8 million or 2 million people, we 
are not going to be able to stop on a dime. But there was a lot 
of work, and we would be more than happy to give you a 
classified briefing on that particular plan.
    And as a matter of fact, we did table top that plan. We did 
several table top exercises leading up to the Inauguration, and 
many of the scenarios we looked at had to do with a 
catastrophic event.
    So I feel comfortable that we did have a plan in place for 
that. But when I look at the National Mall, for example, 2 
hours after the Inauguration was over, law enforcement was able 
to clear that area. It took 2 hours to clear that out, in a 
very orderly fashion. But I do want to assure you that there 
was a plan in place for a mass evacuation and I would be more 
than happy to go into more depth with you in a classified 
briefing.
    Ms. Wasserman Schultz. Just a very brief follow-up to 
Chairman Price's question. So you think it is realistic to 
expect, in a crowd that size, 1.8 million to 2 million, in the 
event there was some type of manmade disaster or terrorist 
attack, that you had an evacuation plan for both the 
leadership, the President, the Congress and the crowd that 
would have been effective?
    Mr. Sullivan. I believe we had the best plan in place. I 
can't guarantee you that with 2 million people that everything 
is going to go according to plan, but I do think that we tried 
to look at every scenario and do it in the safest way we could.

           INCLUDING THE JCIC AS A STEERING COMMITTEE MEMBER

    Ms. Wasserman Schultz. I don't really feel like this is 
taboo to say, one of the glaring problems beyond the ones we 
have identified here and that you have acknowledged is that 
JCIC bears some responsibility as well. I think much of their 
planning was wanting and would need to be reevaluated. I am 
assuming that you worked with them as well, or do they make 
their own decisions on planning for the future?
    Mr. Sullivan. I think that is why we believe that they need 
to be part of the Executive Steering Committee, the same as we 
do with the DNC and RNC. I also believe that the PIC and AFIC, 
to be part of the Executive Steering Committee, so we are hand-
in-hand.
    Ms. Wasserman Schultz. And they weren't before, is that 
right?
    Mr. Sullivan. For this particular event, they were not part 
of the Executive Steering Committee. Again, there was contact 
with them, and we did most of that or all of it through the 
Capitol Police. I think if we want to improve, they need to be 
part of the Executive Steering Committee.
    Ms. Wasserman Schultz. Thank you.

                  ROLE OF UNITED STATES CAPITOL POLICE

    Mr. Price. Chief, just to clarify, what was you and your 
agency's role in the response and evacuation planning? Was that 
the Secret Service's responsibility mainly, or were you 
responsible? What kind of responsibility did you have, and did 
you undertake table top exercises and rehearsals, or were you 
just part of this coordinated effort?
    Chief Morse. This is a coordinated effort, and as far as 
the Capitol Hill Subcommittee is concerned, the U.S. Secret 
Service and the Capitol Police coordinate with each other 
planning for security and evacuation and consequence management 
as it relates to any event that occurs. And in fact, we did 
have a Joint Steering Committee table top exercise on Capitol 
Hill to address all the possible threats and actions that we 
would take should they occur.
    Mr. Price. All right. Well, thanks to both of you.
    Do our other members have remaining questions?
    Mr. Rodriguez. Let me just once again thank you for the 
service that you do provide for us. I think the Chairman 
indicated at the beginning, one of the things that irritated me 
was the comments that were made initially; it wasn't you two, I 
think someone from D.C. talked about the fact that everything 
was okay and there were no problems whatsoever, knowing full 
well that I was already getting called; people had been out 
there 7 or 8 hours and had never had a chance to get in. So 
hopefully we can learn from this experience.
    Now, as Americans, and I will just close with this, we are 
unique in a lot of ways. When you are in another country, most 
people don't form a line. We form a line to get on the bus, to 
do everything, and we are very orderly. So thank God everything 
went okay. Thank you.
    Mr. Price. Again, thank you. We look forward to working 
with you. Of course, we have much more to talk about. Both of 
our Subcommittees will have a great deal more to talk about 
with you as we look toward the 2010 budget.
    I think inevitably here today we focused on an area of 
shared responsibility and an episode that we need to get some 
clarity on and some understanding for future purposes. So we 
appreciate your cooperation in that and on the many matters in 
which you serve our country. We thank you and look forward to 
working with you as we formulate our spending plans for 2010.
    The Subcommittee is adjourned.

    [GRAPHIC] [TIFF OMITTED] T2213B.060
    
    [GRAPHIC] [TIFF OMITTED] T2213B.061
    
    [GRAPHIC] [TIFF OMITTED] T2213B.062
    
    [GRAPHIC] [TIFF OMITTED] T2213B.063
    
    [GRAPHIC] [TIFF OMITTED] T2213B.064
    
    [GRAPHIC] [TIFF OMITTED] T2213B.065
    
    [GRAPHIC] [TIFF OMITTED] T2213B.066
    
    [GRAPHIC] [TIFF OMITTED] T2213B.067
    
    [GRAPHIC] [TIFF OMITTED] T2213B.068
    
    [GRAPHIC] [TIFF OMITTED] T2213B.069
    
    [GRAPHIC] [TIFF OMITTED] T2213B.070
    
    [GRAPHIC] [TIFF OMITTED] T2213B.071
    
    [GRAPHIC] [TIFF OMITTED] T2213B.072
    
    [GRAPHIC] [TIFF OMITTED] T2213B.073
    
    [GRAPHIC] [TIFF OMITTED] T2213B.074
    
    [GRAPHIC] [TIFF OMITTED] T2213B.075
    
    [GRAPHIC] [TIFF OMITTED] T2213B.076
    
    [GRAPHIC] [TIFF OMITTED] T2213B.077
    
    [GRAPHIC] [TIFF OMITTED] T2213B.078
    
    [GRAPHIC] [TIFF OMITTED] T2213B.079
    
    [GRAPHIC] [TIFF OMITTED] T2213B.080
    
    [GRAPHIC] [TIFF OMITTED] T2213B.081
    
    [GRAPHIC] [TIFF OMITTED] T2213B.082
    
    [GRAPHIC] [TIFF OMITTED] T2213B.083
    
    [GRAPHIC] [TIFF OMITTED] T2213B.084
    
    [GRAPHIC] [TIFF OMITTED] T2213B.085
    
    [GRAPHIC] [TIFF OMITTED] T2213B.086
    
    [GRAPHIC] [TIFF OMITTED] T2213B.087
    
    [GRAPHIC] [TIFF OMITTED] T2213B.088
    
    [GRAPHIC] [TIFF OMITTED] T2213B.089
    
    [GRAPHIC] [TIFF OMITTED] T2213B.090
    
    [GRAPHIC] [TIFF OMITTED] T2213B.091
    
    [GRAPHIC] [TIFF OMITTED] T2213B.092
    
    [GRAPHIC] [TIFF OMITTED] T2213B.093
    
    [GRAPHIC] [TIFF OMITTED] T2213B.094
    
    [GRAPHIC] [TIFF OMITTED] T2213B.095
    
    [GRAPHIC] [TIFF OMITTED] T2213B.096
    
    [GRAPHIC] [TIFF OMITTED] T2213B.097
    
    [GRAPHIC] [TIFF OMITTED] T2213B.098
    
    [GRAPHIC] [TIFF OMITTED] T2213B.099
    
    [GRAPHIC] [TIFF OMITTED] T2213B.100
    
    [GRAPHIC] [TIFF OMITTED] T2213B.101
    
    [GRAPHIC] [TIFF OMITTED] T2213B.102
    
    [GRAPHIC] [TIFF OMITTED] T2213B.103
    
    [GRAPHIC] [TIFF OMITTED] T2213B.104
    
    [GRAPHIC] [TIFF OMITTED] T2213B.105
    
    [GRAPHIC] [TIFF OMITTED] T2213B.106
    
    [GRAPHIC] [TIFF OMITTED] T2213B.107
    
    [GRAPHIC] [TIFF OMITTED] T2213B.108
    
    [GRAPHIC] [TIFF OMITTED] T2213B.109
    
    [GRAPHIC] [TIFF OMITTED] T2213B.110
    
    [GRAPHIC] [TIFF OMITTED] T2213B.111
    
    [GRAPHIC] [TIFF OMITTED] T2213B.112
    
    [GRAPHIC] [TIFF OMITTED] T2213B.113
    
    [GRAPHIC] [TIFF OMITTED] T2213B.114
    
    [GRAPHIC] [TIFF OMITTED] T2213B.115
    
    [GRAPHIC] [TIFF OMITTED] T2213B.116
    
    [GRAPHIC] [TIFF OMITTED] T2213B.117
    
    [GRAPHIC] [TIFF OMITTED] T2213B.118
    
    [GRAPHIC] [TIFF OMITTED] T2213B.119
    
    [GRAPHIC] [TIFF OMITTED] T2213B.120
    
    [GRAPHIC] [TIFF OMITTED] T2213B.121
    
    [GRAPHIC] [TIFF OMITTED] T2213B.122
    
    [GRAPHIC] [TIFF OMITTED] T2213B.123
    
                                          Wednesday, April 1, 2009.

         CARGO AND CONTAINER SECURITY: KEEPING A LID ON THREATS

                               WITNESSES

JAYSON P. AHERN, ACTING COMMISSIONER, U.S. CUSTOMS AND BORDER 
    PROTECTION
THOMAS WINKOWSKI, ASSISTANT COMMISSIONER FOR FIELD OPERATIONS, U.S. 
    CUSTOMS AND BORDER PROTECTION
CHARLES R. GALLAWAY, ACTING DIRECTOR, DOMESTIC NUCLEAR DETECTION OFFICE
    Mr. Price. The Subcommittee will come to order. Welcome, 
everyone, to our hearing on cargo and container security.

               Opening Statement of Chairman David Price

    The grim scenario of a bomb in a box traversing a U.S. port 
of entry and detonated there or at a subsequent destination has 
been the subject of numerous reports in congressional hearings, 
including several before this subcommittee. While the 
consequences of an attack could be horrendous in terms of loss 
of life and property, the impact from even a conventional 
weapon would be to disrupt the trade on which our economic 
well-being depends.
    At the same time, we are mindful that we must always seek a 
careful balance when considering enhanced security requirements 
on trade and transportation sectors. That is the balance 
between the need to reduce risk to the public while also 
minimizing adverse impacts on commerce.
    So we are left with many questions to consider. What level 
of risk can we tolerate? How can we reduce the risk we face? 
And what will it cost?
    Secretary Napolitano last month testified in regard to the 
deadline for scanning all U.S.-bound cargo overseas as required 
in the 9/11 Act that, and I am quoting now, the 2012 deadline 
is not going to work. This was no great surprise.
    From previous testimony before this Subcommittee and our 
own observations from Subcommittee visits to container security 
and secure freight initiative ports, it has been clear that the 
sheer scale and the technical and diplomatic complexity of the 
project make this 100 percent target very hard to meet. The 
question is, absent a 100 percent solution on the timeline 
projected, are current programs adequate to mitigate the risk, 
or to what extent are they adequate to mitigate the risk? If 
not, what needs to be done?
    For fiscal year 2009, Congress provided over $1 billion in 
funding to CBP and DNDO to address international cargo and 
container security. This funding covers technology research and 
deployment, international programs and automated screening 
systems. These programs are now becoming more established with 
the CSI program in 58 countries, and the secure freight program 
passed its initial pilot stage but, I must say, without a clear 
destination. We will want to learn how CBP and DNDO plan to 
ensure these programs are optimally focused to reduce present 
risk and to give us indications of what our future direction 
can and should be.
    Radiation detection and source identification are key 
elements of cargo security, and they continue to be 
problematic. We continue to await completion of testing and 
certification of next-generation advanced spectroscopic 
portals, or ASP, which is at least 2 years behind schedule. I 
want to hear today what the Department is intending to do with 
the funding set-aside to procure and deploy systems in the 
absence of ASP. I also want to hear how DHS plans to implement 
radiation detection systems in environments that have had major 
vulnerable gaps, such as rail cargo and transshipment.
    Apart from scanning for radiation, security involves 
knowing the participants in the trade process. CBP has grown 
its Customs-Trade Partnership Against Terrorism program over 
the last 8 years. It has implemented advanced manifest 
requirements and has initiatives, such as its FAST program to 
vet commercial drivers.
    Last year, CBP released its Importer Security Filing Rule, 
also called 10 Plus 2, requiring businesses to supply 
additional data elements about cargo and carriers as required 
under the SAFE Port Act. Promoted as a way to improve 
targeting, the rule faced some industry opponents who claimed 
it would impose costly new administrative burdens. I would like 
to hear how this rule is being implemented, what results it is 
bearing in terms of greater awareness of potential threats as 
well as increasing the margin for taking preventive or 
protective action.
    Finally, with the rising concern about violence along the 
U.S.-Mexican border, the Administration has proposed an 
enhanced outbound inspection process for southbound traffic. We 
would like to understand what witnesses think about the 
infrastructure, staffing and process change that such a 
southbound initiative entails, outbound initiative entails. 
Basically, we would like a more detailed account of how this 
initiative will operate in the field, what sort of impact the 
department hopes and expects it to have on this critically 
important challenge.
    To address these issues, we welcome back Jayson Ahern, the 
Acting Commissioner for U.S. Customs and Border Protection; Dr. 
Charles Gallaway, the Acting Director of the Domestic Nuclear 
Detection Office, DNDO; and Thomas Winkowski, the CBP Assistant 
Commissioner for field operations. We look forward to hearing 
from you today. As is usual practice, your full written 
statements will be entered into the record. We will ask you to 
limit your oral remarks to 5 minutes each.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2213B.360
    
    [GRAPHIC] [TIFF OMITTED] T2213B.361
    
    [GRAPHIC] [TIFF OMITTED] T2213B.362
    
    Before we begin, let me recognize our distinguished ranking 
member, Mr. Rogers, for his comments.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Chairman, I am going to depart from my prepared remarks 
initially here because I have just learned that the Department 
has, in effect, put into practice de facto amnesty because in 
the news reports, in Seattle, where ICE had raided a company 
for hiring illegal aliens who were using false documents to 
obtain employment at the plant, now the Department has ordered 
that those 28 workers have been released. And not only that, 
they were given permission to return to work by the Department 
that is supposed to be protecting us against illegal aliens 
entering the country and gaining unlawful employment.
    I don't know why we need the Customs and Border Protection 
organization or ICE or any of the others, even the Department 
if we are going to say that it is okay to use false documents, 
lying to obtain a job and then, on top of that, being illegally 
in the country. Why are we here?
    Now I know this agency is not--this is not their bailiwick 
but I don't know why we need a Customs and Border Protection if 
we are not going to enforce the laws that are on the books, by 
people using false documents to gain employment while illegally 
in the country and then released to go back to work. I am 
flabbergasted. This is de facto amnesty, de facto amnesty.
    Now, tomorrow, we are going to be hearing from the 
immigration enforcement and employment verification people. And 
believe you me, there will be some hard questions they will be 
needing to answer on this matter because this is an absolute 
wholesale change in policy that affects every American and 
every illegal alien in the country, and the criminal laws of 
the country, by lying to gain a job while being an illegal 
alien and then releasing from being held without bond and then 
giving permission to go back to work, a work permit.
    Mr. Chairman, what has happened here? Have you seen the 
reports?
    Mr. Price. No, I have not. But I intend to.
    Mr. Rogers. I will let you read the news accounts. It is 
absolutely----
    Mr. Price. We will have a range of immigration officials 
before us tomorrow.
    Mr. Rogers. And they had better come well armed.
    Well, I thank you, Mr. Chairman. I apologize for my 
outburst, but this is significant.
    Over the last 6 years, DHS has made tremendous progress at 
improving the security of the more than 25 million cargo 
containers that enter the country each year. During this time, 
DHS has learned a great deal about allocating scarce resources 
to address our greatest threats and hardening the supply chain 
from its greatest risks. From the expansion and strengthening 
of programs like CSI C-TPAT and the Secure Freight Initiative 
to extensive deployments of radiation portal monitors to 
advancements in targeting, DHS has indeed made progress by 
adding rigor to its risk-based approach to cargo security.
    Because of the scope and complexity of the cargo shipping 
industry, the Draconian treatment of every aspect of the supply 
chain is simply unworkable. That is why I have consistently 
supported an adaptable layered framework that facilitates an 
appropriate balance between legitimate trade and security, but 
just as many of CBP's cargo security programs appear to be 
reaching a level of functional maturity, and the 9/11 Act's 
capricious mandates are being thoughtfully reconsidered. In-
transit vulnerabilities persist, and outbound smuggling is 
apparently growing.
    The export, if you will, of illegal weapons and bulk cash 
is part of the fuel that feeds the treacherous drug war now 
raging along our border with Mexico. This pervasive smuggling 
is also a stark reminder of the value added to security by a 
tamper-resistant supply chain, integrity that could potentially 
be assured in high-risk trade lanes through a viable container 
security device. Unfortunately, development of such a device 
continues to elude DHS, and that failure continues to baffle 
me.
    As part of DHS's efforts to confront the drug war and 
support Mexico's noble efforts against the cartels, CBP will 
reportedly embark on a new $95 million effort to screen 100 
percent of the rail containers flowing south into Mexico and 
step up inspections of outbound traffic at our ports of entry. 
These ambitious plans appear to have merit, but they also raise 
many logistical questions, questions that I hope you have 
answered here today.
    Gentlemen, since the days of Alexander Hamilton and the 
founding of our customs service, the need for countersmuggling 
has remained unchanged. What has changed, however, is the 
combination of threats we now face, a lone radical intent to do 
harm against the long dark shadow of a massive drug war, and 
this in addition to CBP's traditional efforts to enforce our 
trade laws and ferret out illegally transshipped and fraudulent 
goods, efforts that are vital to American manufacturers and 
workers who are struggling in the midst of this turbulent 
economic turndown.
    So perhaps now as much as ever, CBP's cargo security 
mission matters to our national interests and way of life. For 
it is CBP, armed with tools from DNDO, that we are counting on 
to be the filter within our Homeland Security arsenal, a filter 
that strives to ensnare contraband and threats while allowing 
for the free and vibrant flow of commerce.
    Thank you, Mr. Chairman.
    Mr. Price. Thank you.
    Mr. Ahern, we will ask you to go first. And I understand 
Dr. Gallaway also has an oral statement. Mr. Winkowski does not 
have an oral statement, but we will then turn to all three of 
you for questions.
    Please go ahead.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2213B.363
    
    [GRAPHIC] [TIFF OMITTED] T2213B.364
    
    [GRAPHIC] [TIFF OMITTED] T2213B.365
    
                     Opening Statement of Mr. Ahern

    Mr. Ahern. Good morning, Chairman Price, Ranking Member 
Rogers and other members of this committee. I appreciate the 
opportunity to meet with you today, along with our colleagues 
from DNDO as well as our assistant commissioner for field 
operations, to discuss the work that is being done to both 
strengthen the security of the containerized cargo entering the 
United States across our borders while with facilitating 
legitimate travel and trade as well.
    Let me begin by expressing my gratitude to this committee 
for your continued support for providing to important 
initiatives the funding needed to be implemented by CBP over 
the last several years. I have appeared before you previously 
to discuss many of the important layers we have in our cargo 
security protocols that we use to manage risk. We continue to 
strengthen these programs to better secure our country, all 
while not stifling international trade.
    This year CBP has moved forward with the collection of 
additional importer security data, commonly referred to as 10 
Plus 2, which will further enhance our targeting and risk-
assessment processes. We have continued to deploy radiation 
detection technology and large-scale inspection equipment to 
our ports of entry. Through CSI, we work in partnership with 
foreign counterparts to examine high-risk containers cargo 
before it is shipped to the United States, and we assist our 
trade community to strengthen their supply chain as a benefit 
of being enrolled in C-TPAT.
    And while we have implemented considerable programs to 
secure our maritime cargo and reduce the risk, threat of a 
significant nuclear weapon in a maritime container remains 
remote. While we must look to apply our limited resources to 
multiple areas of threat and vulnerability, we should not 
overemphasize maritime containers at the potential detriment to 
other threat areas that are in the need of resources.
    In my limited time remaining here, I would like to comment 
on the issue of 100 percent scanning and the Secretary's 
strategy announced last week with Mexico. CBP continues to go 
ahead and abide by the law passed by Congress regarding 100 
percent scanning, but our concern to ensure this focus does not 
negate the effective layered risk-based strategy that is 
currently now in place. And as you have heard me say before 
this committee, no one should be misled that 100 percent 
scanning equals 100 percent security.
    But as we plan ahead and get closer to the mandatory date 
of 2012, we need to more seriously consider the costs and 
logistics involved with 100 percent scanning. We have long 
maintained that there will be significant technological, 
political, legal challenges as well as the issue of how to deal 
with transshipped cargo. And multiple reports have been 
submitted to the Congress since 2007 outlining what we have 
learned through the 100 percent security protocols that have 
been implemented thus far.
    In every location, it has its own infrastructure 
challenges, technological challenges, environmental issues, 
political challenges that we must overcome and the resource 
commitment to overcome these challenges must be commensurate 
with the additional security that we may gain. We are also 
challenged to determine who will incur the costs for operating 
and maintaining the scanning equipment. We need to conclude as 
far as agreements with partnering nations and terminal 
operators. We need to also work out staffing implications for 
both foreign customs services and terminal operators.
    So while additional data gained from 100 percent scanning 
can be useful, challenges and expenses are significant, even in 
the limited environments we have currently deployed. And we 
also must balance this with the 11 million trucks that come 
across our borders as well as 2.7 million railcars in addition 
to the 10 million containers that are coming in the maritime 
environment.
    Finally, the violence in Mexico related to the drug 
trafficking is a focus of much concern. Three weeks ago, I 
testified before this committee on the Secure Border 
Initiative, and border violence became the primary topic of 
discussion. Last week, the Secretary mandated more law 
enforcement personnel along the border and a greater emphasis 
on outbound traffic, especially aimed at interdicting guns and 
money. With the Secretary's announcement, certainly CBP will 
play an important but not an exclusive role in her new 
strategy. We have temporarily redeployed some personnel and 
special technology and K-9 assets to the Mexican border.
    To fund this new level of sustained outbound enforcement 
action, CBP is looking at its existing funds for reallocation 
from other programs in the organization. But doing so, we must 
balance these increased outbound activities with significant 
inbound enforcement and facilitation responsibilities.
    Thank you, again, for the opportunity, and I look forward 
to the questions coming.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2213B.124
    
    [GRAPHIC] [TIFF OMITTED] T2213B.125
    
    [GRAPHIC] [TIFF OMITTED] T2213B.126
    
    [GRAPHIC] [TIFF OMITTED] T2213B.127
    
    [GRAPHIC] [TIFF OMITTED] T2213B.128
    
    [GRAPHIC] [TIFF OMITTED] T2213B.129
    
    [GRAPHIC] [TIFF OMITTED] T2213B.130
    
    [GRAPHIC] [TIFF OMITTED] T2213B.131
    
    [GRAPHIC] [TIFF OMITTED] T2213B.132
    
    [GRAPHIC] [TIFF OMITTED] T2213B.133
    
    [GRAPHIC] [TIFF OMITTED] T2213B.134
    
    [GRAPHIC] [TIFF OMITTED] T2213B.135
    
    [GRAPHIC] [TIFF OMITTED] T2213B.136
    
    [GRAPHIC] [TIFF OMITTED] T2213B.137
    
    Mr. Price. Thank you.

                   Opening Statement of Dr. Gallaway

    Mr. Gallaway. Good morning, Chairman Price, Ranking Member 
Rogers and distinguished members of the Subcommittee. It is a 
pleasure to appear before you with my esteemed colleagues from 
CBP, Acting Commissioner Ahern and Assistant Commissioner 
Winkowski.
    As Acting Director of the Department of Homeland Security's 
Domestic Nuclear Detection Office, I would like to thank the 
subcommittee for the opportunity to discuss challenges in 
container security and to highlight the work DNDO is pursuing. 
I would also like to thank the subcommittee for its support of 
DNDO's mission, which is to reduce the risk of radiological and 
nuclear terrorism to our Nation.
    Since the DNDO was formed almost 4 years ago, we have made 
significant strides in improving the Nation's capability to 
detect and prevent nuclear terrorism, including major 
improvements in our Nation's capability to scan cargo 
containers for rad-nuke threats. Our ongoing work with CBP to 
facilitate continuous security has resulted in the scanning of 
98 percent of all incoming containerized cargo at our land and 
sea ports of entry.
    We are working to finish the remainder of the deployments 
along the northern border by the end of this year, and we are 
addressing other previously unaddressed cargo challenges, which 
include on-dock rail, international rail, and air cargo. At the 
same time, I would like to add that DNDO's goals extend well 
beyond deploying detection systems to scan cargo containers.
    As we have matured, we have shifted our focus to a wider 
range of issues and challenges and are now dedicating increased 
time and effort to address these other areas of concern. For 
instance, while DNDO has made substantial improvements in rad-
nuke detection technologies, we have also dedicated significant 
efforts to integrated rad-nuke detection planning across the 
Department and with our interagency partners.
    Similarly, DNDO has developed a robust operational support 
capability designed to enhance the effectiveness of a wide 
variety of operational partners, including the states and 
locals. Much of our insight has come from our work on the 
global nuclear detection architecture which seeks to integrate 
efforts across the government into a single time-phased 
strategy to improve the Nation's nuclear detection 
capabilities.
    We have been working with our partners to pursue a range of 
programs to strengthen the architecture by filling gaps, 
addressing vulnerabilities, improving technologies, building 
necessary infrastructure and raising awareness about rad-nuke 
threats and the role of detection systems in mitigating them.
    To be effective, the defensive countermeasures in each 
layer, international, at the border, and in the interior, along 
each threat pathway, land, air and sea, will require a 
multifaceted defense in-depth approach utilizing a variety of 
technology and operational capability solutions. Most 
importantly, no single solution is effective to completely 
address the rad-nuke threat.
    With that said, given the maturity of technologies and 
planning at the time of DNDO's formation, securing 
containerized cargo that is coming into the United States has 
been a measure emphasis to date. Working with CBP, we have 
deployed radiation portal monitors to a majority of the 
seaports and land border crossings.
    At the same time, we have made substantial investments in 
the deployment of the next generation of portal monitors, known 
as the advanced spectroscopic portal, or ASP. The ASP 
technology will significantly improve the probability of 
correctly identifying and interdicting smuggled nuclear 
material and have the ability to differentiate between threat 
material and naturally occurring radioactive material, thereby 
reducing the number of alarms due to nonthreat sources.
    The ASP units are currently undergoing an extensive test 
and evaluation campaign. The successful completion of this 
testing will result in data that will be provided along with 
other materials and reports, including a cost-benefit analysis 
and consultation with the National Academy of Sciences to 
inform the Secretary's certification decision of ASP.
    Radiation portal monitors are only part of the solution to 
detect nuclear threats at our ports. Another key DNDO objective 
is to address the threat of shielded nuclear material that 
passive detection systems, such as PVT, which are currently 
deployed, or even the new ASP portals, are not capable of 
detecting. DNDO is working with CBP on a wide range of 
technologies to address this concern, focussing first on 
radiography systems that provide the ability to automatically 
detect a nuclear threat or dense material that may be used to 
shield a nuclear threat.
    To address gaps in the global nuclear detection 
architecture that remain unfilled by current technologies or 
near-term improvements, DNDO has also established a 
transformational research and development program. We reach out 
to the best in class within the national laboratories, industry 
and academia to conduct these efforts. And I am happy to report 
these research efforts are already yielding impressive results 
in a number of areas, including the identification of promising 
new detection materials.
    As you can see, the mission of the DNDO reaches far beyond 
container security. Nuclear detection at our official ports of 
entry is but one layer of the entire global nuclear detection 
architecture which encompasses a broad array of efforts to 
mitigate the rad-nuke threat. By working with our DHS and 
interagency partners, DNDO is continuing to assess the best 
technological and operational solutions for use 
internationally, at our borders, and domestically. We remain 
committed to providing cutting-edge detection technology that 
can be used in a variety of environments by federal, state, 
local, and tribal operators to address identified 
vulnerabilities in the global nuclear detection architecture.
    Detection technologies and strategies are coupled with 
DNDO's operational support services to ensure that alarms are 
promptly resolved and detection of threats is seamlessly 
transitioned to operational responses. In addition, DNDO 
trained state and local officers to support the rad-nuke 
detection mission.
    Finally, DNDO stood up the national Technical Nuclear 
Forensic Center as an interagency stewardship office for 
integrating the Nation's full spectrum nuclear forensics 
capability. I look forward to continuing to work with 
components within DHS, other federal departments, state and 
local agencies and the members of this subcommittee and the 
Congress to keep the Nation safe from radiological and nuclear 
terrorism.
    This concludes my prepared statement. Chairman Price, 
Ranking Member Rogers and Members of the Subcommittee, I thank 
you for your attention, and I would be happy to answer any 
questions.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2213B.138
    
    [GRAPHIC] [TIFF OMITTED] T2213B.139
    
    [GRAPHIC] [TIFF OMITTED] T2213B.140
    
    [GRAPHIC] [TIFF OMITTED] T2213B.141
    
    [GRAPHIC] [TIFF OMITTED] T2213B.142
    
    [GRAPHIC] [TIFF OMITTED] T2213B.143
    
    [GRAPHIC] [TIFF OMITTED] T2213B.144
    
    [GRAPHIC] [TIFF OMITTED] T2213B.145
    
                        OVERSEAS CARGO SCANNING

    Mr. Price. Thanks to both of you.
    I would like initially to focus, Mr. Ahern, on the major 
topic of cargo scanning, the CSI, the Secure Freight 
Initiative, the underlying question pertaining to 100 percent 
overseas cargo scanning required by the 9/11 Act, the extent to 
which that goal is being approached, and whether it is 
ultimately feasible or wise. I think these questions inevitably 
loom large as we look at the current state of play.
    As you know, the new Secretary, on February 25, said that 
the 2012 deadline for 100 percent overseas cargo scanning could 
not be met. And she said, ``We are going to have to work on 
what we do beyond that''.
    Clearly, that is an accurate statement. In your statement 
today, you warned against focussing on overseas scanning to the 
detriment of other actions that could improve security while 
not unduly restricting trade. I want to ask you to elaborate on 
those trade-offs. Clearly, the date is being pushed back; 
targets are being adjusted to some subset, I assume, of some 
700 foreign ports that ship to the U.S. I would like to know to 
what extent you really are rethinking the requirement itself, 
the requirement for overseas scanning itself. Or at least give 
us some sense of the proportionate place you think this should 
play in the overall scanning picture and what you think is 
feasible or optimal in that regard. Would 100 percent scanning 
provide additional security beyond that either already provided 
by CBP's existing security programs or that you think might 
already be achieved in a reasonable time frame?
    This Subcommittee has visited some of the pilot SFI ports, 
Salallah and Hong Kong in particular. We have noted that the 
sites chosen have generally been the smaller ports or small 
areas of a port, such as Hong Kong. It does raise the question, 
is 100 percent screening feasible at any of these ports, let 
alone the idea of doing it at all of them?
    Seven ports were originally intended for the SFI. There 
were three pilot ports, Southhampton, Cortes and Qasim. I would 
like to have an indication of what has been achieved there. And 
then there are four large seaports that volunteered to 
participate: Hong Kong, Busan, Salallah and Singapore. We know 
that none of them screen 100 percent now. What do they do? What 
percentage of U.S.-bound cargo do they scan with both radiation 
and nonintrusive inspection equipment? What is the state of 
play here, and what does it imply in terms of long-term policy?
    Mr. Ahern. I will try to begin with the opening question 
you asked. It goes back to what the Secretary stated in her 
hearing a few weeks ago, that the 2012 deadline does at this 
point appear to be unattainable. I would also caveat that, as a 
law enforcement agency, as long as there is still a law, we 
still need to be focused on the law. I think that is an issue 
that needs discussion as we go forward.
    In my experience, in my professional opinion as well, that 
when you take a look at identifying a solution to a problem, 
you have to identify what the level of risk is. And then it has 
been our experience, and it has been also as far as the 
intelligence information that we continue to receive, that the 
risk is relatively low, and remote is the possibility for any 
type of significant device to be put in a box to the United 
States.
    What you then need to take a look at is, what is the level 
of risk reduction that is appropriate for a minimal amount of 
risk? And I believe, as we have continued to lay the strategy 
in place in a post-9/11 environment, beginning with the 
advanced information that we are continuing to strengthen 
through the 10 Plus 2 implementation this year, as you take a 
look at continuing to strengthen the relationship we have in 
the CSI locations with our partnerships and building the 
capacity with our host-country counterparts on those who 
actually do pose risk to have the protocol of examining each 
one of those containers that do pose a risk identified in the 
58 ports we are currently deployed, makes sense.
    When you also then take a look at dealing with the 
significant companies and managing and securing their supply 
chain to reduce vulnerability, we continue to make that program 
much more significant than it was in its early implementation. 
We have over 9,000 participants in the C-TPAT program today. 
That is an important value-added component for the supply chain 
risk reduction.
    And then also when you take a look at the opportunity to 
then intervene at a level of 98 percent, we still have well 
over 400 radiation portal monitors deployed at our seaports 
here in the United States for one last opportunity before a 
container is entered into the commerce of the United States.
    I know some have talked and come to this Committee as well 
as others saying, well, what about the possibility for remote 
detonation? Certainly, there is always a possibility for 
everything. At what point do we have to rely on what the risk 
assessment is and apply some thoughtful risk reduction for the 
measures that are necessary to put in place? And at what point, 
do we then need to turn our attention to greater risks that are 
facing this country versus continuing to add additional layers 
or actually negating the investments that have been made and 
funded by this committee over the last 7 years for risk 
management and actually moving forward with a 100 percent 
requirement?
    So I think there is an awful lot of responsibility that I 
think we all share in the U.S. Government, and frankly, I 
believe that the world stage is looking at us to show some 
leadership on what is it we are actually going to be doing as 
we move forward with this issue collectively? Because it 
continues to turn, even though there is the challenge of 
meeting the 2012 deadline; all of the technological challenges 
there, the sovereignty issues, the logistical challenges. There 
is still a significant amount of international churn, if you 
will, on what is going to be the U.S. Government's position on 
this moving forward?
    I think that is a very serious issue collectively we have 
to address.
    Mr. Price. There is no question it is a serious issue. 
There is also no question, I would think, that while the risk 
statistically might be low, as you describe it, the potential 
consequences are extremely catastrophic. And of course, your 
Department is in the business of dealing with low-probability, 
high-consequence events and their prospect. And when that 
involves nuclear materials or weapons, then that potential 
consequence is heightened. But I do think the dilemma, as you 
pose it, is a compelling one and one that no doubt we are going 
to have to deal with.

                     OVERSEAS CARGO SCANNING PILOTS

    I want to ask you to fill in now the second part of my 
inquiry, which has to do with the experience we have had with 
these experiments, these pilots with overseas inspection. Of 
course, there is a very compelling case on paper to be made for 
screening as much as we possibly can at the foreign ports where 
these ships are loaded. We have gone through this Secure 
Freight Initiative with the seven ports, to some degree. Can 
you generalize about what we have learned? In what ways are we 
wiser about the feasibility of this and what it might take to 
achieve this goal of 100 percent or certainly a large amount of 
the cargo being screened overseas?
    Mr. Ahern. I will begin, and I will ask Mr. Winkowski to 
fill in any of the blanks that he might like to add as well. 
But when you look at the three locations we began as a pilot, 
starting with Port Cortes in Honduras. We had a willing partner 
with the government of Honduras who already had installed the 
x-ray capabilities there, at their expense and for their own 
purpose. So we had that capability already in place to build 
upon for and adding our presence there that was there already, 
again, through the Container Security Initiative. So we had 
that component there. And then we added the additional 
capability that the Department of Energy brought with the 
radiation portal monitor.
    So that was relatively an easy partnership, if you will, to 
put those component parts together, integrate that, and be able 
to provide the integrated solution for looking at a relatively 
small universe of container. The number escapes me at this 
time, but I think it was less than 50,000 or 60,000 containers 
a year annually that are being shipped to the United States. 
When you aggregate that number, it may seem significant. When 
you go ahead and break that down into daily transactions, it is 
not that significant a volume.
    We then looked at as far as location that we already had 
got into partnership within Pakistan, Port Qasim. We again, we 
had a willing partner in the government of Pakistan who were 
willing to donate or provide the land for us to go ahead and 
build a footprint to be able to have a full container protocol, 
therefore radiation detection X-ray as well as then integrating 
it.
    Now we did not have the benefit of having our personnel 
there because of the risk that is posed by U.S. personnel 
outside of the embassy or consulate or compound, and being out 
at the port, we were restricted from being there. But we then 
added the virtual capability there to remote the images to here 
in the United States. So we actually do watch those realtime 
here in the United States.
    However, volume, less than 3,000 containers come from Port 
Qasim to the United States. But I think here is an example 
where we need to consider going forward. It is a high-risk 
location, and we need to take a look at, is that the right 
investment to add that protocol in place so that we actually 
can secure that trade lane? That makes sense to us.
    Before I go to Southhampton to talk about that protocol, I 
would just pause and speak about a companion port that is 
still, you know, not given that same coverage and protocol that 
we have in Qasim, the Port of Karachi, very close and 
approximately nearby with the same amount of container traffic 
coming to the United States. There would be a thoughtful 
approach, which we are already considering in engaging with our 
counterparts in Pakistan, to put a similar screening protocol 
there, scanning protocol there to add that capability. Again, 
small volume, about 3,000 containers, very manageable, into 
something where we could really add value to a location that 
could be higher risk than some of the other locations we deal 
with.
    With Southhampton, again, relatively small location, had 
the benefit of a large footprint where we could put all the 
different technology there so it would not impact negatively, 
put capacity through that port and we had a willing partner 
with the U.K. customs to be part of the initial test, which 
they no longer state is a partnership involvement. They made an 
investment to say, we are part of the partnership, we were a 
part of the pilot, but it is no longer an investment we want to 
continue to make. So that brings into some of the host country 
counterpart issues that you deal with when we are trying to 
impose a 100 percent requirement in an overseas environment.

            CARGO AND CONTAINERS CARRIED BY RAIL INTO MEXICO

    Mr. Price. We ought to return to this. But let me move on 
to other members and questions, starting with Mr. Rogers.
    Mr. Rogers. Let me ask you about, the Administration has 
announced a plan that they unveiled I think last week, a new 
$95 million initiative to inspect 100 percent of cargo 
containers carried by rail into Mexico as part of its plan to 
combat the drug cartels. Do you know whether or not there has 
been any known exploitation of southbound rail containers by 
the drug cartels?
    Mr. Ahern. No. There is no indication that we had as far as 
with particular shipments going south into Mexico or weapons 
that are moving through the rail environment. I would submit 
though, it is one of those environments that we have not 
focused significant amount of attention. We were more concerned 
post-9/11 with things coming into the country and that became 
our foremost concern. As we now are looking to see what we can 
do to tighten the departure of weapons or moneys going into 
Mexico to fuel the drug wars, that was one of the areas we 
wanted to take.
    The already deployed technology that was there X-raying 
railcars coming into the United States, to be able to use that 
same technology that is deployed there, to use it for outbound 
and again build our partnership with the government of Mexico 
that we do so frequently.
    Mr. Rogers. What do we currently do on railcars coming into 
the U.S. from Mexico?
    Mr. Winkowski. Mr. Rogers, currently we have been screening 
100 percent coming into the United States with our hidden 
imagery. With the outbound side, we just started on March 12 
doing 100 percent. So on the inbound side what, we are looking 
for was any type of contraband, narcotics, illegal aliens 
coming in.
    Mr. Rogers. What do you do to physically check an inbound 
railcar?
    Mr. Winkowski. We take images of all of them. We have an 
operator there that looks at the images and makes a decision on 
whether or not that particular railcar needs to be inspected 
further.
    Mr. Rogers. Sometimes these trains are miles long.
    Mr. Winkowski. Yes.
    Mr. Rogers. How do you physically go about doing that 
without disrupting the flow of----
    Mr. Winkowski. Well, what happens with the technology that 
we have, we are able to take an image of what is inside that 
railcar. And from there we make a decision on whether or not 
there is any type of----
    Mr. Rogers. While the train is moving?
    Mr. Winkowski. Yes. That is correct.
    Mr. Rogers. How fast is the train moving?
    Mr. Winkowski. About 5 miles per hour.
    Mr. Rogers. And you X-ray every car?
    Mr. Winkowski. Yes.
    Mr. Rogers. What have been the results?
    Mr. Winkowski. We have had results from the standpoint of 
narcotics and illegal aliens coming into the United States.
    Mr. Rogers. How many and how much?
    Mr. Winkowski. Not quite--I don't have the numbers as far 
as how many illegal aliens or narcotics. I would be more than 
happy to get back to the committee on that.
    [The information follows:]

    Rep Rogers to Mr. Winkowski
    1. How many drugs, illegal aliens, and contraband do we have coming 
into the U.S.?
    a. Winkowski responded he would provide that information.
    RESPONSE: In FY 2008, Customs and Border Protection seized a total 
of 2.97 million pounds of illegal drugs, and made 2,800 apprehensions 
at and in between the ports of entry for illegal entry. Total 
agriculture quarantine material interceptions were 1.51 million, and 
currency seizures were 3,400 totaling $107.98 million.

    Mr. Rogers. And what about outgoing--trains cars moving 
south, what are you doing about that?
    Mr. Winkowski. The same as we are doing on the northbound 
side. Our technology is bidirectional. So when we have a train 
that is coming south, we put that imaging equipment on the 
southbound lane and do our inspection. By the way, since we 
have started this initiative on March 12, we have examined 
about 24,000 railcars and over 300 trains.
    Mr. Rogers. Exiting into Mexico?
    Mr. Winkowski. Yes. And we have a very strong partnership 
with our counterparts in Mexico.
    Mr. Rogers. Did you find anything?
    Mr. Winkowski. No, we have not. We had several anomalies 
working with the Mexican government that turned out to be clay 
and things of that nature that came up on our imaging 
equipment.
    Mr. Rogers. Well, what about guns, illegal guns?
    Mr. Winkowski. We have not found any.
    Mr. Rogers. Illegal cash?
    Mr. Winkowski. No.
    Mr. Rogers. How would you see cash on as X-ray?
    Mr. Winkowski. It would come up. It would be in a void 
within the railcar. And that imaging equipment would pick up 
that void with what package is in it, same as you do on the 
narcotics sides coming in.
    Mr. Rogers. How long have you been doing the X-rays of 
outgoing cars?
    Mr. Winkowski. Outgoing cars we started on a regular-
occurring basis, eight crossings on the southwest border going 
into Mexico, and we started on a regular-occurring basis doing 
every car on March 11.
    Mr. Rogers. Well, the administration is planning a $95 
million initiative to inspect 100 percent of containers going 
south. But you are already doing that.
    Mr. Winkowski. We are taking images, and those images that 
come up as anomalies----
    Mr. Rogers. Why would they announce a new initiative if you 
have been doing it for some time now?
    Mr. Winkowski. The new initiative being that we are doing 
southbound trains on a regular-occurring basis. Every 
southbound train is being inspected with our NII equipment. So 
that is new from a standpoint of the sustainability of that. We 
were not doing that on a regular and recurring basis by itself.
    Mr. Rogers. Where is the $95 million coming from?
    Mr. Ahern. I am not sure of the $95 million. That could be 
a compilation of all the initiatives that we are going to be a 
part of. Because that seems to be approximately the number that 
we have for all of our CBP initiatives, the southbound license 
plate readers for the vehicle lanes that don't currently have 
it, the deployment of additional Border Patrol agents. We can 
certainly give you the breakdown of all the moneys that we have 
as part of our southbound initiative.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2213B.146
    
    [GRAPHIC] [TIFF OMITTED] T2213B.147
    
    Mr. Rogers. When you see something in a railcar that is 
moving 5 miles an hour, and it is 2 miles long or whatever, and 
you see something that is suspicious, do you stop the train?
    Mr. Winkowski. What takes place is, because our inspection 
point is so close to--just within a matter of feet of the 
international boundary, what we do is we have a protocol with 
our counterparts in Mexico, Mexican customs, and relay to them 
the anomaly that we found, share with them the image. And they 
do the inspection and get back to us.
    Mr. Rogers. Well, last week, U.S. authorities at Arizona's 
six ports of entry along the border said that you are ill-
equipped to screen vehicles and trains crossing into Mexico for 
smuggled weapons and cash. This is dated March 30th in The 
Washington Post. Who is right, or who is wrong here?
    Mr. Ahern. Let me offer a comment on that. That was by our 
field director out in Arizona.
    Mr. Rogers. David Higgerson.
    Mr. Ahern. That is correct. And as many articles are, they 
don't give the full context of the interview. I think the point 
that is clearly made there, and I know Mr. Winkowski spoke to 
him afterwards, is that we are physically set up on the 
southwest border, and have been for over 40 or 50 years, with 
the infrastructure there to process northbound activity.
    When we actually now start to go ahead and do more 
southbound activity, whether it be in the rail hubs or whether 
it be in the vehicle lanes or the pedestrian lanes, we do not 
have the same infrastructure we have northbound, nor do we have 
the same technology deployment that we have northbound.
    Now in the circumstance Mr. Winkowski talked about, we do 
have the ability with the bidirectional X-raying capabilities 
to use that same technology to go ahead and image the 
containers on the railcars----

            FACILITIES TO SCREEN BORDER CROSSERS INTO MEXICO

    Mr. Rogers. Let me get back to what Higgerson says. He is 
your director of Field operations in Arizona, right?
    Mr. Ahern. Yes, he is.
    Mr. Rogers. I would suspect he knows more about this than 
anybody else having been in charge over there.
    He says that these ports of entry have no facilities to 
adequately screen border crossers, cargo traffic, or freight 
trains bound for Mexico; that these were built and planned and 
designed and staffed and trained for to catch stuff coming out 
of Mexico into the U.S. It was never anticipated that we would 
need to do the opposite. And he says, we don't have that kind 
of facilities.
    What about, I am quoting, what about cargo? We don't have 
facilities to check cargo going into Mexico. If you are going 
to smuggle guns, are you going to smuggle them in a car or in a 
truck? Again, we have nothing in our southbound to check cargo, 
quote.
    Quote, same with trains going south. If we see an anomaly, 
all we can do is tell Mexican customs because, two seconds 
later, it is in Mexico. They were never designed for going 
south. The ports were never designed to do it.
    Mr. Ahern. No. I think that is very consistent with the 
statement I made. These facilities were set up for northbound 
processing.
    Mr. Rogers. Mr. Winkowski says that we are X-raying every 
car going south.
    Mr. Ahern. And that is correct. As far as the full 
facilities to be able to do complete unloading, things of that 
nature for southbound trains, that is where we need to rely on 
our counterparts in Mexico.
    Mr. Rogers. Higgerson says you don't have the capability to 
check trains going south. No facilities to adequately screen 
freight trains bound for Mexico, Higgerson.
    Mr. Ahern. Facilities. But as far as to do the imaging, the 
capability is there.
    Mr. Rogers. Well, you have got me confused. Are you telling 
me that you can X-ray it, but you cannot go into it?
    Mr. Ahern. I think that is exactly what Mr. Winkowski 
stated, and that is why we need that partnership with Mexico. 
So if we identify an anomaly as our officers are looking at the 
image, they then go ahead and make the notification to the 
Mexican authorities themselves at the border. That is the 
logistical predicament that we are facing in this circumstance. 
So we can choose to do nothing, or we can deploy the technology 
we have to see as far as if there is any effective use of it.
    We are not overselling this capability at all. We are 
trying to see what might be an additional capability we could 
deploy against the potential of weapons going out by railcars 
into Mexico.

                       VEHICLES GOING INTO MEXICO

    Mr. Rogers. What about vehicles going through the ports of 
entry south, southbound? What are we doing now about them?
    Mr. Winkowski. Well, we are doing many more inspections of 
southbound vehicles. While we have some challenges with 
southbound, the southbound footprint, vehicles are much easier 
to inspect than, for example, as Director Higgerson was saying, 
the cargo side. So we do have a protocol in place. We do have 
technology that is deployed down south that enables us to do 
inspection of vehicles. You can take these vehicles and 
oftentimes--many of the footprints, put them off to the side 
and do our inspections.
    The cargo--the cargo side of it is much more challenging. 
But if Mr. Higgerson were here, he would tell you that what he 
also stated was that we have the ability on trucks that need to 
be inspected and unloaded to direct that particular truck over 
to the import lot at the port.
    Mr. Rogers. Well, I have been to San Ysidro, many of us 
have, and other ports. San Ysidro, what is it 16 lanes each way 
with vehicles lined up 2 miles to get across that border and 
never stopping, going through at 35 miles an hour? Are you 
telling me that you are checking every one of those vehicles to 
be sure it is not transporting guns or cash south into Mexico?
    Mr. Winkowski. No, going into Mexico, no. You can't do an 
outbound operation on a 24-by-7 basis like we do on the 
import----
    Mr. Rogers. And we are not doing anything, we are not 
checking southbound cars or trucks for anything, right?
    Mr. Winkowski. No, we are. We are doing operations. As a 
matter of fact, just in March, since we have developed this 
sustained effort, we have seized over $6.2 million going 
southbound in vehicles.
    Mr. Rogers. How do you check them?
    Mr. Winkowski. We set up roadblocks just by the port of 
entry in the southbound lane. We stop traffic. We do 
interviews.
    Mr. Rogers. That is just random stops?
    Mr. Winkowski. No. We do our interviews----
    Mr. Rogers. Of all vehicles?
    Mr. Winkowski. In some cases, yes.
    Mr. Rogers. I am talking about 16 lanes of traffic going 
south, 2 miles long backed up, and you are checking every 
vehicle?
    Mr. Winkowski. I am not checking every vehicle.
    Mr. Rogers. That is what I am saying----
    Mr. Winkowski. We are doing it based on threat, based on 
some interviews that we are doing, based on our technology 
deployment.
    Mr. Rogers. Well, Mr. Chairman----
    Mr. Ahern. If I just might add one final point, so there is 
not any concern here that is not completely addressed.
    There is a concern with southbound facilities. We have 
talked for years with our northbound facility. I would like 
everyone to bear in mind, we have talked repeatedly about the 
aged facilities we have in the northbound areas coming in from 
Mexico to the United States and our northern border with 
Canada. I think we talked before, and again, we thank this 
committee and the Congress for giving us the money that we did 
receive to modernize some of the facilities under the stimulus 
package.
    But again, that is only a fraction of the down payment that 
is needed to modernize and expand the northbound facilities. So 
if we are going to do the southbound activity on a sustained 
effort, on the same sustained basis into the future, that has 
to be now part of our planning that we are going to look at for 
southbound facilities to be able to do a full enforcement 
operation. Heretofore, we have only done on a special 
operational or on a pulse-and-surge type basis. As we are 
looking to try to ramp that up and do it on a more sustained 
basis to see, what is the level of threat going in Mexico for 
those?
    But I would also state that the government of Mexico 
recognizes they have a responsibility for ramping up 
inspections to protect the sovereignty and to do border 
enforcement themselves. And I know I have met with them in the 
last couple of weeks about the protocols they are starting to 
put in place that is going to change and revolutionize how they 
are actually processing cars and people coming into their 
country.
    Mr. Rogers. My time has expired, Mr. Chairman.
    But obviously, what I am driving at here is, 80 percent, we 
are told, of the cocaine coming into this country transits 
across that border and fuels the God awful things that occur in 
this country with drugs.
    By the same token, the southbound weaponry and cash that 
fuels the war that is going on, on that border, that threatens 
both our countries is also a vital piece of what we are driving 
at here. So it matters a lot now what goes south as well as 
what comes north on that border.
    Mr. Price. Thank you. Mr. Rothman.

               WEAPONS OF MASS EFFECT DELIVERY LOGISTICS

    Mr. Rothman. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your service. I have got a bunch 
of questions.
    Commissioner Ahern, in your written testimony, on page 3, 
you say the logistics movements of that--the risk of a weapon 
of mass effect to be transported in a maritime container 
involve logistics movements which involve multiple hand-offs 
amongst various parties throughout the supply chain which may, 
in fact, itself be a deterrent to a terrorist considering using 
a maritime container. And I think that is why you described the 
risk as being not worth the 100 percent inspection goal.
    As you may know, I represent the Ninth District of New 
Jersey, which has the 2 mile stretch in northern New Jersey 
which links my district to the Port of Elizabeth. It has been 
called the most dangerous 2 miles in the United States of 
America in terms of a risk of terrorist attack.
    How are the logistics for putting a weapon of mass effect, 
as you call it, in a maritime container different than the 
logistics for putting a weapon of mass effect in an airplane or 
a railcar or a truck?
    Mr. Ahern. I think that is one of the points we are trying 
to emphasize here is that, in the maritime environment, 
depending as far as the transaction, it could have multiple 
handlers. It could be drivers, freight forwarders, 
consolidators. It would have multiple hand-offs before it 
actually gets to the terminal operator for preparation and then 
loading on a vessel. And then to have confidence it would 
actually be on that particular vessel.
    Mr. Rothman. But how would you know, for example, if it has 
been put in a package, is it customary for a truck driver to 
rip open each package and see what is in his load for that day? 
And how would it be different than getting some cargo into the 
hold of an aircraft? Aren't there multiple hand-offs there as 
well?
    Mr. Ahern. Well, again, there would certainly be multiple 
hand-offs. And it is what I am stating as far as that there is 
additional logistical challenges within the maritime 
environment. That is not to state that there are not logistical 
challenges in the other environments where there is multiple 
hand-offs, but I guess the point that I wanted to emphasize 
here is that there are other vulnerabilities that are out there 
that needs our attention----
    Mr. Rothman. Yes, I know. I understood your testimony. Are 
you able to talk about those greater risks in this open 
session?
    Mr. Ahern. I think in general terms, because we have talked 
about it before with this Committee in the last year. Certainly 
when we take a look at areas that do not have as much rigor and 
as many layers of risk reduction, although there is some 
certainly, the small boat environment, a lot of small vessels 
that in south Florida and up in the northeastern part of the 
United States, certainly the Great Lakes the Pacific Northwest, 
our border, you know, to the west of San Diego, certainly there 
is a challenge in those environments where we have, certainly, 
the Coast Guard. We have our maritime assets. We have 
intelligence as well as aviation. However, there is still a 
significant volume of legitimate travellers and traffic out 
there in those maritime small boats that we need to have a 
better sorting mechanism, because right now there is no rigor 
out there for the reporting requirements.
    Mr. Rothman. In addition to the small boat environment, 
anything that you care to mention?
    Mr. Ahern. General aviation. It was certainly something 
that was previously identified and the protocol that we were 
working on internally, and it was started by a previous 
Secretary Chertoff, that that would be something where someone 
could control a significant weapon from point a to point b.
    Mr. Rothman. I am curious, do you have an inspection regime 
for pleasure ships, the big family cruise ships?
    Mr. Ahern. Commercial cruise lines?
    Mr. Rothman. Yeah. The cargo that goes in there, the 
baggage, et cetera?
    Mr. Ahern. Yes, we do.
    Mr. Rothman. Okay. In all of the years since 9/11, if you 
know, in the scanning of maritime containers, have you ever 
found anything? Dangers? You know what I mean.
    Mr. Ahern. In the maritime environment?
    Mr. Rothman. Yeah.
    Mr. Ahern. We have not found anything that is a significant 
nuclear weapon or radiological dispersal device or anything of 
that significance.
    Mr. Rothman. Have you found an insignificant nuclear 
weapon?
    Mr. Ahern. No. I stand corrected.
    Mr. Rothman. Have you found any weapon of mass effect?
    Mr. Ahern. No.
    Mr. Rothman. Any chemical or biological agents?
    Mr. Ahern. No.
    Mr. Rothman. Anything I am missing that would be a 
significant threat to the homeland?
    Mr. Ahern. No. Not that I would go into. There has been 
some commercial merchandise. There has certainly been some 
weapons shipments but not of a significant nature, although all 
weapons certainly can pose a significant danger.

                    CAREER INCENTIVES FOR PERSONNEL

    Mr. Rothman. May I ask a question, Dr. Gallaway?
    In your remarks, Doctor, you say that there are problems in 
the educational pipeline in terms of--I am paraphrasing, 
obviously--in terms of the educational credentials and 
qualifications necessary to give you the personnel, qualified 
personnel, that you need.
    Is there anything that we can do as individual Members, as 
Federal legislators, or as a Congress, to assist in creating 
incentives for individuals--for our young people to go into 
those fields? Or are we doing that sufficiently now?
    Mr. Gallaway. You have already helped us. One of the 
programs we have under our Transformational Research and 
Development Program is called the Academic Research Initiative. 
And it is specifically designed to reach out into the academic 
environment to get work done. We are, of course, interested in 
the work they are doing, but just as importantly, we are 
interested in developing a new cadre of folks. So we are 
supporting undergraduate and graduate students.
    I mentioned that we are doing work in forensics. Forensics 
is another area that the scientific population is aging, and so 
we have made an investment in that area to also reach out to 
the academic environments to try to get students. We are 
sponsoring fellowship programs.
    Mr. Rothman. Any additional help we can offer, please let 
us know.
    Thank you, Mr. Chairman.
    Mr. Price. Thank you. Mr. Carter.

                     INBOUND CONTAINER INSPECTIONS

    Mr. Carter. Thank you, Mr. Chairman.
    In your testimony, you listed 86 percent of the containers 
inbound are being inspected, passing through--in the security 
initiative. The 14 percent that aren't, is that from a specific 
area where there are--is it missed at ports where we have the 
container-examining equipment? Or where does that 14 percent 
come from?
    Mr. Ahern. I think that makes one of the logistical 
challenges we face; that 86 percent of the container traffic 
flows through our 58 CSI Container Security Initiative ports. 
That does not mean that they all get inspected. So when you 
have a volume of 58 ports that actually have transiting through 
there or directly departing from those 58 ports, 86 percent of 
container traffic, the remainder of those 14 percent of 
containers that make their way to the United States come from a 
universe of approximately 700 ports worldwide.
    Mr. Carter. So have these studies been done to try to 
determine if there seems to be an area of the world that you 
are getting more uninspected containers than other areas of the 
world.
    Mr. Ahern. There certainly have been studies. I know that 
our team has very precise numbers of where all the containers 
actually originated from. We are into the diminishing returns 
of well below 1 percent of container traffic for any country or 
port that actually remains outside of those 58 where we have 
our presence.

                      WEAPONS CROSSING INTO MEXICO

    Mr. Carter. When I woke up this morning there was some guy 
on television saying that he was really unhappy with us about 
something in Pakistan and that he was going to create a 
significant event in the United States Capitol. So I was kind 
of interested a little bit about that. Maybe it's just current 
events to me.
    The other thing I have a question about: Have you seized 
any weapons crossing the border into Mexico from the United 
States?
    Mr. Ahern. Yes, we have.
    Mr. Carter. What is the nature of the weapons? Are they 
automatic weapons or are they just hunting rifles or what?
    Mr. Ahern. It is a combination. We have seen a lot of small 
arms, handguns that are automatic weapons. We have seen a lot 
of shotguns, a lot of rifles as well that we are seizing. Also 
what the statistics actually show--and this is something that 
we did get into at the last hearing 3 weeks ago--was that about 
90 or 95 percent of weapons that go into Mexico, the ones that 
are actually identified in Mexico, are the ones we seize at the 
border going into Mexico that are traceable back to commercial 
sources in the United States. There is a significant amount of 
weapons still going into Mexico from other locations, from 
their south or through their maritime environment as well. But 
what we are seeing is a lot of small numbers that actually come 
across, the ones, the twos. Sometimes--going back about 3 or 4 
weeks ago we had one of the larger ones, which was 25 weapons. 
So that is kind of the size that we are seeing.
    And we are seeing a lot of what is referred to as straw man 
purchases that go, whether it be into a commercial gun dealer 
or to a flea market or individual purchases, buying small 
numbers of weapons, and take those across, kind of in very 
small quantities, which makes the challenge even more great.
    Mr. Carter. The reason I asked the question is because I 
don't disagree from talking to people who regularly go to gun 
shows that there seem to be people coming into gun shows and 
buying whole tables full of weapons. But they are not AR-15s 
with fully automatic capability; they are shotguns and 
handguns. And you may call a 45 automatic a fully automatic 
weapon, but I call it a semiautomatic weapon.
    And what we are seeing on the news is that there seems to 
be some indication that we are smuggling fully automatic 
weapons into Mexico, which to me would mean that somebody in 
the manufacturing business would have to be doing that, because 
I don't know of anyone that sells commercially fully automatic 
weapons because you have to have such a huge license in order 
to do so, and you have to have a license to buy them too. So 
that is the reason I was curious if you were seeing fully 
automatic weapons.
    Mr. Ahern. We are not seeing the quantities you described 
or the types that you described.
    Mr. Carter. So the argument that all the weapons that are 
in Mexico are the fault of the United States gun dealers is 
stretching the truth a little bit.
    Mr. Ahern. I think it just needs to be put in its full 
context. When that number gets used and particularly when ATF 
uses it from its weapons tracking systems, those are the 
weapons that are recovered in Mexico that are reported back 
that are traceable to a commercial source here in the United 
States. I think it is readily admitted by many that are in the 
know in this, whether it be the Government of Mexico or 
officials in the U.S. Government, there is significant amount 
that still come from other than the United States into Mexico.
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Price. Thank you.
    Mr. Rodriguez.

                    FREE AND SECURE TRADE SHIPMENTS

    Mr. Rodriguez. Thank you very much.
    The way it works on the border, as they are coming in, we 
check them and then they go in, and as we are leaving, we just 
go by, and usually the Mexican side checks us; and that is the 
way it has been. Part of the legislation that I know Chairman 
Price is looking at is for a strategy in terms of southbound 
and for you guys to let us know what is needed in terms of 
resources to try to begin to do that, because we haven't done 
that in the past. It has been sporadic.
    Let me ask you, the Customs Trade Partnership Against 
Terrorism, C-TPAT, my understanding is that C-TPAT, the way it 
has been working is that the investigations are complete--that 
sometimes before the investigation is completed that we just 
assume that the truck that comes in with dope, that that truck 
and that company is cut off from being able to participate and 
their driver. And it is my understanding that in some cases--
according to statistics, 98 percent, according to the Customs 
Border Protection--that investigations find that it was the 
maquilladoras and the people that were filling the trucks, and 
that usually the driver comes in and picks it up and just takes 
it across and that they are taking the hit in most cases for 
just taking the stuff across when the maquilladoras 
themselves--can I get a clarification on that as to why, 
because we have got to look in terms of who is doing the damage 
here?
    Because if I am the maquilladora, I am going to keep 
putting the drugs in there. The guy who is going to get nailed 
is the driver and the truck company.
    Mr. Ahern. Absolutely.
    I will begin and maybe Mr. Winkowski wants to add to my 
answer before I leave anything out.
    I think what you are describing are FASTs, are free and 
secure trade shipments that come across the border where you 
have three components: a vetted driver that has gone through a 
background and been issued a FAST card, RFID enabled; and the 
carrier is actually C-TPAT, meaning the truck; and then the 
component parts could be from a C-TPAT manufacturing 
maquilladora operation on the south side of the border.
    So you have those three distinct parts of the transaction 
that comes across as part of this whole vetted transaction, and 
these are supposed to be our highly trusted travelers or 
traders coming across the border. So when there are drugs that 
are found in that transaction, we try to discern very quickly 
whether that is something that the driver was complicit and 
involved in or whether it was something the carrier--again, the 
truck that actually drays it, not the tractor that the driver 
actually drives across the border, or if it is embedded into 
the cargo.
    So we look at each one of its own set of facts and make a 
thoughtful determination of whether we should suspend--
initially it is suspension, not revoking or actually being 
removed from the program--begin with the suspension as we go 
ahead, which I think is the prudent thing for us to do, to go 
ahead and do a rapid investigation with ICE to find out who the 
complicit parties are here, so that----
    Mr. Rodriguez. Supposedly they lose their business 
completely. They won't even get any more jobs if that is the 
case, if somebody set them up.
    Mr. Ahern. I would submit that if some individuals are 
bringing drugs across the border that are set up, that is one 
thing; if there are individuals that are actually involved, 
that is another. And again we look at each one of these on 
their own set of facts. If there is a particular set of 
circumstances you would like us to look at, we would be happy 
to do that.
    Mr. Rodriguez. I was told that most of them occur at 
maquilladoras, which we seldom go after. How many cases do we 
have where we have gone after and we have found that it is 
coming from the loaders at the maquilladora?
    Mr. Ahern. We have found it in each one of the 
circumstances where it has actually been loaded at the 
maquilladora operation. We have seen it where there has been a 
diversionary stop after departing from the twin plant 
operation, and we have seen it in the tractor where the driver 
obviously had knowledge of that. And we have also seen where it 
is actually configured in the truck, the trailer itself, before 
it goes to the particular location. So again----

                       PRESIDIO HOURS OF SERVICE

    Mr. Rodriguez. Secondly, on the ports of entry, the 
Presidio port of entry, it is supposed to be a 24-hour port of 
entry; and the reason why that is so important is, if you have 
a truck on the other side it has got to go 300 miles to El Paso 
or 300 miles the other way to the Del Rio in order to cross. 
They tell me that when they find themselves--they are not going 
there because it is sometimes not open 24 hours. And right now 
they will tell you--and, yes, it is a good excuse--the flood 
that occurred in Ojinaga and there. But prior to that, these 
complaints were coming in that if it is labeled 24 hours, it 
should be 24 hours.
    I have testimony by some of my constituents that go drive 
those 300 miles all the way to El Paso and wait another 2 hours 
to cross because of the fact that they are never sure whether 
the port of entry at Presidio is going to be open or not.
    Mr. Winkowski. Congressman, perhaps I can answer that 
question.
    For vehicles, for private vehicles, it is a 24-by-7 port, 
as you well know. On the cargo side, it is open Monday through 
Friday, 10:00 to 6:00. It has been that way for many, many 
years.
    I was just down in El Paso last week, met with the trade 
community, as you know. The vast majority of the brokers are 
out of El Paso and we have one broker down there in the 
Presidio area. Nothing has ever come up from the standpoint of 
expansion of hours of service.
    Now, we have expanded on a test basis hours of service in 
the cargo arena in El Paso, Laredo and Otay Mesa and Nogales. 
We don't see any need from the standpoint of expanding hours 
from the commercial side. We average about 30 trucks a day. 
Now, we do have times when perhaps we are closed and the truck 
shows up, and I have been told by the director that 
arrangements are made to take care of that particular 
transaction despite the fact that the commercial side is 
closed.
    So I will be more than happy--I do a lot of trips down to 
Texas, and I will be more than happy on my next visit to--
    Mr. Rodriguez. Is that the only spot, 600 miles between Del 
Rio and----
    Mr. Winkowski. Right. But right now we are talking about 30 
vehicles and the first one actually comes in around 11 o'clock 
in the morning, typically.
    Mr. Price. Thank you.
    Mr. Calvert.

                     INSPECTIONS GOING INTO MEXICO

    Mr. Calvert. Thank you, Mr. Chairman.
    I live near the border down in California and I used to, 
before all the problems with Mexico, go to Mexico often. And 
all the times I have gone down to Mexico I don't think I was 
ever stopped going south.
    Maybe I don't hit the profile of somebody that they are 
going to stop. But I talk to a lot of folks that go to Mexico 
often, and they are not stopped. They don't inspect, they don't 
do interviews, very rarely.
    You mentioned that the Mexican Government is going to enact 
some kind of inspection regime. Do you believe that to be the 
case?
    Mr. Ahern. I actually do believe it to be the case. And I 
have seen evidence of the first implementation that is over in 
the Brownsville-Matamoros corridor.
    Mr. Calvert. We haven't seen it in California. I will tell 
you, in San Diego for instance, there is a significant problem 
with stolen vehicles crossing over into Mexico, and we have had 
very little cooperation from the Mexican Government. I suspect 
that in a lot of the border communities cars disappear, headed 
across the border, and both--in keeping those cars from 
crossing over, because typically what happens, if a car is 
stolen, there is an immediate police report, especially if you 
are near the border, and they are supposed to inform the 
Mexican Government of that, and they are supposed to stop it. 
But very rarely have I ever heard of their stopping these cars.
    It would be helpful if they are going to do that. But you 
are confident that the Mexican Government is going to do this?

                        MEXICAN BORDER PROTOCOL

    Mr. Ahern. I am confident they have begun an initial 
deployment of having a border protocol with technology to 
include license plate readers.
    Now, one of the things we need to talk with them about is, 
how do we link that into databases where they can be more 
tactical and effective going forward? That is going to be part 
of the continuing dialogue that we are going to offer our 
assistance on.
    Mr. Calvert. As you know, when we cross back over, north, 
virtually everybody is interviewed. If you look suspicious, 
they inspect the automobile to make sure that you are not 
carrying contraband or whatever, buying stuff in Mexico you 
shouldn't be buying and bringing it back to the United States.
    It would be interesting to see if the Mexican Government is 
going to do that, but I haven't seen any evidence of that. So I 
hope you keep the committee informed of their progress. I am 
sure we will be interested to see if that happens, because I do 
think they have a responsibility obviously to protect their own 
sovereignty, and not just the United States, to protect their 
sovereignty.

                RED TEAM INTO BORDER DETECTION EQUIPMENT

    Another issue on this detection issue, obviously it is a 
significant amount of money to put this detection equipment out 
there; and before that happens, do you undergo tests with 
outside consultants or whomever to see if they can defeat that 
technology before that is put into place?
    I guess that is a question for Mr. Gallaway.
    Mr. Gallaway. I am sorry. Would you clarify the last part?
    Mr. Calvert. Do you bring in outside people, who are 
independent of the United States Government, to see if they can 
defeat your technology? In other words----
    Mr. Gallaway. In other words, do we ``red team'' the 
technology?
    Mr. Calvert. Right.
    Mr. Gallaway. I wouldn't say that--once the technology is 
actually implemented, we do work with Customs and Border 
Protection to actually ``red-team'' the operations in the 
field. So it is ``red-teaming'' not only the technology but the 
operational protocols that go with it.
    Mr. Calvert. The technology to develop a nuclear weapon is 
significant. I suspect the technology to defeat the technology 
to detect that is not as significant.
    Mr. Gallaway. Well, on these passive detectors, we have 
done an extensive amount of testing where we go out to the 
Nevada Test Site and using real special nuclear material, we 
will run in front of these portals to see if our detection 
equipment can detect it, in fact.
    And as we are developing the new system, one of the things 
we are trying to make sure of is that it meets the 
specifications that we have laid out. The unfortunate thing is 
passive radiation detection devices can be defeated by putting 
shielding over the material, so the emissions coming off the 
material----
    Mr. Calvert. Wouldn't one of our enemies think of that? I 
mean, don't you think if they are going to try to bring in a 
weapon of mass destruction, that they would try to make sure 
they could get it in?
    Mr. Gallaway. Precisely. And that is why the other half of 
the program then is to use radiography or some type of active 
interrogation system where we can pick it up. Because now, when 
you put the shielding around it, the shielding material tends 
to be what we call high Z, or very heavy material, and now it 
comes up essentially black on an x-ray or most radiography 
images. So by putting both systems in, we have high confidence 
that we can, in fact, keep someone from smuggling something 
through.
    Mr. Calvert. But you test that to make sure? You give 
somebody the challenge and see if they can defeat it----
    Mr. Gallaway. Definitely.
    Mr. Calvert [continuing]. Before we spend the money to go 
out there.

                         IMPLEMENTATION OF ACE

    One other question: This ACE program, obviously 
modernization is important and this new automated commercial 
environment to process cargo that is coming into the United 
States, can you update us on where you are at with that on the 
implementation of ACE?
    Mr. Ahern. I would be happy to give you a detailed answer 
if you would like.
    I can give you a very quick overview.
    Mr. Calvert. Just give us a quick overview and submit to 
the record----
    Mr. Ahern. Absolutely.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2213B.148
    
    [GRAPHIC] [TIFF OMITTED] T2213B.149
    
    A quick overview that we have actually been successful in 
implementing the truck manifest portion, which was important 
for our cross-border targeting as well as for the commercial 
protocols.
    Beginning, actually, Easter Sunday we will be having our 
first deployment in Buffalo for the entry summary, which will 
be the first part for getting the entry summary, which is the 
commercial aspect of the border transactions; and we will be 
doing additional deployments right after that in the entry 
summary environment; and then we will begin the vessel manifest 
and the air manifest thereafter.
    We are lagging behind, and I will be happy to give you 
full, detailed answer on each one of those increments and why 
we are behind.
    Mr. Calvert. Thank you, Mr. Chairman.
    Mr. Price. Thank you.
    Mr. Ruppersberger.

                OVERSEAS CONTAINER INSPECTION OPERATIONS

    Mr. Ruppersberger. Thank you.
    The first thing: A very difficult job that we all have, 
especially since 9/11. I feel very strongly that we always need 
goals, but we are appropriators and our goal as an appropriator 
is to create the priorities and try to put the money in the 
best place where it is going to work. And the goals of checking 
every container, it sounds like a good goal, but is it 
realistically helping the issue or the problem or are we 
addressing an issue that looks good?
    For instance, there was a lot of comparisons made with Hong 
Kong, that they literally somehow inspected every container, 
but could they really determine what we were looking for in 
those containers because of the volume?
    The other thing I am going to try to address in my period 
of time, I believe strongly that the port of embarkation is 
something that we have to deal with with other countries. We 
have programs that exist, and that is something that I haven't 
heard a lot here today, but I think is very important, that all 
the different United States agencies whether it be in Homeland 
Security, whether it be CIA, NSA, military, whatever, really 
need to come together as a team from an intelligence point of 
view and prioritize in that port of the embarkation.
    You made a comment that in Pakistan it might be dangerous 
for one of our Americans to be at the port. There are ways to 
deal with that type of issue. And I would like you to address 
that if you can.
    The other thing is technology. It is another issue that we 
are dealing with as far as making goals about checking every 
container, but we are really not doing the job. Technology is 
continually and constantly evolving, but there is some 
technology out there that I think today, that is starting to 
deal with the issue.
    And, Mr. Gallaway, maybe you can address this, the issue of 
nuclear weapons. And they are not going to bring a weapon in; 
they are going to bring components of the weapons that come in. 
An example, I represent the Port of Baltimore. Two-thirds of 
the population in our country is one overnight drive from that 
area. So there are target areas like New York, like L.A. And 
those type of arenas. But the only way we are going to take 
this to another level is with technology; and if you could, 
address where you think the technology is.
    And also, do you work with the Department of Energy? I know 
there is a proliferation group there that is very aggressive 
and literally goes to other parts of the world to see where 
these components can be made from the very beginning, very 
beginning stage. And I assume that you work closely with them.
    And so I have raised three issues; if you can try to 
address them in my 5 minutes, give it a shot.
    Mr. Gallaway. Okay. Let us start with the last one first. 
We work with the entire community, the Department of Defense, 
the Department of Energy, the Department of State, Department 
of Justice, to try to work this problem all the way from the 
origin of the material and its potential movement towards a 
target here in the United States.
    Mr. Ruppersberger. Good.
    Mr. Gallaway. So we want to be able to put in a layered 
defense so we have an opportunity to interdict that material 
anywhere during that transfer. And I think it is that layered 
defense that actually will set us up for success.

                           TECHNOLOGY ISSUES

    If I can address the issue of technology, we are trying to 
push the boundaries because the detection technology that we 
have today is okay, but I think, to solve the problem long 
term, we need better technology. And that is why we have this 
transformational research program where we are----
    Mr. Ruppersberger. Let me stop you there. What kind of 
technology?
    To begin with, you are dealing with containers. Your people 
in the port have the handheld. Are we able to get to that 
level, because if you don't have the handheld at this point, 
there is not the mechanism, I assume, out there for every port, 
539 ports of this country, or the ports of embarkation.
    Mr. Gallaway. Right. Let us even start smaller than that. 
The Customs and Border Protection folks wear a pager device 
right now that just tells you if there is radiation in the 
area. We are working on a replacement to that that is a 
spectroscopic device that is actually considerably smarter so 
that it would be able to tell them, is it in fact a threat to 
worry about or is it some benign material?
    The big breakthrough that we are looking for in the near 
term is improved materials. Unfortunately, the detector 
materials that we have right now are kind of limited in their 
capability, and they tend to be very expensive. So with the new 
materials that we see on the horizon, we think we will be able 
to increase the sensitivity by a factor of two at least. We 
will be able to reduce the cost by maybe a third. And since the 
detector material is a significant cost of the actual detection 
box, now all of a sudden you have doubled the capability and 
probably cut the cost in half.
    So the handheld that you were just talking about, that 
would be a big improvement now that we can put twice as many 
out in the field and have twice as good a capability.
    Mr. Ruppersberger. There is one component you always have 
to deal with and these are people and probably, Mr. Ahern or 
Mr. Winkowski, the issue of corruption at a level where you 
might have a handheld but someone has a lot of--maybe a certain 
driver or whatever to check it.
    Do we have checks and balances to countercheck what one 
individual is responsible for, these screenings.
    Mr. Ahern. I would say that it is a rare circumstance in a 
maritime environment where there would be one person that would 
be involved with the protocols by themselves.
    Mr. Ruppersberger. That is good.
    Mr. Ahern. And I would also offer--and it would be good for 
Congressman Calvert, if I had the opportunity to mention this 
before he goes--in addition to the testing that gets done 
during the acquisition cycle prior to the full system 
qualification and final acceptance testing, what we have 
actually been doing in Customs and Border Protection for close 
to 3 years now when it was actually codified as part of the 
Safe Port Act is actually do red-teaming of our--of our 
protocols. Beyond just as far as seeing if the technology 
works, do then the officers actually follow through with all 
the protocols that are appropriate to include the handheld 
devices, to include, as far as the reach-back that is required, 
to our laboratory and scientific services and here in the 
Northern Virginia area.
    That is first done with a covert team that goes in. We 
actually set up our own commercial trucking company to go ahead 
and do this and have a source material that actually tests the 
devices as well as the officers and response protocols. And 
then what we do beyond, just as far as the initial covert test 
in a port, we then test the capabilities of all the different 
technology that is there in the environment.
    And I would be happy to provide more detail on that----
    Mr. Ruppersberger. One thing on technology, too.
    Is my time up?
    Mr. Price. Your time is up, so please wrap up.

                        PORT OF DUBAI TECHNOLOGY

    Mr. Ruppersberger. The Port of Dubai, they are considered, 
at least 6 months ago, to have the best technology in the 
world. Have you looked at their technology now, where they are 
and as it relates to where we are in the United States?
    Mr. Gallaway. Yes, sir. I mean, that is one of our 
functions to stay up on top of the technology that is out and 
about. And when you look at this in detail, you find out that 
the technology is not quite as promising as the sales 
brochures.
    Mr. Ruppersberger. Okay. Thank you.
    Mr. Price. Thank you. Mr. Farr.

                          BULK CASH DETECTION

    Mr. Farr. Thank you, Mr. Chairman.
    It is interesting listening to these discussions because I 
think I go home to my little community where people still don't 
lock their door and there are still a lot of places in America 
where there is a lot of trust; and I come to Washington--and we 
are certainly dealing with fear in America--and you just wonder 
whether we are developing a whole new industrial complex based 
around fear.
    And I know that is your job to make sure that we are 
secure, and I appreciate the work you do.
    I hope that we can begin talking about a hemispheric 
security. It really seems to me that we need to make sure that 
all of North America is secure and we--I think we put a lot of 
emphasis on knowing that Canada is secure, and therefore, we 
don't have to worry about Canada and we have to worry about 
Mexico. And I think it is more because of the poverty in Mexico 
and the pressure it puts on undocumented people coming into 
this country and the fact that the cartels coming up from South 
America have been very effective.
    And I wonder in your comments--and I appreciate Mr. Rogers' 
questions about going south, because I was at a dinner last 
night and the Mexican Ambassador was telling us that of the $8 
to $12 billion--what they think is the drug business, $8 to $12 
billion--that a lot of this cash is being transported in cash, 
in sacks of cash.
    And that is the kind--that is laundered money, probably in 
a laundry bag, that we could detect with your kind of 
equipment, couldn't we, in these railcars and automobile cars 
going south?
    Mr. Ahern. The technology that we deploy for imaging 
doesn't discern whether it is a package of cocaine or a package 
of currency or--it will certainly show as far as the outline of 
a weapon if that is the distinct image we are looking at versus 
a block of weapons where you would just see the anomaly that 
would be inconsistent with the rest of that particular 
conveyance.
    Mr. Farr. So we can or cannot detect sacks of cash.
    Mr. Ahern. Yes, you can.

                     RISK BASED RESOURCE ALLOCATION

    Mr. Farr. So if we are going to try to have this bilateral 
security, then we have got to do our part as a partner in the 
bi-processes. We have got to make sure that activities which 
are illegal in their country, having guns--that is illegal in 
Mexico; you have no fourth amendment right to commit a crime in 
Mexico by selling weapons to people that are taking them into 
Mexico or by laundering money--that we have to do our fair 
share if we are going to have any credibility to crack down on 
our side that is committing crimes.
    I mean, there is a crime problem on both sides of the 
border; and after going to Hong Kong, I really came away with a 
different concept about this total 100 percent. It seems to me 
that it is not cost effective. And I wondered--you have made a 
statement that our forces on risk management and security has 
to be driven by our informed judgment about the totality of the 
risks. And I wonder if you could just give the committee some 
of your feelings, as a professional, maybe where we have done 
overkill, where it is not cost effective, where we can use our 
informed judgment to look at the real risk. Because this really 
is about risk management, and I think we are looking at things 
that are big enough to cause a tipping point problem.
    So how would you, if you were on this side, suggest that 
Congress might better focus its limited resources on your 
informed judgment.
    Mr. Ahern. We did have an opportunity at the beginning of 
the hearing to talk about that, and I will be happy to state it 
again: that, again, any type--when you put together a law 
enforcement strategy, you have to take a look and first assess 
what the risk is. In this particular circumstance, we think 
there is a minimal amount of risk.
    We then need to take a look at the layers of risk 
management, the risk management that we have put in place. That 
begins with advanced information. We are hardening that this 
year with the 10+2 requirement that is going to add to the 
information we can then take and run through our automated 
targeting systems to go ahead and assess risks based on all the 
different factors that are going to be present and now the 
documentation. And we are getting deeper into the supply chain 
by not only that information, but also through our partnership 
with some of the most significant companies in the world to add 
more security protocols for the transactions. That is another 
layer of risk reduction.
    In 58 overseas ports, where 86 percent of the container 
traffic comes through, we have close to 200 officers, between 
CBP and ICE, overseas actually trying to go ahead and identify 
if there is additional risk the systems don't identify and then 
deal with our host country counterparts to mitigate that prior 
to lading.

                           COST EFFECTIVENESS

    Mr. Farr. I read that in your testimony and I appreciate 
that. I guess my question goes to, then, are we asked to do 
things that are not cost effective?
    Mr. Ahern. As I stated also when I was--that was going to 
be in my conclusion point, that I believe, with the layers of 
risk reduction we have in place matched against the minimal 
risk, that we do have more significant vulnerabilities that we 
should be focusing our attention on.
    Mr. Farr. So where are the savings?
    Mr. Ahern. Pardon me?
    Mr. Farr. What do we drop?
    Mr. Ahern. Well, I think clearly as far as given the 
technological challenges, given the financial investment, given 
the sovereignty issues overseas, I think certainly as far as 
the 100 percent requirement, it needs to be thoughtfully 
reconsidered.
    Mr. Farr. Thank you.
    Mr. Price. Thank you.
    Ms. Roybal-Allard.

                     OVERSEAS CONTAINER INSPECTIONS

    Ms. Roybal-Allard. Thank you, Mr. Chairman. I actually want 
to ask about the inspections overseas.
    According to a 2008 GAO report, full cooperation by 
participating foreign governments is sometimes lacking. For 
example, it is my understanding that at overseas ports, CBP 
agents are not allowed to observe inspections of suspicious 
containers conducted by foreign officials.
    So my question is, what can be done to strengthen that 
relationship so that you can fully participate in the container 
inspections, and if that is not possible, what is or can be 
done to provide the level of security that you are seeking for 
these inbound containers?
    Mr. Ahern. Right. And that is certainly a challenge in one 
particular country, and that is China, where we have challenges 
as far as being able to be there alongside when either the 
image is taken or when an inspection is needed. That is 
something that we continue to try to work through, but China is 
a challenge on that particular issue.
    I think, outside of that, we have been able to work through 
those protocols very well. And, again, I think it goes back to 
the point that Congressman Ruppersberger brought up as far as 
goals. The goals are not to look at 100 percent of those at 
even the current CSI ports; it is to look at the 100 percent 
that pose risk, based on the analysis, based on the review of 
the information, based on the host country intelligence as well 
as our DHS intelligence, to be able to focus our resources on 
those supposed risks and then deploy on those.
    And it would be the same with the CSI locations. Even 
though it is roughly 1 percent that actually gets looked at in 
those CSI locations, those are the ones that pose the most 
significant risk, based on our assessments and intelligence, 
and that is how we should deploy our resources going forward.
    But we do recognize that in certain locations, like China, 
there are still challenges we continue to work through.

              100 PERCENT CONTAINER INSPECTION REQUIREMENT

    Ms. Roybal-Allard. I don't know if the point had been made 
earlier, Mr. Chairman; I was in another hearing. But I know the 
Port of Los Angeles has expressed similar concerns about the 
requirement for the 100 percent inspection, and one of the 
concerns is that there may be retaliation by a foreign country 
who will then say, then they want us to inspect 100 percent any 
cargo that is leaving the United States, and that it would 
increase the cost. And what I am hearing is, it is really not 
that effective, being able to do that.
    Was there any comment made about that or could you expand 
just a little bit? And I apologize that I wasn't here earlier.
    Mr. Ahern. Absolutely. No, that is a critical point.
    I would change the ``R'' word to a different word; it would 
not be ``retaliation,'' it is ``reciprocity.'' And we have 
actually had, in previous hearings brought before this 
committee and others here in Congress, 27 letters that were 
actually provided by foreign countries saying that if this 100 
percent requirement goes forward, they expect that there will 
be reciprocity on containers departing the United States to 
their country.
    We also had two from international organizations, such as 
the WCO, the World Customs Organization, as well as the 
European Union, the European Commission, stating the same 
concerns that they would actually be asking for reciprocity, as 
well, if we moved forward with the full implementation of this 
in the future.
    Ms. Roybal-Allard. Do you see that creating a problem at 
the ports where it would be impossible to do that, so that 
there would be this backlog and shipments would be delayed 
considerably, raising costs? That was another concern that was 
raised.
    Mr. Ahern. Without question.
    Ms. Roybal-Allard. Okay. Thank you.

              PLAN FOR SOUTHBOUND INSPECTIONS ON SW BORDER

    Mr. Price. Thank you. We will have a quick second round of 
questions with your indulgence.
    We appreciate the chance to circle back around and close a 
couple of loose ends here and also broach an additional area of 
questioning or two.
    The previous questioners have gotten into considerable 
detail on this plan for outbound inspections and southbound 
inspections on the Southwest border. I will not go further into 
that, except to say that I would like to supplement the oral 
testimony this morning with a fuller, written account of what 
this plan looks like.
    We hear that it is going to involve not just more Border 
Patrol agents, but also canine teams, NII systems, license 
plate readers. We have some preliminary indications as to what 
the appropriations request is likely to contain here, for 
example, $45 million for license plate readers. We know that 
you will probably spend a good bit of the Recovery Act NII 
money for this, or we assume that that is a possibility. We 
would like to have whatever details you can furnish on that and 
of course we will await the detailed 2010 budget request to get 
this a little more completely in our sights.
    But for now it would be very helpful for you to give a more 
detailed account of what this program is going to look like; 
and of course, any follow-up you want to give us on the oral 
accounts you gave us today of what the present capacity looks 
like.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2213B.150
    
    [GRAPHIC] [TIFF OMITTED] T2213B.151
    
                100 PERCENT INSPECTION GOAL SCALABILITY

    Secondly, on the question that Mr. Farr was just raising 
and that I raised earlier about the Secure Freight Initiative 
and this 100 percent goal. We have had a good discussion here.
    I was not totally clear, Mr. Ahern; I was rushing on a bit 
as you concluded your initial statement. I was not entirely 
clear on what you were saying about these three small pilot 
ports. Have we, in fact, achieved 100 percent screening at the 
ports of Southampton, Cortes and/or Qasim?
    And then, of course, the further question is the question 
perhaps raised by Hong Kong. Now, we visited Hong Kong. I 
assume some of the things you were saying about the rest of 
China does not apply in terms to Hong Kong in terms of the 
level of cooperation. My impression is that Hong Kong is a 
well-run port, in many ways one of the most impressive 
international ports; that it is a place where we have had good 
cooperation with the local authorities. And yet the 100 percent 
screening that we are talking about applies to only one lane of 
one terminal.
    So I don't know what lesson we draw from the successes of 
some of these pilots. You know, we have achieved the more 
comprehensive screening in some very, very limited 
circumstances, but it seems to me they raise as many questions 
as they answer about how scalable this is and how much it--how 
well it can work even at a place like Hong Kong, to say nothing 
of other ports where there are many, many more difficulties.
    Mr. Ahern. And absolutely you did hit on the fine point of 
that. I mean, certainly when I was describing those three small 
ports, we have been able to achieve 100 percent; and that was 
what was reflected in the report that we owed Congress under 
the SAFE Ports Act requirement for 180-day testing that was 
done there. So we did go ahead and affirm that in the report.
    However, when you then now take a look at larger ports, 
even ports that are marginally larger than the ones that we 
actually went out and did the testing protocols in, certainly 
we start to recognize very clearly the legitimate challenges 
that are out there.
    And when you take Hong Kong as one example--I also visited 
Hong Kong when the first ICIS, the integrated container 
inspection system, was marketed at that particular point in 
time, and it was misrepresented as far as what its capability 
was, that it was able to scan and do 100 percent. Well, it was 
one lane in one terminal, and certainly there were, as far as--
concerns with the capabilities of the technology and how the 
response protocols were going to be realized.
    So certainly those are still challenges that are out there, 
and even in a good place like Hong Kong, where we have a 
tremendous port authority to deal with, good host country 
counterpart support as well as the major terminal operators 
there, it is not without its significant challenges.

                      ASP MONITORS AND PVT SYSTEMS

    Mr. Price. All right. Thank you.
    Let me move on to a new topic, but one I hope we can deal 
with briefly. It has to do with the technology for these ASP 
monitors and where we are on that.
    These ASP radiation portals have been underdeveloped for 
several years. They are intended to both detect and identify 
radiation sources. That would be a major improvement on the 
present system, but we know that program is 2 years behind 
schedule.
    So, Dr. Gallaway, when will you finish field validation 
testing of the two systems that are currently in competition in 
terms of ASP? When will we see a certification that these 
monitors have met a standard of operational effectiveness? And 
then, finally, what about the interim plans? If certification 
is further delayed, what are you going to do with your plans 
about your plans to acquire 50 ASP systems this year and/or to 
acquire existing technology, PVT systems?
    What is the requirement in the near term? We are covering 
gaps, I suppose. We are replacing older PVTs that have passed 
their useful life. I understand there is a good bit of money in 
the budget, $120 million for 2009 that could be used to obtain 
these PVT systems, as needed.
    On the other hand, you are talking about buying machinery 
that we hope is going to be superseded in a very few years.
    So I want to know the state of the ASP program, but I also 
want to know about how many PVT monitors, at what cost, you 
think we are going to need given the time frame we are facing 
with the ASPs.
    Mr. Gallaway. If I could start with the last part of your 
question first, we are continuing to build out the northern 
border and deploy PVTs, so that we have gone to 100 percent 
scanning opportunities on the northern border. And so that is 
what we are using most--a lot of our 2009 funds to do.
    As far as the status of the ASP system, we are in field 
validation testing, which is done hand in hand with our 
colleagues from Customs and Border Protection, because we are 
now out in a real port of entry operation. We were in what we 
call tandem operation where we have got the current detection 
system running at the same time that we have an ASP.
    When we looked at the data that we were receiving, we had a 
few concerns that the system may not have been working quite as 
well as we had hoped. And so we have paused the testing for a 
bit while we are analyzing the data. We anticipate that pause 
is probably going to go for about another month while we decide 
what to make of it.
    I am optimistic that we will be able to solve the issue and 
then we would start up field validation testing again. We would 
do some work back in tandem operation into what we call solo 
operation, where they turn off the existing systems and run 
exclusively with ASP, and that would take several more weeks.
    What all that means to the program is, we are probably 
looking at certification of our first system--we have two 
competitors right now, and the first system would be at a point 
where we could take it to the Secretary for certification 
sometime about the end of this fiscal year.
    Mr. Price. All right. I will leave it at that for now 
because our time is limited, but I am going to ask you to 
submit for the record--and we will expect this as part of the 
detailed 2010 budget submission as well--a more determinative 
answer than you gave me on the PVT point. I would like to have 
a fuller understanding of this ASP timeline that you are 
projecting and the kind of confidence you have in it.
    But then also what are we talking about with respect to 
these PVT systems and the--you say we are going to fill out the 
northern border stations. Okay, that is the scale, the scope of 
that? What kind of money are we talking about, especially in 
next year's budget, given the fact that there is money already 
sitting unused in--not just in 2009, but I think some funds 
from previous years; and given the fact that we clearly need 
this capability, but we also are talking about systems that are 
hopefully going to be superseded in terms of their 
capabilities.
    Mr. Gallaway. Right. As I mentioned, finishing up the 
northern border will be done with the current funding that we 
have in hand today.
    Mr. Price. You can definitively state that?
    Mr. Gallaway. Correct.
    Mr. Price. All right. Thank you.
    Mr. Rogers.

                  CONTAINER TRANSITS FROM MEXICO TO US

    Mr. Rogers. How many containers come to the U.S. from 
Mexico a year or a month or whatever?
    [The information follows:]

    4. How many containers come to the U.S. from Mexico in a 
year/a month?
    a. Ahern indicated he did not have the breakdown between 
Canada and mexico, and provided the total number per year.
    RESPONSE: in FY 2008, a total of 2.34 million containers 
came into the U.S. from Mexico. Please see the chart below for 
the monthly break out:

Container Arrivals from Mexico (FY 2008)

Oct-07........................................................   204,167
Nov-07........................................................   195,957
Dec-07........................................................   173,097
Jan-08........................................................   186,014
Feb-08........................................................   191,571
Mar-08........................................................   195,366
Apr-08........................................................   216,541
May-08........................................................   214,417
Jun-08........................................................   201,642
Jul-08........................................................   193,556
Aug-08........................................................   187,300
Sep-08........................................................   179,707
                    --------------------------------------------------------------
                    ____________________________________________________

    Total..................................................... 2,339,335

    Mr. Ahern. Off the top of my head, I can't give you the 
breakup between Canada and Mexico, but I know the number of 
trucks that cross our border is about 11, 11.5 million.
    Mr. Rogers. Per year?
    Mr. Ahern. Per year.
    Mr. Rogers. From U.S. to Mexico----
    Mr. Ahern. Yes. From U.S. To Mexico and also from Canada to 
U.S. That is our universe of trucks. I just don't have that 
breakdown for you.
    Mr. Rogers. Suffice to say, there is quite a flow of 
containers by truck from Mexico, right?
    Mr. Ahern. Yes.
    Mr. Rogers. And vice versa?
    Mr. Ahern. Yes.

                    HISTORY OF CONTAINER INSPECTION

    Mr. Rogers. What has been the history of the searches of 
those containers coming in or going from the U.S. across the 
border? What has been the history of what bad things we have 
found?
    Mr. Ahern. We have actually found significant amounts of 
drugs in commercial trucks coming from Mexico into the United 
States.
    Mr. Rogers. In the containers?
    Mr. Ahern. Yes, in commercial trucks coming----
    Mr. Rogers. I am interested in containers.
    Mr. Ahern. I think we are saying the same thing. A truck 
with a trailer is what I referred to as that transaction, the 
functional equivalent of a maritime container.
    Mr. Rogers. And what about those going south?
    Mr. Ahern. Going south as far as--again, we have not put 
that level of energy southbound as we have northbound.

                        TAMPER PROOF CONTAINERS

    Mr. Rogers. Well, on either bound, if we had a way to be 
sure that a container was not tampered with in transit from 
when it was loaded at the factory in Mexico until it got to 
wherever it was going in the U.S., if we had a way to know that 
it had been opened and tampered with by a truck driver who had 
been bought off by the cartel, would that not be a major 
advance?
    Mr. Ahern. That would be an additional layer of security 
that we would be very much interested in. It goes to 
Congressman Rodriguez's scenario with the FAST trucks coming 
across, whether it happens once it leaves the point of loading 
at the maquiladora and gets diverted along the way, or the 
driver becomes compromised along the way, if you have a 
certified container security device that we have confidence in 
that would alarm us if it has been tampered with, that would be 
a critical piece to know at the border when it arrives.
    Mr. Rogers. It would be tremendous; would it not?
    Mr. Ahern. If the device was--if we had high confidence and 
it was functioning well to be able to secure a box from the 
point it was stuffed by people we have confidence with until it 
arrives at the border, that would be a value added, yes.
    Mr. Rogers. We started working on this when we first 
started this Subcommittee--even before that--and we have been 
on it now for, I don't know, 7, 8 or 9 years or more. And we 
invented the automobile and airplane in less time than that. 
What is so difficult about making a container security device 
that we can have faith in? Will we have one in my lifetime or 
your lifetime or the lifetime of the country? Will we ever have 
a gizmo that can tell us whether or not a box has been opened 
or not?
    Mr. Ahern. I certainly hope so, sir, because we have had 
this discussion many years in a row. And I certainly do look 
forward to being able to sit before you one day and say that 
the industry has been able to provide the solution that is 
acceptable for the operating agency.
    Mr. Rogers. It would revolutionize the way that we secure 
containers coming to us from all over the world. For example, 
if we had a certification by the manufacturer in Hong Kong that 
he has packed a container of his equipment and it has been 
sealed and we have a gizmo that can tell us whether or not it 
was in transit across the ocean and by rail and truck, or 
wherever it went, that it had not been opened or tampered with, 
think of the savings we could engender by not having to x ray 
or open and search. And Congress would be speedily moved along, 
and we could rest assured that we were not having a box that 
had been opened and an A-bomb placed in it somewhere along the 
way or drugs or guns or what have you.
    I don't sense an urgency on the part of the Department in 
the slightest to get this done. Can you help me out?
    Mr. Ahern. I certainly can.
    I think one thing we all need to avoid is searching for a 
single solution to the challenge out there. Given your 
circumstance, that you just outlined with an A-bomb, we would 
not want to go ahead and put a container security device on it 
to be able to ensure that its integrity from point of lading, 
point of stuffing, all the way through to point of arrival, if 
that was all that we were going to focus on--whether the 
integrity of that container was maintained.
    So it has to be part of a whole risk management protocol 
with multiple layers beginning with that point of stuffing to 
make sure that we have confidence that our supply chain 
security specialists have actually gone there and verified that 
the personnel protocols, the operational protocols, are secure 
enough so that we don't have any concerns about somebody 
violating the integrity of the box, and ensure its safe transit 
with the device.
    So it will certainly be a value added----

                        TAMPER PROOF CONTAINERS

    Mr. Rogers. My question is, when are you going to get it? 
What is wrong? Why can't we have one today? I have been saying 
that for 10 years now, and I get the same answers which I can't 
fathom and don't understand.
    Mr. Ahern. As the principal operator for CBP, we have asked 
for the same thing and we are certainly interested in it in the 
future, but we don't build these devices in our organization. 
We don't build these within the Department of Homeland 
Security----
    Mr. Rogers. If I were you, I would be hammering on the door 
of the person that does make them.
    Mr. Ahern. This would be private industry, and we hope that 
they continue to develop the appropriate solution for our use 
because, as we have discussed before, there is an appropriate 
fit for a container security device as part of a whole layered 
protocol.
    Mr. Rogers. If the Administration would take just a portion 
of that $95 million that they are requesting for further work 
on the border, just a small slice of that money and devote it 
to a container security device, we could save most of the rest 
of the $95 million by not having to search the railcars or the 
trucks going to and from Mexico--if we had a reliable device 
that could tell us that it has not been tampered with on the 
way by a corrupted truck driver by the cartel.
    I rest my case again, Mr. Chairman.
    Mr. Price. Thank you.
    Mr. Rodriguez.

                                 C-TPAT

    Mr. Rodriguez. Let me go back to that same question I had 
before on the C-TPAT.
    My understanding is, the way it operates if I am a truck 
driver, I have my truck and I go pick up the load and go get in 
line and get across, unload it, come back, get back in line, 
and get another load and do that time and time again; and 
hopefully, as many times as I can, go across. If one of those 
loads has--and your response was appropriate. I just want you 
to look in terms of how practical or how it is being 
implemented because if those people get nailed, they tell me it 
takes a year for them to be able to go back to work in some 
cases, 6 months to a year. And in most of those cases, based on 
your own data that over 90 percent of those cases it is the 
maquiladora and not the trucker that is involved with those--
and that is based on your data, so I would ask you to look at 
that, please, and see what we might be able to do.

               SOUTHBOUND CHECKING OF CARGO AND VEHICLES

    Now, the other thing, I know that we are all concerned--
and, in fact, I have the legislation to go southbound and start 
checking. But none of that should take away from the importance 
of what is inbound; to me, that is much more a priority, what 
is coming into this country. And that is why I have the 
legislation on what is going out, because that is also 
important; but we need to come up with those responses, and 
that should not take away from that.
    But I know we have on this Committee another Chairman, 
Lowey, that handles and is involved with some resources to 
Mexico, and maybe there the Mexican Government might 
participate in enhancing their capabilities in checking also 
inbound into Mexico, making sure that, you know, since its 
their laws, that they outlaw guns into Mexico.
    And I had been a Member of Congress prior to this. I 
represented a previous district in the south, and we caught a 
lot of guns going in, as well as drugs coming out on 18-
wheelers, full; and it is something we need to continue to 
follow through with the understanding that we don't lose track 
that inbound is much more critical to us than southbound, which 
is also important.
    And let me just share a couple of incidents, and it applies 
to both sides. In Roma-Rio Grande, many times I was there and I 
saw cars involved in traffic violations or did some other 
things, and they just went southbound and we couldn't catch 
them, just like a lot of Americans that find themselves in 
Mexico in trouble and cut it this way and find themselves in 
terms of trying to get out of trouble from Mexico.
    And that happens all the time there on the border, and so 
somehow we do need a response that we could be able to 
communicate quickly and catch those individuals that have 
either violated traffic or maybe even more serious situations.
    Thank you.
    Mr. Price. Thank you.
    Mr. Farr.

                     CANADIAN BORDER APPREHENSIONS

    Mr. Farr. Mr. Rogers, I hope we can get that equipment 
developed because I can't stand having to give up my bottle of 
water, my shaving cream, shampoo every time I go to the airport 
because a machine can't tell the difference between what is in 
those bottles and some other things. So I hope technology 
hurries up.
    I would like to ask a couple of questions. Mexico and 
Canada are our number one trading partners and California is 
the sixth largest economy in the world and our leading trading 
partner is Mexico. We have to get a lot of commerce back and 
forth very quickly, and obviously that speed with which you 
deliver commerce is really important to the industry. And you 
in the security business have to make sure things are slowed 
down, checked, and so on.
    I am interested on the Canadian side because I remember in 
some of the other hearings on the risk factor that the Canadian 
border was a higher risk than the Mexican border because known 
terrorists that had entered the United States had come across 
the Canadian border and, in fact, ingredients of weapons 
systems were detected from transshipment across the Canadian 
border. Has that statistic changed now?
    Does the Mexican border have more? There is a lot of 
thought here that it does, but do the statistics show that we 
are apprehending more known terrorists on the Mexican border 
than we are on the Canadian border?
    Mr. Ahern. I think when we look at the numbers, we look at 
what is referred to as the tied hits, the individuals that we 
encounter along our borders that are actually were involved 
with or suspicion that they are involved with potential 
terrorist activity or associated with a terrorist individual; 
and those numbers are reflected, that are more significant, on 
the northern border. The numbers on the northern border are, I 
believe, on the 500 range and it is less than 150 on the 
southern border with those encounters.
    But that does not--that alone cannot be looked at as the 
indicator of what country poses the greater risk to the United 
States.

                            NORTHERN BORDER

    Mr. Farr. But knowing that, from a risk management 
standpoint, are we providing the same kind of detection and 
detail to the Canadian border as we are to the Mexican border?
    Mr. Ahern. Absolutely. And I would say from an 
antiterrorism, counterterrorism perspective, one of our--or our 
first deployment for radiation detection capability was on the 
northern border. When we started to build our systems under the 
Western Hemisphere Travel Initiative to be able to have full 
document requirements, there was no--nothing more that was 
required until the 9/11 Commission and the 9/11 Act brought 
about the required documents. To come across the border from 
Canada to the United States, it just could be an oral 
declaration.
    So those have certainly solidified a lot of the protocols 
coming across the border from Canada into the United States.
    Mr. Farr. Are we building a fence across the northern 
border?
    Mr. Ahern. No. And there is not one contemplated at this 
time.
    Mr. Farr. Although Congress, I think, asked for it.
    Mr. Ahern. I think the current requirement under the Secure 
Fence Act was for the southern tier.
    Mr. Farr. I have no further questions.
    Mr. Price. Thank you.
    Ms. Roybal-Allard.
    Ms. Roybal-Allard. Mr. Chairman, it is my understanding 
that my questions and issues were raised earlier, so I won't be 
repetitive.
    Mr. Price. All right. Thank you.
    So, with that, we will bring this hearing to a close. I 
think a number of us will have additional questions to submit 
for the record, and we will appreciate your prompt attention to 
those.
    Mr. Price. Meanwhile, on behalf of all of us, let me thank 
you for your good work and for your testimony here this 
morning.
    The subcommittee is adjourned.

    [GRAPHIC] [TIFF OMITTED] T2213B.152
    
    [GRAPHIC] [TIFF OMITTED] T2213B.153
    
    [GRAPHIC] [TIFF OMITTED] T2213B.154
    
    [GRAPHIC] [TIFF OMITTED] T2213B.155
    
    [GRAPHIC] [TIFF OMITTED] T2213B.156
    
    [GRAPHIC] [TIFF OMITTED] T2213B.157
    
    [GRAPHIC] [TIFF OMITTED] T2213B.158
    
    [GRAPHIC] [TIFF OMITTED] T2213B.159
    
    [GRAPHIC] [TIFF OMITTED] T2213B.160
    
    [GRAPHIC] [TIFF OMITTED] T2213B.161
    
    [GRAPHIC] [TIFF OMITTED] T2213B.162
    
    [GRAPHIC] [TIFF OMITTED] T2213B.163
    
    [GRAPHIC] [TIFF OMITTED] T2213B.164
    
    [GRAPHIC] [TIFF OMITTED] T2213B.165
    
    [GRAPHIC] [TIFF OMITTED] T2213B.166
    
    [GRAPHIC] [TIFF OMITTED] T2213B.167
    
    [GRAPHIC] [TIFF OMITTED] T2213B.168
    
    [GRAPHIC] [TIFF OMITTED] T2213B.169
    
    [GRAPHIC] [TIFF OMITTED] T2213B.170
    
    [GRAPHIC] [TIFF OMITTED] T2213B.171
    
    [GRAPHIC] [TIFF OMITTED] T2213B.172
    
    [GRAPHIC] [TIFF OMITTED] T2213B.173
    
    [GRAPHIC] [TIFF OMITTED] T2213B.174
    
    [GRAPHIC] [TIFF OMITTED] T2213B.175
    
    [GRAPHIC] [TIFF OMITTED] T2213B.176
    
    [GRAPHIC] [TIFF OMITTED] T2213B.177
    
    [GRAPHIC] [TIFF OMITTED] T2213B.178
    
    [GRAPHIC] [TIFF OMITTED] T2213B.179
    
    [GRAPHIC] [TIFF OMITTED] T2213B.180
    
    [GRAPHIC] [TIFF OMITTED] T2213B.181
    
    [GRAPHIC] [TIFF OMITTED] T2213B.182
    
    [GRAPHIC] [TIFF OMITTED] T2213B.183
    
    [GRAPHIC] [TIFF OMITTED] T2213B.184
    
    [GRAPHIC] [TIFF OMITTED] T2213B.185
    
    [GRAPHIC] [TIFF OMITTED] T2213B.186
    
    [GRAPHIC] [TIFF OMITTED] T2213B.187
    
    [GRAPHIC] [TIFF OMITTED] T2213B.188
    
    [GRAPHIC] [TIFF OMITTED] T2213B.189
    
    [GRAPHIC] [TIFF OMITTED] T2213B.190
    
    [GRAPHIC] [TIFF OMITTED] T2213B.191
    
    [GRAPHIC] [TIFF OMITTED] T2213B.192
    
    [GRAPHIC] [TIFF OMITTED] T2213B.193
    
    [GRAPHIC] [TIFF OMITTED] T2213B.194
    
    [GRAPHIC] [TIFF OMITTED] T2213B.195
    
    [GRAPHIC] [TIFF OMITTED] T2213B.196
    
    [GRAPHIC] [TIFF OMITTED] T2213B.197
    
    [GRAPHIC] [TIFF OMITTED] T2213B.198
    
    [GRAPHIC] [TIFF OMITTED] T2213B.199
    
    [GRAPHIC] [TIFF OMITTED] T2213B.200
    
    [GRAPHIC] [TIFF OMITTED] T2213B.201
    
    [GRAPHIC] [TIFF OMITTED] T2213B.202
    
    [GRAPHIC] [TIFF OMITTED] T2213B.203
    
    [GRAPHIC] [TIFF OMITTED] T2213B.204
    
    [GRAPHIC] [TIFF OMITTED] T2213B.205
    
    [GRAPHIC] [TIFF OMITTED] T2213B.206
    
    [GRAPHIC] [TIFF OMITTED] T2213B.207
    
    [GRAPHIC] [TIFF OMITTED] T2213B.208
    
    [GRAPHIC] [TIFF OMITTED] T2213B.209
    
    [GRAPHIC] [TIFF OMITTED] T2213B.210
    
    [GRAPHIC] [TIFF OMITTED] T2213B.211
    
    [GRAPHIC] [TIFF OMITTED] T2213B.212
    
    [GRAPHIC] [TIFF OMITTED] T2213B.213
    
    [GRAPHIC] [TIFF OMITTED] T2213B.214
    
    [GRAPHIC] [TIFF OMITTED] T2213B.215
    
    [GRAPHIC] [TIFF OMITTED] T2213B.216
    
    [GRAPHIC] [TIFF OMITTED] T2213B.217
    
    [GRAPHIC] [TIFF OMITTED] T2213B.218
    
    [GRAPHIC] [TIFF OMITTED] T2213B.219
    
    [GRAPHIC] [TIFF OMITTED] T2213B.220
    
    [GRAPHIC] [TIFF OMITTED] T2213B.221
    
    [GRAPHIC] [TIFF OMITTED] T2213B.222
    
    [GRAPHIC] [TIFF OMITTED] T2213B.223
    
    [GRAPHIC] [TIFF OMITTED] T2213B.224
    
    [GRAPHIC] [TIFF OMITTED] T2213B.225
    
    [GRAPHIC] [TIFF OMITTED] T2213B.226
    
    [GRAPHIC] [TIFF OMITTED] T2213B.227
    
    [GRAPHIC] [TIFF OMITTED] T2213B.228
    
    [GRAPHIC] [TIFF OMITTED] T2213B.229
    
    [GRAPHIC] [TIFF OMITTED] T2213B.230
    
    [GRAPHIC] [TIFF OMITTED] T2213B.231
    
    [GRAPHIC] [TIFF OMITTED] T2213B.232
    
    [GRAPHIC] [TIFF OMITTED] T2213B.233
    
    [GRAPHIC] [TIFF OMITTED] T2213B.234
    
    [GRAPHIC] [TIFF OMITTED] T2213B.235
    
    [GRAPHIC] [TIFF OMITTED] T2213B.236
    
    [GRAPHIC] [TIFF OMITTED] T2213B.237
    
    [GRAPHIC] [TIFF OMITTED] T2213B.238
    
    [GRAPHIC] [TIFF OMITTED] T2213B.239
    
    [GRAPHIC] [TIFF OMITTED] T2213B.240
    
    [GRAPHIC] [TIFF OMITTED] T2213B.241
    
    [GRAPHIC] [TIFF OMITTED] T2213B.242
    
    [GRAPHIC] [TIFF OMITTED] T2213B.243
    
    [GRAPHIC] [TIFF OMITTED] T2213B.244
    
    [GRAPHIC] [TIFF OMITTED] T2213B.245
    
    [GRAPHIC] [TIFF OMITTED] T2213B.246
    
    [GRAPHIC] [TIFF OMITTED] T2213B.247
    
    [GRAPHIC] [TIFF OMITTED] T2213B.248
    
    [GRAPHIC] [TIFF OMITTED] T2213B.249
    
                                         Wednesday, April 22, 2009.

               U.S. COAST GUARD: MEASURING MISSION NEEDS

                               WITNESSES

ADMIRAL THAD W. ALLEN, COMMANDANT, U.S. COAST GUARD
JOHN P. HUTTON, DIRECTOR, ACQUISITION AND SOURCING MANAGEMENT, 
    GOVERNMENT ACCOUNTABILITY OFFICE

                  Opening Statement of Chairman Price

    Mr. Price. The Subcommittee will come to order. Good 
morning, everyone. Today we are pleased to welcome the 
Commandant of the Coast Guard, Admiral Thad Allen, and Mr. John 
Hutton, the Director of Acquisition and Sourcing Management at 
the Government Accountability Office.
    I want to express this Subcommittee's and indeed the 
nation's appreciation for the fine work, Admiral, that you and 
the men and women of the Coast Guard do across the country and 
around the world. We feel strongly that those who serve deserve 
the right to do the job that we have asked them to do, so it is 
essential that we have a clear picture of what the Coast 
Guard's mission requirements are now and in the future and how 
the taxpayer's investments are being spent to address those 
requirements.
    While we continue to see improvements in the Coast Guard's 
management of its resources, the Subcommittee remains concerned 
about the impact of the transition away from the Deepwater 
contracting structure on current acquisitions and whether the 
Coast Guard's present successes are sustainable long-term.
    Today we expect the Commandant to address concerns about 
the Coast Guard's current and future needs and how these are 
going to be met through ongoing procurements. We would like Mr. 
Hutton to address how he views the viability of the Coast 
Guard's key acquisitions based on a number of ongoing reviews 
that GAO is conducting.
    Over the past two years, Congress has provided more funding 
for the Coast Guard than requested by the Administration. For 
example, in the 2009 Consolidated Appropriations Act, Congress 
provided $289.7 million more than the President requested in 
discretionary funds and $787 million more than in 2008.
    Most of these additional resources were directed toward the 
Coast Guard's acquisition and construction account, including a 
significant boost for personnel and $97.6 million for the Coast 
Guard's new headquarters. Furthermore, in the recently enacted 
American Recovery and Reinvestment Act, we provided $240 
million for the Coast Guard to meet urgent vessel and facility 
needs, as well as to make accelerated bridge investments to 
reduce hazards to navigation.
    We have not seen a detailed 2010 budget request yet from 
the Administration. So far, the only information we have on the 
Coast Guard's 2010 budget is the indication from February's 
broad budget outline that the Administration plans to terminate 
the LORAN-C program.
    I am curious as to why this particular item, with a savings 
estimated at $36 million, and I might add some serious 
questions that need to be raised about the merits of the 
proposal; why that rose above all other elements of the Coast 
Guard's budget for highlighting in the eyes of OMB given its 
small size relative to the other elements of the Coast Guard's 
acquisition program.
    However, the lack of a detailed budget request does not 
mean that we have a shortage of issues to discuss today. Before 
we see the budget, it makes sense for us to understand just 
where the Coast Guard's acquisition and management plan is 
taking us. The questions I believe are straightforward: have we 
identified the Coast Guard's requirements for success today and 
have we planned properly so that the Coast Guard is on track 
for success in the coming years?
    We look forward today to hearing from both of you beginning 
with the Commandant and followed by Mr. Hutton. Gentlemen, as 
is our usual practice, your full written statements will be 
entered in the record, and we will ask you to limit your oral 
remarks to five minute presentations.
    Before we begin, let me recognize our distinguished Ranking 
Member, Mr. Rogers, for his comments.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2213B.366
    
    [GRAPHIC] [TIFF OMITTED] T2213B.367
    
               Opening Statement of Ranking Member Rogers

    Mr. Rogers. Thank you, Mr. Chairman, and welcome, 
gentlemen, to the hearing.
    From the days of the Revenue Cutter Service to the Higgins 
boats at Normandy, riverboats in Vietnam, patrol boats in the 
Persian Gulf, the Coast Guard has consistently proven to be a 
truly unique instrument of national security, and from the 
rocky shoals of Valdez, Alaska, to heroic rescues during 
Hurricane Katrina to surpassing the milestone of one million 
lives saved in 2008, the Coast Guard has also proven it is our 
nation's premier response agency.
    Today, new and increasingly complex challenges such as 
sophisticated smuggling vessels, counterterrorism operations, 
expanding needs in the polar regions and modern piracy are once 
again putting the Coast Guard to the test. To meet these 
challenges, the Coast Guard has banked on the promise of the 
Deepwater Program.
    This acquisition effort was supposed to transform the Coast 
Guard fleet from a state of atrophy and antiquated technology 
to a modern, integrated system. Unfortunately, Deepwater has 
not only been slow to deliver the goods; it has also left a 
wake of turbulence within the Coast Guard's organization. Just 
now it seems we are starting to see some operational benefits 
from an investment in Deepwater that exceeds $6.2 billion since 
1998.
    In this past year, the first National Security Cutter was 
finally delivered. In addition, the operation of improved 
communication systems with several of the new maritime patrol 
aircraft began to eat away at the gap in the Coast Guard's 
maritime surveillance needs.
    Also in this past year the Coast Guard's reformed 
acquisition directorate has taken shape. Gone is the 
independent Deepwater directorate, gone is the distinction 
between deepwater and nondeepwater assets, and what has emerged 
is a more straightforward approach to the acquisition of 
surface, air, shore and technology assets and systems.
    But while some new assets have been delivered, and it 
appears you have gotten your acquisition house in order, those 
daunting challenges, looming threats and unfilled needs 
persist. That is why no acquisition program has received more 
scrutiny by this subcommittee over the last few years than 
Deepwater.
    We recognize the criticality of the Coast Guard's expanding 
mission requirements against the deterioration of its fleet's 
capabilities, and the widening gap between the two continues to 
be of great concern to this Member of the subcommittee.
    That brings us to today and a hearing that was originally 
intended to examine how the 2010 budget request would move the 
Coast Guard forward, but since we have not yet received the 
budget request I can only hope that you have been permitted, 
gentlemen, to discuss substantive details on what it will take 
to satisfy your mission requirements. Far too much is at stake 
to waste time with anything less than a frank discussion of 
true operational needs and what it is going to take to meet 
those needs.
    Now in the face of increasingly complex challenges with 
more needs than Congress can afford to fill, the Coast Guard 
must once again find a way to prove it can live up to its motto 
of being always ready.
    Thank you, Mr. Chairman.
    Mr. Price. Thank you. Admiral, please proceed.

                   Opening Statement of Admiral Allen

    Admiral Allen. Good morning, Mr. Chairman, Representative 
Rogers and distinguished Members of the subcommittee. I am 
pleased to testify today on Coast Guard operations and our 
acquisition programs, and thank you, sir, for allowing me to 
submit my full written statement for the record.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2213B.250
    
    [GRAPHIC] [TIFF OMITTED] T2213B.251
    
    [GRAPHIC] [TIFF OMITTED] T2213B.252
    
    [GRAPHIC] [TIFF OMITTED] T2213B.253
    
    Admiral Allen. Three years ago when I became Commandant I 
issued a series of orders which were called Commandant Intent 
Action Orders. Those orders have virtually become the basis for 
a sweeping modernization of our service, anywhere from improved 
financial accounting to a broad-based maintenance system that 
applies to the entire service.
    One of those orders directed the disestablishment of the 
Deepwater Program Executive Office and integration of Coast 
Guard acquisition activities into a single organization. From 
that direction, the first Coast Guard blueprint for acquisition 
reform was issued. It is now in its third version and continues 
to guide our way forward.
    Two years ago, as that new organization was stood up, the 
Coast Guard was at another inflection point, as has been 
pointed out by both Mr. Rogers and the Chairman. The management 
of acquisition programs, the system of systems approach to 
Deepwater through lead systems integrator, had not produced the 
desired results and a new approach was needed.
    Leveraging the concepts of the acquisition blueprint and 
our modernization plans, we made the decision to assume the 
role of lead systems integrator not only for Deepwater, but for 
the entire service. I am pleased to report today that we chose 
the right path. We are the lead systems integrator. Acquisition 
reform is taking hold, and we are continuing to implement best 
practices for bringing new assets and systems on line at the 
greatest value to the public.
    In addition, sweeping changes are taking place in how we 
maintain and support our assets through new logistics and 
service centers. A side benefit to these changes has been a 
marked increase in personnel ownership of our organizational 
goals, and at every level we are seeing increased innovation.
    Behind me is Rear Admiral Bloor, our Acquisition Chief 
supporting me at the hearing today. I want to quote an email 
that he sent me last night, Mr. Chairman.
    ``One of the several noticeable changes in our Coast Guard 
role as a lead systems integrator has been an infusion of 
innovation and efficiency. For example, a relatively simple 
equipment change on our aircraft, adding a new direction 
finder, has increased distress signal detection from an average 
of five to 10 miles to documented cases in excess of 150 miles, 
resulting in 47 more lives saved. I have directed that routine 
use of alternative analysis and business case analysis in all 
of our projects.''
    ``In order to increase the strength on our bench, our 
contracting workforce, our officer workforce, I am introducing 
the Military Journeyman Program which will complement our three 
ongoing civilian leadership initiatives, ensuring key 
contracting officer positions remain filled in the future.''
    The changes being made in our acquisition organization and 
the entire service could not be more timely. We face tremendous 
fiscal challenges, as you pointed out. The maritime security 
regime for this country, while improved since 2001, requires 
much further maturation. As we have seen in the last year, 
transnational threats such as piracy and small boat attacks 
from sea are real.
    I told the committee last year that the Coast Guard has 
never been more relevant. Today I will tell you we have never 
been in more greater demand. The confluence of globalization, 
expanding maritime trade, energy exploration, security demands 
at home and abroad have placed a premium on our unique 
capabilities and competencies.
    The interdiction of pirates attempting to attack the motor 
vessel Puma in the Gulf of Aden last week was deterred and the 
pirates were interdicted by a joint boarding team of U.S. Navy 
and Coast Guard personnel. Going forward, we must ensure the 
Coast Guard has the resources, authorities and competencies in 
place to answer the call for our nation.
    Dedication is not enough for our workforce to succeed. They 
are the most dedicated workforce in the world. They require 
safe, reliable and capable assets to fulfill the Coast Guard's 
multi-mission requirements.
    Mr. Chairman, as you noted, I appreciate your strong 
support in the fiscal year 2009 appropriations. Rest assured, 
the funding is making a difference and we are moving smartly 
ahead to recapitalize the service. For example, our new 
Response Boat-Medium has made immediate impacts across our 
mission profile and continues to roll off the production line 
on schedule. In fact, it was one of the first assets on scene 
with the ditching of the aircraft in the Hudson River.
    The first National Security Cutter Bertholf is receiving 
high praise for impressive capabilities during this period of 
operational test and evaluation, but, perhaps even more 
important, the Naval Surface Warfare Center Carderock Division 
deemed, and I quote, ``The structural modifications to the hull 
girder of Hulls 3 through 8 are effective and produce fatigue 
lives of at least 30 years.'' I believe we have put this 
problem to rest, Mr. Chairman.
    Validating the structural enhancements to the National 
Security Cutter represents a significant milestone in the 
project and will facilitate smooth construction processes for 
the remaining full hulls.
    As I noted earlier, acquisition reform has made us better 
equipped to manage costs, schedules and performance. A prime 
example of this is the Fast Response Cutter, a project which 
serves as a benchmark for future acquisitions. We are turning 
the corner.
    That said, much remains to be done as we transition 
Deepwater assets into the new acquisition process with revised 
acquisition baselines and complete the transfer of systems 
engineering and program management functions to the Coast 
Guard. The beneficiaries of our modernization efforts will be 
the American public who we serve, but our workforce will 
benefit as well.
    Throughout modernization, we have asked a lot of our 
workforce and we expect a lot of them. The welfare of our 
workforce during modernization is my top priority because 
mission effectiveness depends on their contributions. We desire 
to retain all of our civilian employees and attract the 
workforce of the future.
    I have embraced the goal of a geographically distributed 
workforce that we hope will provide stability for our civilian 
employees so they can continue to do the same superb jobs they 
have always done in an enhanced organizational structure that 
will improve mission execution.
    I welcome the dialogue we have begun with the unions that 
represent many of our Coast Guard people and look forward to 
working together through the transition and into the future. I 
hope to continue forging with them a labor/ management 
relationship that is a model in the federal government.
    Regarding our military personnel who man the boats, operate 
the aircraft and put to sea, we must continue to focus on the 
maintenance of our aging assets, even as we bring new ones on 
board, as both the Chairman and Mr. Rogers have noted. One of 
my great concerns is the condition of our large cutter fleet. 
We are experiencing increases in the cost of operating our 
major cutters as readiness declines.
    As I said in my State of the Coast Guard speech recently, 
we are experts, unfortunately, at managing an aging fleet to 
meet mission requirements. However, time is a merciless thief 
that steals our readiness with each passing year.
    During the past 12 months, we have spent over $50 million 
on major unanticipated repairs to cutters and aircraft. Two of 
my High Endurance Cutters, the Dallas and the Gallatin, had 
such severe structural deterioration that they had to be 
removed from operations for emergency repairs. They are dry 
docked today in Charleston, South Carolina.
    A recent engine room fire on Boutwell operating in the 
Persian Gulf damaged one of its engines beyond repair, 
requiring a costly major maintenance period in Bahrain and 
resulting in many lost cutter days in a region where piracy is 
a concern. These and other casualties have a direct impact on 
our readiness and our ability to execute the missions our 
nation is relying on.
    Without question, we need to implement our recapitalization 
plans at best speed. New assets cannot come on line fast 
enough. Critical in this effort are stable requirements, stable 
costs and predictable funding. To that end, we are committed to 
working with the Congress and the Administration to establish 
multi-year cost schedule and performance milestones.
    In closing, I am grateful for your commitment, Mr. 
Chairman, to help address these serious issues. While there 
will be challenges as we move forward, we have the right 
structure, institutions and strategic approach lining our way. 
If properly funded, I am confident we can deliver the assets 
and systems needed to meet the mission needs of the future.
    Thank you for the opportunity to testify today. I look 
forward to your questions.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2213B.254
    
    [GRAPHIC] [TIFF OMITTED] T2213B.255
    
    [GRAPHIC] [TIFF OMITTED] T2213B.256
    
    [GRAPHIC] [TIFF OMITTED] T2213B.257
    
    [GRAPHIC] [TIFF OMITTED] T2213B.258
    
    [GRAPHIC] [TIFF OMITTED] T2213B.259
    
    [GRAPHIC] [TIFF OMITTED] T2213B.260
    
    [GRAPHIC] [TIFF OMITTED] T2213B.261
    
    [GRAPHIC] [TIFF OMITTED] T2213B.262
    
    [GRAPHIC] [TIFF OMITTED] T2213B.263
    
    [GRAPHIC] [TIFF OMITTED] T2213B.264
    
    [GRAPHIC] [TIFF OMITTED] T2213B.265
    
    [GRAPHIC] [TIFF OMITTED] T2213B.266
    
    [GRAPHIC] [TIFF OMITTED] T2213B.267
    
    [GRAPHIC] [TIFF OMITTED] T2213B.268
    
    [GRAPHIC] [TIFF OMITTED] T2213B.269
    
    [GRAPHIC] [TIFF OMITTED] T2213B.270
    
    [GRAPHIC] [TIFF OMITTED] T2213B.271
    
    [GRAPHIC] [TIFF OMITTED] T2213B.272
    
    [GRAPHIC] [TIFF OMITTED] T2213B.273
    
    [GRAPHIC] [TIFF OMITTED] T2213B.274
    
    Mr. Price. Thank you very much.
    Mr. Hutton.
    Mr. Hutton. Thank you, Mr. Chairman. Thank you for inviting 
me here today to discuss GAO's ongoing work for this 
Subcommittee on the Coast Guard's Deepwater Program. Deepwater 
represents about 60 percent of the Coast Guard's 2009 budget 
for acquisition, construction and improvement.
    As you know, we have been reviewing the planning and 
execution of the Deepwater Program since the late 1990s, and 
over the years we have informed Congress and others of the 
problems, uncertainties and progress related to this large, 
complex acquisition.
    Today I will discuss three areas: Coast Guard management of 
the Deepwater Program, how acquisition program baselines have 
changed since 2007 and Coast Guard's efforts to manage and 
build its acquisition workforce.
    First, since we testified before you last year, the Coast 
Guard has continued to make fundamental changes in its 
management approach to Deepwater. Foremost has been steps taken 
to assume the role of systems integrator from Integrated Coast 
Guard Systems, ICGS. The Coast Guard has reduced the scope of 
work on contract on ICGS and has assigned these functions to 
Coast Guard stakeholders.
    The Coast Guard has also undertaken a reassessment of the 
ICGS proposed solution, including the capabilities and the 
number and mix of assets that it needs. Completion of this 
analysis is expected by the summer of 2009.
    No less important is the Coast Guard's decision to manage 
the program at the asset level by applying their disciplined 
program management approach found in its Major Systems 
Acquisition Manual, the MSAM. This approach can help increase 
government control and accountability for decision making. 
Previously the Coast Guard exempted the program from the 
process.
    The Coast Guard established the goal of complete adherence 
to the MSAM process for all Deepwater assets by the second 
quarter of 2009. Despite its efforts, however, the Coast Guard 
has not yet met its goal. Key acquisition management activities 
such as approved operational requirement documents and test 
plans are not in place for assets with contracts recently 
awarded or in production, and this makes it difficult for the 
Coast Guard to determine if what it is buying is meeting its 
needs.
    An improved management approach, however, has increased 
Coast Guard understanding of cost schedule and capability for 
Deepwater since the $24.2 billion baseline was established in 
2007, the second area of my discussion. As of early April 2009, 
acquisition baselines approved by DHS indicate a potential cost 
increase of $2.1 billion.
    As more realistic baselines are developed and approved for 
other assets, further cost growth may become apparent, and the 
Coast Guard, through valuation of baselines, has also changed 
its understanding of delivery schedules and capabilities of 
Deepwater assets.
    In gaining new levels of understanding in acquiring 
Deepwater assets, the Coast Guard plans to update its budget 
submissions with asset based information. However, the current 
structure of its budget submission to Congress does not provide 
certain details at the asset level such as estimates of total 
cost and total numbers to be procured, information that could 
provide decision makers and the public greater insight into the 
program. The Coast Guard has included some of this information 
in other congressional reports, but the reports are provided 
only to the Appropriations Committees.
    Moving to the third area of discussion, one reason the 
Coast Guard contracted for a systems integrator in the first 
place is because it recognized that it lacked sufficient 
experienced workforce to manage the acquisition. The Coast 
Guard acknowledges that it still faces challenges in hiring and 
retaining qualified acquisition personnel and that the 
situation poses a risk to the successful execution of its 
program.
    According to Coast Guard human capital officials, as of 
April 2009 16 percent of the Acquisition Branch positions were 
unfilled, including key jobs such as contracting officers and 
systems engineers. Even as it attempts to fill current 
vacancies, the Coast Guard plans to significantly increase the 
size of its acquisition workforce by the end of fiscal year 
2011. While the Coast Guard may be hard pressed to fill these 
positions, it has made progress in identifying the broader 
challenges it faces and working to mitigate them.
    In conclusion, it is important to note that Coast Guard 
leadership has made significant progress in identifying and 
addressing the challenges and assuming the role of systems 
integrator for the Deepwater Program. The Coast Guard has 
continued to build on this progress by starting to follow a 
disciplined management approach.
    This approach is improving the Coast Guard's knowledge of 
what is required to meet its goal and is gaining a better 
understanding of needed capabilities and associated costs, 
insight that should enable the Coast Guard and the Congress to 
execute better decision making and oversight.
    However, until the Coast Guard gains a thorough 
understanding of what it is buying and how much it will cost 
and is able to put in place the necessary workforce, it will 
continue to face risk in carrying out this multi-billion dollar 
acquisition.
    Mr. Chairman, this concludes my statement. We plan to issue 
a more detailed report later this summer, and I might add we 
also are doing this work for the Senate Appropriations 
Committee.
    I would be happy to answer any questions you or other 
Members of the subcommittee may have.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2213B.275
    
    [GRAPHIC] [TIFF OMITTED] T2213B.276
    
    [GRAPHIC] [TIFF OMITTED] T2213B.277
    
    [GRAPHIC] [TIFF OMITTED] T2213B.278
    
    [GRAPHIC] [TIFF OMITTED] T2213B.279
    
    [GRAPHIC] [TIFF OMITTED] T2213B.280
    
    [GRAPHIC] [TIFF OMITTED] T2213B.281
    
    [GRAPHIC] [TIFF OMITTED] T2213B.282
    
    [GRAPHIC] [TIFF OMITTED] T2213B.283
    
    [GRAPHIC] [TIFF OMITTED] T2213B.284
    
    [GRAPHIC] [TIFF OMITTED] T2213B.285
    
    [GRAPHIC] [TIFF OMITTED] T2213B.286
    
    [GRAPHIC] [TIFF OMITTED] T2213B.287
    
    [GRAPHIC] [TIFF OMITTED] T2213B.288
    
    [GRAPHIC] [TIFF OMITTED] T2213B.289
    
    [GRAPHIC] [TIFF OMITTED] T2213B.290
    
    [GRAPHIC] [TIFF OMITTED] T2213B.291
    
    [GRAPHIC] [TIFF OMITTED] T2213B.292
    
    [GRAPHIC] [TIFF OMITTED] T2213B.293
    
    [GRAPHIC] [TIFF OMITTED] T2213B.294
    
    [GRAPHIC] [TIFF OMITTED] T2213B.295
    
                    PERFORMANCE OBJECTIVES AND GAPS

    Mr. Price. Thank you very much. We will now proceed to 
questions. Admiral, focusing on your current operational needs, 
how do you assess those and what kind of indicators you using 
in communicating what those needs are? Much of the discussion 
of Coast Guard operations always focuses on what you call 
``gaps'', patrol boat mission hour gaps, maritime patrol 
aircraft mission hour gaps, major cutter mission hour gaps and 
so forth. And of course the idea is to reflect a shortfall in 
the number of mission hours needed by a particular boat or 
aircraft to do a critical job.
    I do not believe we have had an update for over a year now 
in exactly the kind of gaps that you estimate, but assuming 
that they have not changed in great magnitude, it is unclear to 
me to what extent these gaps actually reflect the reality of 
the Coast Guard's needs. I hope you can understand what these 
gap estimates are, where they stand in relation to your overall 
assessment of mission capability.
    The Coast Guard has acknowledged that it is only able to 
deploy its patrol boats for example and their crews to meet 43 
percent of the total patrol hour needs. This reflects a 400,000 
hour patrol boat mission gap so-called.
    The Coast Guard's assessments, though, of its overall 
missions capability do not seem to reflect these gap 
assessments, and that is what I want to ask you about. The 
Coast Guard claimed in a response to this Committee that it was 
nonetheless meeting its program objectives basically for 
maritime security. The Coast Guard indicated that their 
requirements are being met by taking a layered approach using a 
number of different resources, but of course some of those 
resources are precisely the ones where the gaps have been 
identified.
    So I would appreciate your helping us understand this. What 
do you mean when you say your objectives are being met and that 
they are being met by using this layered approach? And how 
congruent is that or how does that measure up alongside the gap 
numbers that we have been given? How do you assess whether you 
are meeting the performance objectives and how does that relate 
to the way the Coast Guard numbers determines the number of 
patrol hours that it needs?
    Admiral Allen. Mr. Chairman, those are all very good 
questions. If I could give you a little bit of a retrospective?
    We were provided a baseline performance level with the 
Integrated Deepwater System when we awarded the contract. It 
was clear following the events of 9/11 that our operating 
environment had changed. In 2005, the Coast Guard conducted 
what we called a performance gap analysis, and that provided 
the baseline that we have used since then in talking about 
either aircraft, cutters or patrol boats.
    I agree with you there is ambiguity regarding our 
performance, what it is we are trying to do out there, where 
these gaps are and what they actually mean. Part of that 
relates to the fact that our current performance indicators 
predate 9/11, and I think a lot of them need to be reevaluated.
    What we need to do is go back and take a look at the 11 
missions the Coast Guard is statutorily required to conduct 
right now. It has been since 2005. As we all know and as was 
stated in the opening statements, there has been a fundamental 
change out there in the threat environment we are looking at.
    And I am not quite sure that the performance indicators 
that we use right now, whether it is marine safety deaths, 
lives saved, migrants interdicted, that have been basically in 
place in the Coast Guard since before 9/11, before we went into 
the Department of Homeland Security, are giving us the right 
calculus to be able to reconcile the demand for hours out there 
versus those performance parameters.
    A couple of examples to go with that. While we have lost 
patrol boat hours, the threat in the Straits of Florida of 
illegal Cuban migration has actually dropped, so while there 
are fewer hours to be devoted to that the threat has decreased. 
In fact, we see a diversion of Cuban migrants now actually 
entering through the southwest border through Mexico.
    Those types of changes in our operating environment are not 
adapted very well to the performance gap analysis or our 
performance measures. For that reason, we have initiated a 
fleet mix analysis to try and re-baseline where we are at, and 
we will be working on that through the next year.
    I cannot give you a plain answer right now, but in my view 
there is a disconnect between our performance measures and the 
baseline that we established in 2005, sir.
    Mr. Price. Well, thank you. That does help clarify the 
possible discrepancies that we see sometimes in the assessments 
of mission capabilities. We take these gap figures very 
seriously. When you say that only 43 percent of the total 
patrol hour needs are being met, that is a warning sign, and of 
course----
    Admiral Allen. Yes, sir.
    Mr. Price [continuing]. The assessment of that underlies a 
lot of the funding that we devote to building up these 
capabilities.
    Are you saying that these numbers are not all that they 
appear to be? I mean, what kind of major qualifying factors are 
we talking about here when you come in and say that despite 
these gaps, the mission requirements are basically being met or 
the layered approach that results in their being met?
    Admiral Allen. Yes, sir. What that means is where we might 
have a Medium Endurance Cutter or patrol boat we might be using 
another platform to fill those hours to fill that mission 
effect.
    For an example, we not routinely, but when we need to, we 
will move a buoy tender into a place where we might have a 
Medium Endurance Cutter or patrol boat and have them actually 
do a law enforcement patrol or activities, whether it is 
migrant interdiction or fisheries, because that is a platform 
we have to apply to that mission set to fill those hour gaps.
    We have on many occasions, especially since the 123s were 
removed from service, used buoy tenders to do law enforcement 
operations. That would be one of the coping mechanisms to 
provide those hours, sir.
    Mr. Price. Mr. Hutton, do you have any comment on the kind 
of measures that we are talking about and the way they have 
been utilized? The Admiral of course has said that the more 
sophisticated indicators are on the way or a revised system for 
measuring mission capabilities. How does the work you and your 
agency have done reflect on this?
    Mr. Hutton. Thank you, Mr. Chairman. That particular issue 
is handled by one of my colleagues at GAO.
    I am pretty much focusing on the Deepwater Acquisition 
Program, but we would certainly be happy to work with you or 
your staff to provide a detailed answer to any particular 
question you might have.
    Mr. Price. Well, to the extent the work that you have done 
is relevant and pertinent to this line of questioning, I would 
appreciate your furnishing that for the record----
    Mr. Hutton. Certainly.
    Mr. Price [continuing]. And then of course we will follow 
up.
    Mr. Rogers.

                        NATIONAL SECURITY CUTTER

    Mr. Rogers. Let me focus on the National Security Cutter, 
if you do not mind. As I understand it, a total of eight of 
these cutters are planned to replace the aging 378 foot High 
Endurance Cutters.
    I have seen some of the material that depicts the 
deterioration of those cutters, rusting areas where you can see 
straight through to the sea and so on. Some of these are more 
than 50 years old I understand, Admiral. Is that correct?
    Admiral Allen. The 1940s. Yes, sir.
    Mr. Rogers. So you need a total of eight to replace these 
old cutters. The first was commissioned August 4, 2008. I am 
told that number two is about 75 percent complete.
    Admiral Allen. That is correct, sir.
    Mr. Rogers. And funding for numbers one through three is 
almost complete less some post delivery costs, and then the 
2009 Act that we passed provided $353.7 million for number 
four, but that did not fully support the cost to award a 
contract for production due to overruns attributable to 
increases in costs of material and labor.
    The stimulus bill did not address that shortfall, which is 
I think about $224 million. Correct me if I am wrong on these 
numbers.
    Admiral Allen. Go ahead, sir.
    Mr. Rogers. Therefore, you have to rely upon funds in the 
2010 budget to award a contract for number four. Is that right?
    Admiral Allen. Yes, sir.
    Mr. Rogers. Now, the number four costs I am told are 
estimated to be just over $600 million, but apparently what 
2010 needs is monies to award the contract on number four, and 
we have to then figure out numbers five through eight.
    I am wondering. If you do not get the monies in the 2010 
budget what impact would that have on your ability to negotiate 
a reasonable fixed price contract for numbers five through 
eight?
    I mean, it seems to me like if you can get the monies in 
2010 it would give you a bargaining position with Northrop 
Grumman on the costs at a fixed rate for five through eight. Am 
I wrong or crazy about that?
    Admiral Allen. Mr. Rogers, it is always much preferable to 
lock in a quantity and a price at an earlier date, especially 
for the purposes of a firm fixed price contract, even one with 
an economic price adjustment.
    It is our intent to put number four on contract in 2010, 
and depending on the outcome of the budget deliberations we 
would anticipate trying to achieve the best mix of stabilized 
requirements, stabilized costs and stabilized funding.
    In the best of all possible worlds, you would want to put 
as many hulls under contract under fixed price as you could, 
sir.
    Mr. Rogers. Well, what would it take in 2010 to keep the 
cutter procurement on track and its cost reasonable? What 
dollar figure would it take?
    Admiral Allen. Sir, I would be glad to answer for the 
record. It depends on whether or not you are awarding four or 
awarding a combination of four and five. We can give you that 
information, sir.
    There are two different numbers because there is a 
different price if you are only ordering for one ship, sir.
    Mr. Rogers. You do not have that available today?
    Admiral Allen. I can get it to you. Yes, sir. I do not have 
it in front of me right now.
    Mr. Rogers. Okay. I would like to know that today if we can 
do it, if you have it.
    Admiral Allen. Yes, sir.
    Mr. Rogers. If you would like to confer briefly, I would be 
willing.
    [Pause.]
    Admiral Allen. We will get it for you, sir.
    Mr. Rogers. Today?
    Admiral Allen. Yes, sir.
    [The information follows:]

    Under the latest acquisition program baseline (APB) for the 
National Security Cutter (NSC), finalized on December 8, 2008, 
the Coast Guard requires $281.5 million to complete National 
Security Cutter (NSC) #4. The President's Budget provides this 
funding. The supporting cost estimates for the current APB 
assume $587 million to procure NSC-5 (including $107.1 million 
for Long Lead Time Materials and $470 million to award a 
production contract to the shipbuilder). The 2010 Request 
recognized that future procurements will more successfully meet 
cost and schedule milestones if risks and unknowns are reduced 
by fully completing testing and shakedown of the lead ship. 
Coast Guard anticipates NSC-1 full acceptance in early 2010, 
which would trigger procurement of the next cutter (NSC-5) in 
2011.

                 SOUTHWEST BORDER DRUG CONTROL EFFORTS

    Mr. Rogers. Yes. Let me switch gears quickly. The Mexican 
drug war, the border, the border war, if you will. What role, 
if any, or what role does the Coast Guard play in the drug 
smuggling operations across the southwest border?
    Admiral Allen. A fairly significant role, sir, but when I 
consider the southwest border I not only consider the border 
with U.S. and Mexico. I consider the border between Mexico and 
Central America.
    We have operations at both ends of the border on our 
maritime boundaries with Mexico, but, sir, quite frankly, when 
I look at the drug flow, and I am speaking now as not only the 
Commandant of the Coast Guard, but the Chairman of the 
Interdiction Committee. Our best course of action is not to 
allow drugs from South America to get to Central America or 
Mexico. It is much harder to stop them the further north they 
get.
    It is the Coast Guard's position and I believe it is the 
position of most of the agencies that are working down with 
Joint Interagency Task Force South out of Key West that the 
closer we can take down these drugs to the source the more 
effective and efficient we will be. When those drugs enter 
Mexico, there will be a difficulty in stopping them. It 
increases astronomically.
    Mr. Rogers. Well, I am told that 90 percent or so of the 
heroin entering this country and cocaine and others, that 90 
percent of that coming into the country comes across the 
Mexican border.
    If you know, what percent of the drugs coming across that 
border come into Mexico by way of sea versus land? Do you know?
    Admiral Allen. Yes, sir. The most prevalent indicator is 
the flow of cocaine from South America north.
    Somewhere anywhere between--it varies any particular year--
85 up to 95 percent of the cocaine entering Mexico comes by 
noncommercial maritime means from South America. That would be 
fishing vessels, Go-Fast boats, the recently introduced self-
propelled semi-submersibles.
    There is some trafficking via containers and aircraft and 
other routes, but without a doubt the predominance of drugs 
moving from South America to Mexico is on noncommercial 
maritime means, sir.
    Mr. Rogers. And are you involved in the interdiction of 
those drugs on the seas?
    Admiral Allen. Yes, sir. It is a combined partnership, and 
it is very, very effective.
    As a result of the National Defense Authorization Act of 
1989, the Department of Defense was authorized to do detection 
and monitoring as part of the war on drugs. We work in 
combination with Joint Interagency Task Force South under U.S. 
Southern Command.
    They detect and monitor, and when a vessel is found that 
requires a law enforcement boarding that asset is shifted to 
the local Coast Guard command, either the one out of Miami or 
California, and the Coast Guard executes what we would call an 
in-game and does the boarding under our law enforcement 
authority. It is one of the most effective operations I have 
encountered in my career, sir.
    Mr. Rogers. You are maintaining a patrol boat presence both 
on the east and west coasts of Mexico?
    Admiral Allen. Yes, sir, we are, but I would also add that 
it is not just the United States Coast Guard. It is our Navy 
partners. We also have international coalition partners, and we 
also are supported by aviation assets from Customs and Border 
Protection. They are critical to our success, sir.
    Mr. Rogers. Are you getting good cooperation from the 
Mexican Government?
    Admiral Allen. We are, sir. They are great partners, and we 
have had some considerable successes.
    In the last year, one of the more noteworthy successes was 
the discovery of a self-propelled semi-submersible several 
hundred miles off the coast of Mexico that we had no surface 
assets to respond to. It was located by one of our maritime 
patrol aircraft.
    We provided that information to the Mexican Government. 
They actually launched a response in less than an hour and had 
their Special Forces fast rope down on a self-propelled semi-
submersible that was actually moving in an extraordinary 
operational feat.
    It is indicative of the level of cooperation and their 
intent to deal with this problem, sir.
    Mr. Rogers. Thank you.
    Mr. Price. Thank you. Ms. Lowey.

                           SMALL BOAT THREATS

    Ms. Lowey. Thank you, Mr. Chairman, and thank you, 
gentlemen.
    Last November a group of terrorists attacked multiple 
targets in Mumbai. The terrorists were believed to have entered 
the area in relatively small speedboats.
    Admiral Allen, does the Coast Guard view the travel methods 
used by the Mumbai terrorists as a potential threat to the 
United States, and what is the Coast Guard doing to prevent a 
similar illegal entry from occurring in the United States?
    I would think that the response to this potential threat, 
terrorists using small vessels to enter the United States, has 
similarities to the Coast Guard's work to prevent drug 
smugglers in Go-Fast boats from entering the United States.
    So when the Coast Guard, Customs and Border Protection or 
any other agency identifies and pursues a suspicious vessel 
headed toward the United States, in what percentage of 
instances are those vessels intercepted? If you can just 
discuss the whole issue and what you are doing about it?
    Admiral Allen. Yes, ma'am. Thank you very much for the 
question. Let me provide some context.
    Internationally--we are talking about international 
maritime traffic right now--most of the regulatory schemes and 
controls that are placed on vessels apply to vessels that are 
greater than 300 gross tons. That is pretty much the cutoff for 
international convention and rulemaking.
    A 300 ton gross vessel, just to give you an idea, would be 
somewhere between a 60 or an 80 foot vessel. Below that 
threshold is up to the different nations to apply domestic 
controls over them, although we are talking with the 
International Maritime Organization about security issues with 
small vessels less than 300 gross tons.
    In this country there are three groups of vessels that 
predominate that area below 300 gross tons: First are 
recreational boats, the second are fishing vessels, and the 
third are uninspected tow boats and work boats. You have a 
lower level below that of personal watercraft and boats that 
are not powered by engines.
    In general, these three classes of vessels are loosely not 
regulated. They are not required to carry any locating devices, 
and in some cases there is not an equal application of operator 
licensing across all the states. We have a challenge in 
boarding these vessels and identifying who is operating them, 
the competency to operate them, and in this case it is not only 
a security issue, but it is a safety issue as well.
    I have long regarded, since I became Commandant in 2006, 
this being probably the area where we need to mature the 
maritime security regime in this country. You asked for facts 
and figures. It would be difficult to give you that because we 
do not have any persistent radar coverage around the coast of 
the United States as we do with the air traffic control system.
    If you were flying a small plane to the United States and 
you got to 200 miles and you had not checked in and were not 
emanating from a transponder, you would be met with an 
interceptor and your intentions would be questioned.
    We do not have that ubiquitous radar coverage or 
communication system that allows us to do that, and I think 
that is one of the persistent questions moving forward about 
where we are going to go in this country, ma'am.

                          SMALL BOAT SECURITY

    Ms. Lowey. Well, that is pretty depressing news.
    Admiral Allen. That is reality.
    Ms. Lowey. Well, but what do we do with the reality? 
Putting aside the international cooperation, and you mentioned 
that those regulations are not in place, given the Mumbai 
incident or even dealing with the drugs, what do you recommend 
we do and how long does it take and what can this Congress do 
about it?
    Admiral Allen. The steps we have taken since 9/11 are as 
follows: First of all, we have established advance notice of 
arrival requirements for shipping, and we have the crew, 
passenger and cargo manifests to see if there are any issues 
associated with those vessels greater than 300 gross tons. We 
have increased----
    Ms. Lowey. No. I am talking about the smaller vessels.
    Admiral Allen. We have increased the advance notice of 
arrival requirements for any vessel that is reporting in from a 
foreign country that is a foreign flag vessel. They have to 
give the same requirement now, so we have lowered that down to 
include almost all vessels that are coming in from foreign, but 
that is a voluntary reporting based on regulations that have 
been issued.
    What we do not have is surveillance so you can reconcile 
what is out there, who you know is there, are there anomalous 
vessels out there that need to be dealt with further offshore 
that might present a threat. To do that you are ultimately 
going to need a system of radars, in some cases video cameras, 
anomaly detection devices that can tell you if something is 
moving where it should not be. That has to be centrally watched 
at one of our sector command centers.
    We are in the process of building out integrated operation 
centers and developing devices that can surveil and then bring 
in automated identification system information from the vessels 
that are transmitting, but it is an incremental process of 
putting that together and we are at the rudimentary stages of 
doing that, ma'am.
    Ms. Lowey. Mr. Chairman, I would strongly suggest that we 
get an in-depth briefing on this issue. There may be some 
information that you can share with us in another forum. But I 
think given what happened in Mumbai, this is a major threat to 
the homeland, and I frankly would like to pursue this issue and 
work with you if necessary in another setting to get specifics.
    Admiral Allen. Yes, ma'am. About two years ago we held a 
small boat security conference here in Washington and we looked 
at four scenarios. One of them was the use of small boats as a 
platform for a standoff weapon, such as a shoulder-held 
missile. The other one was a small boat used as a way to bring 
a weapon of mass destruction to the country.
    The third was use of a small boat for a waterborne provided 
explosive device. The fourth scenario was the Mumbai scenario 
where a group of terrorists were actually delivered by small 
boat.
    We looked at ways to increase reporting of U.S. citizens 
operating on the waterway. We established something called 
America's Waterway Watch so U.S. citizens can report that.
    But, frankly, until we get to the detection monitoring 
sorted out and are able to identify targets of interest as a 
fixed regime in this country, we are still going to be somewhat 
at the mercy of a very large boating population out there that 
moves uninhibited.
    Ms. Lowey. Have you requested that funding from this 
committee?
    Admiral Allen. We have. We have requested funding for 
interagency operation centers, the National Automated 
Identification System and the build out of our new sector 
command centers, ma'am. That is what that is intended to do. 
Yes.
    Mr. Price. We will certainly work with----
    Ms. Lowey. Thank you.
    Mr. Price [continuing]. The gentlewoman in formulating our 
budget certainly for next year, but also determining what 
further information we need.
    Ms. Lowey. Thank you so much, Mr. Chairman. Thank you, sir.
    Mr. Price. Thank you. Mr. Kirk?

                       BALLAST WATER REGULATIONS

    Mr. Kirk. Thank you, Mr. Chairman. I have said to Admiral 
Allen quite a bit in the past that I would not be here but for 
the Coast Guard, having been rescued as a 16-year-old from Lake 
Michigan.
    I want to first say to you that we are very proud of what 
Station Wilmette and Air Station Chicago have done in southern 
Lake Michigan. We had about 13 people rescued out of Waukegan, 
and then we had a very dramatic heliborne rescue of the Fin 
Seeker, so seven people were saved. It was really outstanding 
flying by Lieutenant John McWilliams, who is permanently based 
in Traverse City, but down with us.
    Admiral Allen. Yes, sir.
    Mr. Kirk. Also Joe Previk at Waukegan is doing a great job, 
so I wanted you to know about that.
    One of the great concerns we have is alien species in the 
Great Lakes. Canada and the United States jointly operate in 
the St. Lawrence Seaway. We have about 60 percent of the alien 
species in the Great Lakes have been brought in by foreign 
freighters.
    We now have a set of conflicting and uncoordinated ballast 
water regulations coming forward from a number of states. I am 
wondering how are we doing in accelerating the Coast Guard 
sign-off or standardization of ballast water regulations so 
that we can have a coordinated federal response so that when we 
talk to the Canadians we are all speaking with one voice?
    Admiral Allen. Yes, sir. First of all, I thank you for the 
question, and I agree completely. We need a coordinated 
response.
    Over the last several years we have been working on a new 
ballast water standard. One of the issues is you are going to 
have industry develop equipment that can either treat ballast 
water or however you want to deal with it. You have to 
establish a standard of which how many organisms per 
milliliters of water----
    Mr. Kirk. Right.
    Admiral Allen [continuing]. That you want it to be able to 
be effective to. We have done environmental impact studies. We 
are ready to move this forward.
    Right now the rule is under review with several other 
rulemakings under the new Administration, and we would hope to 
move that forward as soon as we can, sir.
    Mr. Kirk. Okay. As one Navy guy to one Coast Guard guy, 
could we look lively here and get back to me?
    Admiral Allen. Yes, sir. Full speed.

                    CHICAGO SHIP AND SANITARY CANAL

    Mr. Kirk. Another concern that we have is the reason why 
the City of Chicago first existed is because we built a canal 
from Lake Michigan into the Mississippi Basin. It is called the 
Chicago Ship & Sanitary Canal. The Mississippi Basin is 
completely contaminated with the Asian carp, which has not yet 
hit the Great Lakes ecosystem. When it does, if it ever does, 
we would have a radical change in what we have.
    We have an Army Corps barrier that basically electrifies 
that canal, but they are worried a little bit about ships going 
through this electric barrier and so it has just started 
operation at a rate of one volt per inch, which the scientists 
tell us may not be enough to stop the juvenile fish coming 
through the canal that would then radically alter the ecosystem 
for about--let me speak politically--128 congressional 
districts.
    Admiral Allen. Roger, sir.
    Mr. Kirk. Right. So I am wondering if we could have you 
look into having the Coast Guard allow the voltage to go up and 
just tell everybody when you are passing through this one 200-
yard stretch of the canal stay in the boat, go quickly through, 
because if the Coast Guard forces the voltage to be too low you 
have a world of problems on another end that you did not 
realize.
    Admiral Allen. Yes, sir. As you may know, the initial 
operation of the barrier is a one volt per inch, and there is 
an issue about whether or not the more frisky juvenile fish may 
try and get through there.
    Mr. Kirk. Yes.
    Admiral Allen. As you know, there is a second phase of this 
that would raise the voltage to four.
    Mr. Kirk. Right.
    Admiral Allen. We are looking at a trial on that this 
summer working with the Corps of Engineers. As you know, they 
are leading the way on this and we are a partner with them.
    As you know, some of the things to look at are the 
potential personal hazards or the potential that there might be 
some kind of a spark or ignition source for any kind of vapors. 
We are working very close and we understand the threat there, 
and we will be as diligent as we can, sir.
    Mr. Kirk. Everybody that uses this, if you put up a big 
sign saying this is the Asian carp barrier that you all know 
about and the reason why this is here is to prevent a radical 
change to the entire Great Lakes ecosystem so stay in the damn 
boat when you are going through.
    Admiral Allen. Yes, sir. We are committed to testing at the 
four volts this summer, sir.

                      RESCUE 21 IN THE GREAT LAKES

    Mr. Kirk. Okay. Last, Rescue 21. You know, obviously this 
may be inaccurate, but this is the Coast Guard's version of 
Link 16 and the interoperability, and we are all about that.
    Rescue 21 is not coming to the Great Lakes until even if 
this Administration is re-elected until they are just about 
packing their bags and bolting. I am wondering how we can wait 
that long in one of the most used and recreational areas. We 
are only talking about nine million people on the south Lake 
Michigan shoreline. Is there any way we could accelerate the 
deployment of Rescue 21 so it is not being put in place as even 
a re-elected President Obama is leaving office?
    Admiral Allen. Yes, sir. Well, it is a little sooner than 
that. What we are looking right now is, and the four sectors we 
are looking at are Detroit, Buffalo, Sault Ste. Marie and 
Sector Lake Michigan. The first one starts in November 2010. 
The fourth one will be done December 2011 under the current 
plan.
    Mr. Kirk. Right.
    Admiral Allen. Under the original layout of Rescue 21 we 
went out and we assessed gaps all around the country and we 
identified 88 gaps where there was not proper coverage with the 
existing VHF FM system. There are 12 of those in the Great 
Lakes that this would address.
    The only barriers to moving the schedule to the left, are 
funding and issues we are running into now with tower 
placements and the environmental issues associated with that. 
But the only two constraints in accelerating anything in Rescue 
21 are funding and environmental reviews, sir.
    Mr. Kirk. Mr. Chair, just to finish, in the 88 gaps I just 
hope--you know, we always want to save the largest number of 
net Americans.
    My scientific analysis of the southern Lake Michigan in 
June is there is about a gabillion boats out there, so my guess 
is we have a very high number of Americans on the water in this 
one AOR and so I am hoping that it will be quicker.
    Admiral Allen. Yes, sir.
    Mr. Kirk. Thank you.
    Mr. Price. Thank you. Mr. Serrano.

                            CUBAN IMMIGRANTS

    Mr. Serrano. Thank you, Mr. Chairman, and thank you, 
gentlemen, for your testimony and for your service to our 
country.
    I have a question to ask you, but before I do that your 
testimony inspires another question. You said that there are 
folks from Cuba coming through Mexico?
    Admiral Allen. Yes, sir.
    Mr. Serrano. Traditionally they would come to Florida. As 
you know, the Cuban Adjustment Act allows Cubans to be the only 
people to my knowledge in the world that by touching land here 
can stay, are not considered illegal immigrants and can apply 
for citizenship sooner, earlier than anyone else.
    Does it matter how they get here, to your knowledge?
    Admiral Allen. No, sir, it does not. They just have to be 
present.
    Mr. Serrano. So as long as they get here. It does not 
matter if they come through Mexico or how else they get here?
    Admiral Allen. Yes, sir. Not to extend past my area of 
knowledge from the Coast Guard into immigration, but----
    Mr. Serrano. Right.
    Admiral Allen [continuing]. Once they are present in the 
country they have the opportunity to be paroled in for a year 
and then have their status adjusted.

                       NORTHERN BORDER PRIORITIES

    Mr. Serrano. Okay. Thank you. We spend a lot of time on 
this Committee, and rightfully so, discussing the southern 
border, but there is a lot of work also to be done on the 
northern border. How do your priorities differ on the two 
borders? We know that the northern border has a lot of 
waterways----
    Admiral Allen. Yes, sir.
    Mr. Serrano [continuing]. Whereas the southern border does 
not except for a very famous river, no?
    Admiral Allen. Yes, sir.
    Mr. Serrano. How does that differ? How do those priorities 
differ?
    Admiral Allen. Well, you are correct, sir. There is a lot 
more waterway boundaries on the northern border.
    Some of the things we are doing on the northern border are 
very important. Both borders are important to the Coast Guard. 
If I could take the Great Lakes first, that is a closed 
transportation system. We share the waters with Canada.
    Recently in the last several years we have done a couple 
things to enhance our ability to protect the security of the 
nation up there. We have integrated border enforcement teams. 
They are called IBETs. These are basically multi-agency teams 
that operate at the various nodes, whether it is in Buffalo or 
Detroit or the other areas up there.
    More recently we have started discussions with Customs and 
Border Protection. As we start to look to expand what they need 
to do for border protection to the northern border, we have all 
agreed that to set up a prototype joint Coast Guard CBP 
operation in Detroit might start yielding some lessons learned 
that would inform us how we need to deploy and conduct 
operations on the rest of the border.
    In addition to that, over the last two to three years we 
have evolved something called a ship rider program with the 
Canadians. This is a program that the Coast Guard has entered 
into with Canada that allows us to put a boat out there with 
Coast Guardsmen on it and also Royal Canadian Mounted Police, 
and you basically can patrol right down the boundary. If you 
have a problem on either side of the border it can be attended 
to with the people that are on there.
    It has proven extremely effective. We are looking to put 
that into effect this coming winter for the 2010 Winter Games 
that are going to be going on in Vancouver, which will cause a 
significant increase in traffic through the Straits of Juan de 
Fuca.
    It is an extraordinary relationship that has really matured 
over the last three years. Are we where we need to be? Probably 
not, but I can tell you the progress has been good so far, and 
we are happy with where we are, sir.

                          WINTER OLYMPIC GAMES

    Mr. Serrano. So that relationship for the Games is one that 
you established with Canada?
    Admiral Allen. Yes, sir.
    Mr. Serrano. Now, is there any other involvement from any 
of the countries that would be visiting through the teams that 
they will be bringing there?
    Admiral Allen. Well, there is a separate security chief for 
the Olympics that is taking care of the venues themselves.
    What we are concerned with is if you look at the Straits of 
Juan de Fuca the inbound channel is in U.S. waters. The 
outbound channel is in Canadian waters. We jointly manage that 
waterway with a vessel traffic service in Seattle and a vessel 
traffic service in Tofino, Canada.
    What we are doing is this is a complete multinational joint 
operation in how we are managing that waterway for the 
Olympics, sir.

                          EXPANSION OF PIRACY

    Mr. Serrano. Right. Another quick question. We have all 
read and it is in the news day in and day out, the whole issue 
of the pirates at the high seas. This will probably spur 
another 20 Hollywood movies about pirates, you know.
    But are there any signs, without getting into the 
information that I know you cannot give us in public; any signs 
of this kind of action taking hold anywhere else other than in 
that particular part of the world?
    Admiral Allen. Yes, sir, there are. In past years we did 
have some problems in the Straits of Malaca, which separates 
Indonesia and Singapore and Thailand. It is a critical shipping 
route.
    The incidence of piracy in the Straits of Malaca have 
dropped dramatically in the last year and half because local 
regional agreements had been made for doing monitoring and 
surveillance and passing information to the ships that are 
going through there.
    Those kind of regional constructs need to be developed 
around the Horn of Africa, but there are a lot of challenges 
associated with that due mostly to the lack of a viable 
political structure in Somalia, which is the real source there. 
In this case piracy is a symptom of the lack of a stable 
central government.
    I would tell you there are also issues regarding piracy in 
the Niger delta on the west coast of Africa, and we have had 
issues involving U.S. flag offshore supply vessels being 
involved either with piracy or just criminal law enforcement--I 
mean criminal activities--from the gangs and the pirates that 
operate there, so it is an issue, sir.
    Mr. Serrano. Fine. Thank you so much. Thank you, Mr. 
Chairman.
    Mr. Price. Thank you. Ms. Roybal-Allard.

                          SMALL VESSEL THREAT

    Ms. Roybal-Allard. Admiral Allen, I would like to follow up 
just a little bit on the issue that was raised by Ms. Lowey 
regarding the small vessel threat. This is something, an issue 
that was raised by the Port of Long Beach.
    They mentioned that a year had passed since the DHS had 
released the Coast Guard's document entitled the Small Vessel 
Security Strategy, yet according to the officials at the Port 
of Long Beach they have seen no concrete action taken to 
address the vulnerability posed by the small vessels, and they 
contend that rulemaking on a national level is necessary to 
mitigate the small boat threat.
    Can you elaborate if not now, and I know we are going to 
have another meeting on the small boat threat, but elaborate a 
little bit on what steps are being made to implement this small 
vessel security strategy, and do you think these national 
regulations make sense?
    Admiral Allen. Yes, ma'am. I will tell you right up front--
and I will tell you why in a minute--this is a very, very 
difficult question.
    The strategies that were developed for small vessels as a 
result of our conference have to do with cooperation, 
information sharing, people working together to try and manage 
the waterway and report what is going on.
    The one issue that we have had trouble addressing, and I 
will try and represent the boating community on this because 
there is not general agreement, is about how far should you 
drive down a carriage requirement for a transponder like piece 
of equipment so you can actually locate where every vessel is 
at? Should you have exclusion zones where you do not want small 
vessels operating?
    We have an exclusion zone over the national capital for 
general aviation aircraft. And in general the discussion 
revolves around I would say how much of the aviation paradigm 
can you bring down to the water?
    There is a great tradition in this country of autonomy and 
freedom of movement on the water. There is a great resistance 
in the recreational boating community and the fishing vessel 
community to regulations and having their movements restricted.
    The technologies are there. There are other countries in 
the world that require tracking devices clear down to the jet 
ski level, and countries like Singapore and Ecuador have more 
stringent transponder carriage requirements than we do.
    I have talked extensively with the boating safety public 
and the boating public for the last three years. This is 
clearly an issue that they have concerns about. To go forward 
would require an extensive amount of consultation and quite 
frankly just some open discussion about their risks and the 
threats that are involved and the willingness to move forward 
on it.
    I would be happy to continue that discussion. It is a very, 
very tough discussion, ma'am.
    Ms. Roybal-Allard. Okay. Thank you. I would just like to 
mention that during the break I traveled to Latin America. I 
was in Mexico, Colombia, Panama and Brazil. Everywhere we went, 
one of the issues was national security and drug trafficking, 
and, in every country, they had high praise for the Coast Guard 
and the partnership that they have with the Coast Guard. In 
fact, they believe it was in Panama, they said, they needed 
more Coast Guard presence.
    So I wanted you to know that you have a very good 
reputation in these countries, and they are very, very grateful 
for the partnership and the work that you are doing to help 
them to address the problems that they have.
    Admiral Allen. Thank you, ma'am.

                         ACQUISITION WORKFORCE

    Ms. Roybal-Allard. Mr. Hulton, you talked a little bit 
about the fact that only 16 percent of the positions in the 
Acquisitions Directorate are currently unfilled, and it is my 
understanding that the Coast Guard has projected that it is 
going to need a significantly larger acquisition workforce by 
the end of 2011. Could you elaborate just a little bit more on 
what the challenges are that you are facing in terms of hiring 
acquisitions staff and what is being done to address those 
challenges, or is there something that we need to do, as a 
Committee, to help you to address them?
    Mr. Hulton. Thank you. I will start with, first, that 
acquisition workforce is a federal government issue, more 
broadly. I know that DoD is looking to fill a lot of 
acquisition workforce positions, as well as the Coast Guard or 
the broader DHS. We have done some work, for example, last 
November, just for contracting specialists types of positions. 
While we noted that the Coast Guard had a gap of, say, 16 
percent, in some of the components in DHS, it is even larger. 
It might be closer to 30 percent.
    So, more broadly, it is an issue that the federal 
government is trying to wrestle with and trying to get more 
people.
    I know that there are certain authorities out there. 
Reemployed annuitants is one way that some government retirees 
that have a lot of acquisition workforce experience can come 
in. When we did some work--again, I think that report was 
issued last November--I believe there were two or three people 
that the Coast Guard had brought in roughly by that time, 
sometime in late 2007 or something like that.
    That is one avenue, but I do not think that alone is going 
to get you to where they need to be. They are supplementing, as 
best they can, with some contractor support, and it is not that 
that is bad because you have to execute your mission, and you 
need to get that kind of support wherever you can, but they 
also are trying to leverage other federal agencies because the 
acquisition workforce covers many different types of skills, 
whether it be systems and engineering, logistics, cost 
estimating.
    So I believe they are looking for ways to supplement and 
try to fill some of those gaps, either with other government 
agencies arrangements or other use of contractors, but it is an 
issue, and I think, as the Coast Guard moves forward in, say, 
their Deepwater program, and they start working on more 
additional assets, their needs for acquisition workforce are 
going to increase, and I think they are challenged, but I think 
it is something that they are trying to get ahead of and 
address.
    Ms. Roybal-Allard. Is it that there are not people who have 
the qualifications for these positions? Is it the pay level? 
What is it, especially now, when people need jobs, what 
specifically is preventing the hiring of these?
    Mr. Hulton. Really, anchoring it back to some work we did, 
more broadly, at DHS last November, and some of the things that 
we understand were occurring is that, there is just a genuine 
lack of people with those skills that are trying to apply with 
the federal government. You do have contractors out there.
    We had some say that one would be better served to work for 
a contractor because of the pay. I have not done a study to 
verify the pay rates necessarily in that broad sense, but I 
think another thing that we heard was that, in a way, some 
people feel they might be competing with other agencies because 
some agencies may have different authorities than, say, DHS 
does to help support those, and maybe the commandant might be 
able to speak to some of the specific challenges that he might 
face with the Coast Guard hiring.
    Mr. Price. We have time for the Commandant to respond 
briefly, and we are going to return, I am sure, to this topic. 
I know I have some questions along these lines as well, but 
please respond briefly, if you will.
    Admiral Allen. First of all, I do not have any quarrel with 
what Mr. Hulton said. I think we are in agreement on this. Just 
a couple of comments.
    We are all going after the same labor pool, and acquisition 
reform is going on all over town right now where people who 
have contracted out services before are trying to build organic 
capability into their organizations. So, again, we are all 
trying to go after the same labor pool.
    I mentioned earlier, in my opening statement, one of the 
things we are looking at is kind of a novel approach that 
Admiral Blore has recommended, where we take senior Coast Guard 
enlisted persons and warrant officers and get them into an 
intern program and actually take military people and train them 
to be contracting officers near the end of their careers, and 
when they retire, then they are suitable for hiring as 
civilians, and we basically take the military force and train 
them first, and that becomes the seed corn, if you will, to 
increase our contracting officer strength, in addition to the 
issues that Mr. Hulton raised, and also direct hiring authority 
is something that is very, very valuable to us.
    Mr. Price. Thank you. Mr. Carter.

                            POLAR OPERATIONS

    Mr. Carter. Thank you, Mr. Chairman. Admiral, good to see 
you. Mr. Hulton, thank you for being here.
    At our hearing, a year ago, when you discussed, Admiral, 
the rising water levels near Alaska and the North Pole, this 
increased sea areas means more responsibility for the Coast 
Guard and more challenges, diplomatically and the security of 
our nation, and we read that the Russians have plans to race 
into the Arctic and claim vast regions of the Arctic for 
petroleum exploration.
    Do we have, with this, our sovereignty, our natural 
resources, on the line? Is the Coast Guard staying ahead of the 
game? Do you have the ships that can bust the ice to get up 
there to protect American interests? How are you acquiring 
these assets? Are you getting them through the Deepwater 
program, or have you got sufficient assets now? Just tell me 
about what we see as a potential problem.
    Admiral Allen. Yes, sir. Sir, what we are doing right now 
is, for the past two summers, and we will again this summer, is 
to deploy our current assets up to the north slope of Alaska to 
see how they operate in that environment. It is not totally ice 
free. There are a lot of large pieces of ice floating around, 
and you need an ice-strengthened ship, even in the summer, to 
operate up there. But we are finding out that there are 
limitations to our helicopters, small boats, and cutters that 
are not ice strengthened to operate up there.
    Later on this year, we will start producing a series of 
segments of a high-latitude study that will be developing our 
requirements to operate in those environments, including 
aircraft. There are limited airstrips up there. There are 
limitations on how you can fly a C-130 in certain weather 
conditions before the fuel starts to solidify in the tanks.
    If you are a vessel of greater draft than 22 feet, the 
closest refueling station in the United States is Kodiak, which 
is almost a thousand miles from the north slope. So there are 
issues of sustainability and endurance up there as well.
    The current fleet we do have that is capable of operating 
up there is our ice-breaking fleet. We have two polar ice 
breakers and one ice-strengthened research vessel. The POLAR 
SEA and the POLAR STAR are the ice-breaking vessels. They are 
nearing the end of their service life, 30 years old. They are 
the most powerful, conventionally powered ice breakers in the 
world, 60,000-shaft horsepower, and back-end ramming can break 
up to 21 feet of ice. They are real, real muscle movers up 
there.
    The HEALY is configured for science, mainly in the Arctic, 
and is a highly desirable asset for the National Science 
Foundation to get science up there, especially related to 
potential claims on the north slope beyond our 200-mile limit 
for Continental Shelf resources.
    The issue we have, going forward, is the current operation 
of our ice breakers and then, ultimately, what is our presence 
up there going to be required for the Coast Guard to do its 11 
statutory missions, whether you are talking about search and 
rescue, law enforcement, environmental response, whatever.
    As I have said many times in hearings, there is water where 
there did not used to be, and I am responsible for it now, and 
the question is, how do you create presence up there? Ice 
breakers can do that. We have one ice breaker that is 
operational. We had funding last year, a little over $30 
million, to start repairs to bring the POLAR STAR back into 
service. We will need to continue that at some point.
    The Administration put out a National Security Presidential 
Directive on the Arctic that expands beyond science and looks 
at other issues out there. I think that gives cause for us to 
take a look at ice breaker requirements and have a plan to go 
forward on what we are going to do with the two polar ice 
breakers, and, eventually, we are going to have to talk about 
recapitalization, sir.

                              ICE BREAKERS

    Mr. Carter. Do you have any intelligence as to how our 
resources in the ice breakers compare to what the Russian fleet 
has?
    Admiral Allen. Not well, sir. The Russians have a number of 
ice breakers. I have got a chart that actually lays out all of 
the different countries and the numbers that I would be glad to 
submit for the record, but, in addition to conventionally 
powered ice breakers, the Russians also operate nuclear-powered 
ice breakers, sir.
    Mr. Carter. Thank you. Yes, I would like to see that, if I 
could, for the record.
    Admiral Allen. Yes, sir.
    Mr. Carter. This issue seems to be one that a lot of people 
are talking about, so I appreciate your answer. Thank you.
    Admiral Allen. Yes, sir.
    [The information follows.]

    [GRAPHIC] [TIFF OMITTED] T2213B.296
    
    [GRAPHIC] [TIFF OMITTED] T2213B.297
    
    [GRAPHIC] [TIFF OMITTED] T2213B.298
    
    Mr. Price. Thank you. Mr. Ruppersberger.

                           DRUG INTERDICTION

    Mr. Ruppersberger. You have been getting a lot of 
compliments today, and they are well deserved. I think, when 
the Department of Homeland Security was stood up, one of the 
best things that happened to the Coast Guard was to leave the 
Army, Navy, Air Force, and Marines and be independent 
yourselves, and I think the fact that you are in Homeland 
Security, you have really shown how good your men and women and 
your leadership is.
    With that said, you are getting a lot of compliments, but 
it has been said, maybe in kind of in a joking way, off the 
record, we are getting all of these kudos, but, basically, we 
need more than just a hug from the Hill. I mean, we need to 
make sure that, from an appropriations point of view, that we 
get the resources we need.
    You have a tremendous amount of responsibility in safety, 
rescue, the interdiction issues. You were just talking about 
the ice issues, and you have all of the things that are 
occurring in the south.
    One area that I would like to get in first: I know, under 
your leadership, by the way, Admiral, that drug interdiction 
has done better than we have ever done so far. Is that correct?
    Admiral Allen. Well, I am not sure if it is due to my 
leadership, but we have had successive record years of 
seizures, yes, sir.
    Mr. Ruppersberger. Well, it is good to be humble, but you 
can take a little credit. Why do you think that is? Are you 
working with other agencies? Where do you think there is a 
difference?
    Admiral Allen. Number one, better intelligence, taking the 
``search'' out of search and seizure. The intelligence fusion 
function that goes in Joint Interagency Task Force South in Key 
West is unparalleled, anywhere that I have seen in the world. 
This is a gold standard for interagency operations, whether you 
are talking about drug interdiction or migrant smuggling or 
whatever.
    They have cracked the code on having our international 
partners, domestic partners, interagency, ensuring information 
when they can with the right partners and getting it into the 
hands of the operators. That is number one.
    Number two is partnerships. It is not only the Coast Guard; 
it is the Navy, Customs and Border Protection, ICE, and 
international partners--the French, the Spanish, the Canadians, 
our South American partners, the Colombians, are all players, 
sir.

                           FLEET MAINTENANCE

    Mr. Ruppersberger. I represent Baltimore, and the Coast 
Guard yard where you repair your ships is there. From an 
appropriations point of view, what resources do you need? That 
is very important to your fleet to have your fleet taken care 
of, maintained, whatever. What resources do you need now that 
you are not getting that would help in that regard, to either 
get your fleet our quicker or to make sure you have the safety 
that is needed?
    Admiral Allen. Sir, the key to the operation of the yard is 
the fact that it is an industrial operation. All of the labor 
hours for the work expended in the yard are billed back to the 
project that the yard is doing. In other words, the labor in 
the yard is not bought out at the beginning of the year; it is 
paid for by the work that it does.
    Because of that, the best thing that we could do to support 
the yard is what I would call ``level loading,'' being able to 
project out, two, three, four, five years, on what the workload 
is going to be so they can size their workforce and know that 
the amount of work coming in will be adequate to pay for their 
workforce, and they will not have to adjust it either up or 
down.
    We have been able to achieve that with a mission 
effectiveness program in renovating and repairing the legacy 
cutters while we are waiting for the new cutters to be built 
through Deepwater.
    Our medium-endurance cutters and our patrol boats are being 
renovated at the yard. They are doing a great job. They are on 
time, on schedule, and sometimes ahead of schedule, and, 
projecting out three to four years, we have stability at the 
yard. The issue I would have is, somewhere down the line, I 
would say, maybe out to the fifth or sixth year, as we finish 
that and new assets come on board, is to how to sustain the 
workload at the yards we have level funding, and that would be 
the challenge, sir.
    Mr. Ruppersberger. Well, a figure, softball, what do you 
need in this budget?
    Admiral Allen. The yard is okay for the next two or three 
years with what we have got in the budget.
    Mr. Ruppersberger. It is actually okay.
    Admiral Allen. Yes, sir.

                                AIRCRAFT

    Mr. Ruppersberger. All right. That is good. How about the 
issue of aircraft?
    Admiral Allen. We are doing pretty good with aircraft. We 
got our new C-144 Alpha's. The CASA-235's are coming online. We 
are going to have operational air stations, and, in a couple of 
years, we will be able to start retiring our old Falcon HU-25 
aircraft. These new aircraft have terrific sensors, but one 
thing they have that we have never had before is the ability to 
transmit air-to-surface via Cipronet with a classified tactical 
data picture, sir.
    Mr. Ruppersberger. So the intelligence mechanism is 
starting to work and the integration is really starting to help 
at this point.
    Admiral Allen. Yes, sir.

                      HUMAN SMUGGLING PROSECUTION

    Mr. Ruppersberger. Do I have any more time?
    The drug interdiction; let us get back to that. We were 
talking about drug interdiction, but there is also an issue of 
human smuggling, I mean, bringing in bodies, people, 
individuals, whatever, and I know that is difficult. It is 
harder for you all to get your hands on that.
    One of the reasons that I have been told is it is because 
the actual laws that exist; if you want to indict somebody or 
charge somebody with a felony, the law basically is difficult. 
Can you explain that, or is that the case?
    Admiral Allen. Yes, sir.
    Mr. Ruppersberger. Okay.
    Admiral Allen. The fact of the matter is, unless we can 
develop a case that there was an intent to bring the migrants 
in, where you have hard evidence that they actually crossed the 
line, where you can establish the intent, and they actually 
completed the act, it is very hard to prosecute this in court.
    We had the same problem with drugs 20 years or so ago, and 
we actually got a law passed that made possession on the high 
seas outside the United States of certain quantities of drugs a 
de facto assertion that there was an attempt to enter them.
    Mr. Ruppersberger. It is kind of like in the United States, 
where if you have a volume, it is possession with intent to 
distribute.
    Admiral Allen. Yes, sir. For the last several years, we 
have attempted to get legislation--this is on the authorizing 
side, not the appropriations side, sir--to make having a large 
number of migrants on board on a vessel offshore of the United 
States, by the fact that you are there with that number of 
migrants on board, the de facto evidence of an attempt to enter 
and bring them in.
    We would like to have legislation passed that would 
recognize this loophole that would allow us to intercept these 
boats extraterritorially and prosecute them in the United 
States as a felony.
    Mr. Ruppersberger. Where is the status of that legislation 
now? Has any of that been introduced yet?
    Admiral Allen. There has been one version passed in the 
House. We would be glad to give you some background on it.
    Mr. Ruppersberger. I would like to help you on that.
    Admiral Allen. Yes, sir. We would be happy to give you the 
background, yes, sir.
    [The information follows:]

    To date, no Member of Congress has introduced anti-smuggling 
legislation that is uniquely tailored to the maritime law enforcement 
environment and specifically drafted to address statutory deficiencies 
that hinder prosecution of this form of maritime smuggling.

    Mr. Ruppersberger. Thank you.

                 GAO IDENTIFIED MANAGEMENT DEFICIENCIES

    Mr. Price. Thank you. Let me return to the questions that a 
number of our Members have raised about the management 
capacities of the Coast Guard and also the use of contractors 
in that regard.
    With the removal of private contractors from the role of 
system integrators for the Deepwater program, the Coast Guard 
is building its capacity to assume that role itself, and, of 
course, this Committee has supported that. There do appear to 
still be serious questions about the Coast Guard's management 
capacity with regard to key, future acquisitions and programs. 
I would like to just explore that and then bring in the related 
question of what is being contracted out and what is being 
developed in house in the way of capacity.
    The GAO points out, in its testimony today, that of the 12 
Deepwater assets in the concept-and-technology-development 
phase or later, nine are behind in terms of the major system- 
acquisition process compliance, such as developing key 
operational requirements and test plans. The GAO goes on to say 
that, in some cases, this situation puts the Coast Guard at 
risk of cost overruns and schedule slips if it turns out that 
what it is buying does not meet requirements.
    So, Admiral and Mr. Hulton as well, I would like to know 
what practical effect that these deficiencies, this lack of 
operational requirements documents, for example, has on the 
Coast Guard's procurement planning. How do you account for 
these deficiencies?
    We have explored, to some extent, the workforce aspect, 
but, I assume, it is not merely that, and then, of course, the 
underlying question is, what guarantee do we have that we are 
not simply defaulting to the original contractor's 
recommendations for the number and type and specs that we are 
dealing with with these ships and aircraft?
    Admiral Allen. Yes, sir. As Mr. Hulton mentioned earlier, 
we are in the process of what I would call ``disaggregating 
Deepwater.'' It was originally envisioned as a system of 
systems with an interlocking network of cutters, sensors, and 
aircraft.
    What we are doing is, asset by asset, taking an asset out 
and then putting that into the major systems acquisition 
process in the Coast Guard, which means establishing key 
milestone points for approvals, an acquisition project 
baseline, and revalidating the costs and everything associated 
with it.
    I would like Mr. Hulton to comment as well. I think what 
happens is, not all of that has been completed yet, so there is 
uncertainty out there because we have not gone through and 
vetted them into the major systems acquisition process. A good 
number have gone back to the Department but a good number are 
in progress. It is something that we have to do just to be able 
to make the transition from having them aggregated as a system 
to us being able to have the transparency, visibility, and 
oversight to manage them at the asset level.
    There is a workforce component associated with that, but 
there is also just a plain process issue associated with 
getting the paperwork developed, having it approved at the 
Department of Homeland Security because they now have a role, 
where they did not before, and then implementing the guidelines 
associated in terms of costs, schedule, and performance.
    Mr. Price. Before we turn to Mr. Hulton, who, of course, we 
want to hear from, how is this related to the earlier challenge 
with respect to the role of system integrators? This clearly 
goes beyond that.
    Admiral Allen. Well beyond that, yes sir. The requirements 
to comply with the Major Systems Acquisition Manual and key 
milestone monitoring at the Department were not present in the 
original Deepwater construct.
    As you well know, there were decisions that were proposed 
and, in some cases, de facto, delegated to the contractors. 
Those now have to come through milestone screening that we have 
to submit to the Department of Homeland Security, and they have 
to say that the requirements were met; you are authorized to go 
to the next phase of this procurement. What we are doing is, 
asset by asset, moving it into that process.
    It requires some amount of human activity to make sure that 
you reviewed the plans, the estimates, and you have got it 
right, and then submit it to the Department for approval. We 
are in the process of doing that. We still have assets that are 
in the queue, sir.
    Mr. Price. Mr. Hulton.
    Mr. Hulton. Thank you. First, I would like to say, at the 
outset, that the Coast Guard's initiative and decision to apply 
their Major Systems Acquisition Manual to the Deepwater 
program, I think, is a very key thing, a very important 
decision, because it is applying a knowledge-based approach 
that is repeatable, and there is key documentation at DoD, and 
looking at it from a best-practices standpoint, that is really 
needed so you really, truly understand what your mission need 
is, how you understand the requirements that are going to fill 
a gap, and then you need to trace that all the way through the 
operational requirement document, very key, from the needs to 
the actual testing and have a testing evaluation plan, so, at 
the end, you know that the requirements that you defined that 
are meeting this gap, and you fully test it, that you have a 
high likelihood that you are going to get something that is 
going to help you meet your mission needs. So that is very key.
    I think, in terms of your question, Mr. Price, when you 
look at it on an asset-by-asset basis, in terms of some of the 
questions you have, it is almost like looking at it on a case-
by-case basis, in terms of, what is the impact of not having 
some of these key documents, say, approved at the DHS level at 
the time? I think it depends on what the document is but also, 
what is the status of the Coast Guard understanding, say, of an 
operation requirements document?
    If the Coast Guard has approved an operational requirement 
document, that is their best insight as to what the operational 
capability requirements are for the issue, but, I think, having 
the DHS now as part of the process, and that was one of our 
recommendations, that we thought that DHS's process should be 
part of it, you have someone that is external to the Coast 
Guard looking at the business case that the Coast Guard has and 
bringing in their best judgment. So I think there is a higher 
likelihood that, if there are issues, they are going to be 
vetted, so, in terms of actual impact, and we noted in our 
statement, what benefits and what kind of power you can get 
when you apply this disciplined approach.
    As we talked earlier, the Coast Guard really did not have a 
lot of understanding and insight into the capabilities, the 
mix, and whatnot, when the systems integrator provided their 
proposal. We had assets and certain numbers of assets.
    Two things on that, sir. One, the Coast Guard is beginning 
to do a fleet analysis mix, which is going to give them 
specific insights, by asset, what those things are going to do, 
and it is going to allow them to make trade-offs, in terms of 
numbers of assets.
    The example I wanted to cite, in terms of the ORD, is the 
MPA asset. As we note in our statement, because they had an 
operational requirements document, they had a better 
understanding as to the requirements. When they married it up 
against what I suggest they had out there as to the 
requirements, they found that the operational availability 
rates that the systems integrator had planned for the asset 
were exceeding the Coast Guard's standards.
    So what the Coast Guard was able to do was take that 
knowledge and say, Well, maybe if we build this asset to meet 
our standard, there is a certain capacity that we can take some 
of that money and use elsewhere, in terms of supporting that 
asset. So there are a lot of benefits of it.
    Mr. Price. Thank you. Mr. Kirk.
    Mr. Kirk. I just wanted to follow up on pirates. The Coast 
Guard has an eight-person Law Enforcement Detachment (LEDET 
405) team conducting counter-piracy operations aboard the USS 
VALLA GULF and USS MAHAN as part of a multinational task force. 
I understand that the LEDET 405 team has apprehended 16 
pirates.
    Admiral Allen. Yes, sir.
    Mr. Kirk. And these prisoners were transferred to the 
Navy's USS LEWIS AND CLARK for temporary holding. John Patch, a 
former naval officer at Newsweek, said that the proper response 
would be to involve the Coast Guard and actual hulls of the 
Coast Guard in this mission because while the Littoral Combat 
Ship, 55 units of Littoral Combat Ships, is certainly designed 
for a mission like this, given the fact that the Pentagon is 
going to build these things, it is years away.
    We have a problem here on the Committee that many times, 
and this is bipartisan, many times one part of the subcommittee 
does not talk to another, but with hulls that are entirely 
appropriate for this mission already bought by the U.S. 
taxpayer--they happen to be run by the Coast Guard--it would 
seem to be up in the O&M of the Coast Guard to take this pirate 
mission. Would it be faster and more appropriate than letting 
300 pirates continue to rock and roll until the LCSs come 
online, three of four fiscal years from now? Comments?
    Admiral Allen. Yes, sir. I would like to talk about legal 
regimes, and I would like to talk about capacity, if I could.
    As I stated earlier, the real problem with piracy in 
Somalia has to do with the lack of a stable central government. 
This is a symptom of it. That said, any ungoverned space next 
to water in the world has the potential to be a subject of 
pirate-type operations.
    The Coast Guard's involvement in this thus far has been 
fairly significant but not that visible.
    Mr. Kirk. Right.
    Admiral Allen. Starting well over a year ago, we started 
working with the International Maritime Organization. I am a 
competent authority to deal with IMO, and I represent our 
delegation, on behalf of the State Department, to IMO.
    I met with the Secretary General. A lot of our 
conversations were the impetus that led to the U.N. security 
resolutions that authorize entry into the Somalian territorial 
seas for the purpose of protecting the world food shipments.
    Most recently, Coast Guard and State Department negotiators 
actually negotiated an MOU with Kenya to accept for prosecution 
the pirates who were captured on the VALLA GULF.
    What we believe is there has to be a subsequent delivery 
regime associated with this to change the behavior of the 
pirates, notwithstanding you have to go to the source and deal 
with the political problem in Somalia. But the fact of having 
pirates on board and do nothing with them is a problem.
    Mr. Kirk. I guess my point is, right now, VALLA GULF is a 
cruiser.
    Admiral Allen. Yes, sir.
    Mr. Kirk. That is about a three-and-a-half-billion-dollar 
unit, whereas a Coast Guard cutter--it seems to me that when 
you are off the coast of Somalia, if you have got a five-inch 
gun, you are the big dude on the block, and you could kill or 
capture anything that you are directed towards.
    But the per-unit cost of that unit, to own, operate, and to 
maintain, is far less. We have got an LHA and a CG out there, 
and the crew has to maintain all of these exotic weapons.
    Admiral Allen. Yes, sir. If you are saying that the mission 
could be done with a smaller vessel, you are correct, sir.
    Mr. Kirk. Right, but here is the problem where the Defense 
Subcommittee and our Subcommittee probably would not come 
forward with the common-sense taxpayer solution to just up your 
budget and go ahead and solve this problem with units whose O&M 
is far less than what very exotic, blue-water naval units would 
cost to do and to operate.
    Admiral Allen. Yes, sir. Then you could do initial 
capacity. While we have the competency, and we have unique 
capabilities to do that, we would not have the capacity to stay 
in there right now, with the size of our fleet, sir.
    Mr. Kirk. Right, right. Thank you, Mr. Chairman.
    Mr. Price. Mr. Carter.

                           SEMI-SUBMERSIBLES

    Mr. Carter. Thank you, Mr. Chairman. I am tempted to ask 
you, what happened to the hanging from the yardarms? But I 
guess it is inappropriate.
    There is a lot of talk on the Hill, and you all have been 
talking here when I was not here--I apologize. Unfortunately, 
we do not seem to be able to, in the Appropriations 
Subcommittee process, schedule two or three Subcommittee 
meetings at the same time. It is just kind of amazing. I 
apologize for that.
    And, of course, being from Texas, I guess if there is 
anything we are worried about, we are worried about what is 
going on with the southern border of Texas. There is a war 
going on down there in Mexico, and we are in the middle of the 
fight.
    I know they are using these semi-submersibles to haul major 
loads from Colombia, et cetera, down so they can start them on 
the land bridge up to our backyard, and I think you all talked 
about that. I was curious, have you had any better solution on 
the semi-submersibles? Are you seeing them, now that the 
Mexicans have beefed up the border?
    They are supposedly claiming they have got 45,000 troops on 
the border, so maybe you are going to see more sea activity 
coming now out of Mexico, trying to make a run up to our coast, 
either ours or others in the country. Are you seeing them 
shifting some of that semi-submersible over into the Gulf of 
Mexico or on the Pacific to try to run around the border to get 
on up into the United States? I am kind of interested in, if 
the sea is as involved in the fight as we have got right now, 
it looks like the Mexican Army is, on the border.
    Admiral Allen. Yes, sir. I stated earlier, most of the 
cocaine that is moving out of South America to the United 
States goes into Mexico from sea, noncommercial maritime, and 
the most effective way to deal with drugs flowing through 
Mexico, in my view, is to deal with it before it gets to 
Mexico.
    One of the insidious things that we have been trying to 
deal with for the last two years and before is self-propelled, 
semi-submersibles, these low-profile vessels. They are capable 
of carrying anywhere from up to 10 to 12 tons of cocaine and 
sometimes making a transit all the way to the United States.
    Due to the support of the Congress last year, we actually 
had legislation passed that makes operation of a self-
propelled, semi-submersible in international waters a violation 
of U.S. law and a felony.
    We recently had our first conviction, a guilty plea, for 
the operation of a self-propelled, semi-submersible, and the 
U.S. Sentencing Commission, last week, established sentencing 
guidelines that are the same for operating a self-propelled, 
semi-submersible as if you were carrying the load of dope. So, 
in effect, there is no incentive to sink the boat because it is 
less of a crime, and the punishment might be less.
    Those are all very, very good signs that should drastically 
impact the effectiveness of self-propelled, semi-submersibles, 
but the fact remains that the border that I believe we should 
be equally concerned about is the southern border of Mexico, 
sir.
    Mr. Carter. Is there any indication that they are using 
Gulf or Pacific ships to go around the border?
    Admiral Allen. Yes, sir. The predominance of self-
propelled, semi-submersibles operate in the Pacific, sir. We do 
see some in the Caribbean, but most of the cases we have 
encountered have been on the Pacific side.
    The recent adaptation to our tactics has been to run these 
small, fast boats, staying inside the territorial sea all the 
way up, hugging the coastline, and while we have bilateral 
agreements that allow us to enter the territorial sea to do 
enforcement, it requires consultation and notification to the 
countries, and that delay gives them some type of an advantage, 
and that is a series of about four or five adaptations they 
have made over the last five years that we are dealing with, 
sir.
    Mr. Carter. Is there anything about fully submerged vessels 
that is coming your way, or you are learning about?
    Admiral Allen. Sir, we have had a couple of incidents, over 
the last five or six years, where they found what would be 
legitimate, pressured-hull submarines being built in Colombia.
    To my knowledge, and I will go back and check, and if there 
is a difference, I will advise you, we have not encountered 
one, sir.
    Mr. Carter. Some people think that a lot of them will start 
using submarines.
    Admiral Allen. Yes, sir. They have been found in partial 
construction in Colombia, yes, sir.
    Mr. Carter. Thank you, Mr. Chairman.

                           USE OF CONTRACTORS

    Mr. Price. Thank you. Gentlemen, I would like to return to 
the question of reliance on contractors and the related 
question, of course, of the capacities the Coast Guard is 
developing in house and also what the contractors, more 
generally, are being used for.
    In our Fiscal Year 2009 bill, the Committee identified the 
Coast Guard's reliance on contractors for technical and 
programmatic expertise as one of the main challenges the 
Service faces as it seeks to improve acquisition management and 
oversight. The contracting out of management and oversight of 
other contractors has been a special concern, as you well know, 
and as you have reiterated here today.
    I am wondering, Mr. Hulton, if you could clarify for us 
where we stand now in terms of the overall use of contractors, 
not just how it relates to this issue of integration and 
contract management, but how it relates to the broader 
questions of agency function.
    You note, in your testimony, that there are still 200 
contractors making up 24 percent of the Coast Guard's 
acquisition workforce. I do not believe we have a trend line on 
that, so could you help us put that 24-percent figure into 
context? What are the trends of the use of contractors in this 
aspect and in others that you think are significant, the roles 
they are being used for, and do you think there is a sufficient 
acquisition workforce in place within the Coast Guard to manage 
these support contractors?
    Mr. Hulton. That is a great point, particularly the last 
aspect about the Coast Guard capacity to oversee and manage 
contractors. It is very, very important, particularly when you 
use contractors for certain types of activities.
    For example, if you have contractors helping to do some 
cost estimating for you, and they provide that product to the 
government, you want to have someone in the government that has 
good insights and understanding, and they also understand that 
this is coming from a contractor and what contractor and what 
kind of other relationships might be out there, with that kind 
of real core capacity and understanding so that when you take 
something from a contractor, you have good insights.
    I think the Coast Guard, over the last couple of years--I 
do not recall us having any trend data on whether it is going 
up or down--I think it is pretty clear that there is a 
challenge with the Coast Guard's ability to have a sufficient 
workforce, and while the use of contractors is not a bad thing, 
it is how you manage that and what kind of insights you have.
    I think that, just go back to cost estimating, if you use a 
contractor for coming up with a cost estimate, and you have 
someone, say, at the project or program level looking at that 
and making a decision and thinking that is good, that may be 
also sent to another part of the acquisition directorate, and 
if they have a contractor coming up with another estimate so 
that one can compare, you want to, obviously, make sure it is 
not the same contractor, that there is not any kind of 
relationship. You want to understand that relationship between 
contractors.
    But I do think that the Coast Guard, at least since we have 
been doing this work, over the last three years, they get it. I 
think they understand that they have to make sure that the 
relationship is such that they are not held to what the 
contractor's input is without deep understanding of what 
service they are providing.
    Mr. Price. Admiral.
    Admiral Allen. Yes, sir. Just in consultation with Admiral 
Blore, we have a level loading that has not trended up or down 
recently in the last couple of years of around 200 at any one 
particular time.
    I would say, though, that it is not the same make-up at any 
particular time. You may have a contractor on for some six 
months or 12 months on a particular project. The next year, 
that 200 may be made up of a different set of contractors.
    There are two things that we do. Number one, there is 
always a Coast Guard person in the lead. No basic decision is 
ever defaulted to a contractor. Number two, we have established 
a very strong role for technical authorities to support the 
acquisition managers, so there is a technical issue associated 
with reviewing a proposal. Whether it is naval engineering or 
aviation engineering or even a human resource issue, the 
technical authority has the right to review that and raise any 
issues about whether or not they are in compliance.
    The third thing I would say is, before we even go to a 
contractor, we would seek to use that type of competency, if it 
is resident, say, in the Navy, and SPWAR for aviation and 
sensors; the Office of Naval Research, Carderock, for vessel 
testing, and Naval Sea Systems Command.
    Mr. Price. Let me ask you, a little more broadly, what 
kinds of criteria you observe or, ideally, would want to 
observe, in terms of these contracting decisions.
    I am familiar with this from work I have done with respect 
to private security contractors in war zones and in the use of 
contractors for functions that are properly regarded, I 
believe, as inherently governmental. Of course, that is the 
legal standard.
    Most of the discussion I have heard of this issue in the 
Coast Guard context has not had to do with that inherently 
governmental standard, although there may be ways in which it 
applies. That is one thing I want to ask you.
    We can think of functions that are inappropriate for 
contracting. Interrogation comes to mind. That should be 
thought of as an inherently governmental function.
    I assume that is not mainly what is going on here, as you 
are making decisions about what kind of capacity you need in 
house and what it is going to take to manage your operation 
effectively, questions of efficiency and effective manage, and 
so forth.
    But, nonetheless, I want to pose the broader question: Are 
there some activities that the Coast Guard is simply no longer 
going to ask contractors to perform? How do you determine what 
is improper to contract out? What kind of application do you 
make of the inherently governmental standard?
    What would you say, backing off a step from our immediate 
discussion, what would you say about the Coast Guard's 
contracting practices, the extent to which they now fit the 
model you think they should fit, where you think the Coast 
Guard should go?
    Admiral Allen. Yes, sir, a brief comment first. I think, 
when you are talking about our acquisition directorate, you are 
talking about capacity, not people that are in leadership or 
management positions making those kinds of decisions. But to 
move to the broader question where you are at, we are doing 
some things in that regard.
    Since I was a Commander in the Coast Guard, we have 
wrestled with this issue of A-76 contracting out and, recently, 
the Fair Act Inventory, on how we categorize our employees and 
what kinds of activities they are involved in.
    Many years ago, we contracted out a lot of food service 
operations on our bases. We found out that when we did that, 
there was inadvertent impact, in that, while they could conduct 
those food service operations adequately, we took away a whole 
bunch of shore-based billets for our cook rating and unduly 
penalized them with sea time over their careers that was far in 
excess of anybody else in the Coast Guard.
    So, in the last couple of years now, we are actually buying 
back food service operations at large bases to create military 
positions to give them a more humane rotation policy.
    So if you are talking about things like that, it is not on 
the scale that you would see for private security firms or 
anything like that, but it usually has to do with base 
operating contracts, food service contracts, maintenance 
contracts, cleaning contracts, and so forth.
    But I would make a comment, because I have been dealing 
with this issue for a number of years, that if there is a sea 
change coming, I think we would like to know it, and that is 
the annual inventory where you classify every position in the 
Coast Guard as being governmental or commercial, and, 
therefore, that might be subject, at one point, to some kind of 
review where you might want to contract it out.
    That is done on an annual basis, and we would be looking 
for a cue on where we are going with the new administration and 
with the Congress on this because we have been conducting an 
inventory every year and actually classifying every single one 
of our civilian positions in the Coast Guard as either being 
governmental or commercial. If it is in commercial, then it 
could be subject to some kind of a review, under prior policy, 
and competition as to whether or not it should be sourced from 
the outside.
    Obviously, I think, with the issues that are being raised, 
there is a time to look at that. I do not think it is a huge 
issue in the Coast Guard, but I think it is an issue across 
government.
    Mr. Price. Mr. Hulton.
    Mr. Hulton. Thank you, Mr. Chairman.
    This is a particular issue. We did some work looking at DHS 
more broadly, and I think you are really raising a good 
question, and the commandant was talking about it in the 
context of A-76, but what I would like to do is talk about it 
in the context of more of the blended workforce. This is where 
you bring contractors in to perform professional-management-
support-type activities, for example.
    In our work at DHS, we found that, basically, those that 
have the requirements sometimes may go right to a contractor 
for expediency, not necessarily sitting back and thinking for a 
moment, ``Geez, we have a requirement here, say, for 
acquisition support. Ideally, do I want to have a government 
person do it, or do I want to have a contractor person do it?''
    If the preference is for one or the other, you try to 
manage it and come up with a plan to get there over time, but 
if the mission demands you have to fill that, you may have to 
go to a contractor, if you really have to accomplish that 
mission. But the key is, depending on what you are asking that 
contractor to do, that then kicks in the thought process of, 
``Do we have the capacity to manage this contractor?'' And OFPP 
policy requires, for certain types of activities, that as you 
get more closely to an inherently governmental function, you 
have to have that kind of insight, you have to understand the 
risk, and you have to properly manage that.
    I think that is a key point and a key difference than maybe 
something that we may be going through in an A-76 process, 
which is more truly commercial.
    To give you a quick anecdote, we did some work at an Army 
command where they use contractors as contract specialists, and 
we noted several risks that were inherent with that, and we 
pointed also that they were paying the contractors more than 
they would a fairly comparable government employee. But the 
issue there was, when we issued the report, the DoD response 
was, ``I do not want to use contractors as contract 
specialists,'' and that is a policy call.
    I think that the DoD official challenged the organizations 
that were using contractors in that function to give me a plan 
as to how you are going to get away with it. It is not against 
any rule to use them in that fashion, but if you have to, you 
have to be able to be in a position to understand the risks and 
manage them.
    Mr. Price. It is not a legal question.
    Mr. Hulton. No. DoD may feel that way, but someone at DHS 
may not. To me, it gets down to each individual decision, 
understanding what you are asking a contractor to do, and 
making sure that, internally, you have a government capacity 
that is going to be able to perhaps mitigate any potential 
risks in that decision.
    Mr. Price. Well, I do believe that, in some areas, 
especially the use of these security contractors in the 
military, I do believe a bright line needs to be drawn. But, 
clearly, that is not all we are talking about here. In fact, 
the work that you have done, for years, to move these functions 
in house has had more to do just with effective control, 
effective management, accountability, the kind of managerial 
virtues that we are looking for and the kind of control that 
the Coast Guard leadership has over its own operations.
    Mr. Carter, do you have an additional question? I have one 
last thing about the supplemental, but, please, I defer.
    Mr. Carter. It is just a couple of things. I hate to go 
back to the submarines, but I just got told that you do not 
have sonar on your vessels. Is that correct?

                            SONAR IN VESSELS

    Admiral Allen. That is correct, sir, Coast Guard cutters, 
yes, sir. We are not the only ones in the area down there, 
though. There are Navy vessels with sonar.
    Mr. Carter. So if they should start going to a rudimentary 
submarine to haul drugs up into the United States, you would 
have to have the Navy involved for sonar, or we would have to 
put sonar on our new assets that we are building.
    Admiral Allen. There are a couple of ways to come at that, 
sir. You can have a Helo-based sonar detection system. You can 
also have a--array off almost any vessel with the proper 
equipment on the vessel, sir. It does not have to be a fixed 
sonar.
    Mr. Carter. So if we started to see a lot of this, as a 
cost of doing business, they have got to figure out whether 
they can afford submarines or not, I guess.
    Admiral Allen. Sir, you are touching a deep chord with me. 
I was the operations officer on the GALLATIN in 1975, and we 
had sonar on our vessel, and we took them off, so you are 
hurting me bad here today, sir.

                       NATIONAL SECURITY CUTTERS

    Mr. Carter. Sorry about that. I think this has been 
inquired into, but the National Security Cutter program, 
Numbers 4 and 5, Fiscal Year 2010; how much money do you need?
    Admiral Allen. Well, it is not a matter of Fiscal Year 
2010, sir; it is more a matter of the total amount of money it 
would take to do what we need to do with the Number 4 and 
Number 5. Without getting into a particular fiscal year, about 
$282 million to put Number 4 under contract and about $107 
million for long lead time for Number 5 and about $470 million 
for the production of Number 5, but that would not be in any 
specific year; that would be the total amount that would be 
required, sir.
    Mr. Carter. That is $282 million for NSC four and $470 
million for NSC five?
    Admiral Allen. It would be $107 million for long lead time 
for NSC five and $470 million for production of NSC five, yes, 
sir.
    Mr. Carter. Okay.
    Admiral Allen. Again, I would not attach that to a specific 
year. That is just the current estimate, sir.
    Mr. Carter. All right. That is all I have. Thank you.

                           IRAQ SUPPLEMENTAL

    Mr. Price. Thank you. Admiral, let me raise one last 
question having to do with the Iraq supplemental and the 
detailed justification, as I understand, we have just gotten, 
as to the Coast Guard portion of that.
    The supplemental appropriation request in support of 
overseas contingency operations includes $129.5 million for the 
Coast Guard. Now, to what extent does this funding, and, of 
course, it is funding that is in addition to the $112 million 
in the Iraq supplemental in the last Congress, to what extent 
does that cover all of your anticipated costs for Coast Guard 
operations in support of Iraq operations?
    Admiral Allen. It covers all foreseeable costs, and we are 
in agreement with the numbers, sir.
    Mr. Price. My understanding has been that, generally, the 
supplementals have not covered entirely Coast Guard costs; 
that, in fact, a certain amount of this has come out of the 
base budget, for years.
    Admiral Allen. Sir, there has been a change this year 
between supplemental and overseas contingency operations. As 
you know, they are trying to create greater transparency in 
military operations. Rather than putting them in supplementals 
it is going to be just a different title of the Appropriations 
Act for DoD to make sure that everybody understands the costs 
of overseas contingency operations.
    The criteria by which you request funding for those are 
established by the Under Secretary of Defense for Comptroller. 
We work with him very, very closely on what costs are allowed 
and what we put in there.
    There are certain base costs that we would absorb anyway, 
and then there are incremental costs associated with our 
operations in Iraq. I can give you more clarification on that, 
if you would like, for the record, but we are pretty much 
abiding by the criteria that is established by the Department 
of Defense, sir.
    Mr. Price. I would appreciate that for the record, but let 
me understand exactly what you are saying, that the ground 
rules for the current supplemental proposal, to some extent, 
have been altered so as to more completely reflect Coast Guard 
expenses related to Iraq. Is that the bottom line?
    Admiral Allen. Well, we are in a transition here, sir, from 
Fiscal Year 2009 to 2010, when they are going to shift from 
supplemental funding to overseas contingency operations.
    Mr. Price. Yes.
    Admiral Allen. At this point, I would almost defer to the 
DoD to answer it. I would just tell you, my best understanding, 
and then we can answer for the record.
    To my knowledge, between the first supplemental and what is 
being proposed right now will adequately cover our costs for 
Fiscal Year 2009. As we move to 2010, we will follow the 
criteria that the DoD establishes on whether or not it is 
overseas contingency operations or base funding.
    [The information follows:]

    Yes. Annually, the Coast Guard submits a funding request to the 
Department of Defense for supplemental funding requirements to support 
Navy missions. Each year that request is incrementally adjusted to 
reflect funding required for that year's anticipated Coast Guard 
operations. For example in FY08 the Coast Guard request included an 
additional $40 million over 2007 funding levels to cover the costs 
associated with new deployment requirements for two Coast Guard Port 
Security Units.

    Mr. Price. I see. Thank you. All right.
    Admiral Allen. There could be an issue, for the sake of 
transparency. As DoD moves operations into their base, and 
those similar operations are what we would do, and they are no 
longer covered in overseas contingency operations, there may be 
an issue of whether or not those costs would be covered in 
Coast Guard base operating expenses. I have actually discussed 
this with the Department.
    We just need to watch, as we move forward, and see what DoD 
does because we take our lead from them, sir.
    Mr. Price. And so we would obviously expect that to be 
reflected in the 2010 detailed budget submission.
    Admiral Allen. Yes, sir. Whether it is in our base, or it 
is in overseas contingency operations, we would follow the same 
criteria that the DoD would use, yes, sir.

              PLAN FOR COAST GUARD VESSELS SUPPORT TO IRAQ

    Mr. Price. All right. Finally, can you briefly indicate 
what the plan going forward is likely to be for Coast Guard 
vessels supporting operations in Iraq? How long do you expect 
this to continue?
    What about the component where you are providing training 
for Iraqi maritime law enforcement as part of your presence 
there? Are there any vessels that are likely to be turned over? 
What does the end game look like here, as we, hopefully, move 
toward winding down the operation?
    Admiral Allen. Yes, sir. I would state, up front, and then 
if I need to revise for the record, I will, this is really 
General Petraeus's area of responsibility. We respond to 
requests for forces, and, in that case, we are very similar to 
the Navy, the Army, and the Air Force, where we provide forces 
for General Petraeus.
    As you know, the major ground operations in Iraq are being 
conducted under the Status of Forces Agreement, and there is a 
timetable, and that is all being carried out.
    There is no similar framework right now on the water side, 
although there are some target dates. The operations we are 
involved in over there--this is under Fifth Fleet, and Admiral 
over there, at present, is a point defense of the oil platforms 
off of Afum Khasser, the security zones around them, and the 
integrity of the oil shipments coming out, which constitutes 
the largest amount of revenue for Iraq.
    I can tell you, functionally, the transition will have to 
be where the Iraqis take over the point defense of the oil 
platforms and then have the equipment and the capabilities and 
competencies to start running small boats for the exclusion 
zones around them, and then, in the broader area, patrol boats 
and larger vessels, to create layered security.
    There are hundreds of local fishing vessels that are not 
far away, these small dhows that fish in the area, and the 
issue of maintaining the security of those oil platforms is a 
very, very complicated security structure, and, right now, you 
would see a coalition task force flagship up there that would 
be supervising both Navy and Coast Guard patrol boats, and, 
from those patrol boats, they would launch small boats that 
would actually do intercepts of any dhows that might be 
entering the exclusion zones that are there.
    So the issue is, how would you replicate that function with 
organic forces? And it is not just Coast Guard; it is Coast 
Guard, Navy, and actually coalition forces that are up there.
    The other forces we have in the area are training team that 
are actually training in the Port of Afum Khasser to help the 
Iraqi Coast Guard and the Iraqi Navy learn how to actually 
operate the small boats.
    We are also involved in foreign military sales and 
providing small boats to Iraq.
    We also have a port security unit deployed over to Al-
Shwaiba that is providing security for the in-load and the out-
load of military materials coming in and out of there, sir.
    Mr. Price. That training component, in particular; has that 
remained at a fairly constant level for some time?
    Admiral Allen. Yes, sir. We are talking no more than 10 
people at any particular time, maybe as low as two or three. We 
have a captain on staff in Baghdad that coordinates our role 
over there. It is very small, it is very impactful, but it is 
very small, sir.
    Mr. Price. Mr. Carter, do you have further questions?
    Mr. Carter. No.
    Mr. Price. Well, thank you. With that, we will wrap up here 
and thank both of you for your very helpful testimony and look 
forward to seeing the detailed budget, in a matter of weeks 
now, and working with you as we put the 2010 bill together. 
Thank you for a good morning.
    Admiral Allen. Thank you.
    Mr. Price. The Subcommittee is adjourned.

    [GRAPHIC] [TIFF OMITTED] T2213B.299
    
    [GRAPHIC] [TIFF OMITTED] T2213B.300
    
    [GRAPHIC] [TIFF OMITTED] T2213B.301
    
    [GRAPHIC] [TIFF OMITTED] T2213B.302
    
    [GRAPHIC] [TIFF OMITTED] T2213B.303
    
    [GRAPHIC] [TIFF OMITTED] T2213B.304
    
    [GRAPHIC] [TIFF OMITTED] T2213B.305
    
    [GRAPHIC] [TIFF OMITTED] T2213B.306
    
    [GRAPHIC] [TIFF OMITTED] T2213B.307
    
    [GRAPHIC] [TIFF OMITTED] T2213B.308
    
    [GRAPHIC] [TIFF OMITTED] T2213B.309
    
    [GRAPHIC] [TIFF OMITTED] T2213B.310
    
    [GRAPHIC] [TIFF OMITTED] T2213B.311
    
    [GRAPHIC] [TIFF OMITTED] T2213B.312
    
    [GRAPHIC] [TIFF OMITTED] T2213B.313
    
    [GRAPHIC] [TIFF OMITTED] T2213B.314
    
    [GRAPHIC] [TIFF OMITTED] T2213B.315
    
    [GRAPHIC] [TIFF OMITTED] T2213B.316
    
    [GRAPHIC] [TIFF OMITTED] T2213B.317
    
    [GRAPHIC] [TIFF OMITTED] T2213B.318
    
    [GRAPHIC] [TIFF OMITTED] T2213B.319
    
    [GRAPHIC] [TIFF OMITTED] T2213B.320
    
    [GRAPHIC] [TIFF OMITTED] T2213B.321
    
    [GRAPHIC] [TIFF OMITTED] T2213B.322
    
    [GRAPHIC] [TIFF OMITTED] T2213B.323
    
    [GRAPHIC] [TIFF OMITTED] T2213B.324
    
    [GRAPHIC] [TIFF OMITTED] T2213B.325
    
    [GRAPHIC] [TIFF OMITTED] T2213B.326
    
    [GRAPHIC] [TIFF OMITTED] T2213B.327
    
    [GRAPHIC] [TIFF OMITTED] T2213B.328
    
    [GRAPHIC] [TIFF OMITTED] T2213B.329
    
    [GRAPHIC] [TIFF OMITTED] T2213B.330
    
    [GRAPHIC] [TIFF OMITTED] T2213B.331
    
    [GRAPHIC] [TIFF OMITTED] T2213B.332
    
    [GRAPHIC] [TIFF OMITTED] T2213B.333
    
    [GRAPHIC] [TIFF OMITTED] T2213B.334
    
    [GRAPHIC] [TIFF OMITTED] T2213B.335
    
    [GRAPHIC] [TIFF OMITTED] T2213B.336
    
    [GRAPHIC] [TIFF OMITTED] T2213B.337
    
    [GRAPHIC] [TIFF OMITTED] T2213B.338
    
    [GRAPHIC] [TIFF OMITTED] T2213B.339
    
    [GRAPHIC] [TIFF OMITTED] T2213B.340
    
    [GRAPHIC] [TIFF OMITTED] T2213B.341
    
    [GRAPHIC] [TIFF OMITTED] T2213B.342
    
    [GRAPHIC] [TIFF OMITTED] T2213B.343
    
    [GRAPHIC] [TIFF OMITTED] T2213B.344
    
    [GRAPHIC] [TIFF OMITTED] T2213B.345
    
    [GRAPHIC] [TIFF OMITTED] T2213B.346
    
    [GRAPHIC] [TIFF OMITTED] T2213B.347
    
    [GRAPHIC] [TIFF OMITTED] T2213B.348
    
    [GRAPHIC] [TIFF OMITTED] T2213B.349
    
    [GRAPHIC] [TIFF OMITTED] T2213B.350
    
    [GRAPHIC] [TIFF OMITTED] T2213B.351
    
    [GRAPHIC] [TIFF OMITTED] T2213B.352
    
    [GRAPHIC] [TIFF OMITTED] T2213B.353
    
    [GRAPHIC] [TIFF OMITTED] T2213B.354
    
    [GRAPHIC] [TIFF OMITTED] T2213B.355
    
    [GRAPHIC] [TIFF OMITTED] T2213B.356
    
    [GRAPHIC] [TIFF OMITTED] T2213B.357
    
    [GRAPHIC] [TIFF OMITTED] T2213B.358
    
    [GRAPHIC] [TIFF OMITTED] T2213B.359
    

 
                           W I T N E S S E S

                              ----------                              
                                                                   Page
Ahern, J. P......................................................   595
Allen, Admiral T. W..............................................   769
Ashley, Ross.....................................................   277
Boyd, David......................................................   277
Essid, Chris.....................................................   277
Gallaway, C. R...................................................   595
Garratt, David...................................................     1
Hutton, J. P.....................................................   769
Morse, P. D., Sr.................................................   431
Sullivan, Mark...................................................   431
Tonini, Edward...................................................     1
Winkowski, Thomas................................................   595

 
                               I N D E X

                              ----------                              
                                                                   Page

            DISASTER RESPONSE: IS FEMA UP TO THE CHALLENGE?

Opening Statement of Chairman David Price........................     1
Opening Statement of Ranking Member Harold Rogers................     7
Statement of David Garratt, Acting Deputy Administrator, FEMA....    13
Statement of Edward W. Tonini, Adjutant General, Commonwealth of 
  Kentucky.......................................................    23
Assistance Timeframes............................................   269
Catastrophic Planning............................................    49
Communications with California on Wildfires......................    53
Communications...................................................    47
Consistency of FEMA............................................268, 272
Contracts........................................................   105
Cost Management Rule.............................................   266
Declarations.....................................................    65
Disaster Housing.................................................    72
Disaster Relief Fund.............................................    67
Economic Crisis..................................................    71
Emergency Declaration Thresholds.................................    45
Emergency Declarations...........................................    41
Emergency Deliberation Criteria..................................    51
Emergency Management Assistance Compact (EMAC)...................    66
Emergency Shelter................................................   269
Exercises........................................................    72
FEMA Grants......................................................   274
FEMA Housing.....................................................   271
FEMA Personnel...................................................   272
Fire Grants......................................................   266
Generators.......................................................43, 48
Getting Firefighting Aircraft Into California....................    53
Gulf Coast Recovery..............................................    68
Homeland Security Grant Program..................................   267
Homeland Security Presidential Directive Numbers 5 And 8 Changes.    52
Immediate Response of FEMA.......................................   268
Interoperability Communications..................................    56
Local Training, Planning and Exercises...........................    58
Logistics........................................................    72
Management.......................................................    74
Naval Postgraduate Federal Training Facility.....................    52
Public Assistance Grant Program..................................    50
Questions for the Record Submitted by Chairman David Price.......    62
Questions for the Record Submitted by the Honorable Chet Edwards.   268
Questions for the Record Submitted by the Honorable Ken Calvert..   274
Questions for the Record Submitted by the Honorable Nita Lowey...   266
Response Time....................................................    55
State Active Duty Compensation...................................    54
State and Local Responsibility...................................    44
Urban Area Security Initiative Grant Recipients..................    57
Vulnerable Populations and Disasters.............................    62

                      INTEROPERABLE COMMUNICATIONS

Opening Statement of Chairman David Price........................   277
Opening Statement of the Honorable John Carter...................   284
Opening Statement of Ranking Member Harold Rogers................   285
Statement of Dr. David G. Boyd, Director, Office of 
  Interoperability and Compatibility.............................   288
Statement of Chris Essid, Director, Office of Emergency 
  Communications.................................................   307
Statement of W. Ross Ashley, Assistant Administrator, FEMA Grant 
  Programs Directorate...........................................   317
ALEC.............................................................   417
Backlog of Unexpended Funds......................................   331
Bridging Technology..............................................   330
Broadband for Rural Areas........................................   345
Communication with the Public and Mexico.........................   375
Compliance Assessment Program....................................   345
Data/Broadband...................................................   388
Demonstration Projects on Southern Border........................   340
Demonstrations Resources.........................................   392
DHS Secretarial Directives.......................................   416
Emergency Communications Preparedness Center.....................   347
Emergency Responders Ability to Communicate......................   335
Environmental Reviews............................................   353
Expediting the Grants Process....................................   352
Federal Input to State and Local Equipment Procurements..........   377
Federal Interoperability.........................................   346
Federal Technical Assistance.....................................   344
Getting Monterey County Operational..............................   378
Grant Administration by a Single Agency..........................   351
Grant Guidance...................................................   426
Grants...........................................................   382
Interoperability Between Equipment...............................   344
Interoperable Communications Grant Program.......................   335
Interoperable Communications Technology..........................   338
Interoperable Equipment and System Requirements..................   376
Maintaining Operability After Disasters..........................   384
MITOC...........................................................371,421
Mobile Phone Penetration.........................................   421
NACo.............................................................   417
National Emergency Communications Plan...........................   413
NECP Goals.......................................................   429
NIMS Umbrella Communications Unit Leader Training................   337
NPPD Contracts...................................................   398
NPPD Facilities and Leases.......................................   412
NPPD Management..................................................   393
OEC Staffing.....................................................   429
OEC Training Programs............................................   418
Operability vs. Interoperability...............................337, 389
Project 25 (P25) Compliance Assessment Program (CAP).389, 391, 415, 427
PSIC Grants......................................................   354
PSIC Program.....................................................   342
Questions for the Record Submitted by Chairman David Price382, 388, 393
Questions for the Record Submitted by Ranking Member Harold 
  Rogers.........................................................   421
Questions for the Record Submitted by the Honorable John Carter..   430
Questions for the Record Submitted by the Honorable Nita L426, 427, 429
Resilient Communications Capability..............................   430
Responsibility for Ensuring Federal Interoperability.............   347
Responsibility for Underserved Areas.............................   346
Satellite Communications for Rural Areas.........................   343
Satellite Communications.........................................   336
Separate Networks on the Broadband Spectrum......................   350
State Drawdown of Grant Funds....................................   352
State Responsiveness.............................................   379
Streamlining DHS components......................................   348
Transition to 700-Megahertz Band.................................   327
Warning Systems..................................................   414

     JOINT HEARING WITH LEGISLATIVE BRANCH APPROPRIATIONS FOR 2010:
       SECRET SERVICE PROTECTIVE MISSIONS AND INAUGURAL SECURITY

Opening Statement of Chairman David Price........................   431
Opening Statement of Ranking Member Harold Rogers................   438
Opening Statement of Chairwoman Debbie Wasserman-Schultz.......442, 444
    Statement from Inaugural Attendees...........................   442
Opening Statement of the Honorable Steven LaTourette.............   445
Opening Statement of Chairman David Obey.........................   445
Statement of Mark Sullivan, Director of U.S. Secret Service......   447
Statement of Phillip D. Morse, Sr., Chief of United States 
  Capitol Police.................................................   459
2009 Inaugural Review (Redacted Version).........................   492
Access to Food After the Event...................................   475
Assistance Offered by the National Guard.......................466, 473
Attendance Projections...........................................   488
Closing Silver Area Entrances....................................   482
Communications Between Governing Body and NSSE Steering Committee   471
Coordination with Ticket Printers................................   485
Crowd and Access for Disabled and Elderly........................   594
Crowd Control and Emergency Services.............................   593
Crowd Management Around the Capitol..............................   465
Errors in Projecting Attendance..................................   489
Generator Malfunction............................................   474
Guidelines for Vehicular Access..................................   475
Inaugural Security Planning......................................   468
Including the JCIC as a Steering Committee Member................   529
Investigative Accomplishments....................................   591
Investigative Mission and Financial Crimes.......................   592
Invitations to Inauguration......................................   471
Issuance of Tickets..............................................   475
Metropolitan Police Department.................................485, 527
More Tickets Issued Than Space Available.........................   468
Personnel Assigned to Ticket Checking............................   482
Planning for Silver Ticketed Area................................   476
Plans for an Evaluation..........................................   527
Problems in the Blue Gate........................................   474
Problems with Tunnels............................................   469
Purple Tunnel....................................................   483
Pushing Back the Perimeters......................................   472
Putting Bar Codes on Tickets.....................................   486
Questions for the Record Submitted by Chairman David Price.......   533
Questions for the Record Submitted by the Honorable Ken Calvert..   591
Recommendations for Coordinating and Staffing....................   488
Report on Inaugural Difficulties.................................   490
Responsibility for Signage.......................................   466
Role of United States Capitol Police.............................   529
Ticket Checking..................................................   487
Time for Opening Gates...........................................   473
Using the East Front of the Capitol..............................   487
USSS Contracts...................................................   537
USSS Facilities and Leases.......................................   541
USSS Investigations..............................................   557
USSS Management..................................................   533
USSS Role in 2008 Campaign.......................................   589
USSS Role in 2009 Presidential Inauguration......................   589
USSS Staffing and Training.......................................   574
Volunteer Ticket Checkers........................................   469

         CARGO AND CONTAINER SECURITY: KEEPING A LID ON THREATS

Opening Statement of Chairman David Price........................   595
Opening Statement of Ranking Member Harold Rogers................   600
Statement of Jayson P. Ahern, Acting Commissioner, U.S. Customs 
  and Border Protection..........................................   605
Biography of Thomas S. Winkowski, Assistant Commissioner, U.S. 
  Customs and Border Protection..................................   620
Statement of Dr. Charles R. Gallaway, Acting Director, Domestic 
  Nuclear Detection Office.......................................   621
100 Percent Container Inspection Requirement.....................   659
100 Percent Inspection Goal Scalability..........................   663
2012 Deadline for 100% Cargo Scanning............................   765
Air Cargo........................................................   684
ASP Monitors and PVT Systems.....................................   663
Aviation Mission Area............................................   740
Border Patrol Firearm Seizures FY2008............................   679
Border Patrol Narcotic Seizures FY2008.........................675, 677
Bulk Cash Detection..............................................   656
Canadian Border Apprehensions....................................   669
Canadian Pre-Clearance...........................................   691
Career Incentives for Personnel..................................   644
Cargo and Containers Carried by Rail Into Mexico.................   635
Cargo Security Measures..........................................   765
Container Security Device........................................   762
Container Security Initiative (CSI)..............................   685
Container Transits from Mexico to US.............................   665
Cost Effectiveness...............................................   658
Covert Projects................................................753, 754
Crane-Mounted Radiation Detection Technology--Alternatives to 
  Portal Monitors................................................   695
Customs-Trade Partnership Against Terrorism (C-TPAT)......668, 705, 764
DNDO Research, Development and Operations........................   735
DNDO Systems Acquisition.........................................   757
Equipment Integration at Ports...................................   767
Facilities to Screen Border Crossers Into Mexico.................   640
Fee Funded Operations............................................   724
Free and Secure Trade Shipments..................................   646
FY 2008 Average Private Vehicle Wait Times.......................   680
FY 2008 Bonus/QSI Information....................................   732
History of Container Inspection..................................   666
Implementation of ACE............................................   650
Importer Security Filing (10+2 Rule).............................   714
In-Bond..........................................................   683
Inbound Container Inspections....................................   645
Inspection and Detection/Non-Intrusive Inspection (NII) 
  Technology.....................................................   696
Inspections Going Into Mexico....................................   649
Inspections of Other Cargo Modes.................................   768
Integrity Programs...............................................   725
International Initiatives........................................   694
International Rail...............................................   740
Management and Administration....................................   729
Maritime Mission Area............................................   738
Merchandise Seizures Line Item Count (Counterfeit Goods) up to 
  FY2009--March..................................................   678
Mexican Border Protocol..........................................   649
Mitigation of Credible Threats...................................   767
Modeling Projects..............................................753, 754
National Targeting Center........................................   689
NEXUS/SENTRI/FAST................................................   720
Northern Border..................................................   669
Office of Field Operations.....................................673, 676
On-Dock Rail.....................................................   739
Other Security Requirements......................................   685
Overseas Cargo Scanning Pilots...................................   634
Overseas Cargo Scanning..........................................   632
Overseas Container Inspection Operations.........................   654
Overseas Container Inspections...................................   658
Overt Projects.................................................753, 754
Personnel........................................................   726
Plan for Southbound Inspections on SW Border.....................   660
Port of Dubai Technology.........................................   656
Presidio Hours of Service........................................   648
Private Aircraft.................................................   683
Questions for the Record Submitted by Chairman David Price.....673, 729
Questions for the Record Submitted by Ranking Member Harold 
  Rogers.........................................................   762
Questions for the Record Submitted by the Honorable Ciro 
  Rodriguez......................................................   764
Questions for the Record Submitted by the Honorable Ken Calvert..   765
Rail Cargo.......................................................   694
Rail Containers..................................................   762
Recovery.........................................................   693
Red Team Into Border Detection Equipment.........................   650
Risk Based Resource Allocation...................................   657
Secure Freight Initiative........................................   690
Securing the Cities..............................................   759
Security Gaps....................................................   682
Small Boats......................................................   683
Southbound Checking of Cargo and Vehicles........................   668
Statistics and Data..............................................   673
Steel Tariff Enforcement.........................................   728
Tamper Proof Containers..........................................   666
Technology Issues................................................   655
Textile Transshipment Program....................................   721
Tracking and Securing In-Bond Shipments..........................   712
Vacancies........................................................   729
Vehicle and Truck Passenger and Driver Clearance at Land Ports of 
  Entry..........................................................   712
Vehicles Going Into Mexico.......................................   641
Weapons Crossing Into Mexico.....................................   645
Weapons of Mass Effect Delivery Logistics........................   643

               U.S. COAST GUARD: MEASURING MISSION NEEDS

Opening Statement of Chairman David Price........................   769
Opening Statement of Ranking Member Harold Rogers................   773
Statement of Admiral Thad W. Allen, Commandant, U.S. Coast Guar774, 779
Statement of John P. Hutton, Director, Acquisition and Sourcing 
  Management, U.S. Government Accountability Office (GAO)........   803
Acquisition Workforce............................................   839
Aids to Navigation...............................................   896
Airborne Assets and Counter-Drug Mission.........................   922
Aircraft Maintenance Backlog.....................................   896
Aircraft.........................................................   847
Alien Migration and Interdiction Operations......................   922
Alteration of Bridges............................................   912
Aquatic Invasive Species.........................................   883
Automatic Identification System..................................   897
Ballast Water Regulations........................................   833
C4ISR............................................................   884
Chicago Ship and Sanitary Canal..................................   834
Coast Guard Reserves.............................................   900
Coast Guard Sexual Assault Reporting.............................   880
Contracts........................................................   893
Cuban Immigrants.................................................   836
Deepwater and Beyond.............................................   864
Drug Interdiction................................................   846
Environmental Operations.........................................   882
Expansion of Piracy..............................................   837
Fast Response Cutter.............................................   918
Fleet Maintenance................................................   846
Forfeited Leave..................................................   918
FY2008 DHS Financial Statement Audit.............................   870
GAO Identified Management Deficiencies...........................   848
Hull Condition of Existing CG Fleet..............................   874
Human Smuggling Prosecution......................................   847
Ice Breakers.....................................................   842
Intelligence Operations..........................................   884
Iraq Operations..................................................   870
Iraq Supplemental................................................   858
Law of the Sea Convention........................................   872
Life Jacket Standards and Regulations............................   916
LNG..............................................................   917
Management.......................................................   885
Military/Civilian Mix............................................   899
National Capital Region Airspace Security........................   898
National Security Cutter(s)...............................828, 858, 879
Northern Border Priorities.......................................   836
Offshore Patrol Cutter (OPC).....................................   867
Other............................................................   912
Performance Objectives and Gaps..................................   826
Plan for Coast Guard Vessels Support to Iraq.....................   860
Polar Cap Mission and Requirements...............................   921
Polar Operations...............................................841, 871
Progress on Reforms..............................................   875
Proposed Termination of LORAN-C..................................   872
Questions for the Record Submitted by Chairman David Price.......   864
Questions for the Record Submitted by the Honorable Ciro 
  Rodriguez......................................................   916
Questions for the Record Submitted by the Honorable Ken Calvert..   921
Questions for the Record Submitted by the Honorable Lucille 
  Roybal-Allard..................................................   919
Questions for the Record Submitted by the Honorable Nita Lowey...   917
Questions for the Record Submitted by Ranking Member Harold 
  Rogers.........................................................   914
Reliance on Contractors..........................................   864
Rescue 21 in the Great Lakes.....................................   835
Rescue 21........................................................   876
Research, Development, Testing and Evaluation....................   898
Semi/Fully-Submerged Vessels.....................................   915
Semi-Submersibles................................................   852
Shore Maintenance Backlog........................................   894
Small Boat Security..............................................   832
Small Boat Threats...............................................   831
Small Boats......................................................   882
Small Vessel Threat..............................................   838
Sonar in Vessels.................................................   857
Southwest Border Drug Control Efforts............................   829
Stalled Programs.................................................   866
The Deteriorating Condition of the Coast Guard's High Endurance 
  Cutters........................................................   919
The UN Convention on the Law of the Sea..........................   919
Unmanned Aerial Systems..........................................   914
Unmanned Aerial Vehicle (UAV)....................................   867
Unobligated Balances.............................................   901
Use of Contractors...............................................   854
Vessel Maintenance Backlog.......................................   895
Winter Olympic Games.............................................   837

                                  <all>

</pre></body></html>
